<html>
<title> - MISCELLANEOUS LANDS BILLS</title>
<body><pre>[Senate Hearing 111-285]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-285
 
                       MISCELLANEOUS LANDS BILLS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON
                                     

                           S. 522                                S. 865
 
                           S. 881                                S. 940
 
                           S. 1272                               S. 1689
 
                           H.R. 1442
 
 

                                     

                            OCTOBER 8, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
55-084                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman

TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          JAMES E. RISCH, Idaho
MARIA CANTWELL, Washington           JOHN McCAIN, Arizona
ROBERT MENENDEZ, New Jersey          ROBERT F. BENNETT, Utah
BLANCHE L. LINCOLN, Arkansas         JEFF SESSIONS, Alabama
MARK UDALL, Colorado                 BOB CORKER, Tennessee
JEANNE SHAHEEN, New Hampshire

    Jeff Bingaman and Lisa Murkowski are Ex Officio Members of the 
                              Subcommittee


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Barrasso, Hon. John, U.S. Senator From Wyoming...................     3
Begich, Hon. Mark, U.S. Senator From Alaska......................     6
Bennett, Hon. Robert F., U.S. Senator From Utah..................     5
Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     2
Burke, Marcilynn A., Deputy Director, Bureau of Land Management, 
  Department of the Interior.....................................     9
Butler, Oscar Vasquez, Vice-Chair, Dona Ana County Board of 
  Commissioners, Las Cruces, NM..................................    32
Claus, Bob, Community Organizer, Southeast Alaska Conservation 
  Council, Accompanied by Buck Lindekugel, Conservation Director, 
  Southeast Alaska Conservation Council, Juneau, AK..............    57
Jensen, Jay, Deputy Under Secretary For Forestry, Natural 
  Resources and Environment, Department of Agriculture...........    19
Mallott, Byron, Sealaska Corporation, Juneau, AK.................    50
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     3
Schickedanz, Jerry G., Ph.D., Chairman, People for Preserving our 
  Western Heritage, Las Cruces, NM...............................    36
Udall, Hon. Tom, U.S. Senator From New Mexico....................     7
Wyden, Hon. Ron, U.S. Senator From Oregon........................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    73

                              Appendix II

Additional material submitted for the record.....................    91


                       MISCELLANEOUS LANDS BILLS

                              ----------                              


                       WEDNESDAY, OCTOBER 8, 2009

                                       U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:38 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

 OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM OREGON

    Senator Wyden. The subcommittee will come to order. The 
purpose of today's hearing is to receive testimony on several 
bills pending before the committee. These include:
    S. 522, to resolve the claims of the Bering Straits Native 
Corporation and the State of Alaska to land adjacent to the 
Salmon Lake in the State of Alaska and to provide for the 
conveyance to the Bering Straits Native Corporation of certain 
other public land in partial satisfaction of the land 
entitlement of the corporation under the Alaska Native Claims 
Settlement Act;
    S. 865 and H.R. 1442, to provide for the sale of the 
Federal Government's reversionary interest in approximately 60 
acres of land in Salt Lake City, Utah, originally conveyed to 
the Mount Olivet Cemetery Association under the Act of January 
23, 2000--January 23, 1909;
    S. 881, to provide for the settlement of certain claims 
under the Alaska Native Claims Settlement Act, and for other 
purposes;
    S. 940, to direct the Secretary of the Interior to convey 
to the Nevada System of Higher Education certain Federal land 
located in Clark and Nye Counties, Nevada, and for other 
purposes;
    S. 1272, a piece of legislation I introduced, to provide 
for the designation of the Devil's Staircase Wilderness Area in 
my home State, and to designate segments of the Wasson and 
Franklin Creeks in the State of Oregon as wild or recreation 
rivers, and for other purposes; amd
    S. 1689, to desingnate certain land as components of the 
National Wilderness Preservation System and the National 
Landscape Conservation System in the State of New Mexico, and 
for other purposes.
    Before we begin, just a few words about the legislation 
that I introduced. I am especially pleased that we're having 
the hearing on the legislation to designate approximately 
29,650 acres surrounding the Devil's Staircase Waterfall in 
Wasson Creek as wilderness. This area personifies what my home 
State is all about--rugged, wild, pristine, and remote.
    The proposed Devil's Staircase Wilderness Area contains 
some of the finest old growth forests that remain in Oregon's 
Coast Range and a wealth of threatened and endangered wildlife. 
Today the Devil's Staircase Waterfall in Wasson Creek is a 
place that hikers are fortunate to find and that has been 
protected until now by its remoteness. The legislation would 
not only protect this hidden gem, but also the forest 
surrounding it.
    The legislation would also designate approximately 10.1 
miles of Wasson Creek and 4.5 miles of Franklin Creek and 
related areas as wild and scenic rivers. Preserving these 
majestic forests as wilderness is consistent with the goals of 
the existing land management plan and will ensure permanent 
protection.
    So I want to thank all of the Oregon community leaders who 
have come together to pursue protection for this extraordinary 
area, and I look forward to working with them to ensure that 
this treasure is protected for future generations.
    Senator Bingaman, any opening statement at this time?

 STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW MEXICO

    The Chairman. Thank you very much, Mr. Chairman, for having 
the hearing. I'm mainly here to support the legislation that 
Senator Udall and I have introduced, which is S. 1689, the 
Organ Mountains-Desert Peaks bill, in southern New Mexico. 
Obviously, we have two witnesses on your hearing list today 
from New Mexico to talk about this: Oscar Butler, who's Vice 
Chairman of the Dona Ana Board of Commissioners. Jerry 
Schickedanz is the Chair of the People for Preserving Our 
Western Heritage. I welcome both of them to Washington and to 
this hearing.
    This is an important piece of legislation for us in 
southern New Mexico and for Dona Ana County in particular. 
We've tried very hard in this legislation to develop a proposal 
that strikes the right balance between development 
opportunities and protection of the environment. While the 
wilderness proposal will have, any wilderness proposal, will 
have both supporters and opponents, this one generally has 
broad local support, including: the Dona Ana County Board of 
Commissioners, that Oscar Butler's going to speak about today, 
which unanimously endorsed the proposal; the city of Las 
Cruces; and the Town of La Messilla.
    In addition, the Governor of New Mexico has written in 
support of the bill. Many other organizations, including 
sportsmen's groups and the Hispano Chamber of Commerce, have as 
well. I would ask your consent to include letters and 
resolutions evidencing this support in the record today.
    Senator Wyden. Without objection, that will be ordered.
    The Chairman. The bill includes protection for the Organ 
Mountains, which are the majestic backdrop for the city of Las 
Cruces, rise to elevation of 9,000 feet. In addition to their 
scenic qualities, the Organ Mountains provide important 
wildlife habitat and recreational opportunities. Across the Rio 
Grande to the west of Las Cruces, the bill would establish the 
Desert Peaks National Conservation Area to protect the winding 
canyons of the Robledos and the Lewis Mountains and the broad 
canyon watershed that lies in between.
    Finally, the bill would protect the Chihuahua Desert 
grasslands and the volcanic cinder cones in the Potrillo 
Mountains that are located in the southwestern portion of the 
county.
    So, again thank you very much for including this bill on 
the list of items being considered today, and I look forward to 
the testimony.
    Senator Wyden. Thank you, Chairman Bingaman.
    Let's go to Senator Barrasso.

         STATEMENT OF HON. JOHN BARRASSO, U.S. SENATOR 
                          FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman, for 
scheduling this hearing. I know that Ranking Member Murkowski 
and Chairman Bingaman, as well as you, Mr. Chairman, have bills 
in today's hearing that are both significant as well as of 
personal importance. As we consider all the land legislation, 
we must balance the many needs placed on our lands. Public 
access and multiple use are critical to achieving that balance.
    Local communities and small businesses all across the West 
depend on access to and the use of our Federal lands. Jobs and 
quality of life in these communities are directly affected by 
actions that we take in Congress and the decisions made by 
managers on the ground. It's important to make the right 
decisions from the start.
    So I'd like to add my welcome to all my witnesses, to our 2 
Senators, and to the others who are here, and thank you, Mr. 
Chairman.
    Senator Wyden. Thank you, Senator Barrasso.
    Let me just say, you've been a pleasure to work with. I 
know we're going to continue the bipartisan tradition of the 
subcommittee.
    Senator Murkowski.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I truly 
appreciate the opportunity to have before the subcommittee 
today two bills that I have introduced: the Salmon Lake land 
conveyance exchange for the Bering Straits Regional 
Corporation; and then the Sealaska land conveyance bill, which 
involves lands in southeast Alaska.
    What these bills at their heart attempt to resolve is 
issues with the Alaska Native Claims Settlement Act that this 
Congress passed some 38 years ago. That law intended to 
promptly settle Native land claims in Alaska by setting up 
corporations to receive Federal land, and the goal was to 
simply let the corporations make money off the land to benefit 
their Native shareholders.
    But in these two cases, both Bering Straits and Sealaska 
have been prevented for almost 4 decades now from taking title 
to Federal lands that were promised to them back in 1971. To my 
knowledge, there's no opposition to the Bering Straits land 
conveyance bill. This resolves to everyone's apparent 
satisfaction the land ownership patterns near Salmon Lake, 
which is outside of Nome.
    So I'd like to focus a couple minutes this afternoon on the 
Southeast Alaska Land Conveyance Finalization Act, given that 
the lands at stake are in the Nation's largest forest, the 
Tongass, which is always an area which generates its own level 
of public interest. But almost everyone agrees that Sealaska 
should be able to gain the last 65,000 to 85,000 acres promised 
the corporation by ANCSA's terms.
    But in 1971 Sealaska was forced to make its land selections 
from a 327,000-acre selection pool because of the then long-
term timber sale contracts in the region. The problem with that 
was that about 40 percent of this land is areas that were under 
water. A lot of the rest of them were in watershed areas that 
are vital for local village water supplies. So there were some 
very sound environmental reasons, besides economic ones, why 
timber development or other economic development should not 
necessarily take place there.
    So this legislation that we have before us today allows 
Sealaska to pick from additional lands, most all of which are 
scheduled for timber harvest under the existing Federal Tongass 
forest plan and the majority of which have already been logged 
in the past. The plan focuses on allowing selections of second 
growth timber tracts and that will result in far less entry 
into roadless old growth timber areas, and that's a policy that 
I think most environmental groups have traditionally favored, 
and this is a policy that the rest of the Alaska timber 
industry is supporting.
    The bill involves Sealaska giving up the right to harvest 
timber from about 8500 acres of selections, instead proposing 
to select lands for ecotourism or to protect sacred sites, and 
all those lands will have prohibitions against logging. Many 
will have prohibitions against mineral entry.
    As we will likely hear, the question is always about, at 
least within the Tongass, over exactly which tracts will be 
permitted for logging and where they will be located. There's 
always going to be concern from residents that are closest to 
potential timber tracts about the effects of timber development 
on hunting and on the karst and the cave formations that are 
under the surface.
    But I'm already supportive of making a change in the bill 
that would remove any provisions that would affect management 
in Glacier Bay National Park, and I stand ready to support 
additional modifications based on the public comments that we 
have heard. But I do believe that we can negotiate out a 
settlement after gaining more public input as a result of this 
hearing and work out a collection of lands that Sealaska will 
be able to select that will satisfy most reasonable local 
concerns.
    I do hope that we can move ahead quickly with this bill, 
regardless of what else may be proposed concerning land use 
allocations in the Tongass, because I do believe that it is 
only just that Sealaska and its Native shareholders finally get 
their lands without having to wait additional years for the 
conveyances to be finished.
    I do appreciate again the opportunity to address this today 
through this legislation. I have been asked to submit testimony 
for the record and would ask that a letter from the Alaska 
Department of Natural Resources on behalf of Governor Parnell, 
a statement on behalf of the Alaska Professional Hunters 
Association, a statement* on behalf of Jeff Sbonek of Core 
Protection, including a petition signed by Core Protection 
Point Baker residents, on S. 881, as well as a statement on 
behalf of the Bering Straits Native Corporation on S. 522, for 
the hearing record.
---------------------------------------------------------------------------
    * Document and petition have been retained in subcommittee files.
---------------------------------------------------------------------------
    Senator Wyden. Without objection, those materials will be 
added to the record at this point.
    Senator Murkowski. Thank you, Mr. Chairman.
    Senator Wyden. I thank my colleague.
    Senator Bennett has a great interest in these matters. 
Senator, welcome and please proceed.

  STATEMENT OF HON. ROBERT F. BENNETT, U.S. SENATOR FROM UTAH

    Senator Bennett. Thank you very much, Mr. Chairman.
    This is a very simple matter. To give you a quick history, 
the Mount Olivet Cemetery was established by an Act of Congress 
in 1874 when the Federal Government set aside 20 acres that 
were managed by the Secretary of War for the cemetery. It's 
right next to what was then Fort Douglas and therefore the 
Secretary of War was involved.
    In 1909, just 100 years ago, Congress expanded the cemetery 
through a land exchange and the cemetery association traded 
land that it owned adjacent to the Fort Douglas firing range 
for military land adjacent to the original 20 acres. The only 
problem with that is that the land swap was not of equal value. 
The cemetery folks got more money than the taxpayers did or 
more value, more land, than the taxpayers did. A letter from 
the Secretary of War to the Congress included in the 1909 
committee report confirms this.
    So the Congress decided in its wisdom, in order to prevent 
the Mount Olivet Cemetery people from receiving a windfall if 
they ever chose to sell this land, they put in a reversionary 
clause that would take effect if the land ever ceased to be 
used for cemetery purposes; it would revert to the Federal 
Government, and BLM now owns the reversionary clause.
    OK. One hundred years later, life has changed dramatically. 
Fort Douglas has disappeared. There are a variety of more 
intelligent uses for this land and the Mount Olivet Cemetery 
people want to sell it for those purposes. But they can't 
because under the law it reverts to the Federal Government if 
they ever decide they're no longer going to bury people there.
    So the purpose of the bill is simply to allow Mount Olivet 
Cemetery people to buy the reversionary clause from the Federal 
Government. This is one of the easiest ones we have to deal 
with in this world of trillions. The taxpayers will be made 
whole after 100 years of waiting. The cemetery will be able to 
continue in its normal fashion and the BLM will be relieved of 
the risk of nominating this little tiny inholding right smack 
in the middle of metropolitan Salt Lake City.
    I am delighted by the statement of Marcilynn Burke, the 
Deputy Director of the BLM, whose testimony is before the 
committee. Bottom line, she says: This bill has passed the 
House of Representatives 442 to nothing--that can't be right. 
There are only 435, so I guess it passed 422 to nothing. She 
says: A number of amendments were made to the House bill to 
address concerns raised by the Department in testimony before 
the House committee. She says: We support the House legislation 
as amended and encourage the committee to amend the S. 
accordingly.
    Senator Wyden. Senator Bennett, you've done good work as 
usual. Getting more than 400 votes in the House is not 
something that happens every day. So we thank you and look 
forward to working with you. You have secured the BLM's 
support. It's particularly helpful. Thank you.
    Senator Risch, our Northwest neighbor.
    Senator Risch. Thank you. I'll pass.
    Senator Wyden. OK. Let's go then to our colleagues who are 
here to testify. We have Senator Udall and Senator Begich who 
are going to offer some remarks. My understanding is that you 
would like to sit with the subcommittee afterwards and you're 
welcome right after your remarks to come on up and join us this 
afternoon.
    Why don't we start with you, Senator Begich. We'll go just 
alphabetical. Senator Udall knows what it's like to be a ``U'' 
or a ``W.'' Senator Begich, go ahead.

          STATEMENT OF HON. MARK BEGICH, U.S. SENATOR 
                          FROM ALASKA

    Senator Begich. Thank you very much, Chairman Wyden and 
Ranking Member Murkowski. I appreciate the opportunity to 
address the committee today on two important bills to Alaska. 
It's no coincidence that both bills, S. 522, the Salmon Lake 
Land Exchange, and S. 881, the Sealaska Lands bill, deal with 
Alaska's relationship to the land. We believe that Alaskans' 
daily connection to our lands is more intense than most of 
America.
    ANCSA, the Alaska Native Claims Settlement Act of 1971, was 
a sweeping act that returned 44 million acres out of 360 
million acres total of Alaska to indigenous peoples of the 
State, in exchange for surrendering fee simple title. ANCSA may 
be history for many in Congress, but the Act continues to 
define daily life in my State 40 years after its passage.
    I'm a co-sponsor of both of these measures and support your 
speedy passage of both. I realize the path is much more 
straightforward on one than the other. S. 522, I'm aware of no 
opposition to this three-way land exchange that resolves 
competing State and Native claims for pieces of Federal land. 
My office has received not one single communication opposition 
this legislation. In conversation between two Alaskans you're 
likely to get three more opinions on the same subject, so when 
we see a consensus the deal is obviously a good one.
    Turning to S. 881, the Sealaska Lands bill, again I'm proud 
to be a co-sponsor and hope you will give it your fullest 
attention, but here the landscape is more complex. Sealaska 
Corporation, the ANCSA regional corporation for the Native 
people of Southeast Alaska, has not completed its land claims. 
In addition to returning some land to the Native people of 
Alaska, ANCSA set up Native-owned for-profit corporations to 
hold this land and look after the economic wellbeing of their 
shareholders. This system is the right one for our State, but 
we have to recognize the new construct Congress created instead 
of a reservation system invites a natural tension.
    In order to do the morally right thing and the thing that 
Congress charged them to do, look after their people, 
corporations have to engage in commerce with the resources they 
were given. This is primarily the lands that their ancestors 
relied on for generations. With 40 years of hindsight, we can 
see that a number of restrictions placed on Sealaska's ability 
to select lands both increased likelihood of community conflict 
and restrict their ability to engage in more sustainable 
economic development for the region.
    The bill before you is an attempt by Sealaska Corporation 
to achieve a balance in the remaining land selections. It is an 
attempt to better balance their responsibilities as stewards of 
their lands and their economic responsibility to shareholders 
and the communities of Southeast Alaska where their 
shareholders live.
    I hope today that you will hear testimony that explains 
this in great detail today and later in less formal briefings. 
I appreciate your patience and your help as we move Alaskans 
closer together in solving this issue.
    As an aside, I know that you'll hear from a father of one 
of my interns today with some concerns on this bill, Bob Claus, 
a retired State trooper who will speak on behalf of SEACC, 
Southeast Alaska Conservation Council. That demonstrates pretty 
well the level of community discussion and interest in this 
legislation.
    For Alaskans, it's critical that we come to agreement on 
this issue of the Sealaska lands bill so we can move forward on 
the larger issues of the future of Tongass. If we don't they 
will be dictated to us and likely in unpredictable outcomes of 
the court system.
    I want to thank you for the interest in this legislation 
and I hope that you will have a positive consideration and 
conclusion to moving these bills forward. Thank you very much, 
Mr. Chairman.
    Senator Wyden. Thank you, Senator Begich. I know you feel 
very strongly about this. You've talked with me about it on the 
floor shortly after you came to the Senate. We'll work very 
closely with you on it. I know it's important to your region 
and to you, and we will follow up with you promptly.
    Senator Udall.

           STATEMENT OF HON. TOM UDALL, U.S. SENATOR 
                        FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Wyden, and thank you, 
Ranking Member Senator Murkowski and other members of the 
subcommittee, for allowing me to speak today about S. 6989, the 
Organ Mountains-Desert Peaks Wilderness Act, and to participate 
in this important hearing. I'd also like to thank Chairman 
Bingaman for the extensive work he and his staff have done over 
the past several years to prepare this bill for introduction. I 
think they have been painstaking in terms of trying to bring 
people together and find common ground.
    This is a very important bill for New Mexico. The Organ 
Mountains-Desert Peaks Wilderness Act celebrates and preserves 
a portion of the unique and delicate landscape of southern New 
Mexico. Wilderness and conservation areas in Dona Ana and Luna 
Counties will protect a vast number of archaeological sites and 
riparian areas. These protected areas will act to maintain 
habitat and migration corridors for wildlife and preserve some 
of the only chihuahuan desert in the United States.
    The wilderness and national conservation areas proposed in 
S. 1689 surround the growing city of Las Cruces, New Mexico's 
second largest city. The citizens of Las Cruces and the 
surrounding communities want to ensure that the area will 
continue to develop in a way that preserves the surrounding 
pristine landscapes, including the iconic Organ Mountains.
    The Organ Mountains-Desert Peaks Wilderness Act is 
consistent with the city and county's long-term growth plan and 
will act to maintain growth patterns in a way that will allow 
all citizens to enjoy the impressive views and landscapes 
surrounding Las Cruces. Years of negotiation and cooperation 
have resulted in the legislation being introduced today. Nearby 
military facilities worked with the Bureau of Land Management 
on land exchanges that are reflected in the bill and will 
benefit the public and military entities. Recommendations from 
the Border Patrol on how to ensure that the new wilderness fits 
into homeland security efforts were incorporated into the bill. 
Conservation groups worked with hunting and outdoor recreation 
organizations to find common ground.
    As a result, this bill enjoys the support of numerous local 
associations and governing bodies. In the past few weeks 
resolutions supporting the bill were passed unanimously by the 
Dona Ana County, the Town of Messilla, the city of Las Cruces, 
and, as Senator Bingaman mentioned, Governor Richardson has 
come out very recently in full support of the bill. Several 
local news agencies have published editorial endorsements of 
the Organ Mountains- Desert Peaks Wilderness Act and numerous 
organizations have shown support, including the Hispano Chamber 
of Commerce de Las Cruces, the High Tech Consortium of Southern 
New Mexico, the Dona Ana County Associated Sportsmen, and the 
New Mexico Wildlife Federation, among others.
    The Organ Mountains-Desert Peaks Wilderness Act will 
protect thousands of acres of desert, riparian, and rugged 
mountainous lands. This area of rare and beautiful landscapes 
will be valued for generations. From the jagged basalt lava 
flows of the cinder cone wilderness to the roaming hawks and 
scrambling havalinas of the Robledo Mountains, this unique 
piece of southern New Mexico has abundant natural value and 
deserves protection.
    With this legislation we build upon the work of 
conservation greats like Aldo Leopold, a man who saw the beauty 
of New Mexico's untamed wilderness lands and sought to preserve 
them for future generations. It was Mr. Leopold who said: 
``Conservation is a state of harmony between man and land.'' 
With the Organ Mountains-Desert Peaks Wilderness Act, we will 
move a step closer to achieving that state of harmony.
    I thank the subcommittee for taking the time to consider 
this bill and I look forward to hearing from the next two 
panels of witnesses and, Chairman Wyden, joining you and the 
other committee members up there.
    Senator Wyden. Senator Udall, thank you for your statement 
and for your good work. I want to know what a havalina is?
    Senator Udall. A havalina is a wild pig. They're pretty 
fierce and they have tusks on them right out in front, and you 
don't want to run into a wild havalina----
    Senator Wyden. I'd rather not.
    Senator Udall [continuing]. Coming after you or charging 
you.
    Senator Wyden. I got the drift.
    Senator Udall. It's a wonderful little critter, though. If 
you'll come to New Mexico, Senator Bingaman and I will take you 
out and introduce you to a havalina.
    The Chairman. We'll give you some barbecued havalina; how's 
that?
    Senator Wyden. I've gotten havalina 101.
    Come on up and join us, colleagues, and thank you for your 
fine statements.
    At this point we have a number of other materials that need 
to be made part of the record: from the Coalition of National 
Park Service Retirees on S. 881--that's the matter the Alaskans 
are interested in--and Senator Reid and Senator Ensign's 
statements in support of S. 940, the Southern Nevada Higher 
Education Land Act. Without objection, these statements will be 
included in the record as well.
    Senator Wyden. Let's now move to our Administration 
witnesses. Ms. Burke is here on behalf of the Bureau of Land 
Management and Jay Jensen is here on behalf of the Department 
of Agriculture. We appreciate both of you coming. Ms. Burke, I 
know this is a fairly new role for you, so welcome to the 
subcommittee, Mr. Jensen as well. We'll make your prepared 
statements part of the record in their entirety and if you 
could just summarize your views we can speed things along.
    We'll start with you, Ms. Burke.

  STATEMENT OF MARCILYNN A. BURKE, DEPUTY DIRECTOR, BUREAU OF 
          LAND MANAGEMENT, DEPARTMENT OF THE INTERIOR

    Ms. Burke. Thank you, Mr. Chairman and the committee, for 
inviting me and the Department of the Interior to testify on 
six bills of interest to the Department. As requested, I will 
briefly summarize my prepared testimony this afternoon.
    The BLM is responsible for conveying Federal lands to 
Native corporations under the Alaska Native Claims Settlement 
Act and to the State of Alaska under the Alaska Statehood Act 
of 1958. The Bering Straits Native Corporation and the State of 
Alaska filed overlapping claims to lands in the Salmon Lake 
area. The Native corporation and the State negotiated a 
resolution of these overlapping claims and brought that 
tentative resolution to the BLM. All three parties signed the 
Salmon Lake Area Land Ownership Consolidation Agreement on July 
18, 2007.
    The BLM supports S. 522 because it would ratify that 
agreement among three parties and allow for a reasonable and 
practicable conveyance of the lands in the Salmon Lake area.
    S. 865 and H.R. 1442 provide for the sale of the Federal 
Government's reversionary interest in approximately 60 acres of 
the Mount Olivet Cemetery in Salt Lake City, Utah. We support 
H.R. 1442 as passed by the House of Representatives on July 16 
of this year, which addressed concerns that the BLM raised in 
earlier testimony.
    The 1971 Alaska Native Claims Settlement Act established a 
framework under which Alaska Natives formed private 
corporations to settle their aboriginal claims to lands in 
Alaska. Sealaska is one of those 12 regional corporations 
formed in ANCSA. S. 881 would amend the act to allow Native 
corporations to receive conveyance of lands outside their 
original withdrawal areas established by the Act. The bill 
would also create new and unique categories of selections not 
available to any other regional corporation. It would impose 
time lines for the Secretary of Interior to complete the 
conveyance of lands and remove restrictive covenants on 
historic and cemetery sites.
    Finally, the bill would require the National Park Service 
to enter into a cooperative management agreement with Sealaska 
and others with cultural and historical ties to the Glacier Bay 
National Park.
    While the Department appreciates that time has brought the 
desire for amendments to the original ANCSA settlement, we have 
a number of concerns. We are concerned, for example, that the 
bill would lead other regional corporations to attempt to 
reopen their land claims at this very late stage in the land 
transfer program. If this occurs, it would prolong the process 
of completing ANCSA entitlements rather than accelerate them, 
as previously directed by Congress.
    The Department supports the goal of completing the ANCSA 
entitlements as soon as possible and is working diligently to 
maintain the accelerated pace of the land transfer programs. We 
look forward to working with Sealaska, Congress, community 
partners, this committee, and others to find a solution that 
works.
    S. 940 would convey without consideration three parcels 
totaling approximately 2400 acres to the Nevada System of 
Higher Education to meet the needs of southern Nevada's rapidly 
growing college and university system. As a matter of policy 
BLM supports working with State and local governments to 
resolve land tenure adjustments that advance worthwhile public 
policy objectives. BLM supports S. 940, but would like to work 
with the sponsors on amendments to ensure that the conveyances 
are consistent with the Recreation and Public Purposes Act and 
also to address the management needs associated with conveyance 
of the parcel located in Nye County, Nevada.
    S. 1272 proposes to designate almost 30,000 acres of 
Federal land near the coast in southwestern Oregon as 
wilderness, as well as portions of both Franklin Creek and 
Wasson Creek as parts of the wild and scenic rivers system. We 
support these designations of BLM lands and recommend minor 
modifications.
    Finally, the Administration supports S. 1689, which 
designates two new national conservation areas and eight new 
wilderness areas in Dona Ana County, New Mexico. The 
legislation also expands the Prehistoric Trackways National 
Monument, releases over 16,000 acres from wilderness study area 
status, and transfers 2,000 acres of high-resource value lands 
from the Army to BLM for inclusion in the Organ Mountains 
National Conservation Area.
    Chairman Bingaman has worked for years with user groups, 
local governments, and conservationists to craft this 
legislation that will ensure that generations of New Mexicans 
and indeed all Americans will be able to witness the golden 
eagle soar over the Sierra de las Uvas Mountains, hike the 
landmark Organ Mountains, or hunt in the volcanic outcroppings 
of the Potrillo Mountains.
    With that, I would like to conclude and thank you for 
allowing me to testify, and I'd be happy to answer any 
questions.
    [The prepared statement of Ms. Burke follows:]

 Prepared Statement of Marcilynn A. Burke, Deputy Director, Bureau of 
              Land Management, Department of the Interior

                                 S. 522

    Thank you for the opportunity to testify on S. 522, the Salmon Lake 
Land Selection Resolution Act. As a party to the Salmon Lake Area Land 
Ownership Consolidation Agreement, the Bureau of Land Management (BLM) 
has supported efforts between the State of Alaska and the Bering 
Straits Native Corporation (BSNC) to resolve overlapping land 
selections at Salmon Lake. As such, the BLM supports S. 522 because it 
will ratify the agreement between the BLM, BSNC, and the State of 
Alaska, and allow for a reasonable and practicable conveyance of lands 
in the Salmon Lake area.

                               BACKGROUND

    Salmon Lake is located on the Seward Peninsula, approximately 40 
miles northeast of Nome. The lake is one of the largest bodies of fresh 
water on the peninsula, and has long been an important source of food 
and resources for the Native people. Because the area contains 
significant fisheries and other subsistence resources, it remains a 
popular resource and destination for local communities.
    The BLM is responsible for expediting the conveyance of Federal 
lands to Native corporations, including the BSNC, under the Alaska 
Native Claims Settlement Act (ANCSA), and to the State of Alaska under 
the Alaska Statehood Act of 1958.
    The BSNC, the Native regional corporation for the Bering Straits 
area, and the State of Alaska each sought to gain title to the Salmon 
Lake area through selection applications filed under respective 
provisions of ANCSA and the Alaska Statehood Act. However, the land 
addressed by the two applications overlapped. The BSNC and the State 
negotiated a resolution to this issue whereby each entity would receive 
title to distinct lands. The BLM supported this resolution, and the 
three parties signed the Salmon Lake Area Land Ownership Consolidation 
Agreement on July 18, 2007. Legislation is now required to ratify the 
Agreement between the United States (acting through the Department of 
Interior, BLM), the BSNC, and the State of Alaska. The Agreement would 
have expired on January 1, 2009, but its term was extended to January 
1, 2011 in anticipation of ratifying legislation.

                                 S. 522

    S. 522 represents an opportunity to resolve the overlapping land 
selections between the BSNC and the State. The bill would ratify the 
Agreement between the BLM, the BSNC, and the State, and allow for 
finalization of land conveyances in the Salmon Lake area. The lands 
would be transferred in accordance with the terms of the signed 
Agreement.
    As noted, the BLM supported the efforts between the BSNC and State, 
and signed the Agreement to recognize the desires of the entities. The 
bill would also further the intent of the Alaska Land Transfer 
Acceleration Act of 2004 (PL 108-452), expediting the transfer of title 
to federal lands to Native corporations and the State of Alaska.

                               CONCLUSION

    Thank you for the opportunity to testify in support of S. 522. I am 
happy to answer any questions.

                          H.R. 1442 AND S. 865

    Thank you for inviting the Department of the Interior to testify on 
S. 865 and H.R. 1442, which provide for the disposal of the Federal 
government's interest in certain acreage of the Mount Olivet Cemetery 
in Salt Lake City, Utah. The Bureau of Land Management (BLM) supports 
H.R. 1442 as passed by the House of Representatives.

                               BACKGROUND

    The Mount Olivet Cemetery, in Salt Lake City, Utah, is owned and 
managed by the Mount Olivet Cemetery Association (the Cemetery 
Association). Located on the east side of Salt Lake City, the cemetery 
consists of approximately 80 acres of land, 20 acres of which is 
currently used for burials.
    The Federal government, acting through the Secretary of War, first 
``set apart'' 20 acres of what was then a military reservation ``to be 
used as a public cemetery. which shall be forever devoted for the 
purpose of the burial of the dead'' (Act of May 16, 1874). 
Subsequently, in 1909, the Congress provided for the conveyance of an 
adjacent 50 acres to the Mount Olivet Cemetery Association (under the 
Act of January 23, 1909). The 1909 Act provided that conveyance was 
contingent upon the Association first conveying to the United States a 
specified parcel of land, of approximately 150 acres, outside of Salt 
Lake City. However, the legislation also included a reverter clause, 
requiring that the land conveyed under the 1909 act could be used only 
as a cemetery:

          Said land to be by the said Mount Olivet Cemetery Association 
        permanently used as a cemetery for the burial of the dead: 
        Provided, That when it shall cease to be used for such purpose 
        it shall revert to the United States.

    The purpose of this reversionary clause is not established in the 
legislation. Whether it was due to an unequal exchange of lands, or for 
some other reason, is not stated, nor has the BLM been able to make any 
determination through the review of historical records.
    In 1992, Congress took further action regarding Mount Olivet 
Cemetery with the enactment of legislation (Public Law 102-347), which 
allows the Cemetery Association to lease tracts of the lands conveyed 
in 1909 for up to 70 years, to the extent that such leases would not 
prevent future use as a cemetery. Public Law 102-347 speaks only to the 
possibility of 70-year leases, and the BLM has interpreted the 1909 
reverter clause still to be in effect. Therefore, upon application by 
the Cemetery Association, in December of 1993, the BLM issued a 
``Certificate of Approval'' for the lease of 15 acres to the adjacent 
East High School for a football field, and in January of 1996, an 
additional certificate was issued for the lease of lands for a nursing 
and retirement facility which was never built.
    In recent years, the Cemetery Association has sought to sell, 
rather than lease, some of the acres conveyed under the 1909 Act to 
Rowland Hall/St. Mark's School. Because the proposal is for a sale, 
rather than a lease of up to 70 years, the BLM does not have the 
authority to approve such a conveyance by the Cemetery Association. 
Specific authority for the BLM to dispose of the reversionary interest, 
established in 1909, to the Cemetery Association, as well any 
additional direction respecting valuation of this reversionary interest 
through appraisal, would facilitate resolution of this adjustment in 
land tenure.

                          S. 865 AND H.R. 1442

    The House of Representatives passed H.R. 1442 on July 16, 2009; our 
testimony addresses the House-passed bill.
    H.R. 1442 is a reasonable solution to the desire of the Mount 
Olivet Cemetery Association to be able not only to lease, but also to 
sell, the cemetery lands. Under H.R. 1442, the Secretary of the 
Interior (acting through the Department's Appraisal Service 
Directorate) will undertake an appraisal of the reverter clause 
attached to the 1909 lands. Upon receiving that appraisal, the Cemetery 
Association may purchase the reverter, thus owning all right, title, 
and interest in the land. All costs associated with this conveyance, 
including the appraisal, would be the responsibility of the 
Association.
    A number of amendments were made to H.R. 1442 to address concerns 
raised by the Department in testimony before the House Natural 
Resources Committee on May 14, 2009. We support the House legislation, 
as amended, and encourage the Committee to amend the S. accordingly.

                                 S. 881

    Thank you for the opportunity to testify and provide the Department 
of Interior's (Department's) views on S. 881, the Southeast Alaska Land 
Entitlement Finalization Act. The Department supports the goals of 
completing Alaska Native Claims Settlement Act (ANCSA) entitlements as 
soon as possible so that Alaska Native corporations, including Sealaska 
Corporation (Sealaska), may each receive the full economic benefit of 
land title. However, while the Department appreciates that time has 
brought a desire for amendments to the original ANCSA settlement to 
light, we have a number of concerns. We look forward to working with 
Sealaska, Congress, and other community partners and interests to find 
a solution that works. My testimony today will focus on outlining those 
concerns.

                               BACKGROUND

    The Bureau of Land Management (BLM), Alaska State Office, is 
responsible for expediting federal land conveyances to individual 
Alaska Natives, Native corporations, and the State of Alaska under four 
major statutes: the Alaska Native Allotment Act of 1906, the Alaska 
Statehood Act of 1958, the Alaska Native Veterans Allotment Act of 
1998, and ANCSA. When these land conveyances are ultimately completed, 
about 150 million acres, or approximately 42 percent of the land area 
of Alaska, will have been transferred from federal to State and private 
(Native) ownership.
    ANCSA established a framework under which Alaska Natives could form 
private corporations to select and receive title to 44 million acres of 
public land in Alaska and receive payment of $962.5 million in 
settlement of aboriginal claims to lands in the State. Sealaska is one 
of twelve regional corporations formed under ANCSA to receive land 
benefits.

                                 S. 881

    S. 881 would amend ANCSA to allow Sealaska to receive conveyance of 
lands outside of the original withdrawal areas established by the Act 
in 1971, and would create new and unique categories of selections not 
available to other regional corporations. Specifically, it would allow 
Sealaska to select and receive conveyance from Forest Service-
administered lands in the Tongass National Forest other than those that 
were originally available for selection. The Department defers to the 
Forest Service regarding the effects of the bill on Forest Service-
administered lands. However, the Department notes the undesirable 
precedent of substituting new lands for one of the corporations at this 
stage in the land transfer program. Doing so would in effect postpone 
deadlines and permit new selections. The bill would also impose 
timelines for the Secretary of the Interior to complete the conveyance 
of land, would remove restrictive covenants on historic and cemetery 
sites, and would require the National Park Service (NPS) to enter into 
a cooperative management agreement with Sealaska and others with 
cultural and historical ties to Glacier Bay National Park.
    As noted, the Department supports finalizing entitlements under 
ANCSA and the BLM is maintaining the accelerated pace of the program 
while ensuring that the intent of ANCSA is implemented. By the end of 
FY 09, BLM has surveyed and patented 58 percent of lands to the native 
Corporations, and has granted interim conveyance on an additional 34 
percent. The Department is concerned that S. 881 would provide an 
impetus for other regional corporations to attempt to reopen land 
claims at this critical final stage in the land transfer program. If 
this occurs, it would obstruct the progress of the program, and prolong 
the process of completing ANCSA entitlements. Provisions of S. 881, 
such as future selections, would also create uncertainty regarding the 
boundaries of federally-managed public lands in Alaska.
    In addition, the Department is very concerned with the deadlines 
for conveyance set in S. 881. These deadlines would put the completion 
of Sealaska conveyances ahead of all other regional corporations, 
individual Alaskan Natives, and the State. This ``front of the line'' 
approach would set a negative precedent of preferential treatment and 
interrupt progress on conveyances to other entities. The BLM has made 
significant progress since the enactment of the Alaska Land Transfer 
Acceleration Act of 2004, which gave the BLM the tools it needed to 
expedite these land transfers. An amendment such as S. 881, which would 
change fundamental provisions of this statute, would serve to reverse 
much of the progress we have made thus far.
    S. 881 would also remove existing covenants on historic and 
cemetery sites conveyed under ANCSA Section 14(h)(1), which restrict 
activity that is incompatible with these sites' cultural or historic 
values. The Department believes this would provide an opportunity for 
other regional corporations to request removal of similar restrictions 
from other Native corporation sites, further negatively impacting the 
land transfer program.
    The cooperative management agreement provisions in sections 3(a)(2) 
and 3(c)(2) of the legislation would require the National Park Service 
(NPS) to offer to enter into cooperative management agreements with 
Sealaska and other corporations for activities in Glacier Bay National 
Park. This could confuse the execution of existing memoranda of 
understanding and concession contracts which are currently working well 
in the park. The NPS maintains a Memorandum of Understanding with the 
Hoonah Indian Association, a federally recognized tribe, as well as a 
cooperative agreement with the non-profit Huna Heritage Foundation to 
provide cultural learning activities in the park. Both entities are 
also partners in monitoring the condition of Tlingit historic sites in 
the park.
    In addition, requiring cooperative management agreements for such 
activities such as guided tours and establishment of visitor sites with 
profit-making corporations would be inconsistent with the open, 
competitive process currently provided under concession management law 
and regulation. Existing practices are already resulting in engaging 
Native Alaskans in the visitor experience: a subsidiary of Huna Totem 
Corporation has the Glacier Bay lodge and tour contracts with Aramark 
Leisure Services through 2013, and Goldbelt Inc., a Juneau-based Native 
corporation, had the contracts between 1996 and 2004.
    The Department also has concerns about Section 5(e)(2), which would 
broaden the definition of tribal lands under the National Historic 
Preservation Act (NHPA) to include all ANCSA lands in Alaska 
(approximately 44 million acres). Although this provision addresses the 
definition of tribal lands only with respect to the NHPA, granting 
tribal status to lands owned by for-profit corporations for any purpose 
could have wider implications than what may be intended. The Department 
would like to have more time to assess this potential impact of this 
provision before the committee takes any action on it.

                               CONCLUSION

    As noted above, the Department supports the goal of completing 
ANCSA entitlements as soon as possible and is working diligently to 
maintain the accelerated pace of the land transfer program. The 
Department is committed to working with the parties to reach a 
solution. Thank you for the opportunity to testify on this matter. I 
will be glad to answer any questions.

                                 S. 940

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to testify on S. 940, the Southern Nevada Higher Education 
Lands Act of 2009. S. 940 would convey, without consideration, three 
parcels totaling 2,410 acres to the Nevada System of Higher Education 
(NSHE) to meet the needs of southern Nevada's rapidly growing college 
and university system. The BLM supports the goals of S. 940, but would 
like to work with Senator Reid, the bill's sponsor, on amendments to 
ensure the conveyances are consistent with the Recreation and Public 
Purposes Act (R&PP), and to address certain parcel-specific management 
needs associated with the conveyances.

                               BACKGROUND

    The Nevada System of Higher Education serves more than 71,000 
students in southern Nevada, and its enrollment is expected to grow by 
more than 20 percent over the next 10 years. Three institutions of 
higher education serve southern Nevada residents: the University of 
Nevada, Las Vegas; the College of Southern Nevada, located in Clark 
County; and Great Basin College, located in Pahrump in rural Nye 
County. All three of these institutions are operating near capacity. 
The NSHE is seeking to increase their capacities to provide for future 
growth and improve access to higher education opportunities in southern 
Nevada.
    The communities of Las Vegas and Pahrump are nearly surrounded by 
BLM-administered lands. Under the direction of the 1998 Southern Nevada 
Public Land Management Act (SNPLMA), as amended, and through the BLM's 
land use planning process, the BLM has identified public lands within 
and near these communities for potential disposal from public ownership 
to help meet urban growth needs. The three public land parcels proposed 
for conveyance by S. 940 have been identified for disposal through 
these processes.
    The R&PP Act authorizes the Secretary of the Interior to lease or 
convey public lands at nominal cost for recreational and public 
purposes, including educational facilities, municipal buildings, golf 
courses, campgrounds, and other facilities benefiting the public. 
Commercial uses may be allowable under the R&PP Act in limited 
circumstances, if revenues from concessions go toward site management 
and use.

                                 S. 940

    S. 940 proposes to convey to the NSHE, without consideration, all 
right, title, and interest of the United States to three parcels 
detailed on the maps prepared at the request of Senator Reid, dated 
July 11, 2008. The bill requires the NSHE to pay any administrative 
costs associated with the conveyances.
    The bill requires the conveyed lands to be used for educational and 
recreational purposes related to the NSHE, and it allows residential 
and commercial development that would generally be associated with an 
institution of higher education. The bill also contains a reversionary 
clause that provides for the land to revert to the United States, at 
the discretion of the Secretary, if it ceases to be used for the higher 
education system.
    As a matter of policy, the BLM supports working with State and 
local governments to resolve land tenure adjustments that advance 
worthwhile public policy objectives. In general, the BLM supports 
conveyances if the lands are to be used for purposes consistent with 
the R&PP Act and includes a reversionary clause to enforce that 
requirement. It is not clear, however, if the residential or commercial 
uses envisioned by the bill would be consistent with the R&PP Act. The 
BLM recommends that the legislation be clearly amended to ensure 
consistency with the R&PP Act.
    S. 940 would convey two parcels that are located in urban settings 
near Las Vegas in Clark County. One parcel contains approximately 40 
acres and would be utilized to meet the expansion needs of the College 
of Southern Nevada. This parcel is essentially a vacant, weedy field 
surrounded by major roads near a freeway entrance. It contains no 
significant natural resource values.
    The second parcel contains approximately 2,085 acres and would be 
used for the expansion of the University of Nevada, Las Vegas. This 
parcel is located in a rapidly urbanizing area on the northern edge of 
Las Vegas. Its eastern boundary abuts Nellis Air Force Base and its 
northern boundary abuts the Nevada Desert Wildlife Refuge managed by 
the U.S. Fish and Wildlife Service.
    Because of their proximity to Nellis Air Force Base, these lands 
may have been impacted by past military training activities and may 
contain hazardous materials. For this reason, S. 940 requires that the 
Secretary receive a certificate of acceptable remediation of 
environmental conditions on the parcel before initiating the 
conveyance, and it releases the United States from any liability 
arising from prior land uses. The bill also requires, under Sec. 4(2), 
that the NSHE enter into a binding agreement with Nellis Air Force Base 
to address any site development issues and to preserve the Base's long-
term capability. Because this parcel also borders the Nevada Desert 
Wildlife Refuge, we would like to work with the sponsor to ensure that 
site development along the shared boundary would be sensitive to and 
compatible with refuge values.
    S. 940 would also convey a parcel of approximately 285 acres, 
located just outside of Pahrump in Nye County, Nevada, which would be 
utilized for the expansion of Great Basin College. This parcel borders 
an existing BLM fire station and helipad, and certain types of adjacent 
development could affect the safe operation of this facility. This 
parcel also contains Carpenter Canyon Road, which is heavily utilized 
for recreation activities and provides access to the west side of the 
Spring Mountain National Recreation Area, which is managed by the U.S. 
Forest Service. The BLM would like to work with the sponsor to ensure 
that the bill provides for the continuation of these existing land uses 
and access to National Forest System land. We also note that this 
parcel contains desert tortoise habitat. If conveyed, the NSHE would 
need to prepare a Habitat Conservation Plan, obtain an incidental take 
permit, and meet other requirements of the U.S. Fish and Wildlife 
Service before site development could proceed.
    Finally, under S. 940, the NSHE will assist the BLM in sharing 
information with students and Nevada citizens about public land 
resources and the BLM's role in managing public lands. The BLM looks 
forward to working with the NSHE on this constructive, collaborative 
effort.

                               CONCLUSION

    Thank you for the opportunity to testify. The BLM looks forward to 
working with the bill's sponsor and the Committee to address the needs 
of the Nevada System of Higher Education.

                                S. 1272

    Thank you for inviting the Department of the Interior to testify on 
S. 1272, the Devil's Staircase Wilderness Act of 2009. The Bureau of 
Land Management (BLM) supports S. 1272 as it applies to lands we 
manage, and we would like to work with the sponsor and the Committee on 
minor refinements to the bills.

                               BACKGROUND

    The proposed Devil's Staircase Wilderness, near the coast of 
southwestern Oregon, is not for the faint of heart. Mostly wild land 
and difficult to access, the Devil's Staircase reminds us of what much 
of this land looked like hundreds of years ago. A multi-storied forest 
of Douglas fir and western hemlock towers over underbrush of giant 
ferns, providing critical habitat for the threatened Northern Spotted 
Owl and Marbled Murrelet. The remote and rugged nature of this area 
provides a truly wild experience for any hiker.

                                S. 1272

    S. 1272 proposes to designate nearly 30,000 acres as wilderness, as 
well as portions of both Franklin Creek and Wasson Creek as components 
of the Wild and Scenic Rivers System. The majority of these 
designations are on lands managed by the U.S. Forest Service. The 
Department of the Interior defers to the U.S. Department of Agriculture 
on those designations.
    Approximately 6,100 acres of the proposed Devil's Staircase 
Wilderness and 4.2 miles of the Wasson Creek proposed designation are 
within lands managed by the BLM. The Department of the Interior 
supports these designations and would like to work with the sponsor and 
the Committee on minor boundary modifications to improve manageability.
    We note that while the vast majority of the acres proposed for 
designation are Oregon &California (O&C) lands, identified under the 
1937 O&C Lands Act for timber production, however, the BLM currently 
restricts timber production on these lands. These lands are 
administratively withdrawn from timber production by the BLM, either 
through designation as an Area of Critical Environmental Concern or 
through other classifications. Additionally, the BLM estimates that 
nearly 90 percent of the area proposed for designation is comprised of 
forest stands that are over 100 years old, and provides critical 
habitat for the threatened Marbled Murrelet and Northern Spotted Owl.
    The 4.2 miles of Wasson Creek would be designated as a wild river 
to be managed by the BLM under S. 1272. The majority of the acres 
protected through this designation would be within the proposed Devil's 
Staircase wilderness designation, though 752 acres would be outside the 
proposed wilderness on adjacent BLM lands.
    The designations identified on BLM-managed lands under S. 1272 
would result in only minor modification of current management of the 
area and would preserve these wild lands for future generations.

                               CONCLUSION

    Thank you for the opportunity to testify in support of these 
important Oregon designations. The Department of the Interior looks 
forward to working with the sponsors and the Committee on minor 
modifications to the legislation and to welcoming these units into the 
BLM's National Landscape Conservation System.

                                S. 1689

    Thank you for inviting the Department of the Interior to testify on 
S. 1689, the Organ Mountains-Desert Peaks Wilderness Act. The 
Administration supports S. 1689, which designates two new National 
Conservation Areas (NCAs) and eight new wilderness areas in Doa Ana 
County, New Mexico. We welcome this opportunity to enhance protection 
for some of America's treasured landscapes.

                               BACKGROUND

    Dona Ana County is many things--the county with the second highest 
population in New Mexico; home to Las Cruces, one of the fastest 
growing cities in the country; and a land of amazing beauty. Towering 
mountain ranges, dramatic deserts, and fertile valleys characterize 
this corner of the Land of Enchantment. The Organ Mountains, east of 
the city of Las Cruces, dominate the landscape. Characterized by steep, 
angular, barren rock outcroppings, the Organ Mountains rise to nearly 
9,000 feet in elevation and extend for 20 miles, running generally 
north and south. This high-desert landscape within the Chihuahua Desert 
contains a multitude of biological zones--mixed desert shrubs and 
grasslands in the lowlands ascending to pinon and juniper woodlands, 
and finally to ponderosa pines at the highest elevations. Consequently, 
the area is home to a high diversity of animal life, including 
peregrine falcons and other raptors, as well as mountain lions and 
other mammals. Abundant prehistoric cultural sites, dating back 8,000 
years, dot the landscape. The Organ Mountains are a popular recreation 
area, with multiple hiking trails, a popular campground, and 
opportunities for hunting, mountain biking, and other dispersed 
recreation.
    On the west side of Las Cruces are the mountain ranges and peaks of 
the Robledo Mountains and Sierra de las Uvas, which make up the Desert 
Peaks area. These desert landscapes are characterized by numerous mesas 
and buttes interspersed with deep canyons and arroyos. Mule deer, 
mountain lions, and golden eagles and other raptors are attracted to 
this varied landscape. Prehistoric cultural sites of the classic 
Mimbres and El Paso phases are sprinkled throughout this region along 
with historic sites associated with more recent settlements. This area 
is also home to the unusual Night-blooming Cereus--seeing the one-
night-a-year bloom in its natural surroundings is a rare delight. 
Finally, the area provides varied disbursed recreational opportunities.
    To the southwest of Las Cruces, near the Mexican border, is the 
Potrillo Mountains Complex. The geologic genesis of these mountains is 
different from that of the Organ Mountains and Desert Peaks area. 
Cinder cones, volcanic craters, basalt lava flows, and talus slopes 
characterize this corner of Dona Ana County. These lands are famous for 
their abundant wildlife, and contain significant fossil resources. A 
well-preserved giant ground sloth skeleton, now housed at Yale 
University, was discovered in this area. The sheer breadth of these 
lands and their open, expansive vistas offer remarkable opportunities 
for solitude.
    Senator Bingaman and a wide range of local governments, 
communities, user groups, conservationists, and Federal agencies have 
worked collaboratively to develop this consensus proposal to protect 
all of these special areas.

                                S. 1689

    S. 1689 proposes to designate two new NCAs and eight wilderness 
areas in Dona Ana County, New Mexico, which would be included in BLM's 
National Landscape Conservation System. The legislation also releases 
over 16,000 acres from wilderness study area (WSA) status, transfers 
land from the Department of the Defense (DOD) to the BLM for inclusion 
within an NCA, and withdraws certain additional lands from disposal, 
mining, and mineral leasing.
    Section 3 of S. 1689 designates eight wilderness areas totaling 
approximately 259,000 acres. The BLM supports the proposed wilderness 
designations in S. 1689. We would like the opportunity to work with the 
Chairman on minor boundary modifications for manageability, as well as 
modifications to some minor technical provisions.
    These new wilderness designations are in three distinct areas of 
the county. First, within the proposed Organ Mountains NCA, 19,400 
acres would be designated as the Organ Mountains Wilderness.
    The second area is within the Desert Peaks National Conservation 
Area proposed in this legislation. The bill proposes three designations 
in this area: Broad Canyon Wilderness (13,900 acres); Robledo Mountains 
Wilderness (17,000 acres); and Sierra de las Uvas Wilderness (11,100 
acres). These three areas are within the 33,600-acre Desert Peaks NCA. 
Within the Robledo Mountains Wilderness, a small corridor of 
approximately 100 acres has been designated as ``potential wilderness'' 
by section 3(g) of S. 1689. The lands included in this potential 
wilderness contain a communications right-of-way, and it is our 
understanding that it is the intention of the Chairman to allow the 
continued use of this site by the current lessees. However, in the 
event that the communications right-of-way is relinquished, these lands 
would be reclaimed and become part of the wilderness area. We support 
this provision.
    Finally, the Potrillo Mountains complex in the southwest corner of 
Dona Ana County includes: Aden Lava Flow Wilderness (27,650 acres); 
Cinder Cone Wilderness (16,950 acres); Potrillo Mountains Wilderness 
(143,450 acres); and Whitethorn Wilderness (9,600 acres). Both the 
Potrillo Mountains Wilderness and Whitethorn Wilderness extend into 
adjacent Luna County. The legislation releases a substantial swath of 
land along the border with Mexico that is currently designated as WSA 
from WSA restrictions. The release contemplated by the legislation 
would allow greater flexibility for law enforcement along the border. 
We support this WSA release.
    Two National Conservation Areas are established by section 4 of the 
legislation--the Organ Mountains NCA and the Desert Peaks NCA. As noted 
above, both of these NCAs include proposed designated wilderness within 
their boundaries. Each of the NCAs designated by Congress and managed 
by the BLM is unique. However, all NCA designations have certain 
critical elements in common, including withdrawal from the public land, 
mining, and mineral leasing laws; off-highway vehicle use limitations; 
and language that charges the Secretary of the Interior with allowing 
only those uses that further the purposes for which the NCA is 
established. Furthermore, NCA designations should not diminish the 
protections that currently apply to the lands. Section 4 of the bill 
honors these principles, and the BLM supports the designation of both 
of these NCAs.
    Much of the lands proposed for both wilderness and NCA designations 
have been historically grazed by domestic livestock, and grazing 
continues today. Many of BLM's existing wilderness areas and NCAs 
throughout the West are host to livestock grazing, which is compatible 
with these designations. This use will continue within the NCAs and 
wilderness areas designated by S. 1689.
    Section 4(f) of the bill transfers administrative jurisdiction of 
2,050 acres from DOD to the BLM. These lands, currently part of the 
Army's Fort Bliss, would be incorporated into the Organ Mountains NCA. 
The lands to be transferred include the dramatic and scenic Fillmore 
Canyon as well as the western slopes of Organ Peak and Ice Canyon. We 
would welcome these lands into BLM's National System of Public Lands, 
and we would like to work with the Committee and DOD to ensure that the 
transfer is conducted consistent with other DOD land transfers to BLM.
    Section 6 of S. 1689 concerns the recently established Prehistoric 
Trackways National Monument, just southeast of the proposed Desert 
Peaks NCA. The Monument was established in Title II, Subtitle B of the 
Omnibus Public Land Act (Public Law 111-11) signed by the President on 
March 30 of this year. Section 6 of S. 1689 addresses recent additional 
discoveries of 280 million-year old reptile, insect, and plant fossils 
on adjacent BLM-managed lands by adding 170 acres to the Monument. The 
BLM supports this expansion of the Monument.
    Section 5(d) of the legislation provides for the withdrawal of two 
parcels of BLM-managed lands from the land, mining, and mineral leasing 
laws. The parcel designated as ``Parcel A'' is approximately 1,300 
acres of BLM-managed lands on the eastern outskirts of Las Cruces. This 
parcel is a popular hiking and mountain biking site, and provides easy 
access to the peak of the Tortugas Mountains. From here, visitors can 
take in spectacular views of Las Cruces and the Rio Grande Valley. We 
understand that Chairman Bingaman's goal is to ensure that these lands 
are preserved for continued recreational use by Las Cruces residents. 
The legislation provides for a possible lease of these lands to a 
governmental or nonprofit agency under the Recreation and Public 
Purposes Act. The larger, 6,300 acre parcel, designated as ``Parcel 
B,'' lies on the southern end of the proposed Organ Mountains NCA. It 
is our understanding that Chairman Bingaman considered adding this 
parcel to the NCA because of important resource values. However, a 
multitude of current uses make inclusion of this parcel in the NCA 
inconsistent with the purposes established for the NCA. Therefore, the 
limited withdrawal of the parcel will better serve to protect the 
resources within this area without negatively affecting the current 
uses of the area. The BLM supports the withdrawal of both of these 
parcels.
    Finally, the BLM, along with many partners, has undertaken 
restoration efforts on more than one million acres of degraded 
landscapes in New Mexico, with the goal of returning grasslands, 
woodlands, and riparian areas to their original healthy conditions. We 
would like to work with the Chairman to develop language to support the 
BLM in implementing appropriate land restoration activities that will 
benefit watershed and wildlife health within these designated areas.

                               CONCLUSION

    Thank you for the opportunity to testify in support of S. 1689. 
Both the BLM and the Department welcome opportunities to engage in 
important discussions such as this that advance the protection of 
treasured American landscapes. Passage of this legislation will ensure 
that generations of New Mexicans and all Americans will be able to 
witness a golden eagle soar over the Sierra de las Uvas, hike the 
landmark Organ Mountains, or hunt in the volcanic outcroppings of the 
Potrillo Mountains.

    Senator Wyden. Thank you, Ms. Burke. I know we'll have some 
in just a few minutes.
    Mr. Jensen.

 STATEMENT OF JAY JENSEN, DEPUTY UNDER SECRETARY FOR FORESTRY, 
  NATURAL RESOURCES AND ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Jensen. Thank you. It's good to be back in front of the 
committee again.
    Mr. Chairman, Ranking Member Barrasso, members of the 
subcommittee: Thank you very much for this opportunity to speak 
to you today about bills that address wilderness designations 
in the coastal Douglas fir forest of Oregon and Native land 
claims in Alaska. My remarks will address the designation of 
the Devil's Staircase and then the Southeast Alaska Native Land 
Entitlement Act.
    Devil's Staircase. The proposed designations would enhance 
the national wilderness preservation system and our national 
wild and scenic rivers system while preserving a unique 
landscape feature, the Devil's Staircase, a stairstep waterfall 
on Wasson Creek. The Department and the United States Forest 
Service support these designations of the national forest 
system lands. All these national forest system lands would be 
designated as wilderness and classified as late successional 
reserves, meaning they provide for the preservation of old 
growth habitat.
    The forest has older stands of doug fir and western 
hemlock, with red alder in riparian areas. All three of these 
tree species are underrepresented in the national wilderness 
preservation system relative to their abundance in the national 
forest lands in Washington and Oregon. The proposed Devil's 
Staircase wilderness and wild and scenic river designation for 
Wasson and Franklin Creeks preserve an untrammeled 
representation of the Oregon Coast Range and we support those 
designations--as you said, Mr. Chairman, the perfect 
representation of the rugged, pristine, and wild 
characterization of Oregon.
    Moving on, I'd like to open my testimony about the 
Southeast Alaska Native Land Entitlement Finalization Act by 
stating the Department and the agency approach regarding 
decisions about the Tongass National Forest, mindful of the 
Native Alaskan way of life, cognizant of the rich and deep 
tribal history, traditions, and rights on the Tongass 
landscape.
    We support the timely and equitable distribution of the 
Alaska Native Claims Settlement Act. We are also very focused 
on the Department and agency's role in providing sustainable 
support for diversity of economic opportunities for Alaskan 
communities and Native Alaskans. I recently got to visit 
Southeast Alaska with my rural development counterpart, Deputy 
Under Secretary Victor Vasquez in Rural Development. While 
there, we co-hosted two economic diversity workshops in Sitka 
and Ketchikan to hear directly from members of the community 
about how USDA can support the people of Southeast Alaska. 
Similar workshops are now being held in every southeastern 
community, 32 in all.
    We want to convey our commitment to working with the 
citizens of the region to find solutions that they want to 
pursue. The Department views this legislation within the 
broader context of the challenges facing the Tongass National 
Forest and Southeast Alaska. We support many of the goals of S. 
881 and are committed to working collaboratively with Congress, 
Sealaska, and other community partners to find a solution that 
works.
    As we step into this process, we are mindful of how 
complicated Tongass National Forest issues can be, how one 
issue, if not addressed in the context of the broader 
landscape, can have significant implications and repercussions. 
I will turn to my written testimony for further details 
speaking to our concerns with the bill, but I will end my 
comments here by sharing a little further, that recently I got 
a chance to attend the Tongass Future roundtable meeting that 
was held last week up in Anchorage. This dedicated 
collaborative group is dedicated to forging a comprehensive 
vision for the Tongass National Forest. While we know that that 
process has its challenges, the USDA supports this roundtable 
as the kind of forum needed to develop a shared vision for 
these lands.
    In our brief time so far in this administration, we believe 
it would be difficult to extract the lands identified in S. 881 
from the broader attempt to achieve a comprehensive and 
equitable solution for all those who have rights, interests, 
and investments in their use and management.
    With that, I will conclude my remarks and look forward to 
your questions.
    [The prepared statement of Mr. Jensen follows:]

  Prepared Statement Jay Jensen, Deputy Under Secretary for Forestry, 
      Natural Resources and Environment, Department of Agriculture

                           S. 1272 AND S. 881

    Mr. Chairman, Honorable Ranking Member and distinguished members of 
the Committee, thank you for the opportunity to speak with you today 
about bills that address Wilderness designations in the coastal 
Douglas-fir forests of Oregon and Native land claims in Alaska. I will 
open my testimony by addressing the designation of Devil's Staircase 
and followed by the Southeast Alaska Native Land Entitlement 
Finalization Act.
    S. 1272 would designate an area known as the Devil's Staircase as 
Wilderness under the National Wilderness Preservation System. In 
addition, S. 1272 would designate segments of Wasson and Franklin 
Creeks in the State of Oregon as wild rivers under the Wild and Scenic 
Rivers Act. The Department supports the designation of the Devil's 
Staircase Wilderness as well as the Wild and Scenic River designations 
on National Forest System lands. We would like to offer minor 
modifications to S. 1272 that would enhance wilderness values and 
improve our ability to manage resources in the area.
Devil's Staircase Wilderness Designation
    The Devil's Staircase area lies in the central Oregon Coast Range, 
north of the Umpqua River and south of the Smith River. Elevations in 
the area range from near sea level to about 1,600 feet. The area is 
characterized by steep, highly dissected terrain. It is quite remote 
and difficult to access. A stair step waterfall on Wasson Creek is the 
source of the name Devil's Staircase.
    The proposed Wilderness encompasses approximately 29,600 acres of 
National Forest System (NFS) and Bureau of Land Management (BLM) lands. 
NFS lands are approximately 23,500 acres, and BLM lands are 
approximately 6,100 acres. Approximately 7,800 acres of the NFS lands 
are within the Wasson Creek Undeveloped Area under the Forest Plan for 
the Siuslaw National Forest and were evaluated for wilderness 
characteristics in the 1990 Siuslaw National Forest Land and Resource 
Management Plan. While the Forest Service remains committed to the 
forest planning process, the agency did not have the opportunity to 
recommend wilderness during the development of the 1990 Siuslaw 
National Forest Land and Resource Management Plan. Congress passed 
Public Law 98-328, the Oregon Wilderness Act of 1984. That Act provided 
specific language regarding the wilderness recommendation process that 
exempted the Forest Service from having to further review a wilderness 
option for unroaded lands in the forest planning process since Congress 
had just acted on the matter. The Act does specify that during a forest 
plan revision the agency be required to revisit the wilderness options. 
For this reason, the Siuslaw National Forest Land and Resource 
Management Plan did not include a wilderness recommendation. The 1990 
Record of Decision determined that the Wasson Creek inventoried 
Roadless Area would be managed for undeveloped recreation 
opportunities.
    All NFS lands that would be designated as Wilderness are classified 
as Late Successional Reserve under the Northwest Forest Plan, which 
amended the Siuslaw National Forest Land and Resource Management Plan 
in 1994. This land allocation provides for the preservation of old 
growth (late successional) habitat. There are no planned resource 
management or developed recreation projects within the NFS portion of 
the lands to be designated as Wilderness.
    Most of the area is forested with older stands of Douglas-fir and 
western hemlock, and red alder in riparian areas. All three tree 
species are under-represented in the National Wilderness Preservation 
System, relative to their abundance on NFS lands in Washington and 
Oregon. These older stands provide critical habitat and support nesting 
pairs of the northern spotted owl and marbled murrelet, which are 
listed as Threatened species under the Endangered Species Act.
    The proposed Devil's Staircase Wilderness provides an outstanding 
representation of the Oregon Coast Range and would enhance the National 
Wilderness Preservation System. The Oregon Coast Range has been largely 
modified with development, roads, and logging. Three small wilderness 
areas currently exist along the Oregon portion of the Pacific Coast 
Range, and the proposed Devil's Staircase Wilderness would more than 
double the acres of old-growth coastal rainforest in a preservation 
status. Wilderness designation would also preserve the Devil's 
Staircase, which is a unique landscape feature.

Road and Road Decommissioning
    There are approximately 24 miles of National Forest System roads 
within the proposal boundary, 10.5 miles of which are not needed for 
administrative use and would be decommissioned or obliterated.
    The remaining 13.5 miles of road comprise Forest Service Road 4100, 
which bisects the proposed wilderness. The Department recommends the 
Committee consider including in the Wilderness designation Forest 
Service Road 4100 to be managed as a non-motorized, foot and/or horse 
trail compatible with wilderness uses. Removing the road would result 
in the Department being able to manage the wilderness as a whole rather 
than two halves. The road is currently brushy and difficult to travel, 
making restoration of a wilderness setting a viable option. The Forest 
Service would use a minimum-tool analysis to determine the appropriate 
tools necessary to complete activities associated with the road.

Wild and Scenic River Designations
    S. 1272 would also designate approximately 10.4 miles of streams on 
National Forest System lands as part of the National Wild and Scenic 
Rivers System: 5.9 miles of Wasson Creek and 4.5 miles of Franklin 
Creek, both on the Siuslaw National Forest. Both Wasson and Franklin 
Creeks have been identified by the National Marine Fisheries Service 
(NMFS) as critical habitat for coho salmon (Oregon Coast ESU 
[Evolutionarily Significant Unit] of coho salmon), a Threatened species 
under the Endangered Species Act.
    The Department defers to the Department of the Interior concerning 
the proposal to designate the 4.2-mile segment of Wasson Creek flowing 
on lands administered by BLM.
    The Forest Service conducted an evaluation of the Wasson and 
Franklin Creeks to determine their eligibility for wild and scenic 
rivers designation as part of the forest planning process for the 
Siuslaw National Forest. However, the agency has not conducted a wild 
and scenic river suitability study, which provides the basis for 
determining whether to recommend a river as an addition to the National 
System. Wasson Creek was found eligible as it is both free-flowing and 
possesses outstandingly remarkable scenic, recreational and ecological 
values. The Department supports designation of the 5.9 miles of the 
Wasson Creek on NFS lands based on the segment's eligibility.
    At the time of the evaluation in 1990, Franklin Creek, although 
free flowing, was found not to possess river-related values significant 
at a regional or national scale and was therefore determined ineligible 
for designation. Subsequent to the 1990 eligibility study, the Forest 
Service has found that Franklin Creek provides critical habitat for 
coho salmon, currently listed as Threatened under the Endangered 
Species Act, and also serves as a reference stream for research because 
of its relatively pristine character, which is extremely rare in the 
Oregon Coast Range. The Department does not oppose its designation. 
Designation of the proposed segments of both Wasson and Franklin Creeks 
is consistent with the proposed designation of the area as wilderness. 
The actual Devil's Staircase landmark is located on Wasson Creek.
    We would like to work with the bill sponsors and the committee on 
several amendments and map revisions that we believe would enhance 
wilderness values and improve the bill.
       southeast alaska native land entitlement finalization act
    I will now discuss the Department of Agriculture's views on and 
approach to S.881, the Southeast Alaska Native Land Entitlement 
Finalization Act. We recognize and support the timely and equitable 
distribution of land to Alaska Native Corporations, including Sealaska 
Corporation (Sealaska), under the Alaska Native Claims Settlement Act 
(ANCSA). USDA also understands and supports Sealaska's interest in 
acquiring lands that have economic and cultural value. We defer to the 
Department of the Interior for an analysis of this bill as it relates 
to ANCSA implementation as it affects the Department of the Interior.
    The Department views this legislation in the broader context of the 
challenges facing the Tongass National Forest (Tongass) and Southeast 
Alaska, which include issues facing Native Alaskans and Sealaska 
Corporation. Recently, I joined my rural development counterpart, USDA 
Deputy Under Secretary Victor Vasquez, on a visit to the region. While 
there, we co-hosted two economic diversity workshops to better 
understand how USDA can support a diversified economy and range of 
opportunities for Southeast Alaskans. USDA regional staff, led by the 
Forest Service, committed at the close of those workshops to hold 
similar workshops in every community in Southeast Alaska; those 
sessions are happening now. We are focused on developing USDA's role in 
providing long-term, sustainable support for a diversity of economic 
opportunities for Alaskan communities and Native Alaskans.
    While the USDA supports a number of the goals of this legislation 
and is committed to working collaboratively with Sealaska, Congress, 
and other community partners and interests to find a solution that 
works, we have a number of concerns that we want to work through with 
the parties. My testimony today will focus on outlining those concerns.

Background
    By enacting ANCSA, Congress balanced the need for a fair and just 
settlement of Alaska Native aboriginal land claims with the needs for 
use of the public lands in Alaska. Congress' approach to resolving 
Alaska Native land claims in ANCSA is unique in its reliance on the 
formulation of native corporations. To manage the federal land 
entitlement conveyed to Alaska Natives, ANCSA created two tiers of 
native corporations: village corporations, of which there are over 200, 
and the larger regional corporations, of which there are thirteen, with 
twelve holding title to land. Federal lands were withdrawn to allow 
village corporations to select lands traditionally used by Alaska 
Native villagers. The twelve regional corporations were composed, as 
far as practicable, of Native shareholders having a common heritage who 
shared common interests within certain geographic regions. As the 
regional corporation representing Southeast Alaska Natives, Sealaska is 
required to fulfill its land entitlement from within the ten Southeast 
Alaska village withdrawal areas that represent the lands traditionally 
used by Southeast villagers and Sealaska's current Native shareholders.
    Congress generally defined the land entitlements of both village 
and regional corporations, but provided for some differentiation among 
corporations to consider individual village or regional circumstances. 
One such consideration was the reduction of land entitlement to 
Sealaska to reflect a previous award of damages granted to Sealaska's 
primary shareholders, the Tlingit and Haida Tribes of Southeast Alaska.
    Those tribes brought early suit against the United States to 
recover the value of land and property rights appropriated by the 
United States in Southeast Alaska. The suit was settled before the 
passage of ANCSA by a 1968 U.S. Court of Claims decision awarding 
damages of $7.5 million dollars to the Tlingit and Haida Indians of 
Alaska. The Court of Claims decision is based on the fair market value 
of the land expropriated by the United States at the time the lands 
were taken, as determined by valuing the highest and best use of the 
land and resources. Congress recognized this prior settlement in ANCSA 
and limited Sealaska's entitlement.
    Sealaska is entitled to receive lands under Section 14(h)(8) of 
ANCSA, which allocates and provides for conveyance of land from the 
remaining portion of two million acres that is not otherwise conveyed 
as entitlement under the other subsections of 14(h) to be allocated 
among the twelve regional corporations on the basis of population. The 
BLM is responsible for determining Sealaska's final allocation under 
Section 14(h)(8). However, until other all other 14(h) entitlements are 
completely allocated, the BLM can only estimate what Sealaska's final 
entitlement will be. Based on the most recent information provided to 
the Forest Service from the BLM (October, 2008), Sealaska has been 
conveyed approximately 290,774 acres under Section 14(h)(8). Its 
remaining 14(h)(8) entitlement is63,535 acres plus 21.85% of any future 
allocation pursuant to this section. Thus, Sealaska has received more 
than 80% of its Section 14(h)(8) entitlement. These lands have been 
selected from the original federal land base withdrawn for selection 
pursuant to ANCSA. Currently, Sealaska has selected 170,000 acres from 
within the ANCSA withdrawal area, from which Sealaska has prioritized 
its remaining to 78,898-acre entitlement pursuant to Section 403 of the 
Alaska Transfer Acceleration Act. Indeed, Sealaska can fulfill all of 
its remaining actual, and potential, entitlement from the 170,000 plus 
acres of currently selected lands.

                                 S.881

    S.881 would amend ANCSA to allow Sealaska to select and receive 
conveyance from lands administered by the Forest Service that are 
outside of the original withdrawal areas established by the Act in 
1971, and that would create new and unique categories of selections not 
available to other regional corporations. Specifically, S.881directs 
directs the Secretary of the Interior to convey to Sealaska three 
categories of lands from within the Tongass: economic development 
lands, sacred site lands, and Native futures sites. None of these 
categories of land selections currently appear in ANCSA and other 
Native Corporations are not entitled to make such selections. The 
Department is concerned that S.881 would provide an impetus for other 
regional corporations to reopen land claims at this critical final 
stage in the land transfer program.
    The pool of lands identified in S.881 from which Sealaska would 
select its economic development lands includes significant areas of 
productive old-growth timber and major areas of young-growth timber. 
While the specific lands Sealaska will select as economic development 
lands from this pool are not known, we have a number of concerns 
regarding potential consequences these selections would have on USDA's 
efforts to develop a long-term, sustainable plan for supporting a 
diversity of economic opportunities for Alaskan communities and Native 
Alaskans. These concerns reflect the interconnected nature of the 
problems facing Southeast Alaskans: legislation that pulls out one 
piece of the puzzle makes it more challenging to find a comprehensive 
solution that is responsive to the concerns of local communities and 
conservation groups while also working for Sealaska.
    In previous years, the Tongass National Forest has supported 
communities in Southeast Alaska through its timber program. In 
exploring a diversity of opportunities to support the communities and 
people of Southeast Alaska, the Forest Service is seeking to 
expeditiously transition that program away from reliance on sales of 
old-growth timber in roadless areas to an integrated program of work 
focused on restoration, development of biomass opportunities, and sales 
of young-growth timber in roaded areas. Indeed, the Tongass Futures 
Roundtable, a Southeast Alaska collaborative group that includes 
villages, industry, native corporations, the Forest Service and the 
State of Alaska, is addressing the integration of forest restoration 
and broad economic development during the transition from old-growth 
timber sales.
    This shift will allow stakeholders in the region to come together 
to support healthy, vibrant communities and forested lands, and sustain 
the ability of Native Alaskans to pursue their way of life, 
communities, and culture, as they have for over 10,000 years. However, 
this transition will require a reliable supply of young-growth timber 
from lands having the infrastructure (e.g., roads, proximity to mills) 
to support an economically viable industry.
    The lands identified in S.881 for selection by Sealaska are largely 
found on Prince of Wales Island. These lands represent a significant 
part of the Forest Service's roaded land base identified in the Tongass 
Land Management Plan as open to timber harvest. This land base is also 
closest to one of the few remaining large mills in the Tongass National 
Forest, as well as other smaller mills.
    The lands involved in this legislation, therefore, are central to 
the Forest Service's ability to provide a sustainable supply of young-
growth timber to facilitate transition of its timber program from old-
growth timber harvest to restoration work, biomass, and young-growth 
harvest.
    Another concern is that the old-growth reserves found within the 
land pool identified in S.881 are central to the Tongass National 
Forest's conservation strategy as outlined in its Land Management Plan. 
The amended TLMP established a comprehensive, science-based 
conservation strategy to address wildlife sustainability and viability. 
This strategy includes a network of interconnected, variably sized old-
growth reserves across the forest designed to maintain the composition, 
structure and function of the old-growth ecosystem. Conveyance of 
economic development lands as proposed in S.881 would likely decrease 
the Tongass' ability to meet the TLMP conservation strategy due to the 
likely inability to replace key lands associated with old-growth 
habitats.
    It is also important to note that these lands overlap those of 
interest to the State of Alaska's Mental Health Trust, as well as to 
the ``landless tribes'' who did not receive an original land 
entitlement in ANCSA. It may be difficult to extract these lands while 
providing a comprehensive and equitable solution for all who are 
interested or invested in their use and management.
    Although the proposed legislation states that implementation of the 
bill and conveyance of lands to Sealaska would not require an amendment 
or revision of TLMP, this language does not resolve land management 
issues that likely will arise regarding TLMP implementation. Regardless 
of whether an amendment or revision of TLMP is required, if the 
significant management strategies that form the basis of the current 
plan are modified through enactment of S.881, TLMP cannot be 
implemented as currently intended.
    Enacting S.881 could also affect the ability to provide for 
continuous public access for recreation and subsistence uses on the 
Tongass. Among other things, the legislation provides that Sealaska has 
the right to regulate access on certain lands where the public use is 
incompatible with Sealaska's natural resource development, as 
determined by Sealaska. The Native futures sites identified for 
conveyance in the legislation include some of the most significant 
recreation sites that are critical to both commercial outfitter and 
guide use and public recreational use. The ability of the Tongass to 
provide for public and commercial recreation and tourism activities 
would be limited by enactment of the legislation. S.881 would also 
remove covenants on historic and cemetery sites conveyed under ANCSA 
Section 14(h)(1), which restrict activity that is incompatible with 
these sites' cultural or historic values. The Department believes this 
would provide an opportunity for other regional corporations to request 
removal of similar restrictions from other Native corporation sites, 
further negatively affecting the land transfer program. Similarly, the 
legislation does not provide for the ability to protect significant 
karst and cave resources that may be located on lands conveyed under 
S.881 to Sealaska.

    AMENDMENTS TO THE TRIBAL FOREST PROTECTION ACT AND THE NATIONAL 
                       HISTORIC PRESERVATION ACT

    Finally, the legislation includes amendments to the Tribal Forest 
Protection Act (TFPA) and the National Historic Preservation Act (NHPA) 
to consider lands owned by any Alaska Native Corporation as tribal-
owned lands for the purposes of these Acts, the implications of which 
are described below. The Department would be willing to discuss ANCSA; 
however, we view the amendments to the TFPA and NHPA as unrelated to 
fulfilling the remaining acres of the ANSCA entitlement.
    The TFPA is intended to strengthen Forest Service relationships 
with federally recognized Tribes and to restore forested lands by 
authorizing the Secretary of Agriculture to enter into contracts and 
agreements with Tribes to carry out certain projects on the National 
Forests to reduce threats to adjacent or bordering lands owned by 
Tribes. The bill would extend the benefits of TFPA beyond those Tribes 
currently listed on the official list of federally acknowledged tribes 
in the contiguous 48 states and in Alaska: Indian Entities Recognized 
and Eligible To Receive Services from the United States Bureau of 
Indian Affairs. The Alaska Native Corporations are not Tribal 
Governments as recognized by the BIA, and they do not have the 
capability of having the Federal government hold their lands in trust.
    S.881 would amend the National Historic Preservation Act to include 
Alaska Native Corporations. Tribal lands as now defined in the NHPA 
include those within the boundaries of American Indian Reservations, 
which are governed by a Tribal Council duly elected by the Tribal 
members. These lands are managed for the benefit of Tribal members. 
Alaska Native Corporation lands, however, are managed by a corporate 
board of directors to provide a profit for the benefit of its 
shareholders.
    The inclusion of Alaska Native Corporations as parties entitled to 
the benefits prescribed under both the TFPA and NHPA is at odds with 
the intent to provide tribes with certain benefits prescribed by these 
Acts.

                ENVIRONMENTAL MITIGATION AND INCENTIVES

    With respect to Section 5(b) of S.881 expressly authorizing 
environmental mitigation and incentives, we support the provisions that 
would allow any land conveyed to be eligible for participation in 
carbon markets or other similar programs, incentives, or markets 
established by USDA.

                               CONCLUSION

    In conclusion, I want to note comments we have received from local 
residents and Alaska Natives regarding enactment of this legislation. 
Residents are concerned that the legislation will affect subsistence 
use and will affect public access for recreation, hunting, fishing, and 
gathering. Residents in communities throughout Southeast Alaska are 
surrounded by, and dependent upon, the Tongass for their livelihood and 
well-being and they seek ``closure'' to the decades-long forest 
planning process. Many are concerned the legislation will disrupt 
implementation of the amended TLMP. Some are concerned with the 
environmental consequences of the legislation, especially related to 
sustainable timber harvest and management and to the implementation of 
the Forest Service's conservation strategy. Finally, a number of 
comments reflect the interconnected nature of the problems facing 
Southeast Alaskans: legislation that pulls out one piece of the puzzle 
makes it more challenging to find a comprehensive solution that is 
responsive to the concerns of local communities and conservation groups 
while also working for Sealaska. Last week I attended a meeting of the 
Tongass Futures Roundtable, the collaborative group dedicated to 
forging a comprehensive vision for the Tongass National Forest. While 
that collaborative process presents its own challenges, USDA supports 
the Tongass Futures Roundtable and its efforts to find a shared vision 
for the land that we all love.
    USDA and the Forest Service are prepared and eager to work with all 
parties to find a solution that works.
    This concludes my testimony. I am happy to answer any questions 
that you may have on Devil's Staircase Wilderness Act or the Southeast 
Alaska Native Land Entitlement Act.

    Senator Wyden. Thank you very much.
    I know many of my colleagues have questions for you, Ms. 
Burke, and you, Mr. Jensen. It sounds like it's a pretty good 
afternoon for the forests and the hikers and all those who are 
enjoying the Devil's Staircase area and the wilderness that 
we're proposing.
    Mr. Jensen, you're for the legislation that Senator Merkley 
has introduced, 1272. Ms. Burke, you seem to be for it. You 
said something about minor modifications. Is it fair to say 
that as far as the administration is concerned there's no 
reason why the bill shouldn't be reported by the committee and 
approved by the Senate?
    Ms. Burke. That's correct. It's just that we would like to 
work with the committee with some minor modifications.
    Senator Wyden. I think I ought to quit while I'm ahead. 
That's some good news for Oregonians. These are special 
treasures that we feel strongly about.
    Both your agencies have cooperated fully with us. I'd have 
more questions under normal circumstances, but I know a lot of 
colleagues have interests that are very important to them. So 
we'll start with Senator Bingaman, I think, and then we'll go 
to Senator Barrasso.
    The Chairman. Thank you very much.
    Let me ask Ms. Burke just a few questions about the 
legislation that Senator Udall and I are proposing there in 
southern New Mexico, the Organ Mountains-Desert Peaks 
Wilderness Act. One of the issues that's often raised with new 
conservation proposals is what effect the designation will have 
on energy development. Are you aware of any applications for 
renewable energy development in these areas?
    Ms. Burke. The BLM in New Mexico informs me that they have 
not received any applications for renewable energy in this 
area.
    The Chairman. Can you tell us what the potential is for oil 
and gas development within the proposed wilderness and national 
conservation areas covered by the act?
    Ms. Burke. Yes. The BLM in New Mexico informs me that the 
areas that are designated by this bill have very low potential 
for oil and gas development. There are currently three existing 
oil and gas leases within the Desert Peaks National 
Conservation Area and those valid existing rights will be 
protected, but currently there is no oil on those leases.
    The Chairman. Finally, can you tell me whether there are 
any West-side energy corridors that run through the areas that 
are proposed for designation?
    Ms. Burke. BLM recently completed work on a series of these 
corridors and, no, they do not conflict with the designations 
in this bill.
    The Chairman. As a general matter, can you tell us the 
experiences that the BLM has had with managing the grazing in 
areas that have been designated as national conservation areas? 
Does the designation of an area as a national conservation area 
significantly affect the existing grazing activities based on 
the experience of the BLM?
    Ms. Burke. Most of the NCAs managed by the BLM had 
livestock grazing on them before designation and that grazing 
continues today. Grazing is managed in the national 
conservation areas under the same rules and regulations as on 
other BLM lands.
    The Chairman. Thank you very much.
    Senator Wyden. Thank you, Senator Bingaman.
    Senator Barrasso.
    Senator Barrasso. Thank you, Mr. Chairman.
    Mr. Jensen, several of these bills are going to set aside 
large areas and put them off limits to motorized recreation. I 
understand that there is quite a large off-road recreation 
community often within or near many of these areas. So for each 
of these areas, can you give me some understanding or bring me 
some information on how much we're talking about and the impact 
to those people who use off-road vehicles?
    Mr. Jensen. I believe in the wilderness designation case 
that I believe you're referring to in Oregon my briefing is 
that there is one road that goes through the area, but it's not 
heavily used. It's a fairly rugged road that is being looked at 
potentially being decommissioned as part of this. But the 
larger approach of the NCUs is to look at these sort of 
designations in relation to recreation and to the tribal 
management system and plans. Currently right now, all national 
forests are going through this process to catalogue, identify 
shared resources in forests, so that these sorts of 
designations and other uses are done in a way that doesn't 
impact, severely impact, user groups and is done in a way 
that's environmentally sensitive.
    Senator Barrasso. Ms. Burke, S. 940, the Southern Nevada 
Higher Education Land Act. I read that and I think that it may 
be vague in the restrictions on how the three colleges may use 
the conveyed lands. The proposed legislation could be 
interpreted to mean that these colleges could put commercial or 
private development on the land. So I'm just curious if there 
is any precedent for this type of provision in other laws when 
we do these kind of exchanges. Anything that you're aware of?
    Ms. Burke. Yes. Last year in S. 2324, which was in Twin 
Falls, Idaho, that the BLM supported, which was the transfer of 
land for recreational purposes and for a waste water treatment 
facility. This year we supported S. 1140, which was in Oregon. 
That was for rodeo grants and also for a wastewater treatment 
facility.
    Senator Barrasso. I'm wondering if it's an open-ended 
conveyance, because you said it sounds like that was a clearly 
designated issue. Is it the policy of the administration to 
support open-ended conveyances of Federal lands?
    Ms. Burke. It's the policy of the Administration to support 
conveyances that are consistent with the Recreation and Public 
Purposes Act. So as I said in my testimony, the BLM would 
welcome the opportunity the work with the sponsor of the bill 
and the committee to make sure that the conveyances are 
consistent with that act.
    Senator Barrasso. Thank you.
    To both of you: This spring Senator Murkowski sent a letter 
to the Secretaries of Interior and Agriculture requesting 
information be made available by the administration on energy 
potential and renewable energy potential, as to mineral 
availability for all areas that are proposed for set-asides in 
legislation before this committee. I don't know if you know 
what the status might be of any maps or any information 
regarding these bills that we're considering today.
    Mr. Jensen. My understanding is that efforts are under way, 
if not have already been transmitted to the committee, related 
to that request. I hope that they are indeed already there.
    Senator Barrasso. If not, can you work more closely with 
the committee so we would have these before we make final 
consideration of the legislation.
    Mr. Jensen. Yes.
    Senator Barrasso. That would be for both of your agencies.
    Ms. Burke. Yes.
    Senator Barrasso. Thank you.
    Thank you, Mr. Chairman.
    Senator Wyden. Why don't we go next to Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    First to you, Ms. Burke. I appreciate the administration's 
statement of support for S. 522. I want to address or discuss 
with you a couple of the concerns that you have raised, and Mr. 
Jensen as well, regarding the Sealaska legislation. You have 
suggested, Ms. Burke, that we may see a delay in conveyances 
despite the legislation that we were successful in introducing 
and getting passed some years ago, the Alaska Lands 
Acceleration Act. But under the terms of that act what we 
provided for was that these conveyances would be complete by 
the anniversary, the fiftieth anniversary of statehood, which 
we are celebrating this year.
    We are not going to meet that deadline. Your suggestion is 
that somehow or other this delays conveyances. I might suggest 
to you that part of the problem with accomplishing what we set 
out in that Acceleration Act was that there hasn't been 
sufficient funding. We have not been able to get the survey 
that we have needed.
    It seems to me that the appropriate response here is to say 
that we've got to do more within the budget to allow for these 
conveyances to move forward, rather than to suggest that 
Sealaska should just wait longer for its conveyances. I think 
40 years or 38 years is long enough. So I would hope that as we 
look to this issue we recognize that it is a bigger picture in 
terms of the conveyances that are due the State under the ANCSA 
Act.
    Let me ask a question about the precedent-setting. You have 
suggested this, Ms. Burke, and I understand, Mr. Jensen, in 
your written testimony that I only received this morning that 
you both are concerned about this somehow being precedent-
setting. I would like to point out a couple facts. First, 
ANCSA's has already been amended. It has been amended about 40 
different times, so this is hardly going to be a first.
    Given the unique circumstances that we have with Sealaska, 
dating back to 1971 they were the largest block of shareholders 
of the Native corporations and they received the smallest 
amount of land, largely because at that time the land, a large 
portion of southeastern land was locked up or encumbered by 
these long-term timber sales contracts.
    Now, all those contracts have been canceled and they were 
canceled by your Department, about 25 years after ANCSA went 
into effect. Now you have literally hundreds of thousands of 
acres that are now available for selection in the mid-1990s.
    I look at this situation and say it is very unique within 
ANCSA and can hardly be construed as precedent-setting. I don't 
see any other entity that will be able to make this claim. 
Would you agree with me? I'd ask this of both of you.
    Ms. Burke. I will. It is true that Alaska has some unique 
circumstances. Sealaska has had sufficient land selections on 
file in order to satisfy their entitlements.
    Senator Murkowski. Would you agree that about 40 percent of 
those are under water and that a considerable number of those 
were also locked up or encumbered with these long-term timber 
contracts until the mid-1990s?
    Ms. Burke. Well, I'm not aware of how much of that might be 
tied up today. But Sealaska has selected over 170,000 acres and 
its remaining allocation is about 63, 64,000. So we think 
that's more than adequate to satisfy that entitlement.
    Senator Murkowski. I'm not sure that I understand. There's 
somewhere between 65 and 85,000 that Sealaska is yet eligible 
to claim. You're not suggesting that they are not entitled to 
that?
    Ms. Burke. No, not at all. I'm saying that they've 
selected, Sealaska has selected, over 170,000 acres. The 
remaining entitlement as far as we can determine as of today is 
about 64,000. So within that 177,000 we should be more than 
able to satisfy the entitlement of 64,000.
    Senator Murkowski. Again, I would take you back to my point 
that if you look at the maps, which I'm sure you have given 
great consideration, you have a great portion of this that is 
not viable. However, when you have 40 percent of your available 
areas that would be under water, to me that's not a viable 
selection.
    What we're trying to provide here is equity to the Sealaska 
shareholders. The whole purpose under ANCSA was to allow for 
economic opportunities to proceed and that, as Senator Begich 
has mentioned, is so integrated to the land.
    Mr. Jensen, I haven't given you an opportunity to answer. 
My time has expired, but if you could just briefly address it.
    Mr. Jensen. There many different precedential components to 
this exchange. The key part of the context for us is some of 
the court claim settlements that occurred even before ANCSA 
around Southeast Alaska Corporation. I think that those 
agreements that went in before the agreements that were laid 
out for the corporation to this day relate a lot to how we view 
the issue.
    My understanding is that the corporation did submit its 
selection of those lands some years ago, but has not moved 
forward. I'm not fully briefed on that and will commit to 
working with you to find out how that currently stands.
    Senator Murkowski. OK. We can certainly help you with 
better information.
    Mr. Chairman, my time has expired.
    Senator Wyden. I thank my colleague.
    Let's go next to Senator Udall.
    Senator Udall. Chairman Wyden, I believe Senator Begich has 
an appointment that's more urgent than I do. So I would defer 
to him at this point.
    Senator Wyden. Let's recognize Senator Begich.
    Senator Begich. Thank you very much. I'll be brief. I do 
have a 3:30.
    I'm going to try to follow what Senator Murkowski laid out 
there, Ms. Burke. That is, I understand the mathematical issue 
of how much acres is available, how much they selected and what 
is left to select, but the question is the quality of the land. 
We can debate if 30 percent or 40 percent or whatever that 
percent is is under water or on mountaintops. It's very 
difficult to do what Sealaska is required to do under ANCSA, 
which is to manage the lands for their people, which is not 
only economically but also for subsistence or utilization 
within that corporation. So there's multiple reasons.
    Do you see that as an important factor in this, that the 
lands that may be available do not meet those needs? I have to 
warn you that I can only speak to this from my knowledge of 
this bill because my dad wrote the bill, because I want you to 
be prepared for that as you answer this.
    Ms. Burke. I don't know that I can comment on fairness per 
se, but I can say that the BLM is committed to working with 
Sealaska and with the other interested parties in the State of 
Alaska to come to a solution that works. Our concern with this 
particular bill, as we said, is just the precedent that it 
would set and that we think there are other ways to work with 
Sealaska that we have yet to explore fully, but that this is 
not--this is not the way to go, given our interest in 
accelerating completion of the entitlement process.
    Senator Begich. I understand that. But I'm new around here, 
but I will tell you when I hear ``precedent-setting,'' there's 
nothing in this body that I've ever seen that stays the course, 
that's always the same year in and year out. One thing I have 
noticed around here is there's always tweaks and turns from the 
administration as well as from Congress, because things change. 
Conditions change.
    I think Senator Murkowski laid out an interesting comment 
in regards to the lands that suddenly became available. I use 
the word ``suddenly.'' 25 years is not really suddenly. But 
still, in fact they became available, which changed the 
dynamics. In 1971 there was a certain parameter that you looked 
at. In the 1990's that enlarged.
    So I guess I want to stress the point. I think there is a 
way to resolve this issue. What I guess I'm looking for from 
both of you actually, that you don't have the narrow window of 
a bureaucracy that says we can't set a precedent, because 
everything we do in Congress is setting a new precedent about 
everything. So I don't want you--if that's the answer, 
obviously that doesn't get to what the core issue of ANCSA was, 
which was all about management of lands for the people, and 
therefore the people need to be heard.
    I know there's conflict within our community and we're 
working through that. But I hope that the Departments don't use 
precedent-setting as the only reason. At the end of the day I'm 
looking for an answer from both of you on that, because that 
doesn't really cut it.
    Mr. Jensen. If I might jump in, I think your question is a 
perfect example of what it is the position of both the 
Department of the Interior and the Department of Agriculture we 
need to sit down and talk about these issues a little more and 
look into the circumstances of how those designations were put 
out when the law first passed and look at the situation that we 
have right now. We do have other cases that this may be 
precedent-setting for, but that's a consideration.
    So we really do look forward to sitting down and talking 
with you to figure out how we might come together in agreement 
on this.
    Senator Begich. That's a fair statement. I'll leave it at 
that.
    The only other thing I would ask--and I don't recall 
because I don't have the budget information here, but on the 
accelerated land transfers can you say, Ms. Burke, that the 
dollars you need--every dollar you need you've asked for to 
accelerate that?
    Ms. Burke. I would have to get back to you on that 
question. I cannot say whether or not without our past budget 
requests.
    Senator Begich. Can you do that for the record, not only 
from the past, but what you're preparing now for the next 
budget cycle? Because if you're not asking for the money you'll 
never accelerate. So you can't use that argument because that 
just goes around in circles. So I want to make sure that the 
resources are available. Senator Murkowski laid it out very 
well that if you're going to accelerate you need the funding. 
But you need to ask for it. If you're not asking for it, we 
can't accelerate.
    So if you could do that for the record. Mr. Chairman, if 
that's OK I'd appreciate it.
    Senator Wyden. We will hold the record open for it.
    Senator Begich. Thank you very much, Mr. Chairman. I 
appreciate the courtesy of allowing me to testify and also to 
ask questions.
    To the Alaskans here, I apologize, but I have to take care 
of some other business. But I know Senator Murkowski will be 
the lead and be aggressive in making sure all the good facts 
that you have are presented.
    Thank you very much.
    Senator Wyden. Glad to have you here. You are welcome.
    Senator Udall.
    Senator Udall. Thank you very much, Chairman Wyden.
    Ms. Burke, the New Mexico wilderness areas included in this 
bill under consideration today are in close proximity to the 
Mexico-United States border, and as we consider the merits of 
land preservation it's important to take into consideration the 
impact that land designations may have on homeland security 
efforts.
    Can you describe the working relationship between the BLM 
and the Border Patrol in areas such as Dona Ana County, and do 
you think we've made the changes we need to make to protect 
border security?
    Ms. Burke. Yes. The Department has a memorandum of 
understanding from 2006 to work cooperatively along the border 
with respect to areas that we manage. This bill actually would 
release 16,000 acres that are under the wilderness study area 
designation, so it would move the boundary line from where it 
is currently to about a half mile from the Mexican border to 3 
miles back. So we think that is sufficient space for the Border 
Patrol and other law enforcement agencies to do their important 
work.
    Senator Udall. I assume you would also work with them in 
terms of ecological value of the land and in whatever 
activities they have to carry out there also?
    Ms. Burke. Absolutely.
    Senator Udall. You have done that in the past?
    Ms. Burke. Yes.
    Senator Udall. One other question I have regards taking on 
the issue of invasive species. I know you've been doing that in 
southern New Mexico on your lands. Does changing the 
designation here hurt your efforts in any way to continue those 
kinds of efforts?
    Ms. Burke. Senator Udall, I have to get back to the 
committee on that question.
    Senator Udall. OK, that would be great. That would be 
great, if our chairman and ranking member would let us 
supplement the record on that. Thank you very much. Thank you 
both for your testimony.
    Senator Wyden. We will--we thank you.
    I think we're prepared to excuse you both at this time. 
Senator Murkowski, additional questions?
    Senator Murkowski. I appreciate the opportunity and I will 
try to be very quick.
    Mr. Jensen, you mentioned the Tongass Futures Roundtable. 
We too have been very hopeful that good things will materialize 
from the dialog and the talks that have been going on for 
several years. I am a little concerned, though, that you may be 
suggesting that we can't resolve Sealaska without the Tongass 
Futures' blessing. There currently has been a new proposal that 
has just been put out on the table in the past week. Are you 
suggesting that we should put a hold on the Sealaska measure in 
anticipation of something from the roundtable?
    Mr. Jensen. I'm glad you've given me a chance to clarify. 
Not at all. The Department's interest in the Tongass Futures 
roundtable is grounded in a place where people come together to 
talk about these issues and find if there is some common ground 
to work forward on. That's where it focuses our attention. It 
gives us an idea of some of the places where there are some 
ideas and some solutions. So we don't just look at the 
roundtable as one place to deal with Sealaska. We look at that 
as a place to deal with some of the larger issues that are 
impacting the region and the forests there and as one example 
of the collaborative type efforts that we view as potentially 
methods to have us work through these very troublesome and 
difficult issues all across the country.
    So particularly with this case here, we're simply looking 
to the roundtable for an expression from a multiple set of 
stakeholders on how they view the various issues around the 
Tongass National Forest.
    Senator Murkowski. I appreciate you saying that, because I 
don't want this to be a situation where this legislation that 
would bring, equity to the Sealaska people would be held 
hostage to a process that is certainly important, but it's also 
one that is very complicated, takes a great deal of time, and 
takes years.
    The Secretary of Agriculture has said repeatedly that one 
of his initiatives or priorities is to make sure that American 
Indians, Alaska Natives, or indigenous peoples are treated 
fairly. I would suggest to you that 38 years for the Sealaska 
people to wait for their lands is not treating them fairly.
    Mr. Jensen. I can assure you that Secretary Vilsack feels 
the same way.
    Senator Murkowski. Thank you, I appreciate that.
    Senator Wyden. Thank you, Senator Murkowski. I know we'll 
be following up with you on a number of the issues raised 
today. I will excuse you at this time.
    Our next panel: the Honorable Oscar Vasquez Butler of Las 
Cruces, New Mexico; and Dr. Jerry G. Schickedanz, also of Las 
Cruces; Byron Mallott, Sealaska Corporation, Juneau; and Bob 
Claus, Southeast Alaska Conservation Council, also of Alaska.
    All right, let's proceed. We'll start with Mr. Butler, Mr. 
Schickedanz, Mr. Mallott, and Mr. Claus. All right, please 
proceed, Mr. Butler.

STATEMENT OF OSCAR VASQUEZ BUTLER, VICE-CHAIR, DONA ANA COUNTY 
             BOARD OF COMMISSIONERS, LAS CRUCES, NM

    Mr. Butler. Good afternoon, Mr. Chairman and members of the 
subcommittee. It is my great privilege to be here at Senator 
Bingaman's invitation to testify before the Subcommittee on 
Public Lands and Forests.
    The Chairman. I do think you need to push the button once 
more, Oscar. Thank you.
    Mr. Butler. I'm sorry.
    I am honored to represent the 2,000-plus residents that we 
represent in New Mexico. There are few issues in Dona Ana 
County that have received as much attention since 2005 as the 
potential for significant public lands conservation through 
wilderness and national conservation area designations. Local 
stakeholders have dedicated long hours to realize the benefits 
that conservation can bring and have worked hard to address the 
issues and concerns.
    I am here to endorse S. 1689, the Organ Mountains-Desert 
Peaks Wilderness Act, jointly introduced by Senator Jeff 
Bingaman and Senator Tom Udall. This legislation meets the 
hopes of almost everyone involved. It assures our children and 
grandchildren will be able to enjoy these designated wilderness 
areas as have their parents and ancestors.
    From the Organ Peaks to those rare desert grasslands in the 
Potrillo and Uvas Mountains, to Broad Canyon's hidden riparian 
areas and beyond, this legislation would protect the natural 
marvels of Dona Ana County and the diversity and rich culture 
of its residents and visitors. This legislation has earned has 
earned buy-in from nearly every sector of the community that 
will be affected by its passage. That buy-in entails 
significant compromises forged by multiple groups, none of whom 
received all that they wanted, but the vast majority of whom 
received substantially what they needed to support the end 
result.
    Three times, in 2006, 2008, and 2009, the Dona Ana County 
Commissioners supported both the process and promise of 
wilderness and NCA designation for important lands in the 
county. The acreage to be protected as wilderness in this bill 
is lower than originally envisioned, but it remains impressive. 
The legislation does represent a broad consensus. Protecting 
our wilderness is securing our community's future.
    One area it will benefit is economic growth and 
opportunity. If you ever come to Las Cruces, you will see the 
Organ Mountains on many business marquees from land developers 
to local auto mechanics. Our magnificent mountains are a strong 
signature for the entire valley. Our robust growth is fueled 
largely by the attraction these natural areas provide. I 
believe businesses are increasingly concerned about the quality 
of life and view favorably the nearness of the protected public 
lands when siting operations. This is especially true of the 
high tech industry. These businesses are looking for an 
environment that will help them attract and maintain a 
motivated, energized work force, a place where they can raise 
their families. Knowing that the public lands and landscapes 
they treasure will be protected, this is the promise that 
wilderness and national conservation area designation holds to 
our community. That is why the High Tech Consortium of Southern 
New Mexico and the Hispano Chamber of Commerce de Las Cruces 
have thrown their support behind Senator Bingaman and Senator 
Udall's efforts.
    The other benefit of this legislation for our community is 
increased ability to plan, ability and clarity to plan. For 
decades now the lands in the Organ Mountains-Desert Peaks 
Wilderness have been in limbo. That makes it difficult to plan 
for the future growth from multiple standpoints. In 2007 Dona 
Ana County and the city of Las Cruces jointly entered into a 
planning process known as Vision 2040. This process, with 
dozens of public meetings and other opportunities for public 
input, will help set community priorities for the next 3 
decades. Knowing that some lands will be permanently protected 
makes our job much easier.
    Support for this legislation is widespread and prevalent 
throughout Dona Ana County. I do take strong exception to the 
statement made by opponents of this act that wilderness is 
primarily used by affluent Anglos. As an Hispanic American 
representing a community whose Hispanic population nears 50 
percent in the most Hispanic State in our country, this 
assertion by local wilderness opponents is factually incorrect. 
Hispanics enjoy strong traditions of family, community, love of 
the land, and environment. We are sportsmen and 
conservationists, businessmen and leaders who enjoy our public 
lands and New Mexico wilderness areas as much, if not more, 
than anyone else. Upon passage of S. 1689, we will all enjoy 
these wilderness areas right in our own backyards.
    I'm getting short on time, so thank you again for the 
opportunity to speak to you today on behalf of this incredible 
legislation, and I stand ready for any questions, Mr. Chairman.
    [The prepared statement of Mr. Butler follows:]

     Prepared Statement of Oscar Vasquez Butler, Vice-Chair, Dona 
       <greek-e>na County Board of Commissioners, Las Cruces, NM

                                S. 1689

    Mr. Chairman and Members of the Subcommittee, I appreciate the 
opportunity to appear before you today to speak in favor of S. 1689, 
The Organ Mountains--Desert Peaks Wilderness Act, introduced by 
Senators Jeff Bingaman and Tom Udall. My testimony represents my own 
personal strong support for this important conservation initiative, as 
well as that of the entire Board of the County Commission for Dona Ana 
County, which unanimously passed a resolution in support of The Organ 
Mountains--Desert Peaks legislation on September 22, 2009.
    Mr. Chairman, I highly commend Senator Bingaman and his colleague 
Senator Udall for their good work, diligence and dedication in 
developing this far-reaching, well-thought-out proposal to protect 
forever some of the most scenic and environmentally important lands in 
Dona Ana County and, indeed, the entire State of New Mexico. Senator 
Bingaman has championed this proposal over many years, taking his time 
to ensure he reached out to all interested parties, listened to their 
concerns and recommendations, and developed a broad-based piece of 
legislation that represents a very reasonable compromise that will 
protect our cherished lands and the rights of the people to enjoy them.
    Senator Bingaman listened to his constituents--those who love and 
cherish these lands--and developed, through a collaborative process, a 
solid piece of conservation legislation. Adjustments were made in both 
the scope and policies contained within the proposal and, while not 
everyone is 100 percent satisfied, I believe everyone was heard by the 
Senator.
    Mr. Chairman, the legislation before the Subcommittee today 
represents what can be accomplished through the true spirit of 
cooperation and compromise. I can assure you that the vast, vast 
majority of the citizens of Dona Ana County and the State of New Mexico 
support Senator Bingaman and Udall's efforts. From sportsmen to local 
businesses, horsemen to hikers, there is a consensus that these special 
lands deserve the protection this legislation will provide.
    Mr. Chairman, let me take this opportunity to tell you a little 
about my background and the great County I have the privilege to 
represent.
    I currently serve as the Vice-Chair of the Dona Ana County Board of 
Country Commissioners, having been first elected to the Board in 2002. 
I have also served my community in many other capacities, including: 
President of the New Mexico Association of Counties; board member of 
the New Mexico Water Dialogue Board and the Lower Rio Grande Water 
Users' Organization; past chairman and current board member of the 
South Central Solid Waste Authority and the Dona Ana County Extra 
Territorial Authority; and past president of the Dona Ana County Water 
Association.
    Dona Ana County is the second-largest populated county of the 
state's 33 counties, and comprises some 3,800 square miles of 
territory. I have the great honor to represent the largest commission 
district, District 1. The County has a population of just over 200,000, 
but is expected to continue to grow to over 300,000 by 2015. The county 
seat, Las Cruces, is considered to be one of the fastest growing 
communities in the United States.
    As a result Mr. Chairman, our communities know full-well the 
difficulties involved in managing development and growth, and we are 
particularly aware of the importance of protecting open space. In fact, 
it is these very lands that have rooted our ancestors to this area and 
serve to draw new citizens every day. Our way of life is tied to the 
majestic landscapes and way of life that this legislation seeks to 
protect.
    Mr. Chairman, pristine natural areas provide unique opportunities 
for recreation and tourism that contribute to the local economy. 
Additionally, I believe businesses are increasingly concerned about 
quality of life, and view favorably the nearness of protected public 
lands when siting operations. That is why over 200 local businesses, 
along with the Hispano Chamber of Commerce de Las Cruces, and the High 
Tech Consortium of Southern New Mexico have endorsed this conservation 
effort. The areas offer excellent opportunities for hiking, hunting, 
camping, climbing, horseback riding and, perhaps most important, quiet 
solitude for our citizens to enjoy and relax in when the work day is 
done.
    The Organ Mountains-Desert Peaks Wilderness Act will promote future 
growth by securing the special quality of life our County has to offer. 
Dona Ana County and the City of Las Cruces are cooperatively working 
together on a joint plan known as Vision 2040. This comprehensive 
analysis of our future needs as our population continues to grow will 
inform many facets of our land-use planning processes, including 
transportation options and economic development. Senator Bingaman and 
Senator Udall's legislation provides us with much needed clarity on 
public lands conservation and will help the Vision 2040 process, 
ensuring our community's growth is well planned and prepared for.
    In fact, Dona Ana County has long recognized the important 
opportunities protecting our local wilderness areas offers. In February 
of 2006, we passed a resolution supporting protection of regional 
wilderness study areas and additional public lands prized by our 
community. In 2008, we again passed a similar resolution in support of 
preserving our most sensitive public lands. And, throughout the 
development of this legislation, we have worked closely with Senator 
Bingaman and now Senator Udall. Thus, our unanimous resolution passed 
on September 22, 2009, in support of the Organ Mountains-Desert Peaks 
Wilderness Act was the culmination of years of effort.
    The nearly 359,850 acres of public land the bill will protect 
(259,000 acres as wilderness and over 100,000 acres as a National 
Conservation Area) includes rich grasslands in the Potrillo and Uvas 
Mountains, petroglyph sites and riparian areas in Broad Canyon, crucial 
watersheds, and the iconic spires of Las Cruces' signature scenic 
attraction--the Organ Mountains. These lands also possess great 
ecological value, with the Organ Mountains perhaps being the most 
botanically diverse mountain range in New Mexico, with approximately 
870 plant species. The area is rich with wildlife, including pronghorn 
antelope, mule deer, mountain lions, quail, and numerous other bird 
species.
    Perhaps Senator Bingaman said it best when he noted that, ``The 
Organ Mountains are among the many scenic landscapes in Dona Ana County 
that define Southern New Mexico and the rich culture of its people.'' 
That is why I am here today to testify before the Subcommittee, Mr. 
Chairman---to ensure that these majestic, culturally important, 
environmentally sensitive lands that make up our community will be 
protected and properly managed for this and future generations to enjoy 
in all their splendor.
    Again, I offer my deep appreciation to Senators Bingaman and Udall 
for their outstanding work on behalf of this fine effort to protect an 
area very dear to me and the citizens of Dona Ana County. And, thank 
you, Mr. Chairman, and the Members of the Subcommittee, for your 
attention to my statement in Support of the Organ Mountains--Desert 
Peaks Wilderness Act.
    Mr. Chairman, I am also submitting several documents for the 
record, including three different resolutions passed by the Dona Ana 
County Commission supporting protection of regional wilderness areas, a 
list of supporters of this Act, opinion editorials from the Mayors of 
Las Cruces and Mesilla and the Chair of the Dona Ana County Commission, 
as well as from local sportsman leaders, and editorials from the Las 
Cruces Sun News and Albuquerque Journal endorsing the Organ Mountains-
Desert Peaks Wilderness Act. This concludes my written testimony.

    Senator Wyden. Thank you very much, Mr. Butler.
    We're running into a little bit of a logistics challenge 
with some votes coming up at 4 p.m. So in the great bipartisan 
tradition of this committee, we have worked it out so that when 
you have completed, Dr. Schickedanz, your testimony, Senator 
Bingaman and Senator Udall would like to ask you some questions 
briefly, and the New Mexico Senators and I will have to leave. 
We're going to turn this over to Senator Murkowski to run the 
rest of the hearing.
    I just want all of you to know that the subcommittee chair 
will be following up closely on all your views. We feel badly. 
This time of year things get a little hectic.
    So we'll go now to you, Dr. Schickedanz, and the questions 
from Senator Bingaman and Senator Udall. Please proceed.

STATEMENT OF JERRY G. SCHICKEDANZ, PH.D., CHAIRMAN, PEOPLE FOR 
        PRESERVING OUR WESTERN HERITAGE, LAS CRUCES, NM

    Mr. Schickedanz. Thank you, Mr. Chairman. I've practiced my 
5 minutes and, unless I get scared and revert back to my Okie 
drawl, I should be done in time.
    Mr. Chairman and members of the committee: My name is Jerry 
Schickedanz. I am Chairman of the People for Preserving our 
Western Heritage, a coalition of 791 businesses and 
organizations in Dona Ana County, New Mexico. The organization 
was formed in November 2006 after a series of meetings among 
Federal lands stakeholders organized by the county of Dona Ana 
and the city of Las Cruces to establish a consensus on proposed 
wilderness designations for ten local areas.
    The mission of People for Preserving Our Western Heritage 
is to preserve, promote, and protect farming and ranching and 
the rural heritage of our western lands. We support permanently 
preserving and protecting the Organ Mountains and the other 
special areas of our county.
    We believe there are viable alternatives to Federal 
wilderness designations that can be used to protect our land, 
our natural resources, and our open space. We encourage and 
believe in beneficial and balanced stewardship of our Federal 
lands, which requires an accurate understanding of the facts.
    Senators Bingaman and Udall introduced S. 1689, the Organ 
Mountains-Desert Peaks Wilderness Act. Upon reviewing it, we 
feel there are some issues that were overlooked. We believe: 
One, that not all the lands proposed for wilderness designation 
meet the wilderness standard;
    Two, there is a need to develop new land protection 
designations;
    Three, that border security needs to be considered very 
carefully; and
    Four, that language concerning grazing needs to be placed 
in a higher level in the bill.
    Dona Ana County in the Southwest has been used for food 
production since the earliest record of man in the valley. 
There has been livestock in the area since 1598, when Onate 
crossed into now present day New Mexico. These lands have been 
used for the continuous production of primary wealth. Wildlife 
has been set aside since the 1920s and inventoried and 
protected under the Wilderness Act of 1964.
    Initially, these lands met the strict interpretation of the 
Wilderness Act that included 5,000 acres of roadless area free 
of sight and sound of man, and were essentially untrammelled. 
Currently there is over 100 million acres of land protected in 
Federal wilderness in the United States
    Lands being considered now don't meet those criteria. We're 
trying to protect lands under the Wilderness Act with the gold 
standard of protection. However, these lands don't meet the 
gold standard of wilderness character.
    There are other ways to protect lands. Citizens of Dona Ana 
County and the People for Preserving Our Western Heritage agree 
on the need for protection. We just don't agree on the method. 
We have suggested a rangeland protection area designation as an 
alternate method of land protection. We feel it is time to 
develop a new land protection designation that is not as 
restrictive as the wilderness designation, to correspond with 
lands that are not meeting the gold standard of wilderness.
    We have grave concerns about giving wilderness designation 
to lands adjacent to the border, with all the inherent security 
issues such as illegal trespass, illegal transport of drugs and 
of people, land desecration, while putting life and limb in 
serious jeopardy. We have outlined in detail problems in 
Arizona with wilderness designation and the problems that law 
enforcement and border control encounter and the unfortunate 
situation that has evolved.
    We feel that grazing needs to be elevated in the bill to 
the same level of purpose as is given to other protected 
designations, such as cultural, geological, historical, 
etcetera.
    For these and many other concerns listed in my written 
testimony, we feel there needs to be further dialog and 
negotiation between Dona Ana County citizens and this 
committee. Mr. Chairman, Senator Bingaman, and members of this 
committee, this legislation will have a major impact on 560 
square miles of Dona Ana County and on the over 200,000 
citizens who reside there. We strongly suggest this committee 
hold a field hearing where the land and the people exist so 
that all issues and interests can be fully aired and discussed 
with the folks most affected.
    I brought with me signatures of 15 ranchers who ranch on 80 
percent of the lands slated for wilderness and NCA, who object 
to the bill as it's currently written. I also have a list of 
791 business organizations in Dona Ana County and adjacent 
counties who also object to the bill as being currently too 
restrictive. I would like to place those into the record if I 
might.
    Senator Wyden. Without objection, it will be done.
    [The prepared statement of Mr. Schickedanz follows:]

Prepared Statement of Jerry G. Schickedanz, Ph.D., Chairman, People for 
            Preserving our Western Heritage, Las Cruces, NM

                                S. 1689

                      INTRODUCTION AND BACKGROUND

    I am Jerry G. Schickedanz, Chairman of People For Preserving Our 
Western Heritage (PFPOWH), a coalition of 791 businesses and 
organizations in Dona Ana County, New Mexico. The organization was 
formed in November of 2006, after a series of meetings among federal 
lands stakeholders organized by the County of Dona Ana and the City of 
Las Cruces to establish consensus on proposed wilderness designations 
for ten local areas.
    The mission of PFPOWH is ``To preserve, promote and protect the 
farming, ranching and rural heritage of our western lands.''
    We support permanently preserving and protecting the Organ 
Mountains and the other special areas in our county. We believe there 
are viable alternatives to federal ``Wilderness'' designation that can 
be used to protect our land, our natural resources and our open space. 
We encourage and believe in beneficial and balanced stewardship of 
federal lands which requires an accurate understanding of the facts.

                         COMMUNITY EXPECTATIONS

    As the result of the many meetings with the stakeholder groups, 
PFPOWH concluded that no existing land use designations in use by the 
federal government provides for protection of the land while meeting 
the concerns and expectations of our community. Community expectations 
for the management of our public lands are as follows:

          1. Retention of open space.
    Almost everyone is committed to the preservation of our open space.
          2. Provision for planned economic and population growth.
    The population of Dona Ana County is going to grow. That growth 
will require some federal and state lands to be included within the 
scope of land use planning. Prohibiting the sale of public lands cannot 
be used as a tool to restrict the growth of local communities. FLPMA 
promises that to us.
          3. Unrestricted application of Homeland Security and law 
        enforcement activities.
    No prudent leader should tie the hands of law enforcement on or 
near the Mexican border.
          4. Prevention of unlawful use of off road vehicles.
    The ranchers were the first and foremost advocates of this, but 
they were not alone. Every group and every stakeholder representative 
supported the prevention of unlawful off-road vehicular traffic.
          5. Continued access for all segments of the public.
    The USDA's 2007 Forest Service ``National Visitor Use Monitoring 
Report'' indicates a continued decline in visits to Wilderness areas by 
members of the general population. Currently only 3.1% of visits to our 
national forests are into Wilderness areas, and 94.5% of those visitors 
are white. In other words, Wilderness is for rich, white people.
          6. Perpetuation of traditional ranching operations.
    There is a growing understanding that intact ranch operations are 
the best mechanism to maintain the viability of open space in the West.
          7. Access for flood control and water capture projects.
    Dona Ana County is part of a desert ecosystem. Most of our annual 
rainfall occurs during the months of July, August and September. Sudden 
flood causing downpours are common. Our local Elephant Butte Irrigation 
District has initiated innovative measures to control those flood 
waters, protecting the populated areas from damaging floods by 
directing the runoff into the irrigation distribution and drain canal 
system where it recharges the Rio Grande aquifer and supplements 
irrigation water under the Rio Grande Compact. Those initiatives are at 
risk by overly restrictive federal lands legislation.
          8. Enhancement of wildlife and rangeland health.
    Scientific study has confirmed the improvements to plant and 
wildlife communities that result from prudently managed livestock 
grazing programs. Virtually all of the permanent water sources 
available to wildlife in Dona Ana County, other than the Rio Grande, 
are the result of livestock water facilities developed and paid for by 
livestock operators.
          9. Fidelity of Wilderness.
    Most of the proposed Dona Ana County Wilderness areas do not meet 
the fidelity standards of wilderness. William L. Rice, Deputy Chief of 
the Forest Service and NRCS (retired), wrote a column in which, he 
says, ``In order for Wilderness designations to remain significant, the 
original premise of Wilderness must be held inviolate (Exhibit B)*
---------------------------------------------------------------------------
    * All exhibits have been retained in subcommittee files.
---------------------------------------------------------------------------
                     PROPOSED NEW LAND DESIGNATION
                       RANGELAND PRESERVATON AREA

National Conservation Area Revealed as Rangeland Preservation Area
    Implicit in this testimony is a process that developed extensive 
discovery of facts and also educated and built a coalition that 
recognized a wide variety of factors which impact the area today as 
well as the future. In building the near 800 business and organization 
pledges of support, a land designation was sought to provide the long 
term protection of wilderness, but to also elevate into the designation 
factors of human involvement with the land. There was no federal 
designation of land that accomplished that. As such, the idea of 
Rangeland Preservation Area (RPA) was conceived.
    Under the RPA concept, the lands would be withdrawn from all forms 
of disposal, the mineral leasing laws and the mining laws, just as they 
are in wilderness. Off highway vehicle traffic would be prevented, with 
certain exceptions made for law enforcement, flood control projects and 
range improvement projects. Surface management would be based on 
multiple use principles with an emphasis on retaining open space.
    PFPOWH heard from Senator Bingaman that it would be hard to pass 
any new land designation. This meant that if any alternative 
designation was to be considered it would most likely be a National 
Conservation Area (NCA) designation. This testimony may not alter that 
realization, but, it does honor the position and the commitment of a 
coalition that remains adamant that there is a local aspect of this 
process that needs to be recognized as legitimate. As such, the NCA 
approach will be couched in terms that inspired and grew from a group 
of stakeholders that allows productive utilization of lands with 
appropriate limitation and the recognition that it is time to elevate 
the presence of human stewards to laws that affect communities and 
industries across this country. It prescribes the allowable uses at a 
local level, which may be modified from ecosystem science discovery. It 
differs from Wilderness by recognizing the presence of human 
activities, past, present, and future, in a resourceful and positive 
manner.

Why Rangeland Preservation Areas Versus National Conservation Areas
    There are a number of reasons that PFPOWH vigorously recommend a 
new land designation, but two reasons stand apart.
    The first is rangeland health and the need to acknowledge and 
benefit from the advancement of range stewardship and science. There is 
not a federal designation, administrative or legislative, that elevates 
``rangeland'' health and improvement to the wording in the law. For too 
long, the antagonistic assault on the grazing of livestock and 
``extractive industry'' endeavors on western lands has been unchecked 
and even advanced by Congressional action. Our country is on the 
threshold of a series of shortages promulgated by actions that threaten 
our security and our liberty. We must adopt a different approach. 
Rangeland health issues must be elevated to a new level of importance 
that preserves and enhances the natural health of the land.
    The second point is the fact that there is not a single purpose or 
point of recognition in federal land management procedures and policies 
that relates to the social fabric of human endeavors. Humans have been 
tied to the stewardship of livestock in this county since 1598, when 
Onate crossed the river at what is now El Paso with several thousand 
head of domestic livestock. The West needs a land designation that 
engages rather than disengages stakeholder relationships with federal 
land management agencies. Social fabric issues must be elevated to 
points of the law. A new, different approach must be conceptualized and 
implemented.
    It has been argued that BLM will not accept and Congress will not 
enact a new and unique land management designation such as RPA. That 
argument denies the fact that Congress has already created four unique 
land management designations that are a part of the National 
Conservation Area (NCA) category within the National Land Conservation 
System. Congress has developed new and innovative ways to assist the 
automobile, banking and housing industries, why not the livestock 
industry?

Why Rangeland Preservation Areas Here and Why Now
    Perhaps for the first time, a stakeholder group has conceptualized 
an idea that would engage and enhance federal land user relationships 
in the West. That idea of RPA responds to the plea that is coming from 
every corner of the West . . . to find some means to engage, rather 
than destroy, historic stakeholder relationships with federal land 
management agencies.
    At the local level in Dona Ana County, New Mexico, we believe it is 
possible to create a relationship among New Mexico State University, 
the United States Department of Agriculture (Jornada Range), the Bureau 
of Land Management, Homeland Security, New Mexico Game and Fish, the 
Department of Defense, the ranching community, and the conservation 
community with the specific intent of creating a model that can serve 
as a world standard for sustainable rangeland health and productivity. 
The pieces are all in place. The results could be techniques and 
practices that improve native ranges in a way that allows for 
utilization of our natural resources while protecting our environment 
and the fabric of our culture. We have a rare opportunity to create a 
model the West and the world can emulate. Through this effort, our 
county could become one of the foremost destinations in the world to 
study and learn of substantive measures to maintain a robust and 
healthy balance in RPA ecosystems.
    More than 790 organizations and businesses in Dona Ana County have 
joined a coalition of PFPOWH supporters who recognize the potential 
benefits of the RPA proposal as a viable alternative to Wilderness 
designations to preserve the federal lands in Dona Ana County. They 
recognize that the wholesale designation of Wilderness areas in this 
county would be dangerous, ill conceived, and not in the best interest 
of our citizens.
    Neither multiple use nor Wilderness designation can satisfy all 
nine expectations that came from this process. No existing federal land 
designation can satisfy all the expectations. RPA designation would 
exceed any other designation in meeting these expectations.

         EXPANSION OF OTHER FACTORS THAT AFFECT THE LEGISLATION

    The summary of community expectations that was presented above was 
derived from an extended process. There were specific factors that were 
considered in each expectation. Among the most important factors were 
the following:

  <bullet> Border and Homeland Security
  <bullet> Range Improvements
  <bullet> Water Projects
  <bullet> Energy Corridors
  <bullet> Rail Line Access
  <bullet> Renewable Energy Projects
  <bullet> Mines
  <bullet> Oil and Gas Leases
  <bullet> Rights-of-Way
  <bullet> Grazing
  <bullet> Wilderness Degrading Infrastructure
  <bullet> Renew New Mexico and Stewardship Projects-Current
  <bullet> Renew New Mexico and Stewardship Projects-Future

                      BORDER AND HOMELAND SECURITY

    Border and Homeland Security is the most important aspect of all 
discussion of the proposed legislation. Wilderness on or near the 
Mexican border is dangerous, it is illogical and it affects every 
American.
MOU Discussion
    In 2006, the Departments of Homeland Security, Agriculture, and 
Interior signed a Memorandum of Understanding (MOU) that set out the 
process for the Border Patrol to access federal lands for the purposes 
of tracking, surveillance, interdiction, establishment of observation 
points, and installation of remote detection systems along the United 
States border with Mexico. For something as important as national 
security, why would the Border Patrol be constrained beyond the 60 foot 
``Roosevelt Reservation'' directly adjacent to the border and be under 
the oversight and control of Federal land managers within the National 
Park Service, the U.S. Fish and Wildlife Service, the Forest Service, 
the Bureau of Land Management and the Bureau of Indian Affairs? The 
answer was that, when Border Patrol activities impacted designated 
federal wilderness where mechanized entry was not allowed by the 
Wilderness Act of 1964, land management goals and missions between the 
Border Patrol and the federal land management agencies were at full 
odds and the conflict escalated dramatically.
    The problem became so intense that in 2003 Senator Kyl (R-AZ) 
demanded that ``unnecessary restrictions'' be ``dumped'' from national 
park land along the Mexican-Arizona border. Finally, in March of 2006, 
the Secretaries of Homeland Security, Interior and Agriculture signed 
the agreement. The question is did it work?
    In a 2009 document submitted by the Park Service to Congress, there 
is a paragraph on page 15 which addresses that question directly. It 
reads, ``With the increase in Border Patrol agents in the monument, 
there is a direct correlation to more impacts on resources from 
enforcement operations since under the 2006 MOU they have access under 
specific situations with mechanical means to the monument to include 
wilderness areas. These events lead to enormous challenges between 
agencies as we attempt to manage these resources.''
    Repeated questions by Dona Ana County citizens to Senator 
Bingaman's staff about the assurances that the Arizona conditions will 
not be repeated in New Mexico brought repeated references to Border 
Patrol responses that there is an MOU in place to deal with access. 
PFPOWH is convinced by the exhaustive research that such an expectation 
is erroneous and dismissive of the facts in Arizona. In no case will an 
MOU supercede legislation. In no case will the Border Patrol be 
effective if it has to submit written requests for access for issues 
other than hot pursuit, and in no case will local law enforcement 
agencies even have access to request allowances. On page 9 of the MOU, 
Section V.F. reminds all that the MOU is only an agreement among the 
agreeing agencies.
    Moreover, the MOU is symbolic of the dilemma that all agencies have 
faced with border wilderness. It came into being because of conflict, 
and the conflict in missions continues between Border Patrol and the 
Park Service resulting with a flow of illegal drug and human smuggling 
on federal lands adjacent to the Mexican border in Arizona.
    Finally, the MOU has never been tested in New Mexico. Poll any 
Border Patrol agent who has ever been on the New Mexico border and not 
a single one will say that he or she has had a incident whereby a 
Wilderness Study Area has restricted any activity relating to 
interdiction or apprehension, especially any situation that was policed 
or prohibited by a BLM ranger. Such an incident simply doesn't exist, 
and, therefore, never has the MOU been forced into action. So, asking a 
New Mexico Border Patrol representative if he has a problem with the 
MOU is meaningless. They have never had a problem so how can they 
respond to a question of whether the MOU causes them any concern. A 
similar question posed to a Border Patrolman on the Arizona Border in 
1990 before the onslaught of human tidal wave action began about 
wilderness would have yielded exactly the same answer. Those that were 
there had no idea what a buzz saw it would become.

The Arizona Experience
    For hundreds of years the desert of what is now Arizona has been 
the route of goods coming north from Mexico. The flow of merchandise 
was created by demand from citizens and settlers of del Norte, the 
expanse of territory generally north of the 54th Parallel. Over time, 
the goods became as often illegal as they were legal. Today, the goods 
passing through the rural, isolated expanse of sand, rock and heat are 
more often than not, illegal. The circumstances and conditions 
surrounding the flow are dangerous, and the consequences of stemming 
the tide must be a national priority.
    In the early 1990's human and drug smuggling got so intense in the 
urban centers of southern California and places like El Paso, Texas, 
that American citizens demanded that something be done. The Border 
Patrol responded with a series of operations intending to pinch off the 
flow of illegal entry in the urban areas and force that flow out into 
rural areas where interdiction and apprehensions could be done more 
effectively. Starting in El Paso in 1993 with Operation ``Hold the 
Line,'' followed by Operation ``Gate Keeper'' in San Diego in 1994, and 
concluding with Operation ``Safeguard'' in Nogales in 1995, the Border 
Patrol turned up the heat. What they found in El Paso was that 
apprehensions went down in the city and in the sector as a whole. What 
they did was working. In San Diego, there was a brief lag followed by 
the same pattern of decline in apprehensions and interdiction that El 
Paso experienced.
    Where the San Diego and El Paso operations were successful, the 
Nogales operation failed. What developed was that apprehensions and 
interdiction sky rocketed as the hordes of illegal immigrants that were 
turned away in San Diego came to the deserts. Something happened and it 
happened in a big and unexpected way. Border Patrol retired officials 
will admit that they were ready for the wild land on the Arizona 
border, but they were completely blindsided by the restrictions of the 
federal designated Wilderness that was being administered by the DOI 
through its Fish and Wildlife Service and National Park Service. While 
the federal land agencies dug in to enforce wilderness access issues 
with the Border Patrol, the illegal immigrants found a haven of entry 
that has become the dominant feature in the movement of human and drug 
smuggling on the border.
    Data will show that all categories of crime not only went up, they 
exploded. Deaths in Organ Pipe went from only occasional deaths to over 
200 per year. Deaths are currently estimated to be 300-500 per year. 
Where there were no roads, drug cartels made roads. Where there were no 
trails, human masses trekking northward made trails. National 
Geographic named Organ Pipe National Monument the most dangerous park 
in the American system. It got so bad that signs are posted warning 
travelers not to stop for dead bodies! One retired Border Patrol agent 
talked about being involved in an operation whereby 19 bodies were 
recovered in one operation out on the western boundary of the Cabeza 
Prieta Wildlife Refuge in designated wilderness. The Border Patrol was 
not allowed to drive to the bodies. They flew, and even then there were 
ramifications and threats. The agent talked with trepidation of the 
smell in the helicopter for months following that harrowing event.
    Whole industries have grown up opposite the expanse of national 
park lands supporting the flow of illegal immigrants northward. Buses 
run around the clock on Mexican Highway 2. Videos are played educating 
illegal immigrants how to avoid American Border Patrol activities, how 
to survive in the wilderness and what to expect. Passengers can halt 
the buses at any point and commence their treks northward. By Park 
Service estimates, illegal immigrants outnumber paid park visitors at 
least ten to one. Border Patrol officials believe that number is at 
least half of the actual.
    Park Service officials at Organ Pipe did a study to quantify the 
impact on the monument. In a representative one square kilometer area 
out in the designated Wilderness of the Valley of the Ajos, an 
unsuspecting family taking an afternoon hike would encounter the 
following:

  <bullet> seven illegal rest sites
  <bullet> 15 sets of illegal vehicle tracks
  <bullet> 40 sites of illegal trash disposal
  <bullet> 48 discarded water bottles
  <bullet> one set of illegal bicycle tracks
  <bullet> one set of illegal horse tracks
  <bullet> three illegal abandoned camp fires
  <bullet> 254 illegal foot trails

    The foregoing was all on designated wilderness where mechanized 
entry is not allowed and where, to this day, the ability of the Border 
Patrol is constrained by wilderness policy.

The Texas Phenomena
    While investigating the Arizona border threat, a High Intensity 
Drug Trafficking Area (HIDTA) report was found. It revealed information 
that PFPOWH believes has never been exposed to Congress or the American 
people. Data from Aerostat summaries was analyzed and set forth in a 
manner that attempted to quantify radar and drug interdiction events by 
mile of border. The result of the analysis is as follows:


 
----------------------------------------------------------------------------------------------------------------
                                                          CARTEL RADAR CONTACTS               DRUG SEIZURES
----------------------------------------------------------------------------------------------------------------
TEXAS                                                                              06                       .02
----------------------------------------------------------------------------------------------------------------
NEW MEXICO                                                                        .11                       .30
----------------------------------------------------------------------------------------------------------------
ARIZONA                                                                           .60                       .53
----------------------------------------------------------------------------------------------------------------
(per mile of border)

    Why do cartel aircraft radar contacts run one contact per nearly 20 
miles of border in Texas while in Arizona they run one per less than 
two miles of border a rate that is ten times higher than Texas? 
Likewise, why do drug seizures run one per 50 miles of Texas border 
while seizures in Arizona run one in less than two miles of border? 
Three retired Border Patrol officials were asked that question.
    The first, Gene Wood, former chief of the McAllen (Texas) sector 
said, ``You've got private ownership of land with a very aggressive 
citizenry in Texas protecting their property rights. They interact 
immediately and continuously with the Border Patrol and the Border 
Patrol has full and unencumbered access to everything, at any time, 
(and) for any reason.''
    Next, Richard Hays, former Chief of Flight Operations, United 
States Border Patrol, responded to why the New Mexico result is 
intermediate between the Texas and Arizona results. He said, ``Like 
Arizona, there is a domination of federal lands along the border, but 
New Mexico still has a resident ranching community. Go over into 
Arizona and nearly the entire border is federally controlled land. The 
ranchers have been eliminated or so decimated that they can no longer 
maintain a dominant presence. They are gone from the monuments and the 
wildlife refuges, and the infrastructure that they built and maintained 
is gone as well. The Forest Service allotments are so gutted that those 
folks are in a precarious position, and the Tohono O'odon Reservation 
and the BIA has no idea how to control the situation.
    The third official, Jim Switzer, former Yuma Sector Chief and 
current chair of the National Association of Retired Border Patrol 
Officers said, ``New Mexico and Texas still have a vested, engaged, and 
resident population of citizens who will protect their private property 
rights. Their Arizona counterparts have been largely eliminated. Where 
there are resident Americans who have property rights at risk, there 
remains a working relationship with the Border Patrol. If there is 
activity, the Border Patrol will be contacted and welcomed. That is not 
the case where only federal (land) agencies are present.

The Mirror Effect
    Mr. Wood, former McAllen Sector chief, prompted a further 
investigation into something that had started to appear in the 
investigative process. He said, ``In Texas, there is a united front 
that is committed to protecting the border and eliminating drug 
running. Interestingly, there is also a strong influence adjacent to 
the border. Where there is long standing American (land) ownership 
there is normally a strong Mexican counterpart.''
    Two issues stand out in that statement. The first is whether or not 
there is a mirror effect of activity adjacent to the maize of free 
flowing corridors running north from the border on park lands. The 
study from Organ Pipe describes that phenomenon exactly. On lands of 
Organ Pipe's sister park, the Mexican El Pinacate Biosphere Reserve 
where once pristine lands spread for miles across the desert, a whole 
infrastructure of businesses has grown up supporting the migration of 
drugs and humans northward. Colonias, illegal roads, bus stops, filling 
stations, barber shops, tire shops and trash and destruction of the 
natural environment have spread across the entire area. American 
policies have extended the environmental destruction across the border.
    As for the issue of mirror images of land ownership, Mr. Wood's 
comments become even more intriguing. Could it be possible that social 
implications of the mirror effect exist? The argument that evolved from 
Mr. Wood's comments has huge implications. It is this. Where a strong 
American exists on the border normally a strong counterpart exists. The 
American, protecting his property rights, is a formidable foe. He will 
not put up with nonsense and the Mexican counterpart knows that. The 
Mexican (or the American in a reverse situation) is put in a situation 
whereby he is less willing or inclined to do something that will breach 
that unwritten relationship. If one of them is removed, however, a new 
relationship is without boundaries. Time and a personal relationship 
have not cemented any demand on etiquette or standards. If there is a 
new party that is inclined to do something illegal or is inclined to 
submit to a bribe, then all bets are off and a breach in security is at 
hand.
    That is exactly what has happened in Arizona. Drug cartels can 
simply buy out unopposed, unsupported property owners. The internal 
policing action is eliminated. Think of the implications. Where there 
are strong relationships in Texas that exist without additional cost to 
the American tax payer, they, in large part, no longer exist in 
Arizona. How expensive is the dismantling of that relationship 
mechanism? Who knows what the cost to society is, but we do know that 
the cost of policing action on the 30 miles of Organ Pipe boundary it 
is now running $1,922 million a year (and that does not include Border 
Patrol costs on the same 30 miles of border). In the 2009 Park Service 
document cited herein, that sum appears to be in jeopardy of 
increasing. The report notes that ``in the last six months, the park 
has seen a significant increase in vehicle based smuggling.''
    The committee is asked to consider that land agencies and 
conservation groups alike have waged a war against grazing on public 
lands. For the first time, there is evidence to show that there are 
large opportunity costs in removing federal lands ranchers. In Texas, 
the ranching community continues to provide a costless buffer for 
American security interests. In Arizona, those folks have been 
decimated, and the flood gates of human and drug smuggling has been 
opened without hope of nearby recovery.

The Road and the Railroad Track
    In explanations from Senator Bingaman's staff as to the assurances 
of absolving security risks, the MOU (described herein) and the issue 
of a buffer added to the south side of the Potrillo Mountain complex 
for Border Patrol access and interdiction efforts are repeated. Again, 
retired Border Patrol officials who are not afraid of career issues 
step forth and talk. It is not the proximity of the border itself to 
the border wilderness boundary that poses the greatest risk to this 
nation. It is the proximity of the nearest east west road to the border 
wilderness boundary that is the danger.
    In the Arizona situation, Mexican Highway 2 played an immense role 
in moving the soft point of entry from urban centers to the desolate 
wilderness areas of national park lands. The path of that parallel 
highway to the border varies, but it ranges up to several miles from 
the border fence itself. Data from the Park Service data indicates that 
entry points are continuous along the boundary; hence, illegal 
immigrants are walking north from the highway in a myriad of places and 
from a large variation in distances. Retired officials remind us that 
New Mexico Highway 9, the nearest east west road adjacent to the 
Potrillos is the real risk factor, not the border. Cartels will probe, 
and move, and jockey, and adjust and they will find the soft points. On 
the whole, they will not be sending dope north from Mexico by human 
transportation. Rather, they will stage the dope and deliver it by 
vehicle to points along Highway 9. They will then run it north, either 
by vehicle where a 1.5 to 3 mile buffer is eaten up in less than three 
minutes, or by starting simultaneously a number of runners going north 
through the proposed wilderness to points along I10 or to the next 
stage from I10 north through more proposed wilderness in the Uvas or 
Broad Canyon areas to stage termination points along Highway 26. 
Remember, Organ Pipe cannot control mechanized access with 28 law 
enforcement agents dedicated to law enforcement and an unknown number 
of Border Patrol officials all protecting 30 miles of wilderness border 
with Mexico, so how can anyone think that a single BLM ranger and an 
unknown number of Border Patrol agents halt all entry along the a 
similar expanse of land with 23 miles of boundary exposure?
    Finally, the modernized Burlington Northern Santa Fe Railroad line 
forms a portion of the Potrillo Mountain complex on the northeast side 
of the proposed plan. Ask any national security expert what that rail 
line poses in terms of a national security risk, especially the issue 
of weapons of mass destruction and there will be a single, united 
response.

                           RANGE IMPROVEMENTS

    The Dona Ana County wilderness proposal is hard pressed to maintain 
the fidelity of the original standards of 1964. It would be difficult 
for anyone to find 5,000 acres of contiguous lands that are largely 
untrammeled by man. In fact, there four wells, 16 improved springs, one 
building, 11 corrals, 60 earthen reservoirs, 13 water storage tanks, 31 
troughs, and three windmills within the footprint of the proposal 
(Exhibit C).
    In discussions with the BLM in the summer of 2008, two of the 
permittees asked for preliminary consideration for a series of 
pipelines and troughs from existing water sources to better utilize 
lands where cattle must walk three miles to water. The response was 
inconclusive because the location of the troughs would be within a mile 
of the footprint of a Wilderness Study Area (WSA). If BLM 
administration concludes that improvements within a mile of a WSA are 
going to be subject to stricter wilderness management demands, ranchers 
affected by Wilderness designation are concerned that the footprint of 
the designated land affects improvements out to a mile buffer of the 
boundary. If that is the case, the impacted improvement inventory 
expands to 20 wells, 19 springs, 11 buildings, 34 corrals, 116 earthen 
dams, 35 water storage tanks, 85 troughs and 10 windmills.
    Data from New Mexico State University and elsewhere confirm that 
when the temperature reaches 103 F, a cow and her calf, a pair, will 
drink upwards of 32 gallons of water per day. In this desert 
environment, such a day is expected. Any steward of the range has 
nightmares of finding cattle that are standing in front of an empty 
trough bawling in desperation. Experiencing this event one time will 
forever impact your tolerance for constraints that limit the ability to 
maintain adequate water supplies. Every one of those same stewards 
knows that when such a condition is impacting cattle it is impacting 
wildlife as well. Monitoring water and water supplies is a daily demand 
in this desert country. Any limitation of not doing so is not just an 
economic hardship, it has inhumane consequences.
    Using our model prompted by the BLM wilderness buffer management 
expectation, there are 60 miles of underground pipeline affected by 
this proposal. If those pipelines cannot be checked by mechanized 
vehicle, those inhumane consequences are expected. There is no way 
those miles of pipeline can be checked and serviced by horseback.
    In the modern West, labor has been replaced by fewer people 
constantly in motion. Cattle are driven fewer miles. Calves that were 
once weaned and driven from their mothers are now hauled. Cattle slated 
for market are now penned and sorted in distant pastures and hauled to 
markets from those locations. Water sources are checked and maintained 
from pickups and ATVs. Roads have become vital to the ranch operations 
and it is no longer possible to get by with unimproved two tracked 
roads. In this model there are 481 miles of roads. This is not a 
rancher driven number. It is from the Dona Ana County census data. When 
the S.1689 maps are analyzed, the sum of the road mileage is only a 
fraction of the U.S. census records.
    These roads are not just a part of the infrastructure of the 
ranches. They have become multigenerational access routes for citizens 
who have deep ties to the land for a variety of wholesome and simple 
uses. Taking those few freedoms from a county resident is not the 
blissful salvation that is being advertised. The great majority of the 
users of these roads are fully in agreement that off-road activities 
are not right and they will defend that position. Ranchers find few 
examples of blatant off-road use by law abiding citizens. Drug runners 
are another story, and, rest assured, the Arizona experience has 
demonstrated that drug runners could care less about wilderness 
constraints.
    In addition to the data provided heretofore, the remaining 
improvements on these lands included 297 miles of fence line, 67 miles 
of electric transmission lines, and 61 miles of commercial pipelines 
(gas and oil). From an objective thinker, reading the Wilderness Act 
and digesting these improvement totals, the true fidelity of wilderness 
in Dona Ana County, New Mexico, is being stretched beyond measure.

                             WATER PROJECTS

    Elephant Butte Irrigation District is one of the most unique water 
districts in the nation. The district management and users have not 
only paid for the district, they have accomplished some very 
interesting undertakings. They now have the right to capture and reuse 
storm water within the confines of their district watershed. This 
greater project requires some very sophisticated flood monitoring 
equipment that prompts district personnel to prepare facilities to 
capture and reroute flood waters into their system. The flood 
monitoring equipment must be installed in areas impacted by wilderness 
consideration.
    Likewise, the system of flood control dams installed many years ago 
by the Bureau of Reclamation has been turned over to the district for 
management. These facilities and similar future opportunities must not 
be constrained by wilderness or NCA constraints for repairs or 
expansion.
    Dona Ana County is a desert. There is no magical source of water. 
There is no Lake Shasta to drain into an aqueduct to enhance the 
limited supply of Rio Grande drainage and underground water sources. 
This is an area that has some distinct relative agronomical advantages 
and people are going to continue to want to come to the area for all of 
the reasons it is so popular. As such, water and the supply of water 
must be one of the two or three most important things in the vision of 
any leader. Water is vital and every opportunity to enhance the supply 
of water is not just prudent, it is imperative. No wilderness bill 
should be used to limit that most important resource.
    The Broad Canyon area is the most significant watershed in the 
county. It is not only important for flood water capture and reuse, it 
is the most logical area to plan for future water supply impoundment. 
Off-basin storage has been the option most used in the storage of water 
sourced from nontraditional sources, when closed, underground basins 
are not suitable for storage. In Dona Ana County, this might not happen 
in the next generation, but it will happen. It is not prudent to 
disallow future citizens the opportunity to pursue projects that will 
be possible. Broad Canyon is the major, and perhaps the only, area 
where such undertakings are possible.

                            ENERGY CORRIDORS

    The SunZia energy transmission concept that is envisioned to 
provide enhanced energy transmission capability from renewable energy 
projects in New Mexico has huge implications to this county and state. 
The preferred route from Hatch to Deming, New Mexico passes north of 
the area impacted by the wilderness proposal, but the alternate route 
runs right through the Broad Canyon area. If the solar energy studies 
areas being evaluated by Argonne National Laboratory in conjunction 
with the BLM determine that the two major areas in southern New Mexico 
are candidates for solar generation consideration, the routing of that 
power line will be altered. If wilderness legislation precludes the use 
of the energy corridor, Dona Ana County runs the risk of being dropped 
from conceptual projects. That must be avoided.
    Likewise, any likelihood of a natural gas pipeline from the Belen 
area into the southland would come through that same corridor. Altering 
the routing would push the pipeline at least to the county line. That 
would have huge implications in the cost structure of the project. 
Wilderness and NCA designations affect that planning.

                            RAIL LINE ACCESS

    The congestion of the interior of the Mesilla Valley grows every 
year. There is a matter of safety and traffic flow enhancement centers 
around the rerouting of the north/ south rail line that currently runs 
parallel to New Mexico Highway 28 as far north as Rincon, New Mexico 
Plans to move that line out of the valley feature the Broad Canyon 
area. This is a simple and necessary adjustment for surface and rail 
line flows through the area. Wilderness and or NCA designation impact 
that planning.

                       RENEWABLE ENERGY PROJECTS

    Currently, there is a solar energy project underway in the Santa 
Teresa area. Additionally, there are two large solar study areas (noted 
above in the energy corridor section) that might be future sites of 
solar generation. These areas combine to form a footprint of 73,794 
acres. If the study is positive any project will necessarily be 
impacted on transmission line capacity. It is imperative that 
wilderness and or NCA consideration in the Broad Canyon not impact 
negatively on such a concept. Such an eventuality would impact Dona Ana 
County dramatically.
    Likewise, the BLM has served notice that a wind energy study will 
be done on the western edges of the Goodnight Mountains just west of 
the county. If that study proves successful the same conditions are 
likely to occur on the west side of the Rough and Ready Hills and other 
portions of the Broad Canyon area. Wilderness and or NCA designation 
would stand to impact that result.

                                 MINES

    There are a total of 23 mines in the footprint of the wilderness 
and NCA proposals. Most of those mines are not active, but all of those 
mines are subject to safety and mitigation laws and requirements. Like 
all mines, they also represent increased risk to Superfund findings. 
Not wanting to run the risk of redundancy, it seems confounding to 
elevate any land into wilderness status when such a stretch from 
``lands largely untrammeled by man'' must be accompanied by gimmicks to 
mitigate the impact of man in order to force the designation. If a 
superfund site is ever found, the prospect of a contractor who still 
has knowledge and possession of mule teams and Fresno scrapers is 
likely to be hard to find.

                           OIL AND GAS LEASES

    The 1995 National Oil and Gas Assessment of the South-Central New 
Mexico Province, prepared by W. C. Butler, discusses hypothetical oil 
and gas potential. There have been very few wells drilled in the 
province, so the report is based on the geological history of the area. 
The report does state ``the number and excellent quality of hydrocarbon 
shows in the few Pennsylvanian and Permian penetrations indicate the 
probable existence of commercial hydrocarbons'' (Pyron and Gray, 1985). 
The report also states, ``The shelf strata of the Orogrande Basin,'' an 
area within the province, ``have been compared to the contemporaneous 
highly productive reservoirs of the Delaware Basin of west Texas. 
Mississippian through Permian formations of the Delaware Basin has a 
cumulative production of more than 3 BBO and 5.0 TCF of nonassociated 
gas'' (Robertson and Broadhead, 1993).
    According to information obtained from the National Integrated Land 
System, Dona Ana County has had a long history of oil and gas leases on 
public lands. Most of these leases have never been developed and, as a 
result, have expired. oil and gas companies have to make decisions on 
which leases to explore and develop based on various logistical and 
economic criteria. As the price of oil and gas increase and as 
technology advances make evaluation and development more cost 
effective, development of these energy resources may occur. Currently, 
there are ten authorized oil and gas leases which are partially or 
wholly contained in the proposed Wilderness and NCA boundaries. These 
leases cover over 15,000 acres. As we have discussed in other areas of 
this testimony covering energy development, designation of Wilderness 
and NCA would significantly affect the exploration and development of 
these important and much needed potential oil and gas reserves.

                             RIGHTS OF WAY

    According to the National Integrated Land System, the BLM has 
entered into rights of way agreements for one pending solar energy 
project, 36 road and utility and 12 oil and gas pipeline projects which 
are included in the areas in the proposed Wilderness and NCA 
boundaries. The National Integrated Land System has a disclaimer which 
indicates for various reasons the system does not contain all 
agreements. Maps which have been produced which include both line data 
and agreement data indicate that there should be many more agreements, 
but the data that is available clearly shows that there are a 
significant number of pre-existing rights created under these 
agreements which will be impacted by the designation of Wilderness and 
NCA. The Wilderness Act includes language that precludes the use of any 
mechanical equipment. How will any maintenance or replacement of 
equipment under these agreements occur? These pre-existing rights need 
to be included in the purposes section of the NCA legislation, as 
litigation or adjudication will be required every time someone wants to 
exercise their rights.

                                GRAZING

    We have concerns on the ability of ranchers to continue their 
family operations should this bill become law. Those concerns apply to 
both proposed designations: wilderness and national conservation area. 
With respect to wilderness, much is made of the Grazing Guidelines 
(House report No. 101-405). When Congress had the foresight to adopt 
those provisions, most wildernesses were in the high country. In many 
instances, those high country allotments had natural water, natural 
boundaries and were seasonal operations only. The allotments addressed 
in this legislation occur in the desert. There are no natural waters or 
boundaries and the operations are year round. Based on these factors 
and discussions with BLM, we have no confidence the guidelines as they 
exist will be sufficient and the ranching community will suffer the 
consequences.
    With respect to national conservation areas, our concerns are equal 
footing for grazing, the consistency language, the ``where 
established'' limitation and the ability to maintain range improvements 
and standard ranching operations. For further discussion of these 
issues, see Exhibit D.

                  WILDERNESS DEGRADING INFRASTRUCTURE

    The proposed wilderness areas included in S. 1689 are not free of 
the noticeable imprint of man which the Wilderness Act of 1964 
required. These areas have been inhabited by man since recorded history 
and have been heavily impacted since Onate came to the territory in 
1589. These impacts have been discussed under the above sections: range 
improvements, water projects, energy corridors, rail line access, 
renewable energy projects, mines, oil and gas leases and rights of way. 
Each of these impacts degrades wilderness characters to different 
levels in each of the proposed wilderness and NCA areas. The impacts 
show up dramatically in the series of maps in Exhibit E--Desert Peaks 
Wilderness Area Evaluation. The maps show the impacts as each type of 
infrastructure is overlaid on the footprint of the proposed wilderness 
areas. The last map in each set show the cumulative impact of these 
improvements and infrastructure and demonstrates what we feel are over 
whelming reasons to protects these lands with a designation other than 
wilderness. They are worthy of protection, but don't fit the gold 
standard of wilderness. Exhibit F is the Potrillo Mountains Wilderness 
Area Evaluation and Exhibit G is the Organ Mountains Wilderness Area 
Evaluation.

           RENEW NEW MEXICO AND STEWARDSHIP PROJECTS, CURRENT

    The Renew New Mexico undertaking, largely promoted through the 
guidance of BLM State Director, Linda Rundell, is finding a very 
positive acceptance by a large cross section of stakeholders. This 
partnership project is an aggressive plan to restore our state's 
grasslands, woodlands, and riparian areas to healthy and productive 
conditions. Since its inception in 2005, Restore New Mexico has become 
the model for rangeland conservation in the western United States. This 
year, 2009, the project will reach the 1,000,000th acre in partnership 
activities.
    One of the most apparent components of the project is the 
eradication of creosote. Creosote is the equivalent of sage brush to 
the southern tier states and it is found in large reaches of Dona Ana 
County. It can only be eliminated by stewardship projects that include 
herbicide and then a regimen of fire. By strict measure of the 
Wilderness Act, such activities are not allowed in wilderness.
    In conjunction with brush control, water projects that serve to 
better utilize range for both livestock and wildlife are being 
undertaken. These complimentary projects are being driven largely by 
EQIP partnership contracts. Such projects installed by mechanized means 
will not be allowed in wilderness.
    As a matter of interest, there are over 200 water installations on 
federal lands ranches on the west side of Dona Ana County from the 
Mesilla Valley to the county line where the majority of S.1689 is 
centered. Only one (1) of those water sources is a permanent, natural 
source of water. The remainder are there because of cattle. Wildlife 
are impacted every bit as much as cattle in this dry environment. If 
those waters and projects that enhance the supply and distribution of 
those water sources are negatively impacted by wilderness, inhumane 
consequences can be expected.

           RENEW NEW MEXICO AND STEWARDSHIP PROJECTS, FUTURE

    The guiding factor in the Restore New Mexico brush control planning 
is slope. Creosote grows naturally on shallow soils overlaying caliche 
deposits. Where Creosote stands have expanded into deeper soils is the 
primary target area for control measures. Slope is a defining factor in 
whether or not projects can be expected to work. Most of the areas 
being considered for wilderness are good candidates for brush control, 
but some are not. As such, there is less likelihood that future 
projects can or will be undertaken. Likewise, water distribution 
supporting the outcome of the brush control measures will be limited on 
more severe slopes. In fairness to wilderness consideration, this 
factor must be considered.

                          STAKEHOLDER MEETINGS

    From the stakeholder meeting process (Exhibit A) that took place in 
2006/2007, the recommendations from the position papers written by the 
eight stakeholder groups can be summarized as follows:

    3 Organ Mountain WSA's--Received a near unanimous vote for 
wilderness
    Mt. Riley and Aden Lava Flow WSA's--Received 5 votes (slight 
majority) for wilderness
    West Potrillo Mountains WSA--Received 4 votes against wilderness
    Robledo Mountains WSA--Received 5 votes against wilderness
    Broad Canyon (currently under Multiple Use Management)--Received 6 
votes against wilderness
    East Potrillo Mountains (currently under Multiple Use Management)--
Received 6 votes against wilderness
    Organ Mountains South unit (currently proposed for NCA)--Received 4 
votes for NCA
    Organ Mountains North unit (currently proposed for NCA)--Received 3 
votes for NCA

    It can be concluded from this citizen input that there was strong 
support for wilderness in the Organ Mountains. The rest of the lands 
were not strong candidates for wilderness and a preference for 
returning the majority of the land back to multiple use management or 
National Conservation area management was prevalent.

                                SUMMARY

    I appreciate the opportunity to be able to present to the Committee 
information and concerns on behalf of People For Preserving Our Western 
Heritage. I trust that the Committee will consider the need for an 
alternative land protection designation, seriously evaluate the real 
border security threats to the local ranch families and the communities 
in southern New Mexico and recognize the value of having productive 
ranch enterprises contributing to the first line of defense in rural 
America.
    We strongly believe in protection of the Organ Mountains and 
surrounding desert peaks. We do not believe that all of the areas 
proposed should be wilderness; they should be protected with another 
designation. We feel that Senator Bingaman and the Committee have an 
opportunity to protect lands and at the same time recognize the 
importance of history that has become part of the landscape in Dona Ana 
County.

    Mr. Schickedanz. I thank you for the opportunity to appear 
before the committee and I stand ready to answer any questions.
    The Chairman. Thank you, doctor.
    Senator Bingaman.
    Senator Wyden. Thank you very much, Mr. Chairman, for 
accommodating our schedule.
    Let me thank both Commissioner Butler and Dr. Schickedanz 
for taking the time to come and talk to us about this bill.
    Commissioner Butler, let me ask you first of all whether 
the designation of new wilderness and national conservation 
areas as we contemplate in this bill would in any way in your 
view limit or impede the city of Las Cruces or the county's 
ability to develop and grow as they intend to over the coming 
years?
    Mr. Butler. Senator, members, of this committee, no, it 
won't. Actually these designation areas, wilderness areas, are 
the magnet, are the attraction to Las Cruces. No more than the 
Lincoln Memorial or the Washington Monument, These particular 
designated areas are the very thing that attract business, 
attract tourists, attract residents and retirees to the area.
    So this is a big plus for Las Cruces. In fact, it will help 
motivate growth and development of the area. It will be an 
economic stimulus package for us.
    The Chairman. Thank you very much.
    Dr. Schickedanz, let me ask you. Your group has proposed a 
new rangeland preservation area designation. You testified 
about that as an alternative to the new wilderness and national 
conservation area designations that we have in this bill. There 
seems to be agreement--your group seems to agree that the areas 
should be withdrawn from mining and oil and gas development and 
that off-road vehicle use should be limited, just as we 
proposed. The main difference seems to be related to surface 
lands, use of the surface, especially grazing. Am I accurate in 
that description so far?
    Mr. Schickedanz. Mr. Chairman, Senator Bingaman, yes. I 
think we disagree probably on the access or the timing of 
access. The grazing standards that were developed in I think 
1990 or 1994 as a supplement to the Wilderness Act provide for 
occasional use, but we have not found anybody that will 
describe what ``occasional'' is. The local and State director 
don't want to make a statement on what ``occasional'' is. So in 
the desert Southwest, where water is very important to 
livestock operations, being able to check those waters, to 
check pipelines, becomes very important. If ``occasional'' is 
going to be a year, that's too long. Many times daily checking 
of some of those pipelines so that livestock do have water--so 
the ``occasional'' is what we're interested in.
    The Chairman. So you would like it clarified that the 
occasional use that you would be permitted under this 
legislation would be as required in order to ensure that 
there's adequate water for livestock?
    Mr. Schickedanz. Yes, sir.
    The Chairman. Let me stop with that. I know Senator Udall 
also has questions. Again, thank you both for being here.
    Senator Wyden. Senator Udall.
    Senator Udall. Thank you, Chairman Wyden.
    Thank you both for being here. Commissioner Butler, you've 
been in public service a while. I talked about in my testimony, 
Senator Bingaman talked about in his, about the coalition that 
backs this. I only mentioned a few of the groups, but there is 
extensive and widespread support, with the Southwest chapter of 
New Mexico Quail, Dona Ana County Associated Sportsmen, Back 
Country Horsemen, League of Women Voters. The list goes on and 
on.
    Have you ever seen in your public service such a broad 
support for this piece of legislation or any other piece of 
legislation down there?
    Mr. Butler. Senator Udall and members of this committee, 
no, I haven't. In fact, I really take my hat off to your staff, 
Senator Bingaman, who walked through this community, walked 
through our rural areas, had these meetings, had extensive 
meetings, hundreds of meetings with these various groups.
    I can assure you that even the groups mentioned by Mr. 
Schickedanz--that there are many individuals within those 
organizations that support wilderness. That's what I've seen to 
date and that's why I'm here to date, that when they see the 
consensus that has been built--and I'm sure that there are some 
concerns with the opponents. But the consensus that has been 
built in Dona Ana County regarding wilderness and the NCAs, 
it's unbelievable.
    Senator Udall. Thank you.
    Mr. Schickedanz, this issue of occasional use in grazing. 
These areas, a significant part of this area has been managed 
as wilderness study for over 25 years. It's been in wilderness 
study. Have you found that working with BLM and interpreting 
that term ``occasional,'' has it worked out? Have there been 
problems?
    Mr. Schickedanz. OK. Mr. Chairman and Senator Udall, the 
areas have been managed under wilderness study areas.
    Senator Udall. Which is treated just like a wilderness.
    Mr. Schickedanz. Almost, except the access. Under the 
wilderness study areas they're able to use some of the roads 
and trail that goes to the various improvements. When it 
becomes wilderness those will no longer be available unless 
they're specifically identified and allowed. So that's where we 
differ on what ``occasional'' use becomes under the Wilderness 
Act.
    So again, I think that raises the issue that we would like 
to see the lands protected, but under a less restrictive 
utilization of access.
    Senator Udall. Thank you. I know you've given extensive 
testimony here and I look forward to working with Senator 
Bingaman and the committee to see if it's possible to resolve 
some of your concerns. Thank you very much.
    Senator Wyden. I thank both of my colleagues. With 
apologies to Mr. Mallott and Mr. Claus, we will follow up on 
your views.
    With that, we're going to turn it over to Senator 
Murkowski. Senator Murkowski, you proceed as you would like 
with the vote coming up and what you can get in before the vote 
and what you feel is necessary, if it's required afterwards.
    Senator Murkowski. Thank you, Mr. Chairman.
    Senator Wyden. Why don't we also excuse our 2 New Mexico 
witnesses.
    Senator Murkowski. I have no questions of the New Mexico 
witnesses.
    Senator Wyden. OK. Thank you all.
    Senator Murkowski [presiding]. Gentlemen, what we can do, 
I'll just keep an eye on the vote. But I'd like to try to get 
comments from both of you before I have to go off. I understand 
that there will be two votes, so I'm going to try and time it 
so that we can do two for one and I'm not gone from the hearing 
room for too long.
    But with that, Mr. Mallott, if you want to lead off.

STATEMENT OF BYRON MALLOTT, BOARD MEMBER, SEALASKA CORPORATION, 
                           JUNEAU, AK

    Mr. Mallott. Thank you, Senator Murkowski.
    With reference to the comments that were made by the 
administration witnesses and their desire that the Tongass 
Futures process continue and that it will be important in their 
deliberations on an ongoing basis, I just want to mention for 
the record that I am a member of the Tongass Futures roundtable 
and I have participated in most all of the meetings that have 
taken place.
    I have submitted for the record detailed testimony on the 
Sealaska land entitlement legislation. I'm prepared to answer 
any questions that you may have. I want to spend a few moments 
talking about ANCSA because that is key to the purpose and the 
philosophy of the legislation before us. ANCSA, the Alaska 
Native Claims Settlement Act, its policy action of Congress 
kept us on and gave Alaska's Native peoples some of their own 
lands to retain.
    The focused public policy imperative at the time, which I 
believe has been amply met, was on economic development. The 
lands will allow us to continue that public policy. It also 
gave us an opportunity to pursue a larger, a more whole future 
tied to that land and its seamless connection to the other 
lands in the Tongass Forest. It has been said often that every 
acre in the Tongass is precious to someone. Every acre to 
Native peoples in the Tongass is our homeland. No matter what 
else happens, no matter how that acre is treated, it is our 
homeland.
    There are some 20,000 descendants today of the historical 
traditional people of the Tongass--Tlingits, Haidas, and more 
recently Tsimshians. One of the things that I think and I'm 
pursuing in the Tongass Futures roundtable process is that 
public policy should acknowledge that the Tongass is a Native 
homeland, that simple statement with no strings attached.
    When I think about it, Senator, the Tongass National Forest 
was created in 1906. So in 2056 there will be the 100th 
anniversary. At that time it would seem to me that we'll either 
have a forest that is recognized for its environmental 
circumstance, its sensitivity, the accomplishments that have 
been made there--that will be possibly sufficient. But I think 
that when we look back at the Tongass at its centennial to be 
able to say that this is a Native place, that it is the 
homeland of the first peoples, that their efforts to share and 
be part of all of those that came later were done in good will 
on the basis of respect and a desire to come and to work 
together would be the best kind of way to celebrate this 
incredible national vision.
    I think it would also, looking at this piece of legislation 
which finalizes our land entitlements, also be able to be 
pointed to as an example at that time in our history that ANCSA 
itself was also a success.
    Thank you.
    [The prepared statement of Mr. Mallott follows:]

      Prepared Statement of Byron Mallott, Board Member Sealaska, 
                        Corporation, Juneau, AK

                                 S. 881

    Mr. Chairman, Members of the Subcommittee and Committee:
    My name is Byron Mallott, and I am a Board Member for Sealaska 
Corporation, as well as a former President and CEO. I am from Yakutat, 
Alaska, and I am Shaa-dei-ha-ni (Clan Leader) of the Kwaashk'i Kwaan. 
My Tlingit name is K'oo deel taa.a. Accompanying me today in the 
hearing room is Chair Albert Kookesh, Vice Chair Rosita Worl, Director 
Clarence Jackson, President and CEO Chris McNeil, and other executives 
of Sealaska.
    Thank you for the opportunity to testify on behalf of Sealaska 
Corporation regarding S. 881, the ``Southeast Alaska Native Land 
Entitlement Finalization Act,'' or what we refer to as Haa Aani in 
Tlingit, which in English roughly translates into ``Our Land''. Haa 
Aani is the Tlingit way of referring to our ancestral and traditional 
homeland, the place of our ancestors, the foundation of our history and 
culture, and the way that we identify where we are from. Sealaska is 
the Alaska Native Regional Corporation for Southeast Alaska--one of 12 
Regional Corporations established pursuant to the Alaska Native Claims 
Settlement Act (``ANCSA''). Our shareholders are descendants of the 
original Native inhabitants of Southeast Alaska--the Tlingit, Haida and 
Tsimshian people. Our ancestors once used and occupied every corner of 
Southeast Alaska and our cultural and burial sites can be found 
throughout the region. This legislation is a reflection of the 
significance of Our Land to our people and its importance in meeting 
our cultural, social and economic needs.
    We consider this legislation to be the most important and immediate 
``economic stimulus package'' that Congress can implement for Southeast 
Alaska. Sealaska provides significant economic opportunities for our 
tribal member shareholders and for residents of all of Southeast Alaska 
through the development of our primary natural resource--timber. 
Sealaska and its subsidiaries and affiliates expended over $45 million 
in 2008 in Southeast Alaska. Over 350 businesses and organizations in 
16 Southeast communities benefited from spending resulting from 
Sealaska activities. We provide over 363 full and part-time jobs with a 
payroll of over $15 million. Including direct and indirect employment 
and payroll, Sealaska contributed 490 jobs and approximately $21 
million in payroll.
    We are proud of our collaborative efforts to build and support 
sustainable and viable communities and cultures in our region. We face 
continuing economic challenges with commercial electricity rates 
reaching $0.61/kwh and heating fuel costs sometimes ranging above $6.00 
per gallon. To help offset these extraordinary costs, we work with our 
logging contractors and seven of our local communities to run a 
community firewood program. We are also the primary contributor of 
cedar logs for the carving of totems and are now working with the 
communities to provide cedar carving planks to schools and tribal 
organizations. We are collaborating with our village corporations and 
villages to develop hydroelectric projects.
    The profits from our timber program support causes that strengthen 
Native pride and awareness of who we are as Native people and where we 
came from, and further our contribution in a positive way to the 
cultural richness of American society. The proceeds from timber 
operations on our lands have allowed us to make substantial investments 
in cultural preservation, educational scholarships, and internships for 
our shareholders and shareholder descendants. Through these efforts we 
have seen a resurgence of Native pride in our culture and language, 
most noticeably in our youth, who are constantly exploring what it 
means to be Native today. Our scholarships, internships and mentoring 
efforts have been successful beyond our wildest dreams, with our 
corporate shareholder employment above 80% and shareholders filling the 
most senior positions in our corporation. None of this would have been 
possible without the passage of ANCSA, which, in some ways, remains a 
promise unfulfilled.
    Congress enacted ANCSA in 1971 to recognize and settle the 
aboriginal claims of Alaska Natives to the lands that we have used 
historically for traditional, cultural, and spiritual purposes. ANCSA 
allocated 44 million acres of land to Alaska's Native people, to be 
allocated among and managed by 12 Alaska Native Regional Corporations 
and more than 200 Village Corporations. Although ANCSA declared that 
the land settlement ``should be accomplished rapidly, with certainty 
[and] conformity with the real economic and social needs of [Alaska] 
Natives,'' it has now been more than 35 years since the passage of 
ANCSA and Sealaska has not yet received conveyance of its full land 
entitlement.
    Sealaska asks your support for the enactment of S. 881 because it:

  <bullet> allows Sealaska to finalize its ANCSA land entitlement in a 
        meaningful way that fulfills the purposes of ANCSA;
  <bullet> will redress inequitable limitations on Sealaska's land 
        selections by allowing it to select its remaining land 
        entitlement from designated federal land outside of the 
        original and inadequate designated withdrawal areas;
  <bullet> allows for Alaska Native ownership of sites with sacred, 
        cultural, traditional and historic significance to the Alaska 
        Natives of Southeast Alaska;
  <bullet> creates the opportunity for Sealaska to support a 
        sustainable rural economy and to further economic and 
        employment opportunities for Sealaska shareholders and other 
        rural residents;
  <bullet> provides a platform for Sealaska to contribute to the 
        Southeast Alaska economy, a region that is struggling overall, 
        especially in our rural Native villages; and
  <bullet> provides real conservation benefits in the region.

    In sum, this legislation resolves the long-outstanding Sealaska 
entitlement in a manner consistent with Congress's stated objective to 
act through ANCSA to promote economic development, and enables the 
federal government to complete its statutory obligation to the Natives 
of Southeast Alaska. In fact, completion of ANCSA conveyances was 
recently recognized by Congress as a priority through the enactment in 
2004 of the Alaska Land Transfer Acceleration Act (P.L. 108-452).
    There is a compelling, equitable basis for supporting passage of 
this legislation. First, the original ANCSA withdrawals demonstrated a 
lack of understanding of the geography of the region, and a series of 
later congressional actions further undermined the quality of the lands 
that were available for selection by Sealaska. As just one example, 
over 44% of the area within the withdrawal areas is covered with 
saltwater. Other factors that have severely limited the availability of 
lands to Sealaska are discussed in the ``findings'' section of our 
legislation. Second, there is no dispute that Sealaska has a remaining 
land entitlement. This legislation does not give Sealaska a single acre 
of land beyond that already promised by Congress. Third and finally, 
Sealaska has attempted to work closely with industrial users, 
conservation organizations, Native institutions, and local communities 
to craft legislation that provides the best possible result for the 
people, communities and environment of Southeastern Alaska. One thing 
has become extremely clear in our effort to resolve Sealaska's land 
entitlement--that every acre of Southeast Alaska is precious to 
someone. Moreover, what is important or valuable to one group may not 
be important or valuable to another. Simply put, with the vast array of 
interests in Southeast Alaska, there is no way to achieve an absolute 
consensus on where and how Sealaska should select its remaining 
entitlement. However, we truly believe that this legislation offers a 
good solution that builds on our engagement with all regional 
stakeholders, and we remain committed to work with everyone to refine 
the selections and the terms of the legislation.

          OUR ANCSA LAND ENTITLEMENT AND SELECTION LIMITATIONS

    ANCSA provides a land allocation to Sealaska pursuant to Section 
14(h)(8) of the Act. Our right to this land entitlement is undisputed. 
The only remaining issue is ``where'' this land will come from. Based 
on Bureau of Land Management projections for completion of the 14(h)(8) 
selections, as well as our own estimates, the total entitlement could 
be up to 85,000 acres of land remaining to be conveyed to Sealaska. 
Uniquely, ANCSA limited Sealaska land selections to withdrawal areas 
surrounding certain Native villages in Southeast Alaska. The problem is 
that the ability to select land from the withdrawal areas that meets 
Sealaska's traditional, cultural, historic or economic needs is 
limited, and certain of those lands now available to Sealaska would 
more appropriately remain in public ownership. In fact, the remaining 
valuable timber areas within the selection areas are predominantly old 
growth and roadless areas with important public interest values.
    ANCSA selection limitations preclude Sealaska from using any of its 
remaining ANCSA entitlement to select from outside of current 
withdrawal areas places of sacred, cultural, traditional, and historic 
significance that are critical to facilitating the perpetuation and 
preservation of Tlingit, Haida and Tsimshian culture and history. Our 
Native Places are not simply ``real estate'' we would like to own. 
These are places that are important for the perpetuation of our 
cultures and the preservation of our stories and histories and that we 
intend to protect, in collaboration with the local tribes, in 
perpetuity.
    In sum, selection from the withdrawal areas would limit Sealaska's 
ability to meet the purposes of ANCSA--to create continued economic 
opportunities for the Native people of Southeast Alaska--or to gain 
ownership of our Native Places.

                LEGISLATIVE SOLUTION PROVIDED BY S. 881

    While original withdrawal limitations make it difficult for 
Sealaska to meet its traditional, cultural, historic and socioeconomic 
needs, these original withdrawn lands are not without significant and 
important public interest value. For example, approximately 85 percent 
of those lands now designated for withdrawal by Sealaska are classified 
by the U.S. Forest Service as designated roadless areas. A significant 
portion is Productive Old-Growth forest (some 112,000 acres), with over 
half of that being Old Growth Reserves as classified in the Tongass 
Land Use Management Plan. This legislation would allow these lands to 
remain in public ownership to be managed consistent with the Tongass 
Land Use Management Plan.
    The legislation would allow Sealaska to:

  <bullet> Select a majority of its remaining entitlement from an 
        alternative pool of land, which is largely second-growth 
        forest, and 71 percent of which is already roaded as a result 
        of previous Forest Service timber development;
  <bullet> Use a portion of its entitlement to gain title to important 
        sacred, cultural, traditional and historic sites that are 
        critical to the preservation of Native history and culture, and 
        to advance Native social and cultural programs. These sacred, 
        cultural, traditional and historic sites are relatively small 
        in size, but are invaluable to our people;
  <bullet> Select certain lands for purposes of Native enterprise that 
        are primarily for activities with limited land use impacts and 
        would include cultural programs, small-scale tourism/eco-
        tourism, and alternative renewable energy development, which 
        would allow Sealaska to diversify its economic activities in 
        the region and provide job opportunities for its tribal member 
        shareholders and other residents of Southeast Alaska. Sites 
        developed for green energy would help to relieve the villages 
        of the crushing burden of high-cost diesel generated electrical 
        power.

    This bill does not establish the final entitlement acreage for 
Sealaska, leaving the final determination to the iterative process 
established under Section 14(h) of ANCSA. However, this Administration 
does have the authority to work with Sealaska to settle the final 
acreage, and Sealaska is willing to engage in that discussion prior to 
final enactment of the legislation.

                 BENEFITS OF THE LEGISLATION TO OTHERS

    The benefits of this legislation extend far beyond Sealaska and its 
shareholders. Despite Sealaska's small land base in comparison to all 
other Regional Corporations, Sealaska has historically provided 
significant economic benefits to not only Sealaska Native shareholders, 
but also to the other Native Corporations throughout Alaska. Pursuant 
to a revenue sharing provision in ANCSA, Sealaska distributes more than 
half of all revenues derived from the development of its timber 
resources--more than $315 million between 1971 and 2007--to the other 
Native Corporations. By making selections outside of the designated 
withdrawal areas, Sealaska will be able to sustain its resource 
development operations by acquiring a mix of old growth and mature and 
advanced second growth, enabling it to provide continued economic 
opportunities for the Native people of Southeast Alaska and economic 
benefits to the broader Alaska Native community through revenue 
sharing. Sealaska's timber business provides critical support to the 
broader Alaska Native community, and for that reason, Sealaska has the 
strong support of the Alaska Federation of Natives, the Regional 
Corporation CEOs, and the Tlingit and Haida Indian Tribes, among other 
important Native entities.
    The role of Sealaska in the Southeast Alaska economy is undisputed. 
Sealaska's timber operations provide significant positive economic 
impact to the region, including continued utilization of the timber 
harvesting sector and creation of jobs in some of the poorest rural 
Native communities in our region. For that reason, Sealaska has the 
support of the Alaska Forest Association and many Native villages in 
its efforts to complete its ANCSA land entitlement.
    We also see a benefit to the conservation community; in fact, 
Sealaska's land legislation strategy was in part driven by national and 
local conservation organizations' stated public goals of ``protecting 
roadless areas'', ``protecting old growth reserves'' and creating 
alternate economies for Southeast Alaska. Instead of taking old growth, 
roadless areas in the original withdrawal areas, Sealaska would commit 
through this legislation to taking a majority of its remaining 
entitlement from areas that are already roaded, encompassing 
significant second-growth timber. Moreover, Sealaska would use nearly 
9,000 acres of its remaining entitlement to gain title to sacred, 
historic, traditional and cultural sites, and Native futures sites, on 
which commercial timber harvest or mineral development would be 
prohibited. Southeast Alaska tribes and Native Village and Urban 
Corporations have passed resolutions in support of this legislation 
because they recognize the need to preserve our sacred areas and 
culture, and to create local, sustainable, diversified economies. This 
legislation gives them the opportunity to join with Sealaska to do 
both.
    Lastly, movement toward completion of Sealaska's ANCSA land 
entitlement conveyances will benefit the federal government. This 
legislation allows Sealaska to move forward with its selections, which 
will ultimately give the Bureau of Land Management some finality and 
closure in the region. Completion of Sealaska's ANCSA conveyances will 
also give the U.S. Forest Service some finality with respect to land 
ownership and management in the Tongass National Forest because there 
will no longer be large portions of the forest encumbered by Sealaska's 
land selection rights.

             HAA AANI SUSTAINABLE FOREST MANAGEMENT PROGRAM

    Sealaska has a responsibility as a Regional Corporation to ensure 
the cultural and economic survival of our communities, shareholders and 
future generations of shareholders. Sealaska also remains fully 
committed to responsible management of the forestlands for their value 
as part of the larger forest ecosystem. At the core of Sealaska's land 
management ethic is the perpetuation of a sustainable, well-managed 
forest to produce timber and to maintain forest ecological functions. 
Significant portions of Sealaska's classified forest lands are set 
aside for the protection of fish habitat and water quality; entire 
watersheds are designated for protection to provide municipal drinking 
water; and zones for the protection of bald eagle nesting habitat are 
established for every nesting tree.
    Sealaska re-plants, thins and prunes native spruce and hemlock 
trees on its lands, thereby maintaining a new-growth environment that 
better sustains plant and wildlife populations, and better serves the 
subsistence needs of our communities. In fact, Sealaska has invested a 
great deal of resources in improving its forest sustainability program, 
including investing in ongoing silviculture research, and reaching out 
to organizations like the Forest Stewardship Council to ensure best 
possible management practices. Our harvest to date is a combination of 
approximately 60% selective harvest and 40% even aged management. All 
of Sealaska's even aged second-growth forest that is ripe for 
precommercial thinning is managed accordingly, thereby creating healthy 
young forests that provide substantial wildlife habitat for deer and 
other animals. Sealaska maintains a silviculture program that rivals 
the best of programs implemented by the U.S. Forest Service or private 
landowners.
    Our sustainable harvesting program will continue into the future 
through implementation of good forest management practices and 
completion of our Haa Aan! land selections, which will provide Sealaska 
with a mix of old growth and more mature second growth timber. Our 
harvesting program and investment in good forest management provides 
jobs for our shareholders and others in the region, and helps maintain 
the ecological value of our forests.
    In asking for your support for this legislation, we implicitly 
agree to assume a major economic risk by foregoing assured revenue from 
the harvesting of old growth timber on original withdrawal lands. We 
are also removing nearly 9,000 acres from our timber base by selecting 
Cultural sites and Native Futures sites subject to timber harvest 
restrictions. Lands available to us under this legislation (upon which 
timber harvest would be allowed) are largely second-growth forest 
stands, development of which would require Sealaska to enter riskier, 
emerging markets. We are, however, committed to investing the time, 
money and hard work in progressive management of second growth stands, 
to capture alternative economies from forest management and to ensure 
that our place in the timber industry remains a sustainable, although 
realigned, component of the region's economy.
    Finally, Sealaska is committed to using its land base to create 
alternative economies, revenues, and jobs through forest management 
strategies that include engagement in markets for the purchase of 
ecological services. To that end, we are monitoring developments 
related to climate change and carbon sequestration and incorporating 
this effort into our forest management and strategic plans.

                         DIVERSIFIED ECONOMIES

    The proposed conveyance of sacred and cultural sites and the Native 
Futures sites offers new economic, cultural, and educational 
opportunities for our region. Our legislation would allow Sealaska to 
pursue a more diversified economic strategy and would support new jobs 
by empowering Sealaska to preserve and share with others the richness 
of Southeast Alaska's natural and cultural history. Both the forest 
ecosystem and the people it nourishes define the Tongass, which has 
supported the Native people for 10,000 years. By declaring that 
Southeast Alaska is both a ``Native'' place--a place that protects and 
supports Native communities and cultures--as well as a ``scenic'' 
place, we protect it and we proclaim its value to the world.
    Sealaska is embracing a healthy, alternative paradigm for the 
cultural and economic revitalization of our Native and rural 
communities by selecting sacred and cultural and Native Futures sites 
as part of this legislation. As part of our commitment, Sealaska has 
established the following principles for the use and management of 
these sites:

  <bullet> Sacred sites. These sites will be selected and managed to 
        ensure an active Native role in the preservation and 
        celebration of the rich Native fabric and history of Southeast 
        Alaska. The sites are purely for sacred, cultural, historic and 
        anthropologic preservation, research and education. Any site 
        improvements would be in alignment with the historic and 
        cultural purpose for which a site was selected.
  <bullet> Native Futures sites. These sites will be selected and 
        managed to promote recreational tourism activities with minimal 
        land use impacts. A few of these sites could be developed for 
        their tidal or small hydroelectric potential, as sources of 
        much needed alternative energy for the region.

                       GLACIER BAY NATIONAL PARK

    Legislation introduced on Sealaska's behalf during the 110th 
Congress proposed the conveyance to Sealaska of a handful of sacred, 
cultural, traditional and historic sites in Glacier Bay National Park, 
based on precedent for such transfers to Indian Tribes in National 
Parks in the lower 48 states. As a result of concerns expressed 
regarding these potential conveyances, Sealaska asked the Alaska 
Congressional delegation to adjust the legislation to provide merely 
for ``cooperative management'' of the sacred and cultural sites located 
within Glacier Bay. Cooperative management would ensure Native use and 
management of this handful of very significant sacred and cultural 
sites within Glacier Bay, regardless of future changes in Park 
management. This language does not propose to negate the existing 
Memorandum of Understanding between the Park and the Huna Indian 
Association. As with all elements of this legislation, Sealaska remains 
open to a continued dialogue on this matter to address any remaining 
concerns.

                         TIME IS OF THE ESSENCE

    Timing is critical to the success of the legislative proposal 
before you today. Without a legislative solution, we are faced with 
choosing between two scenarios that ultimately will result in dire 
public policy consequences for our region. If S. 881 is stalled during 
the 111th Congress, Sealaska will be forced to either terminate all of 
its timber operations within approximately two years for lack of timber 
availability, resulting in job losses in an area experiencing severe 
economic depression, or else Sealaska must select lands that are 
currently available to it in existing withdrawal areas. If forced to 
select within the existing boxes, development will inevitably occur in 
many undisturbed intact watersheds and ``inventoried roadless'' areas 
replete with old growth forests. We believe that Sealaska's land 
entitlement legislation is more consistent with President Obama's 
commitment to preserving more roadless areas, while immediately 
stimulating rural economies.
    If Sealaska were to terminate all timber operations, this Native 
business, which serves as the largest regional private employer in 
Southeast Alaska, would be forced to eliminate jobs that are critical 
to Alaska's village economy, and this in the middle of the greatest 
recession since the Great Depression. This result would be in exactly 
the opposite direction that President Obama and the Congress seeks to 
move the national economy.

                        OUR FUTURE IN THE REGION

    Our people have lived in the area that is now the Tongass National 
Forest since time immemorial. We will continue to live in this region 
because it is the heart of our history and culture. The Tongass is rich 
and diverse in cultural history, and there continue to be Native people 
here trying to live and survive in a subsistence and cash economy. We 
agree that areas of the region should be preserved, but we also believe 
that our people have a right to reasonably pursue economic opportunity 
to survive in the world as it is today. This legislation represents a 
sincere and open effort to meet both the interests of Alaska Native 
shareholders and the public. Sealaska believes that after full debate 
and close scrutiny, its aspirations to meet both its rightful land 
selection rights under ANCSA and the public interest in the Tongass 
will be recognized as both forward thinking and positive.
    Lastly, it is important for all of us who live in the Tongass, as 
well as those who cherish the Tongass from afar, to recognize that the 
First Peoples of the Tongass--Tlingits, Haidas and Tsimshians--are 
committed to maintaining not just the flora, fauna and biological 
ecology of the Tongass, but to preserving this place as the land of our 
ancestors, with all that means in spirituality, values and beliefs. We 
have nowhere else to go and wish for no other place. The Tongass is our 
home. We, therefore, look forward to a reasoned, open, and respectful 
process as we attempt to finalize our ANCSA land entitlement.
    Gunalcheesh. Thank you.

    Senator Murkowski. Thank you, Mr. Mallott. I appreciate 
your testimony.
    Mr. Claus.

 STATEMENT OF BOB CLAUS, COMMUNITY ORGANIZER, SOUTHEAST ALASKA 
     CONSERVATION COUNCIL, ACCOMPANIED BY BUCK LINDEKUGEL, 
 CONSERVATION DIRECTOR, SOUTHEAST ALASKA CONSERVATION COUNCIL, 
                           JUNEAU, AK

    Mr. Claus. Thank you, Senator. I appreciate the chance to 
be able to speak in front of the committee. Thank you.
    I have a strong personal commitment to the people and the 
places of Southeast Alaska. I have served as an Alaska State 
trooper for over 15 years in the island and I continue to work 
with the people of the island. I've built strong relationships 
with many of the 5,000 people who live in the Native villages, 
the fishing towns, and the former logging camps who would be 
most impacted by Senator bill 881.
    This bill is a lands bill, but it's really about all of the 
people in Southeast Alaska. In this part of America all of us 
depend on the public forest lands for work, play, and food. The 
lifestyle of rural Southeast Alaska is incomprehensible to most 
Americans. There are no stoplights, McDonalds, or Walmarts. 
People build and heat their homes with wood they take from the 
forest. They eat berries and deer from the woods and they fish 
in the stream and the oceans. Some of my friends have been 
living like this for 10,000 years and others for only decades.
    This bill would turn the areas around their homes over to 
the Sealaska Corporation. As I talked to people on the island 
about this bill, I met no one, not one person, who was in favor 
of this legislation who is not directly employed or a 
contractor of the Sealaska Corporation. I cannot speak strongly 
enough to convey the level of emotion expressed in opposition 
to this bill.
    I spoke to a Sealaska shareholder from Hydaburg who told me 
that as island residents he and I shared a common way of life 
based on hunting, fishing, and gathering. He said Sealaska 
Corporation had devastated his island lifestyle by clearcutting 
and that the corporation does not care about us, the people who 
still live close to the land.
    The costs of this bill outweigh the public benefit and the 
people of Prince of Wales recognize that. The small communities 
closest to the lands selected in this bill have written formal 
letters or resolutions opposing the bill. 98 percent of the 
people in Point Baker and Point Protection signed a petition 
opposing the bill. A shopkeeper asked me: How can we continue 
as a community if Sealaska takes our forest?
    SEACC supports Alaska Natives getting the lands rightfully 
owed to them. But we question the fairness of the bill. One way 
to measure fairness is through the resource value as measured 
by timber and existing infrastructure. This is not a value for 
value exchange. Over 70 percent of the selection area is cave 
and karst land, a wonder of the world. This land, currently 
protected by the Federal Caves Resource Protection Act, 
contains thousands of caves that remain largely unexplored. 
These caves were discovered only in the 1990s by crews of 
volunteer adventurers. They found unique sites, which changed 
the way that we understand the peopling of the Americas.
    Clearcut logging as practiced by Sealaska damages karsts 
and caves and State regulations governing private logging offer 
no protection. These world treasures should remain federally 
protected.
    This bill allows Sealaska to cherrypick the best of the 
Tongass, to the detriment of all other users. Sealaska has 
chosen the most productive, easily accessible timber stands. 
SEACC supports the microsale timber program on Prince of Wales 
Island and a responsible level of timber harvest to support the 
small mills there. This bill threatens the ability of those 
programs to continue. The Native future sites represent the 
very best sites in all of Southeast Alaska for tourism and 
energy-related development. Some are in direct conflict with 
existing small businesses and all of them block future 
investment by any other party, tribes, village corporations, or 
private businesses.
    One small cove selected by Sealaska is the site of a fully 
permitted floating lodge, family owned and operated for over 30 
years. This existing lodge brings millions of dollars into the 
local economy and this family business is threatened by this 
bill.
    SEACC and other conservation organizations, timber 
operators, government officials, community members, and the 
Sealaska Corporation have been working together toward a 
comprehensive solution for the Tongass National Forest that 
could finalize Sealaska's entitlements while respecting the 
other shareholders in the region. SEACC remains committed to a 
bigger, broader solution that addresses the interests of 
Sealaska, respects the cultural as well as the economic needs 
of all of the people of Southeast Alaska.
    We look forward to working with members of the committee, 
Sealaska, and all the other stakeholders to promptly achieve a 
solution that benefits all of us. Thank you.
    [The prepared statement of Mr. Claus follows:]

Prepared Statement of Bob Claus, Community Organizer, Southeast Alaska 
  Conservation Council, Accompanied by Buck Lindekugel, Conservation 
      Director, Southeast Alaska Conservation Council, Juneau, AK

    Mr. Chairman and members of this Subcommittee:
    My name is Bob Claus and I am a community organizer for SEACC based 
on Prince of Wales Island. With me today is Buck Lindekugel, our 
Conservation Director who can help answer any detailed questions you 
may have. Thank you for the opportunity to testify before you today and 
I respectfully request that my written testimony and accompanying 
materials be entered into the official record for this Subcommittee 
hearing.
    Founded in 1970, today SEACC is a coalition of fourteen local 
citizen volunteer conservation groups in twelve Southeast Alaska 
communities, from Craig on Prince of Wales Island to Yakutat. SEACC's 
individual members include commercial fishermen, Native Alaskans, small 
timber operators and value-added wood manufacturers, tourism and 
recreation business owners, hunters and guides, and Alaskans from all 
walks of life.
    SEACC is dedicated to preserving the integrity of Southeast 
Alaska's unsurpassed natural environment while providing for balanced, 
sustainable use of our region's resources. Southeast Alaska contains 
magnificent old-growth forests, outstanding fish and wildlife habitat, 
important ``customary and traditional'' or subsistence use areas, 
excellent water and air quality, unsurpassed outdoor recreation 
opportunities, world class scenery, internationally and nationally 
significant cave and karst resources, and provides a unique way of life 
for hardy, independent people who choose to call it home.
    The Alaska Native Claims Settlement Act (ANCSA) set up a framework 
for settling the aboriginal claims to land of Alaska Natives by 
establishing village and regional corporations with the right to select 
and receive title to 44 million acres of land and receive payment of 
nearly one billion dollars. Sealaska is one of 12 regional corporations 
formed under ANCSA to receive land and money.
    SEACC supports completion of Sealaska Corporation's remaining land 
entitlement under ANCSA. We respect the history and traditions of the 
Tlingit, Haida, and Tsimshian people who are Sealaska Corporation's 
shareholders. It is not necessary, however, for Congress to take any 
action for Sealaska to complete its remaining ANCSA land entitlement. 
We oppose S.881 as introduced because of the significant changes to 
ANCSA and other federal laws it proposes and its impact to the Tongass 
National Forest and the communities and residents that depend on it. We 
fear that S.881 will not redress any inequities but create new ones 
among forest users and communities within Southeast Alaska and with 
other regional corporations across Alaska.
    Neither can we ignore the significant social, economic, and 
ecological impacts caused by intensive and unsustainable logging of 
old-growth lands currently owned by village corporations and Sealaska 
and surrounding Native villages.\1\ Nothing in S.881 binds Sealaska to 
adopt and follow balanced and sustainable logging practices on the 
economic development parcels in the future. We have heard eloquent 
statements from Sealaska directors and officers of the importance of 
the corporation to the regional economy and its desire to provide good 
jobs for shareholders. Yet, Sealaska's interest today in investing in 
the rural economy seems to nm counter to its practice over the past 
twenty-five years of promoting the export of logs, and jobs, from 
Native corporate lands in Southeast Alaska.\2\
---------------------------------------------------------------------------
    \1\ See Bluemink, Sealaska to reduce logging by 25 percent, Juneau 
Empire (Nov. 15, 2005). The story reveals that 20 years after it 
started its intensive logging program the corporation realized its 
``timber resources are much smaller than previously thought,'' and 
intended ``to petition federal officials to provide it with more 
valuable timber land than it is currently entitled to.'' Attached to 
this testimony as Exhibit 1; see also, Exhibit 2 (a photo of Sealaska 
Corporation lands on Dalt Island near the Hydaburg).
    \2\ See Sealaska's corporate history on the web at http://
www.fimdinitnniverse.corn/companv-histories/SealaskaCorporation.
---------------------------------------------------------------------------
    In our testimony opposing Congressman Young's initial legislative 
proposal on this issue in November 2007, H.R. 3560, we promised to 
maintain open communication with Sealaska. When we submitted comments 
to Senator Murkowski on 5.3651, the precursor to S.881 that she had 
introduced in September 2008, we reaffirmed this commitment.\3\ We have 
since worked directly with Sealaska and others to reach a fair 
resolution of this matter and to identify a pool of possible lands for 
conveyance to the corporation that maintains the integrity of the 
Tongass National Forest. While we have made some progress, we have more 
hard work in front of us.
---------------------------------------------------------------------------
    \3\ A copy of these preliminary comments was submitted to Committee 
staff for inclusion in the record for this hearing. These comments are 
referred to hereinafter as ``SEACC's Preliminary Comments to Senator 
Murkowski on S.3651.''
---------------------------------------------------------------------------
    Changing the way Sealaska's lands entitlements are completed should 
be done in a manner that maintains the integrity of the Tongass 
National Forest and all it stands for--multiple use and sustained 
yield, the commercial, recreational, customary and traditional use of 
fish and wildlife, recreation, and tourism. Whether you view this 
legislations a controversial reformulation of long-settled ANCSA 
settlements or a more benign exchange of lands, a fair and equitable 
resolution should also ensure that the ecological integrity of our 
nation's largest National Forest remains intact. Any bill relating to 
the Tongass National Forest should include durable protections for key 
lands for salmon production, wildlife habitat, and community uses. Such 
an approach would complete Sealaska's remaining land entitlement, 
address the interests of all Americans in securing the long-term 
integrity of the entire Tongass, and make Southeast Alaska a model of 
sustainable fisheries, natural abundance, and community health in the 
21st century.

   S.881 DOES NOT ``FINALIZE'' SOUTHEAST ALASKA NATIVE CLAIMS TO THE 
 TONGASS NATIONAL FOREST BUT STARTS A CHAIN OF FUTURE EXCEPTIONS THAT 
          MAY UNRAVEL LONG SETTLED ALASKA NATIVE LAND CLAIMS.

    S. 881's sponsors entitled this bill the ``Southeast Alaska Native 
Land Entitlement Finalization Act.'' While a worthwhile goal, this bill 
does not and will not ``finalize'' Native land claims on the Tongass 
National Forest.
    On April 2, 2009, three weeks before introduction of S.881, Senator 
Murkowski introduced S.784, a bill to recognize and settle ``certain 
claims'' under ANCSA. See 155 CoNG. REC. 54315 (daily ed. Apr. 2, 2009) 
(statement of Senator Murkowski). This bill would allow five (5) 
communities in Southeast Alaska that failed to meet one or more of the 
criteria set by Congress for a community to qualify for village status 
under ANCSA to form ``urban'' corporations. The bill would further 
grant each corporation 23,040 acres of land from anywhere in the 
Tongass National Forest, including designated Wilderness and Legislated 
LUD 11 lands; nearly 180 square miles of public lands.\4\
---------------------------------------------------------------------------
    \4\ Although S.784 was referred to this Subcommittee, it is not a 
subject at today's hearing. We therefore reserve the opportunity to 
comment further on this proposed legislation at this time. We provided 
the Subcommittee with materials from the Department of Interior and 
Department of Agriculture on similar legislation that was introduced in 
the House of Representatives in 1997 for the record.
---------------------------------------------------------------------------
    We recognize that the Native people who are asking for recognition 
via S. 784 have long histories and traditions in this region. We are 
sensitive to their concerns, but we must vigorously oppose proposals 
which attack the Tongass as a result. We have directly expressed our 
willingness to work with these groups, if they are recognized, to 
develop settlement options that would not sacrifice a sustainable 
future for the entire region, and we remain committed to doing so.\5\
---------------------------------------------------------------------------
    \5\ Our most recent correspondence with representatives from these 
communities was in 2005. Although we advised them of our continuing 
commitment to further discussions, we did not receive any response from 
them. A copy of this correspondence has been provided to the 
Subcommittee for the record.
---------------------------------------------------------------------------
    If these communities become eligible, then Sealaska's remaining 
entitlement under Section 14(h) of ANCSA would be reduced by 
approximately 25,000 acres. We have previously shared our position on 
this issue with Sealaska.\6\
---------------------------------------------------------------------------
    \6\ See Letter from Anderson, SEACC Executive Director to Harris, 
Sealaska Vice-President, Resources (May 22, 2003). A copy of this 
correspondence has been provided to the Subcommittee for the record.
---------------------------------------------------------------------------
    Lastly, in 2004, Congress enacted a law to facilitate completion of 
the transfer of lands in Alaska pursuant to ANCSA, the Alaska Statehood 
Act, and other laws. See Alaska Lands Transfer Acceleration Act 
(ALTAA), Pub. Law 108-452, 118 STAT. 3575 (Dec. 10, 2004). Why was the 
issue about whether it was appropriate for Sealaska to select its 
remaining entitlement outside of the existing ANCSA withdrawals on the 
Tongass National Forest addressed during Congressional deliberations 
over ALTAA?\7\
---------------------------------------------------------------------------
    \7\ Possible conflicts between this legislative effort and the 
Alaska Lands Transfer Acceleration Act were noted in our H.R. 3560 
testimony and in SEACC's Preliminary Comments to Senator Murkowski on 
S. 3651, supra note 3, at 7.
---------------------------------------------------------------------------
 S.881 CHANGES THE RULES FOR CONVEYANCE OF ANCSA ENTITLEMENT LANDS TO 
                         REGIONAL CORPORATIONS

    As of nearly a year ago, the Department of Interior's Bureau of 
Land Management (BLM) has conveyed approximately 291,000 acres of 
Sealaska Corporation's share of the Section 14(h)(8) allocations, which 
is 354,389.33 acres. This leaves a remaining entitlement of 
approximately 63,615 acres.\8\ BLM has also conveyed an additional 
560,000 acres of subsurface rights to Sealaska. These conveyances have 
made Sealaska the largest private landholder in Southeast Alaska.
---------------------------------------------------------------------------
    \8\ See Letter from Lloyd, BLM's Alaska State Office to USDA Forest 
Service, Alaska Regional Office at 2 (Oct. 9, 2008). A copy of this 
letter has been provided to the Subcommittee for the record.
---------------------------------------------------------------------------
    Today, about 3 decades after selecting available lands within the 
areas withdrawn by Congress, Sealaska wants to change the rules set by 
Congress.

S. 881 DROPS THE LIMITATIONS IMPOSED BY CONGRESS ON WHERE REGIONAL 
        CORPORATIONS MAY SELECT THEIR LANDS UNDER SECTION 14(H)(8)
    Section 14(h) of ANCSA set aside 2 million acres for 5 types of 
Native claims; cemetery sites and historical places, Native groups, 
``urban'' corporations formed by Native residents of Sitka, Kenai, 
Juneau, and Kodiak, for primary places of residence, and for certain 
Native allotments.\9\ Any of the 2 million acres not needed for those 
specific claims was to be divided among the 12 regional corporations on 
the basis of population under Section 14(h)(8) as a land-base for 
economic development and benefit to all the regional shareholders.
---------------------------------------------------------------------------
    \9\ In 1988, six regional corporations, including Sealaska, chose 
to relinquish some of the acres previously allocated for cemetery and 
historical sites to increase the separate allocation for lands under 
Section 14(h)(8). See supra note 3, SEACC's Preliminary Comments to 
Senator Murkowski on S. 3651 at 2. Sealaska Corporation Resolution No. 
84-87 (June 20-21, 1984) referenced in those comments was submitted to 
the Subcommittee for the record.
---------------------------------------------------------------------------
    S.881 authorizes Sealaska to select its remaining ``economic 
development'' land under Section 14(h)(8) from a pool of approximately 
79,000 acres located outside the withdrawal areas identified in ANCSA. 
Specifically, Section 3 removes the requirement in ANCSA that Sealaska 
select its land entitlement from lands withdrawn for, but not selected 
by, village corporations in Southeast Alaska under Section 16 of 
ANCSA.\10\ In S.881, Sealaska has targeted some of the most productive 
forest land remaining on the Tongass National Forest from which to 
select these lands. The charts below, infra at p.7, show how Sealaska 
has cherry-picked some of the best lands on the Tongass for selection, 
under S.881.
---------------------------------------------------------------------------
    \10\ Section 14(h)(8)(B) of ANCSA, 43 U.S.C. 1613(h)(8)(B); see 
also 43 C.F.R. Sec.  2653.9(a)(limiting lands available for Sealaska's 
selection to those originally withdrawn by Section 16 of ANCSA but 
unconveyed.).
---------------------------------------------------------------------------
   PARCELS OF LAND IDENTIFIED BY SEALASKA DO NOT FOLLOW THE RULE FOR 
REASONABLY COMPACT TRACTS APPLIED TO PREVIOUS REGIONAL CORPORATION LAND 
                               SELECTIONS

    While the number of acres identified for selection and conveyance 
under S.881 appears small compared to the size of the Tongass National 
Forest, the hundreds of parcels of varying sizes identified by Sealaska 
for conveyance are spread out across the entire Tongass National 
Forest. The lands Sealaska seeks conveyance of are made up of a number 
of individual small parcels, as opposed to the larger blocks of 
reasonably compact tracts applicable to previous selections by all the 
regional corporations under ANCSA. See 43 C.F.R. Sec.  2653.9(a). Many 
of the sacred, cultural, and historical sites identified by Sealaska 
for conveyance in Section 3(b)(2) of S.881 are located within 
designated Wilderness and Legislated LUD II lands.\11\ With very few 
exceptions, the proposed Native future sites under Section 3(b)(3) of 
S.881 are located adjacent to highly popular areas used by local 
community members for recreational, commercial and subsistence 
purposes.
---------------------------------------------------------------------------
    \11\ The former designation was chosen by Congress in the 1990 
Tongass Timber Reform Act, Pub.L. 101-626, to assure that lands with 
high value fish and wildlife habitat were managed in perpetuity to 
retain their wildland character
---------------------------------------------------------------------------
S.881 CREATES A NEW CATEGORY OF OUT-OF-THE-BOX WITHDRAWAL SELECTION'S 
        NOT ENJOYED BY OTHER REGIONAL CORPORATIONS
    As noted above, Section 14(h) of ANCSA provided a total of 2 
million acres to be selected by the regional corporations from 
specified categories. Section 3 of S.881, however, creates new 
categories of land selections not available to the other regional 
corporations. These include ``Places of Sacred, Cultural, Traditional, 
and Historic Significance,'' ``Traditional and Customary Trade and 
Migration Routes,'' and ``Native Future Sites,'' identified by Sealaska 
on maps it prepared, dated March 9, 2009, and respectively entitled 
Attachments B, C, and D to S.881.
    Unlike cemetery sites and historical places conveyed to Sealaska 
under Section 14(h)(1), no definitions or criteria have been adopted or 
proposed for sacred, cultural or traditional sites.\12\ Nor does S.881 
define what qualifies as a Trade and Migration Route or Native Future 
Site. Will authorizing Sealaska to select from new categories of lands 
not available for selection by other regional corporations, increase 
pressure for similar treatment by other regional corporations? Will 
these new circumstances slow down the prompt resolution of land 
selections for all regional corporations?
---------------------------------------------------------------------------
    \12\ See 43 C.F.R. Sec.  2653.0-5, 2653.5 (2008).
---------------------------------------------------------------------------
S. 881 ALLOWS ECONOMIC DEVELOPMENT OF CULTURAL SITES WITHIN GLACIER BAY 
        NATIONAL PARK

    Under ANCSA, Congress did not allow for the selection and 
conveyance of culture sites within National Park System units. See 
Section 11(a)(1), Pub. L. 92-203, 85 Stat. 696, codified at 43 U.S.C. 
Sec.  1610(a)(1). While Section 3(c) of S.881 prohibits conveyance of 
any of the 12 sites identified by Sealaska in the Glacier Bay National 
Park, it requires the National Park Service to manage all Park 
resources cooperatively with Sealaska. This new requirement opens Park 
resources to economic development in a manner inconsistent with 
maintaining park values.\13\ By giving such rights to Sealaska, S.881 
opens the door wide to requests from other Regional Corporations asking 
for the same prerogatives in other National Park units in Alaska.
---------------------------------------------------------------------------
    \13\ See Letter from Lindekugel, SEACC to Elton, Dept. of 
Interior's Senior Advisor for Alaska Affairs (August 12, 2009). A copy 
of this letter has been provided to the Subcommittee for the record.
---------------------------------------------------------------------------
S. 881 REMOVES EXISTING PROTECTION FOR CULTURAL AND HISTORICAL SITES 
        AFFORDED UNDER EXISTING LAW

    Section 4(g) of S.881 terminates the restrictive covenants 
regarding cultural or historical values imposed on lands previously 
conveyed to Sealaska by BLIVI. These covenants prevent a regional 
corporation from authorizing mining or mineral activity of any type or 
``any use which is incompatible with or is in derogation of the values 
of the area as a cemetery site or historical place.'' See 43 C.F.R. 
Sec.  2653.11(b).
    Section 4(e) of S.881 subjects sacred, cultural, and historic sites 
conveyed to Sealaska to a covenant prohibiting any commercial harvest 
or mineral development. While these restrictions are necessary and 
appropriate, they are by their terms narrower than existing covenants 
imposed to protect the values of the area as a cemetery site or 
historical place. As written, the restrictions may not prevent 
development or uses of the land may degrade the values of the areas. 
Will treating Sealaska differently, both in the future and 
retroactively, result in other regional corporations seeking the same 
treatment?

  HOW WILL SEALASKA OBTAIN AND MANAGE ACCESS TO SACRED, CULTURAL AND 
               HISTORICAL SITES IN DESIGNATED WILDERNESS?

    Sealaska wishes conveyance of numerous sites it has identified on 
lands previously designated by Congress as Wilderness. Given the scale 
of the maps prepared by Sealaska identifying these sites, it is 
impossible to determine how near these sites are to shoreline, or how 
easily the sites can be accessed. Will the means and level of access 
sought by Sealaska, as well as the uses permitted under Section 4(f) of 
S.881, protect the natural and other values of these lands?
sealaska's out-of-withdrawal selections for economic development lands 

  DISPROPORTIONATELY TARGET THE MOST ECOLOGICALLY PRODUCTIVE LANDS IN 
                            SOUTHEAST ALASKA

    The pool of lands from which Sealaska is seeking for timber 
development possess some of the highest biological values represented 
by salmon, deer, black bears, big-tree old-growth, and estuaries on the 
Tongass National Forest.\14\
---------------------------------------------------------------------------
    \14\ Schoen, John and Erin Dovichin, eds. 2007. The coastal forests 
and mountain ecoregion of southeastern Alaska and the Toneass National 
Forest. Audubon Alaska and The Nature Conservancy, 715 L Street, 
Anchorage, Alaska. This complete report is available online at: 
httpliconserveonline.org/workspaces/akcfm. See also Exhibit 3, a map 
comparing Landscape Scale Density of Oldgrowth Forests 1950's--2005 on 
the southern portion of the Tongass National Forests with the land pool 
proposed for selection by Sealaska in S.881.
---------------------------------------------------------------------------
    The total number of acres in the pool of lands identified by 
Sealaska shrunk from over 95,000 acres initially proposed in 2007 under 
H.R. 3560 to just under 79,000 acres in S.881. Despite this reduction 
in total acres, the ecological productivity of the lands sought by 
Sealaska for intensive clearcut logging is proportionally higher in 
2009, with nearly 47,000 (59.2%) of the acres inventoried as big tree 
forest. See Exhibit 2* (attached). This is illustrated in the charts 
below, created using existing Forest Service data for Prince of Wales 
Island.
---------------------------------------------------------------------------
    * All exhibits have been retained in subcommittee files.
---------------------------------------------------------------------------
    A substantial majority of the lands target by Sealaska on North 
Prince of Wales, Kosciusko, and Tuxekan Islands also contain world-
class karst and cave resources. See Exhibit 4, attached. Karst terrain 
occurs on water-soluble bedrock such as limestone, dolomite, or gypsum. 
It is characterized by underground water drainage, sinkholes, pits, and 
caves. These well-drained soils support some of the most majestic old-
growth forest on the Tongass. As it turns out, approximately 71 % of 
the lands identified for conveyance by Sealaska are underlain by karst. 
The forest canopy protects the thin soils atop karst from eroding 
directly into the soluble rock below. Past and proposed clearcut 
logging on these fragile soils disrupt the natural hydrology, harm cave 
formations that hold information of thousands of years of climate 
change, and alter sediments that hold keys to understanding patterns of 
human migration into the Americas as well as paleontological clues to 
our past. Eleven (11) years ago, the Forest Service discovered human 
remains in On Your Knees cave on North Prince of Wales Island. DNA 
testing determined that these human remains were 10,300 years old. The 
oldest human remains in Alaska have been found in this cave system, and 
it has not yet been fully explored or mapped. See FOREST SERVICE 
RETURNS ANCIENT HUMAN REMAINS TO TLINGIT TRIBES, Juneau Empire (Oct. 
21, 2007).\15\
---------------------------------------------------------------------------
    \15\ This story can be found on the web at http://
www.juneauempire.cordstories/102107/loc 20071021021.shtml.
---------------------------------------------------------------------------
    LANDS IDENTIFIED BY SEALASKA FOR LOGGING DEVELOPMENT WILL HAVE 
        DEVASTATING IMPACT ON LOCAL COMMUNITIES AND FOREST USERS

    One of our proudest national heritages is the freedom that 
Americans enjoy to access and use our public lands, anyplace and 
anytime. The lands sought by Sealaska will curtail public access and 
use of public lands and resources. The uncertain scope of the permitted 
activities and location of the easements proposed in S.881 raises 
concerns, as does the unfettered authority given Sealaska to control 
access and use of the easements and adjacent lands.\16\
---------------------------------------------------------------------------
    \16\ For additional questions concerning the easements proposed in 
Section 4 of S.881, see supra, note 3, SEACC's Preliminary Comments to 
Senator Murkowski on S.3651 at 3-5.
---------------------------------------------------------------------------
    Prince of Wales Island is populated by about 5,000 people, spread 
out among 11 communities. Some of these settlements are Native 
villages, some fishing towns, and some former logging camps rebuilding 
themselves into viable communities. Residents of Prince of Wales Island 
are heavily dependent on the Tongass National Forest and its abundant 
resources for work, play, and food.
    Many residents of these communities closest to the lands threatened 
by S.881 question how they can continue their shared way of living 
close to the land if Sealaska takes their forest. This feeling of 
ownership of our national forests is one of the greatest freedoms 
enjoyed by Americans. Many wonder if the existing timber industry will 
be able to transition away from old-growth logging if Sealaska receives 
the oldest young-growth on the forest.
    The small communities of Edna Bay, Naukati, Thorne Bay, Point Baker 
and Port Protection have written formal letters or resolutions opposing 
this bill, and these are the communities closest to the transfer areas. 
Hundreds of island residents have signed petitions opposing the bill.
    Residents of the rural communities on Prince of Wales have long 
used all the lands proposed for selection by Sealaska on North Prince 
of Wales Island and Kosciusko Islands for subsistence hunting, fishing 
and gathering. Without the legal requirements for public oversight and 
involved participation provided these rural residents under Title VIII 
of the Alaska National Interest Lands Conservation Act on public lands, 
they will have no voice on how these ``private'' lands are managed by 
Sealaska nor will Sealaska be obligated to minimize impacts to 
subsistence resources and uses from its management.
    The community of Hydaburg has long fought to safeguard lands 
surrounding Keete/Nutkwa and Kassa Inlets and Mabel Bay. Sealaska has 
targeted these traditional lands for the short-term economic benefits 
associated with clearcut logging and round log export to Asian markets. 
Former Senator Tim Wirth's 1989 Tongass Timber Reform Act, S.346, 
prohibited logging on these lands, but they were ultimately left 
unprotected in the final compromise legislation in1990.\17\ Hydaburg 
and SEACC have consistently advocated for long-term protection for 
these lands ever since.
---------------------------------------------------------------------------
    \17\ See S. Rep. No. 101-30, Pt.1, at 3 (1989)(text of S.346); see 
also 136 Cong. Rec. S7740--S7744 (daily ed. June 12, 1990)(statement of 
Senator Tim Wirth in support of ``the Johnston compromise'' between 
S.346 and H.R.987, the House-passed Tongass Timber Reform Act of 1989).
---------------------------------------------------------------------------
 IS THE EXCHANGE OF 327,000 ACRES OF LAND AVAILABLE FOR CONVEYANCE TO 
      SEALASKA FOR ABOUT 60,000 ACRES OF PUBLIC LANDS A FAIR DEAL?

    As noted above, some characterize S.881 as a simple exchange of 
lands. ANCSA allows for such exchanges but with an important caveat; 
exchanges ``shall be on the basis of equal value  . . . '' 43 U.S.C. 
Sec.  1621(h). Under Section 4(b) of S.881, Sealaska will relinquish 
all the lands remaining available for selection and conveyance within 
the Congressional withdrawal areas upon completion of the conveyances 
under the bill. In terms of mere numbers, the 327,000 acres that will 
be returned to Forest Service management far exceeds the amount of land 
Sealaska will receive under S.881. In terms of value, however, the 
relinquished lands do not hold a candle to the lands Sealaska will 
receive.
    The accounting provided by S.881 does not consider the value of the 
public-financed infrastructure on the lands Sealaska seeks. These 
parcels contain approximately 200 miles of roads. These roads provide 
vital all-weather access for subsistence activities, as well as basic 
services like emergency healthcare and law enforcement.
    Thank you for the opportunity to provide these preliminary comments 
on this proposed legislation.

    Senator Murkowski. Thank you, Mr. Claus.
    They have called the roll, but I think I've got some time. 
So I'm going to start with some questions, and then we'll have 
to take a short break.
    Mr. Mallott, I would like you to address the issue of the 
Tongass Futures Roundtables. You indicated as you began your 
testimony here today that you are a participant and have been 
since the outset. Mr. Jensen's comments are that the 
administration is clearly looking to what is taking place or 
the dialog that is in process and perhaps this proposal that 
was placed out there this past week.
    How do you see Sealaska's entitlement legislation, the bill 
before us, fitting in with the Tongass Futures roundtable 
consensus-building process? How does this fit together?
    Mr. Mallott. After 3 years of effort, at its last meeting 
just in the last week the Tongass Futures roundtable had 
presented to it by a working committee the conceptual draft of 
what is called the grand solution. The Tongass has had several 
grand solutions, as you know, in its history. I can't comment 
on the details, but among its provisions would be a transfer of 
land by some mechanism to the State of Alaska. There would be 
the addition of significant wilderness. There would be at least 
one or more new classifications of land within the Tongass.
    I think that any thinking person would recognize that this 
is a multi-year process, that if it were to be approved by the 
Tongass Futures roundtable at its next meeting, which it surely 
would not, that it would take probably 5 or 6 years for us to 
get to a point where some or all of it were to be made into 
law, because almost all of it would require action by this 
Congress.
    The Sealaska Land Selections Act, as you pointed out, is 
ready now. We have had some 150 meetings with communities, 
institutions, significantly affected individuals within the 
Tongass. For example, contrary to a comment just made which 
would leave a different implication, the principle 
organizations in the community of Hydaburg have acted to 
support this legislation.
    We have made clear in the Tongass process that we very much 
desire and will act as aggressively as possible to make sure 
that our bill, which is significantly different from what the 
Tongass is trying to achieve in that it is a settlement of our 
land claims and that it is based upon prior existing 
obligations--in spite of that, Sealaska has continued to work 
very extensively with every interest, both at the table and in 
the communities of Southeast, and will continue to do so.
    Senator Murkowski. The question some have asked me is, 
well, if Sealaska has waited for 38 years to get their final 
conveyance and if in fact there is this process under way 
through the Tongass Futures Roundtable, what is another few 
years of waiting? Can you describe for the record what the 
economic situation is in the region and address why it doesn't 
make sense to wait multiple years for resolution of this issue?
    Mr. Mallott. A significant reality that Sealaska faces and 
the overall timber industry within the Tongass has faced is 
that the available marketable timber to us and to the industry 
is fast declining, that the overall timber industry in 
Southeast is already only a shadow of its former self and at a 
point where, if it is to be sustained, additional harvestable, 
marketable timber needs to be made available to the overall 
industry. Sealaska is impacted by that.
    Senator Murkowski. Is it not also accurate that it's not 
just Sealaska, but through the 7 [i] distributions other Alaska 
Native corporations throughout the State would also be impacted 
through that loss of revenue source?
    Mr. Mallott. Yes, Senator. I was going to end by saying 
that Sealaska itself in about 2 years would have to begin 
winding down its timber operations. That would end, amongst 
other things, the 7 [I] payments which have been made to the 12 
other corporations under that section of ANCSA, which obligates 
us to share 70 percent of the revenues from the development of 
ANCSA resources.
    Sealaska since its inception of harvest on ANCSA lands has 
distributed some $300 million to the other regional 
corporations and its loss would be a significant matter both to 
our survival and to theirs long-term.
    Senator Murkowski. I appreciate you saying that.
    I do need to excuse myself, so we will take a brief at-
ease. Hopefully we'll be back in 5 minutes.
    [Recess from 4:14 p.m. to 4:33 p.m.]
    Senator Murkowski. We seem to be losing some of our crowd, 
but not the interest. I appreciate your indulgence as we 
accommodated the vote. The good news for me is that we are 
finished voting, so I can stay with you for the rest of the 
afternoon.
    Mr. Mallott, I have a whole series of questions, but I 
don't want Mr. Claus to feel like I'm not giving equal time.
    Before we broke I asked about the economic impact and why 
it doesn't make sense to delay beyond the 38 years that 
Sealaska has already gone through. Mr. Claus, you have 
indicated that you live there as part of the island community, 
have a great understanding of the region and the local 
economies. If we're unable to pass the legislation with 
Sealaska and to do so in a timely manner, Mr. Mallott has 
indicated what the economic impact to Sealaska would be. But I 
think we also appreciate that to the Southeast economy, the 
timber aspect is something that is of great import.
    Can you tell me if in fact we aren't able to resolve this, 
if in fact Sealaska sees the decline, as Mr. Mallott has 
suggested, what then becomes of an already shrinking and 
struggling southeastern economy?
    Mr. Claus. First off, Senator, I very much appreciate your 
sense of urgency and understand that this is an important issue 
and that it does have to be addressed in a timely fashion. 
SEACC and the other people that we know are willing and able to 
talk about these issues in virtually any venue, whether that's 
the roundtable or in discussions with Sealaska itself or other 
small groups that are working on this issue. We also feel that 
this is an urgent issue.
    As far as the economy goes, Mr. Mallott was eloquent in his 
description of the move toward a second growth industry . This 
will take time as far as retooling. There's other legislation 
pending for those kind of activities. I think all the 
stakeholders need to be represented to address both that 
economic move toward a second growth industry and to address 
Sealaska's entitlements.
    Senator Murkowski. I recognize your point, but I think we 
also understand that moving to this second growth transition, 
the proposal that Sealaska has advanced is one that, lays out 
how they accomplish that transition there.
    Let me ask, Mr. Mallott, because it's been suggested by Mr. 
Claus and certainly the administration witnesses that everyone 
is willing to sit down and have further negotiations. In my 
opening comments, I suggested that there might be some movement 
or some removal of the bill as it relates to Glacier Bay 
National Park. How willing is Sealaska to sit down, not only 
with our staff, but with others, to work out whatever 
modifications may be needed to settle some of the remaining 
concerns?
    Mr. Mallott. Speaking as a board member and having worked 
closely with our management during this entire process, I 
believe Sealaska has already demonstrated that it is willing to 
be responsive to both the folks who live in the forests, our 
shareholders, who also have raised issues with portions of this 
bill, with environmental organizations. We've briefed the 
Tongass Futures roundtable twice on the legislation, as I've 
mentioned, have had some 150 meetings throughout the course of 
the past several years.
    This bill is a very different bill than it was when it was 
introduced in the last Congress, and Sealaska is committed to 
continuing to work with all the parties to try to expeditiously 
as possible resolve issues with the bill so that ultimately it 
can be expeditiously resolved also by Congress.
    Senator Murkowski. I have heard nothing but statements of 
goodwill about working towards final resolution and it is 
certainly my intention to push us all in that direction so that 
we do have a final, expeditious result and it is one that has a 
level of equity to the shareholders and does take into account 
a struggling economy.
    I wanted you to respond, Mr. Mallott, to the issue that was 
raised by both of the administration witnesses that somehow 
this sets a precedent. I told them that this was in fact a 
unique circumstance here with Sealaska. But can you elaborate 
further? Are there any differences between the Sealaska 
circumstances and those of other ANCSA corporations? Do we need 
to be fearful that all the others are going to be coming back 
and saying that in fact they should be able to seek further 
redress?
    Mr. Mallott. Senator Murkowski, the legislation has been 
briefed with the regional corporation CEOs group, which meets 
on a regular basis to discuss a full range of ANCSA issues, 
including, and they're hugely sensitive to this, issues that 
might create precedent.
    We also know that ANCSA is very much a living document. It 
has been amended many, many times. In those meetings that I 
just mentioned, there has been no inkling of opposition. Every 
Native corporation or Native institution that we have asked for 
the opportunity to both explain and then to seek their support 
for this bill, that support has been provided.
    In the Act itself, Sealaska selections come from a 
different and almost technical administrative section of the 
Act, which is completely separate from those sections of the 
Act from which all other ANCSA corporations make their 
selections.
    I have heard absolutely nothing from within the Native 
community and those interests who might otherwise raise these 
issues of possible precedent other than what I heard today by 
the government witnesses.
    Senator Murkowski. Let me ask about another suggestion that 
came up during the commentary. This undercurrent that if 
Sealaska gets to pick timber lands from this proposed selection 
pool that somehow you're able to cherrypick, and that it 
somehow negative for the rest of those who are in the timber 
industry in Southeast. Can you speak to that as an issue? Is 
this something that the timber industry are opposing in 
Sealaska's proposal?
    Mr. Mallott. The principal organizations that represent the 
timber industry in Southeastern Alaska support this legislation 
and I believe they are formally on record as doing so.
    The notion of cherrypicking is one that surprises me. Quite 
frankly, Senator, it is Tongass Futures roundtable and the 
discussions that took place there that led us to take the 
actions at the board level which set internal policy for 
Sealaska to seek this legislation. The notion that the industry 
itself should move to building a long-term sustainable industry 
built around no more old growth, but the harvest of second and 
renewable growth timber, the areas that Sealaska as a 
consequence has included in our bill are lands that have 
already been harvested or almost all of which has been 
previously harvested by the United States Forest Service.
    The issues of karsts and some other environmental issues 
are there and we would have to deal with those and are willing 
again to work with agencies and with other institutions in 
order to make the right decisions. In our legislation, for 
example, both in partial response to this question and to one 
you asked just prior, this bill contains very significant 
public access provisions, which was quite frankly hard for the 
board to make when we look at these as Native homelands. But in 
recognition of the issues that were raised, public access is 
included around and within these selection areas where local 
communities and individuals have indicated their importance.
    Sealaska also felt that it was incredibly important and 
necessary to move out of our existing withdrawal areas in order 
to protect sacred sites. If we stay within our withdrawal areas 
only and finalize our entitlements through existing 
administrative processes, as you've indicated, that will take 
some time, even in spite of the legislation that was passed 
several years ago to accelerate the process. But more than 
anything else, it would place in jeopardy in our judgment 
collectively as a board many, many sites that are sacred to our 
people and that we believe at this time and place are 
appropriate to be made available for selection, because the 
Tongass today is a very different place than it was 40 years 
ago, at a time then that we thought that the Federal protection 
would be sufficient; that the growing impact and utilization 
and recreation and tourism and other uses of the forest have 
made clear to us that somehow we need to have a significant 
voice and hopefully ownership of those sites which are most 
important to us, and we cannot do that if we stay within our 
withdrawal areas.
    Senator Murkowski. Let me ask you that, Mr. Claus, because 
it appears that SEACC is taking a position in opposition of 
these Native sacred sites. Is that correct?
    Mr. Claus. We believe that there's a conflict. From just 
talking to tribal members of the four tribes on Prince of Wales 
Island--and I in no way can speak for the tribes or don't 
intend to--but I think there is an issue to be resolved between 
the tribes and the ANCSA corporations as to who should have 
control over those issues or those particular sites.
    The objection that some have to the cultural sites is 
development of them and the removal of the covenants, as the 
administration witnesses testified to earlier.
    Senator Murkowski. Let me ask the question about the 
environmental impacts, because I believe it was Ms. Burke, and 
also Mr. Jensen, but I believe that Ms. Burke spoke to the fact 
that Sealaska, they can always select from the remaining acres 
of the original selection pool. Her comment was there was 
essentially sufficient land to select from.
    My point, and Senator Begich made it as well, within that 
area there's a significant percentage that may be under water. 
There's a significant percentage that is located in municipal 
watersheds and that are in areas where there is productive old 
growth.
    The fact is that you could select in those areas, but 
wouldn't there be greater environmental impact, to wildlife, 
within those areas? Why not encourage a better pool of economic 
lands to select from? That's where Sealaska has gone with this. 
By saying we're not going to allow for an expansion, you must 
select from within, you are essentially going counter to the 
initiative certainly of SEACC, which is enhanced protection of 
the environment.
    Let me ask Mr. Claus to answer and then I'll let you jump 
in, Byron.
    Mr. Claus. Thank you. As far as the specific environmental 
impact to areas inside the box, for lack of a better term, I 
would have to get back to you or back to the committee on those 
in specific. In general, I'm not sure that's a fair question, 
either inside the box or outside the box.
    We've been working with, for the past 6 months or so, in 
direct negotiations with the Sealaska Corporation about moving 
these areas, potential areas, around so they have less impact 
on the other communities of Prince of Wales Island and talking 
very specifically about where those areas ought to be. Many of 
those are outside of the existing ANCSA areas.
    So yes, we have been working on thinking about moving to 
places that will minimize impacts to communities and maximize 
environmental protections for old growth in sensitive areas.
    Senator Murkowski. Mr. Mallott, if you can speak to that, 
because from all that we can discern with the expansion of the 
selection pool what is happening is a greater facilitation of 
lands that have already been harvested. So we're talking about 
second growth. We are not in fact going after some of the more 
environmentally sensitive areas with this expanded selection.
    In fact, it is probably more environmentally balanced than 
if you were to select within the box. Is that correct?
    Mr. Mallott. Yes, it is. If the board had not begun the 
discussion of a powerful desire to protect sacred sites, the 
discussion of moving outside existing withdrawal areas might 
not have resulted. That would likely not have taken place also 
if not for the Tongass Futures roundtable process, where long-
term harvest of already roaded and accessed and harvested areas 
by the Forest Service might be made available to be responsive 
to the Tongass Futures' almost consensus aspiration that that 
be the future of the timber industry.
    In our withdrawal areas are some of the last remaining 
significantly unroaded and old growth watersheds in the 
Tongass. In the Tongass land use management plan--my numbers 
may be off, but some 60,000 acres of our withdrawn old growth 
able to be selected by Sealaska is identified as important to 
the overall balance of timber stand futures in the Tongass.
    We thought, quite frankly, Senator, we were doing everybody 
a favor. We could have stayed within our boxes and had 
significant old growth harvest, for which we have the ability, 
as you know, in law to market. We are not prohibited from doing 
that. We could sustain on an ongoing basis without having to 
diminish our current harvest levels to any consequence. We 
could work with the Forest Service to use that old growth 
availability to help create a sustainable timber industry for a 
longer term future.
    But we also agree as Native peoples who are stewards of our 
lands and of future lands that it makes sense to avoid 
continuing clearcut harvesting of old growth timber. But there 
needs to be an alternative both for the existing non-Native 
timber industry as well as for our industry. We believe that 
what we have identified and include in our bill is both 
responsible to the environment and it is responsive to the 
needs of the long-term timber industry.
    It is, quite frankly, both the choice and the gamble that 
Sealaska is willing to take. We will have to diminish our 
timber harvest very significantly even to sustain it and then 
ramp up at a period longer in the future than would otherwise 
be the case if we selected within the withdrawal areas.
    Also, within the withdrawal areas are a number of community 
intact watersheds which Sealaska would not select in any case, 
which would impact negatively our ability to create the kinds 
of blocks and rational selections that would allow us to 
sustain any kind of timber industry into the future. We could 
select those watersheds and plan to harvest them, but that 
would just create another Tongass crisis.
    Senator Murkowski. I appreciate the explanation because I 
think it goes to the heart of what we're doing here today. 
Sealaska within the ANCSA provisions, within the law, has the 
ability to be more aggressive from an economic development 
perspective. But I think out of respect for the land and out of 
respect for finding that balance, this is why you are looking 
outside of the withdrawal areas to provide for a level of 
protection, as stewards.
    That's the last question that I want to ask you, Mr. 
Mallott, and that is the issue of stewardship. There has been a 
little bit of undercurrent that perhaps in the past Sealaska 
has not been the best managers in previously selected lands. I 
would just ask you for the record to tell us about Sealaska's 
commitment to sustainable forest stewardship. You have given us 
a little information, but if you could just describe further 
and how you'll work to ensure that the Native subsistence needs 
are also met through that.
    Mr. Mallott. Thank you for a meaningful opportunity, 
because Sealaska and other Native corporations who have engaged 
in timber harvests over the years in the Tongass have had to 
deal with those accusations. When we began harvests some 25 and 
more years ago now, there were no meaningful standards either 
for the Forest Service or for ourselves for the kind of timber 
harvests that would be required into the longer term future. 
That is, forest management practices that were more nuanced 
than that necessary for large-scale harvest of pulpwood, for 
example, which was the reality at the time with the two long-
term contracts.
    It was Sealaska as much as any other institution or person 
who advanced the idea of developing forest harvest practice 
standards that the legislature of Alaska could adopt, which 
would help guide our harvest practices. Sealaska has, at least 
for the past 20 years and very significantly in the past 15 
years, engaged in very considerable silvaculture on those lands 
that we've harvested, not just in thinning and pruning and 
other kinds of practices, but even in planting new trees in 
order to expedite and to ensure growth on steep slopes or 
steeper slopes than would otherwise allow for reasonable growth 
in our areas.
    Sealaska has spent literally millions on silvaculture, has 
contracts with leading forestry experts at universities, for 
example Oregon State, which has one of the best forestry 
programs in the country. The board and management are 
absolutely committed to the idea and practice it on the ground 
of being very, very responsible stewards.
    Senator Murkowski. I appreciate the comments from both of 
you. I will conclude by asking either of you if there's 
anything that you would like to add that I haven't addressed, 
or if you feel there needs to be a rebuttal, Mr. Claus. I 
haven't peppered you with as many questions, but I will give 
both of you an opportunity to provide some final comments if 
you would like. Mr. Claus?
    Mr. Claus. Thank you. The concerns that I hear from the 
people who are living on Prince of Wales Island is primarily 
about past practice and what they see out their front windows, 
what they see when they go boating, what they see when they 
drive the roads is shocking and disturbing to people.
    I can take Mr. Mallott at his word. I can take the Sealaska 
Corporation at their policy today that they intend to do better 
in the future with these lands that would be transferred. But 
that's not in this legislation. They can change that. They 
could have another board meeting in another 5 years and change 
that again.
    If there were a way to make this part of the legislation, 
then maybe we should be discussing how that goes on. Right now 
we have their assertion, which I believe that they will follow 
through on, and I certainly appreciate that their practices 
will change. But the concerns in the community is about what 
they see every day, about how Sealaska operates. These are 
ongoing timber operations. They're not necessarily all 
historical.
    Senator Murkowski.
    The Chairman. Are you suggesting, Mr. Claus, that Sealaska 
has been engaging in any violations of either Federal or State 
laws or regulations?
    Mr. Claus. No, Ma'am.
    Senator Murkowski. Mr. Mallott, did you care to follow up?
    Mr. Mallott. Yes. I think it's important to note that, 
particularly on Prince of Wales Island, which is really the 
significant portion of the Tongass Forest that we are speaking 
of, that much of Sealaska's harvest areas are not visible from 
most view planes; that those harvests near communities are 
either United States Forest Service or some other entity.
    That's not to say that Sealaska did not engage in 
clearcutting. In order to be profitable and to really in many 
instances practice the best silvaculture in the Tongass 
National Forest, clearcutting has been an important 
methodology. But at the levels and on old growth that have been 
the practice in the past, we fully agree that we are moving 
away from that paradigm. That is one of the principal reasons 
for this legislation.
    I would just like to say, Senator Murkowski, that we very 
much appreciate your leadership and your interest in this 
legislation.
    Finally, I was handed to me this afternoon a number of 
additional letters and documents* in support of this 
legislation. I'd like to be able to submit them for the record 
also.
---------------------------------------------------------------------------
    * Additional letters and documents can be found in Appendix II.
---------------------------------------------------------------------------
    Senator Murkowski. We will include them as part of the 
record.
    I thank both of you. I wish that the chairman and the 
ranking member of this subcommittee had been able to hear your 
testimony and the responses to the questions. I think it was 
extremely helpful in just laying out why we are here. I think 
it was very helpful in hearing the comments that there is a 
genuine effort on the parts of all the stakeholders that in 
fact we finally, after close to 4 decades, resolve this issue 
of land conveyance for the Sealaska shareholders.
    So I will be working with Senator Wyden, Senator Barrasso, 
and Senator Bingaman to ensure that we are able to reach a 
resolution. I would encourage those of you with Sealaska, I 
know that there's been a great deal of reach-out and I 
appreciate that. When we first had discussions about this, we 
said you're going to have to do a lot more communication in the 
smaller communities. It's important that we continue with a 
high level of dialog even as we move through this process.
    But I thank you for taking the time to travel long 
distances to be here, all of you, because I noted there are 
those behind you that are not local residents as well, and I 
appreciate your input, and we will be working with you.
    With that, we stand adjourned.
    [Whereupon, at 5:06 p.m., the hearing was adjourned.]


                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

     Responses of Byron Mallott to Questions From Senator Bingaman

    Question 1. Does Sealaska have a duty as a corporation to generate 
a profit from the lands it would receive under ANCSA or this bill? 
Please explain.
    Answer. Sealaska Corporation was created as authorized by Congress 
under ANCSA, and ANCSA's Declaration of Policy at Section 2(b) of the 
Act stated that ``the settlement should be accomplished rapidly, with 
certainty, in conformity with the real economic and social needs of 
Natives . . . ''. Further, in Section 7(d) of ANCSA, Congress declared 
that incorporators for each of the specified geographic regions, 
``shall incorporate under the laws of Alaska a Regional Corporation to 
conduct business for profit, which shall be eligible for the benefits 
of this Act so long as it is organized and functions in accordance with 
this Act.'' This language and the corporate structure specified in 
ANCSA have been interpreted to require economic development and 
initiative for the purposes of earning a profit for the benefit of the 
Native shareholders and the regions in which they live.
    Sealaska is organized under the laws of the State of Alaska as a 
for-profit corporation and does, in fact, pursue opportunities to 
develop natural resources on many of the lands it owns. The development 
of natural resources was contemplated in ANCSA, as evidenced by Section 
7(i) of ANCSA (requiring the sharing of revenues from natural resource 
development). Moreover, one of the areas in which the Joint Federal-
State Land Use Planning Commission for Alaska, as established in 
Section 17 of ANCSA, was directed to make recommendations was in the 
area of ``economic growth and development'' to ensure compatibility 
with other land management interests. See Section 17(a)(7) of ANCSA.
    Sealaska profits are distributed to tribal member shareholders and 
many shareholders also benefit from Sealaska's economic development 
activities through jobs, subcontracting opportunities and scholarships. 
Sealaska, and many other regional corporations, have also moved beyond 
the congressional mandate by establishing a non-profit arm to pursue 
social and cultural missions. The Sealaska Heritage Institute is funded 
from the profitable activities of Sealaska Corporation, and its mission 
is to save and revive our Native languages, arts, and to further 
educational initiatives. Sealaska supports the Native community in many 
ways, providing scholarships to our Native youth and delivering 
firewood to our elders. While we are a for-profit entity, as Congress 
mandated, to simply characterize Sealaska, or any other Alaska Native 
Corporation, as just another for-profit corporation, as some have, 
constitutes a near dismissal of one of the support systems created by 
Congress for Alaska's Native community.
    Some of the lands received by Sealaska under S. 881 would be 
developed for their timber potential. The timber would be sold in U.S. 
and international markets, creating profits that would ultimately 
benefit our Native community, and through the provisions of 7(i) and 
7(j) of ANCSA, 100,000 Alaska Natives throughout our state. Many from 
our communities consider this legislation to be the most important and 
immediate ``economic stimulus package'' that Congress can implement for 
Southeast Alaska. Sealaska and its subsidiaries and affiliates expended 
over $45 million in 2008 in Southeast Alaska. Revenues from timber 
harvest are reinvested in our forests through our silviculture program 
so area forests will be sustainable for not only timber, but for 
wildlife, subsistence and other non-timber forest dependant resources. 
Over 350 businesses and organizations in 16 Southeast communities 
benefited from spending resulting from Sealaska activities. We provided 
over 363 full and part-time jobs with a payroll of over $15 million. 
Including direct and indirect employment and payroll, Sealaska created 
490 jobs and $21 million in payroll.
    We are proud of our collaborative efforts to build and support 
sustainable and viable communities and cultures in our region. We face 
continuing economic challenges with commercial electricity rates 
reaching $0.61/kwh and heating fuel costs sometimes ranging above $6.00 
per gallon. To help offset these extraordinary costs, we work with our 
logging contractors and seven of our local communities to operate a 
community firewood program for the benefit of all community members, 
and special efforts are made to deliver split wood for the needy. We 
are also the primary contributor of cedar logs for the carving of 
totems and are now working with the communities to provide cedar 
carving planks to schools and tribal organizations. We are 
collaborating with our village corporations and villages to develop 
hydroelectric projects.
    Question 2. Section 22(f) of ANCSA authorizes the Secretary [of the 
Interior] and the Secretary of Agriculture to enter into exchanges with 
the Alaska Native Corporations ``for the purpose of effecting land 
consolidations or to facilitate the management or development of the 
land, or for other public purposes.'' Has Sealaska considered 
finalizing its selections and then using this exchange [authority] 
under ANCSA to address some of the concerns raised in your testimony?
    Answer. The committee references 22(f) of ANCSA; however, there are 
two provisions authorizing land exchanges--section 22(f) of ANCSA and 
section 1302(h) of ANILCA. Both have nearly identical language and 
allow for exchange of Native lands, interests therein or Native 
selection rights. An abbreviated description of the language follows:

          The Secretary, the Secretary of Defense, the Secretary of 
        Agriculture, and the State of Alaska are authorized to exchange 
        lands or interests therein, including Native selection rights . 
        . . for the purpose of effecting land consolidations or to 
        facilitate the management or development of the land, or for 
        other public purposes. Exchanges shall be on the basis of equal 
        value, and either party to the exchange may pay or accept cash 
        in order to equalize the value of the property exchanged: 
        Provided, that when the parties agree to an exchange and the 
        appropriate Secretary determines it is in the public interest, 
        such exchanges may be made for other than equal value.

    The Southeast Alaska Native Land Entitlement Finalization Act, S. 
881, does not propose a land exchange. The legislation proposes only to 
designate an alternative pool of land from which Sealaska would select 
its remaining entitlement under ANCSA. The Sealaska bill conforms to 
the directive of ANCSA to provide an equitable entitlement to Alaska 
Native people. For the reasons set forth below, a fair, equitable and 
timely solution is not likely to be reached by forcing Sealaska to 
complete its ANCSA selections inside the existing withdrawals and then 
engage in an administrative exchange.
    In fact, for many years Sealaska did pursue options to complete an 
administrative exchange of lands that the Native Corporation had 
already received pursuant to ANCSA, including lands deemed by many to 
have significant national interest values, and concluded that a fair 
and adequate exchange of current land holdings could not be achieved. 
Sealaska does not wish to take title, under the current provisions of 
ANCSA, to additional ANCSA lands that have significant public interest 
and environmental value on the chance that it might complete a fair and 
equitable solution through the administrative process.
    Moreover, even when Sealaska pursued an administrative land 
exchange with the Forest Service, Sealaska still expected that any 
exchange would necessitate the concurrence of the Congress, both to 
ensure continuing congressional oversight over the implementation of 
ANCSA and to avoid litigation that has historically frustrated 
administrative exchange efforts.
    Our efforts to implement an administrative exchange (with 
expectation of ultimately pursuing congressional ratification) began in 
1998. For various reasons, Sealaska's efforts to pursue an 
administrative land exchange failed, largely for the following reasons:

          1) Differences in the national policy priorities among 
        federal agencies and between national, regional and local level 
        offices;
          2) Differences in policy objectives between Sealaska and the 
        Forest Services--for example, Sealaska hoped to exchange 
        municipal watersheds back to the Forest Service to be 
        protected. Under the Federal Land Management and Policy Act of 
        1976, the Forest Service is charged with ensuring the provision 
        of water from national forests to meet municipal water needs. 
        Under the Tongass Land Management Plan (TLMP), however, the 
        Forest Service included a provision establishing that exchanges 
        to acquire municipal watersheds are inconsistent with the TLMP;
          3) The continuous revolving door of Forest supervisors and 
        staff who made supportive statements about reaching a fair and 
        equitable settlement through a proposed land exchange, but were 
        unable to pursue resolution during their time at the agency;
          4) Concerns about the litigation related to land exchanges, 
        including a lawsuit against a forest supervisor (in the 
        southwest) for an administrative land exchange;
          5) The USDA prerequisite that any exchange must follow the 
        Uniform Appraisal Standards for Federal Land Acquisitions 
        (Yellow Book) procedures for appraisal of withdrawn and 
        selected lands. The Yellow Book process is so difficult that, 
        to our knowledge, no exchanges of the order of magnitude of 
        what we are trying to accomplish has occurred under the Yellow 
        Book rules; and
          6) Many of the lands that Sealaska currently owns (or could 
        own), and has expressed a willingness to exchange, have 
        exceptional ``public interest values''--such as fishery and 
        spawning habitat, municipal watersheds, and old growth roadless 
        areas--but these values are not considered under the existing 
        land exchange appraisal process.

    The administrative process for completing exchanges for even 
smaller land exchanges can require several years and formidable 
transactional costs. For land adjustments of the scale needed to 
properly fulfill Sealaska's ANCSA entitlement, the time and costs 
required are prohibitive.
    Nearly all sizable land exchanges that have been successfully 
completed between federal agencies and Alaska Native Corporations have 
been completed through the legislative process. There is nothing unique 
or precedent-setting about adjustments of provisions regarding 
Sealaska's land entitlement to fulfill ANCSA purposes. There have been 
at least 25 ANCSA land adjustments for several Native corporations, all 
of which were completed through the legislative, not administrative, 
process, including:

  <bullet> Klukwan Village Corporation, Pub. L. 94-456, 90 Stat. 1934 
        (1976).
  <bullet> Cook Inlet Region, Inc., Pub. L. 95-178, 91 Stat. 1369 
        (1977).
  <bullet> Shee Atika, Inc., Goldbelt, Inc. and Kootznoowoo, Inc. 
        (Admiralty Island), among several other Corporations, Pub. L. 
        96-487, 94 Stat. 2409 (1980).
  <bullet> Haida Village Corporation, Pub. L. 99-669 (1986), as amended 
        by Pub. L. 101-626 (1990) and Pub. L. 102-415 (1992).
  <bullet> Sealaska Split Estate Exchange, Pub. L. 102-415 (1992).
  <bullet> Kake Tribal Corporation, Pub. L. 106-283.

    A legislative solution will save millions of dollars that would be 
expended in an attempt to complete the proposed adjustments 
administratively. The Forest Service administrative land exchange 
process incorporates approximately 70 steps, including a feasibility 
analysis; a NEPA process; land appraisals according to Yellow Book 
standards; and many other cumbersome procedures. The appraisal process 
required for an administrative land exchange is particularly cost-
prohibitive and unreliable for Southeast Alaska lands:

  <bullet> Alaska land sales available for use in comparative sales are 
        restricted to size and quality.
  <bullet> Market data is limited or non-existent
  <bullet> There are a limited number of sales in Alaska
  <bullet> Supply limitation of available land in market place 
        prohibits evaluation of demand.
  <bullet> Cost of timber and mineral appraisals for large tracts is 
        prohibitive and time sensitive.

    Just the feasibility report, required to initiate the 
administrative exchange process, includes the following elements:

          1. Discussion of the exchange proposal
          2. Forest Plan Compliance Review/Public Benefits Summary
          3. Title Evidence
          4. Boundary Management Review
          5. Federal Land Status Report
          6. Water Rights Analysis
          7. Valuation Discussion
          8. Identification of Issues and Public Support

    The administrative exchange process is sufficiently cumbersome 
and--as a practical matter--dysfunctional that we are not aware of more 
than a few large land exchanges being completed in the western U.S. in 
recent years without legislation to ratify or implement them. Those 
exchanges that have been legislated have received ample, adequate 
review and stakeholder participation through the legislative process to 
be successful. Such exchanges are implemented without the impracticable 
delays and costs associated with the administrative process and any 
subsequent administrative appeals and litigation that are often 
generated by small groups of activists even for smaller exchanges, 
despite majority consensus that the exchange is in the public interest. 
The agencies are not adequately staffed to properly process exchanges 
in a timely and adequate manner, in Alaska or elsewhere.

          Thirty years ago Congress stated that,
           . . . It is imperative that the Natives receive their land 
        as quickly as possible. Time is of the essence. Preparation of 
        an environmental impact statement under the NEPA is unnecessary 
        and not warranted where implementation of the ANCSA of this 
        Title is involved.

    S. Rep. No. 96-413, 96th Cong., 1st Sess. (November 14, 1979) at 
292. Despite this command, the administrative regulations encumber the 
administrative land exchange process with a plethora of lengthy, costly 
NEPA and other bureaucratic requirements that hinder any sizable land 
exchange effort and result in a prohibitively prolonged and expensive 
process, with small likelihood for success.
     Responses of Byron Mallott to Questions From Senator Barrasso
    Question 1. There has been some suggestion in the testimony that 
the selection of additional sacred and cultural and Native Futures 
sites by Sealaska Corp. could increase the cost of Forest Service land 
management in the Tongass by fracturing land management patterns. How 
would Sealaska address this issue to prevent that from happening?
    Answer. Your question requires a brief explanation of the dilemma 
that forced Sealaska to seek this legislation--without legislation, 
Sealaska would be forced either to select timber lands from within the 
original ANCSA withdrawal areas, causing significant environmental and 
community impacts, or, shut down all timber operations and negatively 
impact rural communities and the economy of Southeast Alaska.
    Sealaska has an unfettered right to select its remaining 
approximately 75,000 acres of ANCSA lands to which it is entitled from 
within the original ANCSA boxes. It is undisputed that Sealaska 
Corporation has an unfettered right to select forestland that is 
virtually all roadless and old growth from within the withdrawal boxes. 
These selections would have negative impacts on local communities, 
including their watersheds and recreational and subsistence use areas.
    The Sealaska bill proposes an alternative: the legislation would 
permit Sealaska to select its remaining entitlement lands from outside 
of the ANCSA withdrawal boxes. The proposed alternative land pool from 
which Sealaska could select under the proposed legislation does in fact 
include forestland suitable for timber development. However, the bill 
commits Sealaska to selecting a great deal of second growth, instead of 
old growth. In fact, the legislation ultimately would preserve 30,000 
acres of roadless old growth timber.
    The Sealaska bill would permit Sealaska to select 3,600 acres of 
land as sacred and cultural sites, and 5,000 acres of land as Native 
futures sites. Specifically, Sealaska would select 206 sacred sites and 
more than 40 ``Native futures sites''. No timber development would be 
permitted on sacred sites and Native futures sites. Because Sealaska 
would be permitted to select these sites in lieu of timberlands, the 
legislation reduces overall timber development by 8,600 acres.
    Your question addresses the cost to the Forest Service of the 
provisions in the Sealaska bill that would permit Sealaska to select 
sacred and futures sites in lieu of land for timber development. The 
5,000 acres designated by the proposed legislation as Native futures 
sites would be utilized for ecotourism, cultural activities, and 
renewable energy sites. By selecting these sites, Sealaska bill 
preserves old growth roadless forestland while helping to strengthen 
the economies of rural villages (by locating futures sites near rural 
Native communities). For this reason, Sealaska believes there is a 
significant public benefit to conveying the Native futures sites to the 
Alaska Native community, despite the fact that the Forest Service would 
have to account for the 5,000 acres of Native futures sites its 
management of the 17 million acre Tongass National Forest.
    Sealaska would also receive 206 sites that represent the some of 
the most important sacred sites recognized by Tlingit, Haida, and 
Tsimshian people of Southeast Alaska. It is worth noting here that 
Congress tasked the regional Alaska Native Corporation in 1971 with 
identifying, selecting, and preserving sacred and cultural sites under 
ANCSA; in that sense, Sealaska is fulfilling the mandate of Congress, 
and ANCSA, in this legislation. However, again, it is true that the 
Forest Service would need to account for these sites in their 
management of the Tongass.
    Notably, regardless of whether Sealaska selects within the existing 
ANCSA withdrawal boxes or outside of those boxes, Sealaska will select 
its remaining entitlement lands from within the Tongass National 
Forest. In other words, by selecting Native entitlement lands, whether 
under existing law (ANCSA) or the proposed legislation, Sealaska's land 
selections will require the Forest Service to adjust the implementation 
of the land use plan for the Tongass to account for such selections. 
However, under the proposed legislation, the Alaska Native community 
will benefit because 206 sacred sites will be returned to the Native 
community. Under the proposed legislation, the Alaska Native community 
will benefit because 40+ Native futures sites will be made available to 
the Alaska Native community for development as ecotourism sites and 
renewable energy sites, or simply to have the sites (some of which are 
traditional village areas) under Native ownership. Under the proposed 
legislation, the Alaska Native community will benefit because Sealaska 
will select forestland on the road system, lowering timber harvest 
costs, benefiting Sealaska's Native shareholders and employees, and 
substantially benefiting the Alaska Native economy. Finally, under the 
proposed legislation, the public will benefit, because more than 30,000 
acres of roadless old growth forestland will be preserved. We are more 
than happy to provide you with additional maps and background that 
confirm these conclusions.
    We would also note that Sealaska is committed to working with the 
Forest Service to ensure that management issues or concerns between and 
among the two entities are limited. Moreover, we are committed to 
maintaining dialogue or developing agreements to ensure there are few, 
if any, management conflicts for our respective lands and shared 
boundaries.
    Question 2. Mr. Mallott, if this land bill does not go forward, 
what will your corporation do to complete the selections are you 
permitted to make under the Alaska Native Claims Settlement Act? What 
would be the impact on the region of those actions?
    Answer. Sealaska harvests timber on some of the land to which it 
has received title under ANCSA. However, Sealaska has avoided 
harvesting tens of thousands of acres of forestland now under Sealaska 
ownership because those lands have significant public interest values.
    Sealaska is now at the end of availability of timber on existing 
Native lands previously designated by the Corporation as appropriate 
for timber harvest. If Sealaska is to maintain its timber rotation--
that is, if Sealaska is to continue to provide timber jobs in rural 
Alaska Native communities with unemployment ranging well above 20-30 
percent--Sealaska must either: (1) receive those lands designated under 
the proposed legislation for transfer to Sealaska; (2) select and 
harvest roadless old growth lands from within the existing ANCSA 
withdrawal boxes, which would require expensive road building and 
reduced economic benefit to the Alaska Native and Southeast community, 
as well as more roads in the forest; (3) shut down all timber 
operations on Sealaska lands, with grave impacts to the local economy; 
or (4) harvest environmentally sensitive lands already under Sealaska 
ownership. The last three alternatives are bad alternatives. However, 
the economic situation in Southeast Alaska is dire. Sealaska cannot 
wait for a legislative solution that may come in 2, 5, or 10 years; 
Sealaska is faced with real world constraints that demand a solution by 
the end of the 111th Congress. Sealaska seeks a solution through this 
legislation that will result in social, cultural, economic, and 
environmental benefits to the Alaska Native community and to the 
Southeast Alaska region.
    We are more than happy to provide additional details regarding the 
Sealaska legislation that support these conclusions.
                                 ______
                                 
   Responses of Marcilynn A. Burke to Questions From Senator Bingaman

    Question 1. Section 403 of Public Law 108-452, the Alaska Land 
Transfer Acceleration Act (``ALTAA''), was required the Alaska Native 
Corporations to submit priorities for finalizing land conveyances 
within three and a half years of the date the legislation was enacted. 
Did Sealaska Corporation submit its priorities for selection as 
required by that law?
    Answer. Yes. On June 10, 2008, Sealaska submitted priorities for 
approximately 140,000 acres of selections to comply with the deadline 
to file final land selection priorities under Section 403(a)(2) of 
ALTAA.
    Question 2. Can you please provide the Committee with a map that 
illustrates the existing ANCSA withdrawal areas in Southeast Alaska, 
the 170,000 acres within those areas that have been selected by 
Sealaska for possible conveyance, and any lands that Sealaska has 
prioritized for conveyance pursuant to section 403 of ALTAA?
    Answer. Yes. The map has been sent to the Committee.
    Question 3. Can you explain the remaining process for finalizing 
Sealaska conveyances in accordance with ANCSA and ALTAA? Please specify 
which party is responsible for each action that remains in that process 
and whether any actions are dependent on an earlier action in order to 
proceed.
    Answer. To complete the process for finalizing Sealaska 
conveyances, Sealaska would need to inform the BLM that it would like 
conveyance to its prioritized Alaska Native Claims Settlement Act 
(ANCSA) selections currently on file with the BLM. This notification is 
necessary due to Sealaska's June 10, 2008, letter requesting that 
conveyance work be held in abeyance pending the outcome of S. 881.
    Once Sealaska notifies the BLM that it would like to proceed with 
the conveyances, the agency would initiate the 90-day public process to 
identify public easements to be reserved pursuant to Section 17(b) of 
ANCSA. The BLM would request from the U.S. Forest Service (FS) a list 
of any third party interests the FS created to ensure that the title 
BLM prepares would be subject to such interests for the life of the 
interest.
    Once the 90-day public process is completed, the BLM would issue an 
administrative decision to convey the lands that would contain a 45-day 
appeal/grace period. The decision would be published in the Federal 
Register and in the local newspaper nearest the lands for four 
consecutive weeks.
    At the end of the 45-day appeal period, the BLM would then issue a 
title document in the form of an Interim Conveyance (IC) for the un-
surveyed lands in the absence of an appeal. The IC would transfer all 
of the Federal government's right, title, and interest in the described 
real property to Sealaska.
    To finalize Sealaska's conveyance, the BLM would complete surveys 
and issue confirmatory patents for the lands previously conveyed by 
ICs, thus fully transferring Federal lands out of Federal ownership.
    Question 4. It is my understanding that Sealaska has chosen not to 
proceed to finalize its entitlement under ANCSA, resulting in the 
process being indefinitely postponed. Is that correct? If so, how long 
has the Sealaska conveyance process been on-hold as a result of 
Sealaska's choice not to proceed?
    Answer. Yes. On June 10, 2008, Sealaska submitted priorities for 
approximately 140,000 acres of selections to comply with the deadline 
to file final land selection priorities under Section 403(a)(2) of 
ALTAA. Sealaska stated in the incoming document filed with the BLM that 
the corporation was pursuing Federal legislation that would allow it to 
receive its unfilled 14(h)(8) land entitlement from vacant, 
unappropriated, out-of-withdrawal Federal lands in Southeast Alaska. 
The letter further indicated that if the legislation were successful, 
the prioritized land selection would no longer be necessary. Thus, BLM 
will not proceed until notified by Sealaska.
    Question 5. Approximately how long would it take from the date that 
BLM received a request from Sealaska to proceed with the conveyance 
process for the BLM to convey the land under ANCSA to Sealaska for 
economic use?
    Answer. It would take approximately nine months for the BLM to 
issue a title document in the form of an IC for the un-surveyed lands 
in the absence of an appeal. This form of title would allow Sealaska to 
use the land for economic use. This process is described in more detail 
in the response to question number 3, above.
    Question 6. Did Sealaska ever submit an application under section 
14(h) of ANCSA (regarding conveyance of existing cemetery sites and 
historical places) for any of the land identified by S. 881 for 
conveyance to Sealaska?
    Answer. All but five of Sealaska's Sec. 14(h)(1) cemetery/
historical sites originally filed under ANCSA have been adjudicated and 
closed. It is unclear whether any of the five remaining parcels are 
identified in S. 881.
    Question 7. Would any of the sites identified for conveyance to 
Sealaska pursuant to S. 881 qualify as existing cemetery sites or 
historical places under section 14(h) of ANCSA?
    Answer. To our knowledge, examinations of the sites in S. 881 have 
not been conducted, so we do not know whether or not they meet the 
regulatory criteria.
    Question 8. ALTAA established a schedule to finalize cemetery and 
historical site selections, and mandated that any applications for such 
sites that were submitted after the close of that process were to be 
invalid and must be rejected. Did Sealaska Corporation submit an 
application for the historical and cultural sites it is seeking through 
this bill in accordance with ALTAA?
    Answer. No, Sealaska did not file any requests pursuant to Sec. 204 
of ALTAA. Sealaska filed selections for cemetery and historical sites 
before the ANCSA regulatory deadline of December 31, 1976, in 43 CFR 
2653.4(b). The ALTAA provided that eligible applications-of-record at 
the time ALTAA was enacted on December 10, 2004, could be conveyed 
notwithstanding acreage allocations. The provision also applied to any 
of the 188 closed applications that were determined to be eligible and 
reinstated under Secretarial Order (SO) No. 3220. Sealaska applications 
were not part of the list of 188 in the SO, so the corporation did not 
need to file an application.
    Question 9. How many of the 170,000 acres selected by Sealaska for 
possible conveyance from within the ANCSA withdrawal areas are under 
salt water?
    Answer. None of the 170,000 acres of land selections is under salt 
water because Sealaska selected lands, not water. Sealaska's land 
selections included both upland and coastline areas. However, Sealaska 
has expressed concern over their selections since all of the land is 
not prime upland that meets their socio-economic, cultural, sacred, 
traditional and historical criteria.
    Question 10. How many of the acres prioritized by Sealaska pursuant 
to section 403 of ALTAA are under salt water?
    Answer. None.
    Question 11. Section 22(f) of ANCSA authorizes the Secretary of the 
Interior and the Secretary of Agriculture to enter into exchanges with 
the Alaska Native Corporations ``for the purpose of effecting land 
consolidations or to facilitate the management or development of the 
land, or for other public purposes.'' Has the Department used this 
authority to exchange land or selection rights with any Native 
Corporations?
    Answer. Yes, the Secretary of the Interior has entered into 
exchanges and agreements, many of which had enabling legislation and 
parties in support of them.
    Question 12. Would an exchange pursuant to section 22(f) resolve 
any of the precedential concerns raised by the Department?
    Answer. Yes, but only if a mutual agreeable exchange could be 
reached. We defer to the Department of Agriculture Forest Service on 
matters related to FS lands.

  Responses of Marcilynn A. Burke to Questions From Senator Murkowski
                               on s. 881

    Question 1. Could you explain your testimony that allowing Sealaska 
Corporation to accept National Historic Preservation Act funding would 
have ``wider'' implications. Since Native corporations already are 
treated as tribes for program funding purposes under the definitions in 
Section 4 of the Indian Self Determination and Education Assistance 
Act, can you be specific as to BLM's concerns over the act?
    Answer. Section 5(e)(2) of S. 881 would confer status to Alaska 
Native Corporations under the National Historic Preservation Act that 
Native Alaskan tribes would not have. The Department has concerns about 
the inequity that would create.
    Question 2. You speak in your testimony to the ``undesirable 
precedent'' of allowing Sealaska to substitute new lands for past 
selections. But Sealaska's areas for selection were unique in Alaska in 
1971 because so much of the land was tied up by long-term timber sale 
contract areas. Could you explain what other Native corporation has 
equal selection problems, except perhaps Cook Inlet that has already 
remedied its selection issues?
    Answer. The BLM is not aware of equal selection problems for other 
Native corporations wherein there is sufficient acreage that was 
prioritized by the ALTAA deadline, but a corporation now asserts the 
available land is not suitable to meet its entitlement. In addition, 
every Native corporation, with the exception of the two inland Native 
corporations, Doyon Ltd. and Ahtna, Inc., have significant amounts of 
water within many of their withdrawal areas. All Native corporations 
have lands within their withdrawal areas that have limited economic 
development potential.
                                 s. 940
    Question 1. What is the total value of land and shared receipts 
that have been given to Nevada or other political divisions of that 
state by the BLM over the last decade?
    Answer. The BLM has conveyed approximately 53,271 acres over the 
last decade to the State of Nevada or its political divisions. The 
table below shows these conveyances in four categories, and the 
approximate acres and revenue received for each category of conveyance.

 
------------------------------------------------------------------------
                                                     Approximate Revenue
      Conveyance Category        Approximate Acres        Received
------------------------------------------------------------------------
1) Administrative conveyances           604 acres            $3,558,500
 at Fair Market Value (FMV)
------------------------------------------------------------------------
2) Lands conveyed under               5,517 acres               $22,125
 Recreation & Public Purposes
 Act
------------------------------------------------------------------------
3) Legislative conveyances at        13,980 acres           $44,849,700
 FMV
------------------------------------------------------------------------
4) Legislative conveyances at        33,173 acres              $475,000
 no cost, or at less than FMV
------------------------------------------------------------------------
Total                                53,271 acres           $48,905,325
------------------------------------------------------------------------


    The BLM did not conduct appraisals and has not estimated the value 
of the lands conveyed at no cost or at less than fair market value 
(FMV), in accordance with legislation (conveyance type (4) in the table 
above). These conveyances occurred over a ten-year period during which 
real estate values fluctuated widely, and the FMV at the time of 
conveyance would be difficult to reconstruct. The value of $475,000, 
shown in the right-hand column, reflects the approximate revenue 
received for the legislated conveyances that were directed to occur at 
less than FMV.
    The following are the shared receipts under the Southern Nevada 
Public Land Management Act from enactment (October, 1998) though 
October, 2009


 
 
 
 
State of Nevada (for Education)                          $151,755,825.45
Southern Nevada Water Authority                          $287,635,953.50
Clark County Department of Aviation                      $  9,225,695.45
                                                ------------------------
TOTAL                                                    $448,617,475.50
 

    Question 2. What is the estimated value of the lands to be conveyed 
by S. 940 if it were to be signed into law?
    Answer. The BLM has not conducted appraisals of the lands that 
would be conveyed under S. 940. The following estimates are based on a 
cursory review of current comparable land values in these general 
areas.

  <bullet> The present estimated value of the proposed transfer of 
        approximately 40 acres for the College of Southern Nevada is $4 
        million ($100,000 per acre).
  <bullet> he present estimated value of the proposed transfer of 
        approximately 2,085 acres for the University of Nevada, Las 
        Vegas is $166.8 million ($80,000 per acre).
  <bullet> The present estimated value of the proposed transfer of 
        approximately 256 acres for Great Basin College is unknown due 
        to the lack of readily-available comparables.

    Question 3. If the Committee amended the bill to: 1) remove the 
ability of the colleges to put commercial and private buildings on the 
land; 2) cherry-stemmed the carpenters canyon road out of the 
conveyance; and 3) removed the area around the BLM fire station and 
helipad, would that make this bill acceptable to the BLM?
    Answer. In general, there are several options for addressing the 
BLM's concerns with S. 940, and we would like to work with the sponsor 
to identify the best solutions. In accordance with our testimony, an 
amended bill should consider the following:

          1) Because S. 940 would convey public lands at no cost, the 
        BLM testified that S. 940 should be amended to ensure the land 
        uses allowed under the bill are consistent with the uses 
        allowed under the Recreation and Public Purposes Act (R&PP). 
        The BLM's regulations, found at 43 CFR 2740, define the uses 
        that may occur on lands conveyed or leased under the R&PP. The 
        regulations state that ``use of lands or facilities for 
        habitation, cultivation, trade, or manufacturing is permissible 
        only when necessary for and integral to, i.e., an essential 
        part of, the public purpose.'' The BLM recommends that Sections 
        4 (c)(1) and 4 (d)(1) of the bill be amended to be consistent 
        with these regulations and the R&PP. Please see the response to 
        Question 5, below, for suggested legislative language.
          2) Carpenter Canyon Road provides important public access to 
        FS and BLM-managed lands. Several options exist for maintaining 
        public access on Carpenter Canyon Road. These options include 
        removing the road from the conveyance or rerouting the road as 
        part of a development plan for the parcel. The BLM would like 
        to work with the sponsor to determine the best option for 
        retaining public access on Carpenter Canyon Road.
          3) Federal safety regulations require a minimum of 500 feet 
        on all sides of the BLM Helipad to remain clear of any 
        obstacles over six feet high. This safety requirement could be 
        met through careful site planning and development on the 
        conveyed parcel, or by removing this area from the proposed 
        conveyance.

    Question 4. How many acres should be removed from the 256 acre 
Great Basin College to provide an adequate safety-zone buffer at the 
BLM helipad located within the lands S. 940 would convey?
    Answer. Removing 20 acres immediately adjacent to the Helipad would 
provide a needed 500-foot safety buffer.
    Question 5. Finally please provide maps and any ``minor boundary 
changes'' or language modifications you desire to be made to boundaries 
to the Committee within two weeks.
    Answer. The BLM has not identified any boundary changes for the 
parcels that would be conveyed under S. 940.
    While BLM notes the conveyance occurs under its administrative 
process, the Committee could consider amending Sections 4 (c)(1) and 4 
(d)(1) of the bill as follows to ensure consistency with the R&PP Act 
and BLM's regulations.
SEC. 4
          (c) USE OF CONVEYED LAND.--
                  (1) IN GENERAL.--The land conveyed under subsection 
                (a) shall be used for educational or other public 
                purpose consistent with the uses allowed under the Act 
                of June 14, 1926 (commonly known as the ``Recreation 
                and Public Purposes Act'') (43 U.S.C. 869 et seq.), and 
                the regulations found at 43 CFR 2740.
          (d) REVERSION.--
                  (1) IN GENERAL.--If the land conveyed under 
                subsection (a) ceases to be used for the public purpose 
                for which the land was conveyed, the land shall, at the 
                discretion of the Secretary, revert to the United 
                States.
                                s. 1272
    Question 1a. Given that the majority of the BLM lands within this 
proposed legislation are within the Oregon & California Grant Lands and 
that law requires the BLM to share 50% of the receipts from management 
with the O&C counties; Despite the current district land management 
plan that puts this area off limits to timber management, what is the 
current inventory of timber volume and its current value estimated to 
be?
    Answer. The current standing inventory of timber volume within the 
6,104 acres proposed for wilderness designation on BLM-administered 
lands is estimated to be approximately 340 million board feet. None of 
these areas has been included within planned timber sales of the next 
4-5 years, so determining the current value of the timber that could be 
harvested sustainably from these stands would require the evaluation of 
various factors, including logging costs and fluctuating market 
conditions that are not present at this time.
    Question 1b. Does the BLM remain committed to share 50% of any 
receipts it receives from wilderness related activities from this land 
with the county if this legislation is signed into law?
    Answer. At present, no leases exist in this area that would 
generate fee receipts after designation. Overall, the potential for 
Federal fee revenue generation within the area proposed for wilderness 
is very limited.
    Question 1c. In your testimony you mentioned that 752 acres of the 
S. 1272 proposal are outside the wilderness on adjacent BLM lands. How 
are those acres managed at this time? Are they designated for timber 
harvesting and if so, what is the average annual volume that could be 
removed and what is its estimated value?
    Answer. The 752 acres that are outside of the proposed wilderness 
boundary, but within the corridor of the proposed Wasson Creek Wild and 
Scenic River, are managed under the Northwest Forest Plan as Late 
Successional Reserves and are designated as critical habitat for the 
threatened and endangered northern spotted owl and marbled murrelet. 
Under such designations, the area is managed for conservation values 
rather than commercial timber production. Total standing volume within 
these 752 acres is estimated at approximately 28 million board feet.
    Question 2. Finally please provide maps and any ``minor boundary 
changes'' or language modifications you desire to be made to boundaries 
to the Committee within two weeks.
    Answer. The BLM provided a map to Committee staff with the BLM's 
minor boundary modification recommendations. The BLM has no language 
modification recommendations.
S. 1689
    Question 1. Will you assure us that any existing utility corridors 
will be available for future utility lines in the NCA's and Wilderness 
Areas included in this bill in such a manner that the process will be 
no more difficult than existed prior to the designation of the NCA?
    Answer. There are no utility corridors within the wilderness areas 
proposed for designation under the bill, and no utility corridors 
within the Desert Peaks NCA. There are several existing utility 
corridors within the proposed Organ Mountains NCA, and under section 
4(c)(2)(D) of S. 1689 the right-of-ways within these corridors may be 
renewed, upgraded, and widened. While there may be increased public 
scrutiny of processing right-of-ways within existing utility corridors 
within an NCA, the BLM would process any applications for utility 
corridors in the same manner as would occur if the area were not a NCA. 
This process would include NEPA analysis exploring alternatives for 
other locations, and identifying the impact to other resources.
    Question 2. Will you assure us that any existing water developments 
and pipelines will be available for future water developments and 
pipelines in the NCAs and Wilderness Areas included in this bill in 
such a manner that the process will be no more difficult than existed 
prior to the designation of the NCA?
    Answer. Under S. 1689, grazing would continue within the two NCAs 
and newly designated wilderness. Within the NCA, grazing and grazing 
developments, including water developments and pipelines, would be 
administered in the same manner as non-designated BLM lands consistent 
with the purposes of the NCA. Within the wilderness areas, grazing 
would be administered under Appendix A of the Report of the Committee 
on Interior and Insular Affairs to accompany H.R. 2570 of the 101st 
Congress (H. Rept. 101-405). The maintenance of facilities existing 
prior to designation as wilderness (including water developments and 
pipelines) is allowed. The construction of new water developments and 
pipelines may be authorized for the primary purpose of wilderness 
resource enhancement or protection. Such a determination would be made 
through the NEPA process.
    Question 3. Will you assure us that any existing road and 
transportation corridors will be available for future road and 
transportation corridors in the NCAs and Wilderness Areas included in 
this bill in such a manner that the process will be no more difficult 
than existed prior to the designation of the NCA?
    Answer. Any valid existing rights would continue after designation. 
No new roads are permissible within wilderness areas. The BLM will 
approve the use of routes to access inholdings within wilderness where 
they existed at the time of designation, and by the means that were 
used by the inholder at the time of designation. The routes may not be 
improved to a condition more highly developed than existed at the time 
of designation. Within the NCAs, the bill directs the BLM to designate 
roads for motorized vehicle use which have been determined necessary as 
part of a management plan. Under the provisions of section 
4(c)(2)(B)(ii) of S. 1689, new roads may be established in the NCAs 
only for public safety or natural resource protection.
    Question 4. Will you assure us that any existing communications 
corridors will be available for future communications corridors in the 
NCAs included in this bill in such a manner that the process will be no 
more difficult than existed prior to the designation of the NCA?
    Answer. Right-of-ways for communication sites may be renewed in 
both NCAs, and upgraded or widened in the Organ Mountains NCA under the 
provisions of the bill, as noted in the answer to question #1. While 
there may be increased public scrutiny of any new communication site 
proposals within an NCA, the BLM would process any applications for 
communications sites in the same manner as would occur if the area were 
not a NCA. This process would include NEPA analysis exploring 
alternatives for other locations, and identifying the impact to other 
resources. There is one existing communication site within the Desert 
Peaks NCA, and one existing communication site on the north end of the 
proposed Organ Mountains NCA. These sites represent valid existing 
rights.
    Question 5. In April of this year, I requested information from the 
Secretary on all wilderness, Wild & Scenic Rivers and other land set-
asides like National Conservation Areas that display both mineral and 
energy resources. Jerry Schickedanz's testimony displays information 
similar to what we expect in the maps we requested for the Desert Peaks 
and Organ Mountains wilderness proposals.
    Would you provide the Committee maps for the NCA's proposed in S. 
1689 that show all existing roads, water developments, utility 
corridors, and stock developments?
    Answer. The BLM provided these maps to the Committee on November 
13, 2009.
    Question 6. Many of the areas slated for protected status in this 
bill are roaded and have a history of wildland fires, particularly much 
of the Organ Mountain proposals.
    a. Please describe the fires that have occurred within any of the 
areas proposed for Wilderness or NCA status in this bill that occurred 
in the last decade.
    Answer. Over the last decade, there have been several small fires 
within the Organ Mountains. In 2008 there was a 2,800-acre fire, known 
as the ``Dripping Springs Fire'' within the Organ Mountains that was 
caused by human activity.
    b. Please also describe the cost of fighting each of those fires 
and estimate what they would have cost to fight given what is normally 
allowed to be used in fire suppression in a Wilderness Area or an NCA.
    Answer. Firefighting costs for the ``Dripping Springs Fire'' were 
approximately $700,000. Our best estimate is that there would have been 
no cost differential under S. 1689.
    Question 7. Finally please provide maps and any ``minor boundary 
changes'' or language modifications you desire to be made to boundaries 
to the Committee within two weeks.
    Answer. As noted in our testimony, the BLM would like to continue 
its successful restoration efforts in the areas identified for 
designation. The following language would provide additional clarity: 
``Consistent with the Bureau of Land Management's wilderness policy, 
habitat manipulation by chemical or mechanical means may be approved on 
a project-by-project basis where necessary to correct unnatural 
conditions resulting from human influence, where such manipulation 
would enhance the wilderness resource and where natural processes have 
been unsuccessful.''
    The BLM is not recommending any additional boundary modifications.
                                 ______
                                 
                     Southeast Alaska Conservation Council,
                                         Juneau, AK, March 4, 2010.
Hon. John Barrasso,
U.S. Senate, Washington, DC.
Re: Questions for Bob Claus, Southeast Alaska Conservation Council

    Dear Senator Barrasso: On February 25, 2010, staff for the U.S. 
Senate Energy and Natural Resource Committee forwarded to us your 
question below and requested our response so that both could be added 
to the hearing record for the Public Lands and Forests Subcommittee 
hearing on October 8, 2009. That hearing related to S.881, The 
Southeast Alaska Native Land Entitlement Finalization Act. Your 
question reads:

          Mr. Claus, The Tongass used to produce about 450 million 
        board feet of timber a year, but last year produced less than 
        30 million board feet from federal lands. Is SEACC's concerns 
        with this Sealaska conveyance bill that it will lead to larger 
        total timber harvests in the forest, or is the concern solely 
        that the areas proposed for harvest--the same areas proposed by 
        the Forest Service's most recent land management plan for 
        harvest--are in some way objectionable from an environmental 
        standpoint?

    We appreciate the opportunity to respond to this important question 
and clarify SEACC's concerns regarding S.881. We request that this 
response and the accompanying report be included in official 
Subcommittee hearing record for S.881.
    Senator, there is no simple ``either-or'' answer to your question. 
Our concerns are much broader than whether S.881 will increase total 
logging levels on the forest. These concerns center on the ecological, 
economic and social impacts from conveying these particular public 
lands from the Tongass to Sealaska Corporation. First, management of 
the subject lands is complicated by the legacy of unsustainable, 
industrial-scale logging on Prince of Wales Island on both federal and 
private lands. Second, far weaker management standards apply to logging 
development on private lands in Alaska than those adopted for the 
Tongass National Forest. Finally, removing lands designated for logging 
on the Tongass from the timber base, increases resource extraction 
pressures on other public lands because local manufacturers will lose 
access to any of the timber logged by Sealaska, all of which is 
exported in the round.
          the legacy of timber-first management on the tongass
    Industrial-scale logging on the Tongass National Forest began in 
the 1950's when the Forest Service signed 50-year contracts with the 
Ketchikan Pulp Company (KPC) and the foreign-owned Alaska Pulp 
Corporation (APC). The contract gave the corporations public timber in 
exchange for building and operating pulp mills in Ketchikan and Sitka. 
These two 50-year contracts-the only ones of their kind in the National 
Forest System-meant that clearcut logging and road building took 
priority over all other uses and resources of the forest. Although only 
a small fraction of the all the forested lands in Southeast Alaska have 
been cut, intensive logging has systematically targeted the biggest and 
best trees, and the most productive forest lands, the biological heart 
of America's temperate rainforest.\1\
---------------------------------------------------------------------------
    \1\ See, Albert 2010, infra note 5 at p.6 (Figure). A slightly 
enlarged version of this same figure was attached as Exhibit 3 to the 
Statement of Bob Claus, SEACC Community Organizer on S. 881 (Oct. 8, 
2009). Traditionally, the Forest Service uses volume per acre or volume 
strata to evaluate timber volume for forest planning purposes. The 
``forest dentisty'' approach considers the volume of trees available 
per square mile. Since logging was the primary justification for nearly 
all road construction on the Tongass over the last 60 years, a 
comparison of timber density to road miles provides a useful index for 
timber quality independent of the tree size.
---------------------------------------------------------------------------
    The 450 million board feet (MMBF) your question references is from 
an era long gone, when the Tongass was dominated by the two exclusive, 
50-year pulp contracts. In the 1980 Alaska National Interest Lands 
Conservation Act, Pub. L. 96-487, Sec. 705a, 94 Stat. 2371, 2420 
(ANILCA), Congress accepted the premise of the Forest Service's 1979 
Tongass Land Management Plan that the commercial forest land made 
available under that forest plan would support a timber supply of 450 
MMBF annually. When the Forest Service's timber supply assumptions 
proved unsustainable, Congress amended ANILCA in the 1990 Tongass 
Timber Reform Act, PL 101-626, to enhance the balanced use of all 
renewable Tongass forest resources.
    After decades of logging on the Tongass National Forest, and the 
loss of a substantial amount of its most intact, contiguous big-tree 
forest, maintaining the ecological integrity of the Tongass requires a 
far different management approach, a lighter touch, if you will, on the 
all pieces remaining. Unfortunately, the most recent Tongass Land 
Management Plan (2008) missed a key opportunity to tackle the timber 
development legacy on the Tongass. Instead of addressing the 
challenging economic transition facing local Southeast Alaska 
communities in the 21st century, the 2008 Tongass Forest Plan continues 
to rely on an archaic 20th century management model.
    Since 1952, approximately 455,000 acres of productive old-growth 
forest has been cut on the Tongass National Forest.\2\ Together, the 
Alaska Native corporations, including Sealaska, the regional 
corporation, and 10 village and 2 urban corporations, own and manage 
nearly 580,000 acres of land within the boundaries of the Tongass 
National Forest under the Alaska Native Claims Settlement Act. About 
301,000 acres of these lands have been clearcut.\3\ Nearly 40 percent 
of all the cut-over lands in Southeast Alaska are on Prince of Wales 
Island; the same island where Sealaska's has chosen a selection pool of 
about 95,000 acres from which it hopes to select its remaining timber 
development lands from.\4\
---------------------------------------------------------------------------
    \2\ USDA Forest Service, Alaska Region, Tongass Land and Resource 
Management Plan Final Environmental Impact Statement, Plan Amendment at 
p. 3-138 (2008) (hereinafter ``2008 Tongass Forest Plan Amendment'').
    \3\ Id. at 3-150.
    \4\ See Sealaska Corporation's website (http://www.sealaska.com/
page/maps__and__materials.html): ``On the map, the yellow areas 
represent 327,000 acres from which Sealaska must currently select its 
remaining 85,000 acre entitlement. Haa Aani proposes that Sealaska 
instead withdraw from the green areas on the map--95,000 total acres 
from which Sealaska will select 77,000.'' Sealaska has already selected 
about 171,000 of the 327,000 acres it proposed to relinquish. See 2008 
Tongass Forest Plan Amendment, supra note 2, at p. 3-301.
---------------------------------------------------------------------------
    In our view, the majority of the national forest lands that 
Sealaska wishes conveyed to it are more important to local communities 
for the fish, wildlife, and outdoor recreation values they support than 
for timber values, particularly those lands close to the communities of 
Hydaburg, Port Protection, Point Baker and Edna Bay. The best way to 
support these uses over the long term is to manage these lands 
primarily for conservation, restoration, and stewardship purposes.
    Another way of looking at S.881 is to compare the ecological values 
associated with the ``economic development'' lands Sealaska seeks and 
the lands previously selected by Sealaska within the withdrawal areas 
set aside by Congress in the 1971 Alaska Native Claims Settlement Act 
that it proposes to relinquish if this bill is enacted into law. A 
recent report prepared by The Nature Conservancy helps provide an 
ecological basis for this comparison.\5\ As the report's summary notes:
---------------------------------------------------------------------------
    \5\ Albert, David M., The Nature Conservancy, Juneau AK, A 
preliminary comparison of ecological values associated with Economic 
Development and Native Future sites proposed under the Southeast Alaska 
Native Land Entitlement Finalization Act (S. 811) and other lands on 
the Tongass National Forest (March 1, 2010) (Albert 2010). Please 
include the accompanying report into the official Subcommittee hearing 
record for S. 881.

          This comparison illustrated exceptionally high ecological 
        value within Economic Development lands for large-tree old 
        growth forests, karst forests and deer habitat in comparison 
        with Tongass-wide averages. In the context of current forest 
        condition on Prince of Wales Island, these lands provide 
        significant value for the long-term maintenance of biological 
        diversity in the southern Tongass. In contrast, lands currently 
        withdrawn for selection under ANCSA were comparable with 
---------------------------------------------------------------------------
        average values throughout the Tongass National Forest (NF).

    Sealaska has identified a selection pool of about 95,000 acres that 
the corporation hopes to select its remaining entitlement from.\6\ 
Nearly half of these acres, however, are located within watersheds that 
rank in the top 25 percent of ecological values in all Southeast Alaska 
and within the top 10 percent of forested lands on the Tongass.\7\ The 
report identifies these highest ranked watersheds as including McKenzie 
Inlet, Calder Bay, Trout Creek, Red Lake, Nutkwa Inlet, Port 
Protection, Kassa Inlet, Mt. Francis, Mabel Creek and Flicker Creek.
---------------------------------------------------------------------------
    \6\ See supra note 4.
    \7\ See Albert 2008, supra note 5 at p.4.
---------------------------------------------------------------------------
    Once conveyed to Sealaska Corporation, these lands will no longer 
be subject to balanced multiple use management. In the past Southeast 
Alaska Native corporations have chosen rapid, large-scale clearcut 
logging and the export of all, or nearly all, of the timber from their 
commercial forest lands over other options.
    The impact from this change in ownership will be felt most 
dramatically by the people who use these public lands day after day to 
supply their families with food, make a living, and enjoy a way of life 
no longer possible anywhere else in America. Lands in this selection 
pool that should not be conveyed to Sealaska include those parcels on 
North Prince of Wales, Kosciusko Island, and south of Hydaburg. There 
are other lands in the pool identified by Sealaska that can provide 
Sealaska with what they need but also cause the least amount of damage 
to the lands important to local communities on Prince of Wales for 
their high value fish, wildlife, and outdoor recreation values. SEACC 
remains committed to finding a solution that works for Sealaska and all 
the communities on Prince of Wales Island.
Weak Protections for Fish & Wildlife on Private Lands
    Logging under the Amended Tongass Forest Plan (2008) is not the 
same as logging on private lands under the Alaska Forest Resources and 
Practices Act, AS 41.17.010--.950. Many of the most significant 
management standards designed to safeguard valuable fish and wildlife 
habitat, or internationally significant cave and karst lands, are lost 
once if these lands are conveyed to Sealaska. For example, in order to 
provide long-term protection for salmon habitat, Congress imposed 
mandatory 100-foot no-cut buffers on all salmon and resident fish 
streams. In response to a request from Congress in 1994, scientists 
from the USFS' Pacific Northwest Research Station led a federal and 
state scientific assessment of salmon habitat protection measures on 
the Tongass. The Anadromous Fish Habitat Assessment concluded that even 
the mandatory minimum buffers imposed in the Tongass Timber Reform Act 
would not protect salmon and fish habitat over the long term. In 
response, the Forest Service adopted standards and guidelines that 
significantly expanded the minimum size of the no-cut stream buffers in 
the Tongass Forest Plan. In contrast, under state law, only a variable 
66-foot buffer is required, AS 41.17.116(a). High winds routinely 
result in these small buffers blowing down, resulting in the loss of 
long-term riparian habitat values.
    Unlike the requirements under federal law to maintain biological 
diversity and viable, well-distributed populations of wildlife, the 
Alaska Forest Resources and Practices Act lacks any requirement that 
private landowners take into account the impacts to wildlife from 
logging those lands. Finally, unlike the Federal Cave Resource 
Protection Act of 1988,\8\ no measures exist under state law to ensure 
the perpetual protection of significant cave and karst systems from the 
effects of logging. Given Sealaska's past land management track record, 
these national and international treasures will be irrevocably damaged 
and what we can learn from them lost.
---------------------------------------------------------------------------
    \8\ Pub. L. 100-691, Nov. 18, 1988, 102 Stat. 4546 (16 U.S.C. 4301 
et seq.).
---------------------------------------------------------------------------
    Thank you for your careful attention to our response and careful 
review of the accompanying comparison of the ecological values at stake 
if S.881 becomes law.
            Best Regards,
                                                 Bob Claus,
                     Community Organizer on Prince of Wales Island.
                                           Buck Lindekugel,
                                               Grassroots Attorney.
                                 ______
                                 
       Responses of Jay Jensen to Questions From Senator Bingaman

    Question 1. Section 22(f) of ANCSA authorizes the Secretary of 
Agriculture to enter into exchanges with the Alaska Native Corporations 
``for the purpose of effecting land consolidations or to facilitate the 
management or development of the land, or for other public purposes.'' 
Has the Department used this authority to exchange land or selection 
rights with any Native Corporations?
    Answer. The Department of Agriculture can cite two uses of Section 
22(f) of ANCSA, along with Section 1302(h) of the Alaska National 
Interest Lands Conservation Act (ANILCA), as authority to enter into 
land exchanges with Alaska Native Corporations. The authority has been 
used with Goldbelt, Inc. and Sealaska Corporation to resolve access and 
split estate issues utilizing Section 22(f).
    Question 2. Could the Secretary use the exchange authority in 
section 22(f) of ANCSA to convey land to Sealaska that is outside of 
the ANCSA withdrawal boundaries and, if so, have the federal agencies 
discussed this option with Sealaska?
    Answer. Section 22(f) of ANCSA provides, in part, that the 
Secretary of Agriculture is authorized to exchange lands or interests 
therein, including Native selection rights, with Village and Regional 
Corporations for the purpose of effecting land consolidations or to 
facilitate the management or development of the land, or for other 
public purposes. Section 22(f) (43 U.S.C. Sec.  1621) could therefore 
be utilized as authority to exchange land interests with Sealaska that 
are outside of Sealaska's ANCSA withdrawal boundaries for the purposes 
stated in the statute.
    The Forest Service has consideredan exchange of land interests with 
Sealaska to address, in part, the conveyance of Sealaska's final 
entitlement. In August 2002, Sealaska submitted a land exchange 
proposal to the Forest Service. Sealaska identified a pool of 
approximately 225,000 acres of federal land to consider as part of an 
exchange. Sealaska identified approximately 50,000 acres of its 
selected lands (lands still owned by the United States, but selected by 
Sealaska under ANCSA) and 48,000 acres of land already conveyed to 
Sealaska under ANCSA (lands owned by Sealaska). In return for federal 
lands, Sealaska proposed to: 1) negotiate an agreement regarding its 
final land entitlement with the Bureau of Land Management; 2) exchange 
certain conveyed lands and selection rights to the United States; and 
3) relinquish its remaining selections within the withdrawal areas.
    In April 2003, the Forest Service completed a feasibility analysis 
regarding the Sealaska proposal. The report found although portions of 
the proposal were in the public interest, further negotiations would be 
necessary regarding the specific parcels to be exchanged. Negotiations 
continued between the Forest Service and Sealaska to address issues, 
public concerns and modifications identified in the feasibility 
analysis. Identified in the feasibility analysis were public and 
community concerns regarding the potential loss of public access, 
including access for subsistence use; effects on karst and cave 
resources; the potential reduction in the supply of timber from the 
forest; loss of old growth reserves and inventoried roadless areas; and 
the future management of the lands conveyed to Sealaska. The Forest 
Service and Sealaska negotiated for 14 months over the exchange parcels 
and the terms of community and public access before negotiations ended 
in mid-2005.
    Question 3. Would an exchange pursuant to section 22(f) resolve any 
of the precedential concerns raised by the Department?
    Answer. S.881 directs the Secretary of the Interior to convey to 
Sealaska three new categories of lands from the Tongass National 
Forest: 1) economic development lands, 2) sacred site lands, and 3) 
Native futures sites. None of these categories of land selections 
currently appear in ANCSA. Additionally, other Native Corporations are 
not entitled to make such selections. The Department of Interior is 
concerned, that if S. 881 is enacted, that it may provide an impetus 
for other regional corporations to reopen land claims at this final 
stage in the land transfer program. Section 22(f) could be used as 
authority for the Department of Agriculture (USDA) to negotiate a land 
exchange with Sealaska for the purposes stated in the statute. If such 
a land exchange with the USDA was found feasible and in the public 
interest, the creation of these new categories of ANCSA selections that 
others could use as an impetus to change existing selections and 
entitlements could be avoided. However, discussions with Sealaska 
regarding its previous land exchange proposal did not result in a 
successful exchange.

      Responses of Jay Jensen to Questions From Senator Murkowski

    Question 1. In your testimony you state that the new selection pool 
for Sealaska will affect your forest planning process and make it 
harder for the Forest Service to transition from an old growth to 
young-growth timber model.
    a. Since the Sealaska initial 197,000 acre selection pool was 
modeled in the recently revised Tongass Land Management Act and since 
all of the economic development lands are proposed for timber harvest, 
how will the bill negatively affect TLMP's implementation?
    Answer. Under the Tongass Land Management Plan (TLMP), lands 
identified in the legislation for possible conveyance to Sealaska 
contribute to the land base and the scientific assumptions on which the 
TLMP conservation strategy is premised. If the underlying land base 
changes significantly, then the assumptions, analysis, and strategies 
included in the plan may no longer be valid. The determinations related 
to land use designations, adaptive management strategy for timber 
sales, allowable sale quantity (ASQ), conservation strategy, and 
standards and guidelines included in the TLMP could all be 
significantly affected by a conveyance to Sealaska. Even though timber 
harvest activities on the lands identified as Sealaska's economic 
development lands were considered in TLMP, the management prescriptions 
applicable to such activities on private lands are significantly 
different from TLMP management prescriptions. Consequently, TLMP must 
account for these differences and consider the cumulative environmental 
effects from these activities on private lands.
    If the underlying land base changes significantly, affecting the 
assumptions of the land management plan, there would likely be a need 
to amend the plan accompanied by compliance with the National 
Environmental Policy Act. Although the proposed legislation states 
implementation of the bill and the conveyance of lands to Sealaska will 
not require an amendment or revision of TLMP, this language does not 
resolve the land management issues that likely will arise regarding 
TLMP implementation. Regardless of whether an amendment or revision of 
TLMP is legally required, the significant management assumptions and 
strategies that form the basis of the current plan would need to be 
modified if enactment of S.881 occurs, and therefore TLMP could not be 
implemented as currently intended. If TLMP cannot be implemented as 
intended, a plan amendment will be needed.
    b. Since there are about 277,000 acres of second growth timber in 
the Tongass greater than 45 years of age and the proposed new Sealaska 
selection pool contains about 20,000 such acres, how will the bill 
affect your ``young-growth'' forestry process?
    Answer. Historically, the forest products industry in and around 
the Tongass was developed and sustained on producing high quality 
products from old growth timber with the intention of transitioning to 
young-growth forest products once timber in previously harvested areas 
was mature, around approximately age 90-100. Recently, there has been 
interest in the feasibility and financial costs of transitioning the 
industry to young-growth based production as soon as possible rather 
than wait for the young-growth to reach maturity. Forest management in 
young growth to date has consisted of thinning young growth to improve 
wood quality, growth, stand resilience, and habitat quality. These 
intermediate treatments represent a significant investment in the 
forest, as well as providing an opportunity to enter young-growth 
stands earlier than stands without treatment.
    The oldest stands thinned on the Tongass represent the best and 
earliest opportunity to begin a transition to a young growth industry. 
The Tongass currently has approximately 135,000 acres of young growth 
which is greater than 40 years old (Tongass Young Growth Management 
Strategy, March 2008). There are 51,569 acres young-growth located 
within Phase 1 of the TLMP Timber Sale Adaptive Management Strategy. In 
Phase 1, the timber program is restricted to a portion of the suitable 
land base which excludes moderate and higher value roadless areas.
    The proposed Sealaska selection pool targets 44,565 acres of young-
growth, with 19,343 acres originating in 1969 or earlier. Of the 19,343 
acres, 13,319 lie within Phase 1 suitable land base. Sealaska's 
proposed selection of these acres constitutes about 25% of the oldest 
young-growth within the Phase 1 suitable land base. The proposed 
selection of these young-growth lands by Sealaska will remove the 
oldest and most available young-growth acreages within the Tongass. 
These acres are considered ``available'' because the 2008 Tongass Land 
Management Plan only allows commercial harvest to occur in the Phase 1 
land base until certain volumes have been harvested for two consecutive 
years. Because the acres Sealaska has targeted are in Phase 1 and are 
some of the oldest young growth, they are the same stands the Tongass 
plans to use to begin the transition and eventual conversion to a 
young-growth industry. Removing these stands from federal ownership 
will delay the Tongass' ability to begin this transition.
    The investment made by the Tongass in intermediate silvicultural 
treatments, primarily thinning, has been significant. About 20,721 
acres out of the proposed Sealaska selection pool of 44,565 acres of 
young-growth (approximately 46%) have been thinned at an approximate 
cost of $500 dollars per acre. Thus, more than $10 million has been 
invested by the U.S. Government in silvicultural treatments on lands in 
the proposed Sealaska selection pool.
    Additionally, the Forest Service has a long investment in various 
research projects located within some of the young-growth stands within 
the proposed Sealaska selection pool. There are approximately eight 
sites, totaling about 184 acres with established, long term research 
plots. Most sites were established in the 1970s and are planned for 
continued monitoring activities into the future. These sites provide 
significant young-growth data necessary for transition to a young 
growth industry.
    Question 2. In your testimony you state that the new selection pool 
would harm old-growth habitats. Given that Sealaska returns all of its 
current 327,000 acre selection pool in return for the 63,000 to 85,000 
acres it would receive, and given that Sealaska has 112,000 acres of 
old-growth in its current pool, compared to just 48,000 acres of old 
growth in its potential new selection pool, the bill would seem to 
potentially increase the amount of old-growth in the forest by about 
60,000 acres. Could you explain your position further?
    Answer. Although the Forest Service has not been able to validate 
the acreage figures utilized in this question, it recognizes old-growth 
structural stages have value for many forest attributes which add to 
the overall landscape diversity for the Tongass National Forest.
    The question appears to assume lands in the withdrawal area, 
selected by Sealaska, but not yet conveyed, will return to Federal 
ownership under the proposed legislation thereby adding benefits not 
currently considered. This is not the case. There are no lands for 
Sealaska to ``return'' because the lands selected by Sealaska have not 
left Federal ownership. As such, any benefits from old growth habitat 
contained in these acres have already been considered under the TLMP 
and continue to be managed as part of the national forest.
    The question also appears to assume more valuable old growth exists 
on the lands within the withdrawal area than the lands identified for 
Sealaska selection in the proposed legislation. The lands currently 
selected by Sealaska in the withdrawal areas generally do not contain 
significant amounts of economically viable old-growth. These lands are 
managed primarily for their scenic and recreation values, with fewer 
acres managed for timber production as allocated under TLMP. Some of 
the lands identified as economic development lands in the legislation 
are allocated to timber production in the TLMP. The proposed selection 
areas also include lands currently managed for scenic view shed, 
recreation, and old-growth habitat. The proposed selection areas on 
Prince of Wales, Tuxekan, and Kosciusko Islands include approximately 
55,000 acres of productive old-growth. They are within the Phase 1 
lands of the 2008 TLMP Timber Sale Adaptive Management Plan and are 
suitable for harvest, with the exception of portions currently 
designated as old growth reserves. There are 12 old growth reserves 
within the above mentioned proposed selection areas. All or part of 
three of the four old growth reserves on Kosciusko Island would be 
removed from federal ownership, as would two of the three on Tuxekan 
Island. These lands represent a significant component of the TLMP 
conservation strategy area for wildlife. Loss of these old-growth areas 
would likely undermine the conservation strategy in TLMP and 
potentially lead to threatened and endangered species listings. Even 
though timber harvest in the proposed selection areas may have been 
considered in TLMP, the Forest Service is required to mitigate effects 
from such activities to avoid species listings, whereas private 
landowners do not have similar requirements.

       Responses of Jay Jensen to Questions From Senator Barrasso

    Question 1. In your testimony you say the Department supports 
completion of the entitlement due Sealaska in the Alaska Native Claims 
Settlement Act. Given that it's been nearly four decades since the act 
passed, doesn't it make sense to alter the selection pool to speed 
selection and conveyance of the final acreage under the 1971 Act? Isn't 
that especially the case since the original pool was so impacted by the 
long-term timber contracts in the Tongass National Forest that were in 
effect then, but which since have been cancelled by your Department?
    Answer. The 2004 Alaska Land Transfer Acceleration Act, P.L. 108-
452, (the Acceleration Act), addressed issues such as final 
prioritization of selected lands that hindered timely conveyance. It is 
important to note that sufficient uplands exist within Sealaska's 
existing selections to convey its full entitlements under ANCSA and 
that the BLM is prepared to convey lands to bring Sealaska 
significantly closer to its full entitlements. It is equally important 
to note that BLM needs to survey lands in order to convey very close to 
entitlement so that over-conveyance does not occur; therefore some 
acreage must be held back for final survey calculations. Any holdback 
acreage would be done in cooperation with Sealaska and according to 
priorities on file.
    Another factor affecting Sealaska's receipt of its final 
entitlement under Section 14(h)(8) is the complicated Section 
14(h)formula. The total acres remaining under the Section 14(h)(8) pool 
of lands available to the ten remaining eligible regional corporations 
cannot be determined until after patents to other subsections in the 
formula have been completed statewide unless a statutory amendment sets 
the remaining acreage in the pool and breaks the formula whereby each 
subsection of the 14(h) formula can be accelerated. Title II of the 
Acceleration Act addressed certain issues to assist in determining 
Sealaska's final 14(h) (8) entitlement, but stopped short of setting a 
remaining acreage; thus adjudication and patent of all the subsections 
still must occur. The Bureau of Land Management (BLM) has been willing 
to convey lands to Sealaska based on its projection of final 
entitlement, but Sealaska requested the BLM wait while Sealaska is 
advocating for legislation or considering a land exchange with the 
Forest Service. Sealaska has been advocating for legislation or 
considering a land exchange with the Forest Service the last ten years.
    Most recently, Sealaska and other Regional Corporations were given 
42 months from enactment of the Acceleration Act to identify final, 
prioritized selections. Sealaska identified its final, irrevocable 
priorities on the last day, June 10, 2008, and in that same transmittal 
requested its prioritized selections not be conveyed because the 
corporation was pursuing federal legislation. Sealaska's projected 
entitlement, based on the BLM's most recent 14(h)(8) estimates, can be 
conveyed to Sealaska, but the Corporation has asked for delay because 
the prioritized original selections inside the withdrawal areas would 
no longer be necessary if legislation is enacted.
    Many factors have affected the timely conveyance of ANCSA 
entitlement, but the existence of the now cancelled long-term timber 
sale contracts is not one of the factors. Lands subject to timber sale 
activities were not eliminated from the withdrawal areas from which 
Sealaska made its selections.
    Additionally, ANCSA was enacted in 1971, and the first major 
amendments were enacted in 1976, including Section 2 of P.L. 94-204. 
Section 2 requires proceeds derived from contracts, leases, permits, 
rights-of-way, or easements pertaining to lands withdrawn for selection 
under ANCSA to be set aside for payment to Native Corporations as the 
lands are conveyed. The Forest Service set aside proceeds from the 
timber sales. The original deadline for Sealaska to make its ANCSA 
Section 14(h) (8) selections was September 18, 1978. The selection 
deadline occurred two years after enactment of the requirement to set 
aside proceeds. Proceeds are released after BLM conveys the land. Thus 
far, Sealaska has received more than $2 million in escrow proceeds from 
timber sales occurring on lands eventually conveyed to Sealaska. It was 
not until the Acceleration Act of 2004, that Sealaska was required to 
file final selection priorities, and when it did, it requested further 
delay because of proposed legislation.
    Question 2. Mr. Jensen, concerning land planning in Southeast 
Alaska, doesn't most all of the land proposed for timber selection by 
Sealaska in S. 881 overlap areas proposed for harvesting already in 
your revision last year of the Tongass Land Management Plan? How will 
that harm the environment if the areas for ultimate harvest are 
identical?
    Answer. The Forest Service estimates that the breakdown of the 
broad vegetation types of the economic development land identified on 
Attachment A to the legislation includes a total of about 107,000 acres 
of productive old growth, with about 72,000 acres of high volume-old 
growth. The proposed selection areas on Prince of Wales, Tuxekan and 
Kosciusko Islands include approximately 55,000 acres of productive old-
growth. These lands represent a significant component of our 
conservation strategy area for wildlife. Prince of Wales Island has 
been identified as a biodiversity hotspot by The Nature Conservancy. 
The U.S. Fish & Wildlife Service has raised significant concerns 
regarding goshawk endemism (indigenousness) and viability, endemic wolf 
viability, and viability for other endemic species and lineages. Loss 
of these old-growth areas will likely affect our conservation strategy 
in TLMP and potentially result in threatened and endangered species 
listings.
    The selections proposed in this legislation will be managed under 
the standards and guidelines in TLMP until or unless they are conveyed 
to Sealaska. Private lands are managed under the Alaska Forest 
Resources & Practices Act (AFRPA). The AFRPA standards and guidelines 
used to mitigate impacts to salmon streams, soils, water, wildlife, 
scenery, karst and other natural resources are less stringent than 
those found in the TLMP. Consequently, the environmental effects on 
lands harvested by Sealaska are likely to be greater than the 
environmental effects from timber harvest activities occurring pursuant 
to TLMP.
                                 ______
                                 
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

          Statement of the Alaska Wilderness League, on S. 881

    Whenever swaths of federal lands are slated to leave the public 
rolls, there must be a commonsense accounting of the transaction All 
parties involved in the matter must be getting the fairest, most 
evenhanded deal possible. Before the ledger can be balanced, it must be 
made clear precisely what the public is getting in return for what it 
is surrendering. In the case of the Sealaska land transfers, this means 
considering the impacts their actions would have on the land that will 
be removed from federal ownership, as well as the impacts their actions 
would have on adjacent lands and waters, nearby communities, and 
existing public uses. Providing durable conservation protections for 
important areas outside of the Sealaska solution space will begin to 
provide the fairness the public requires for carrying out this 
transaction.
    A coalition of conservation organizations has developed a Tongass-
wide Framework of Conservation Priorities to serve as a blueprint for 
efforts to build a comprehensive plan for the Tongass, aiming to 
achieve proper balance while meeting the needs of the resource, and of 
a variety of users. The framework is based on a set of community and 
ecological values. In particular, the framework is founded on a 
conservation assessment of the Tongass completed in 2007 by Audubon 
Alaska and The Nature Conservancy. The assessment identified the 
biological values of watersheds across the 22 bio-regional provinces in 
Southeast Alaska based on the abundance of winter deer habitat, summer 
bear habitat, nesting habitat for marbled murrelets, spawning and 
rearing habitat for all 5 species of salmon plus steelhead, large-tree 
old growth, and estuaries. The analysis and assessment included input 
from many of Southeast Alaska's and the nation's top biologists and 
ecologists as well as information and data from scores of agency 
reports and peer reviewed literature.
    Through the extensive study and analysis, the group of scientists 
and analysts generated a ``conservation target'' map that identifies 
the highest ranked watersheds in each region of the Southeast Alaskan 
coastal temperate rainforest. These target watersheds as well as areas 
identified as high-value community use areas are the basis of the 
Framework of Conservation Priorities.
    The Framework highlights the fact that many of the Sealaska 
Corporation's ``out of the box'' selections occur in areas that are of 
the highest conservation value. The fact that some of the most 
productive timber acres on the forest are also some of the highest 
value in ecological terms has long been a source of contention amongst 
the various interest groups. If the land transfers in S. 881 were to 
become law, the lands in question would depart federal ownership, and 
management would be subject to the regulations of the Alaska Forest 
Practices Act as applied to private lands. Existing state law simply 
does not offer the level of protection these most ecologically valuable 
acres require to remain intact and maintain the productivity that makes 
them so important in the first place.
    While it is clear that the economic zones in S. 881 would be 
subject to clear cut logging, which certainly presents its own set of 
challenges, the legislation as currently written says frustratingly 
little about specifically how the native future sites and cultural 
sites are to be managed by the Sealaska Corporation. It appears that 
Sealaska will have near complete autonomy over these transferred lands, 
without regard to the impacts their management decisions will have on 
the nearby communities, transferred lands, adjacent lands or existing 
public uses of these lands.
    Yet the problems do not begin and end with the obvious negative 
environmental impacts. There are also cultural and economic conflicts 
inherent in the legislation before the Committee. The legislation fails 
to consider the needs of small, forest-dependent communities all across 
the region, as well as the needs of the timber industry, the commercial 
and recreational fishing industries and Southeast Alaska's leading 
economic engine, tourism. Failing to take advantage of this opportunity 
to engage all user groups in the legislative process, passage of S. 881 
would only serve to codify conflict.
    While the conservation community is seeking to protect the most 
valuable conservation areas on the Tongass National Forest, we are also 
not the only stakeholder with something to gain, or subsequently lose. 
The timber industry is attempting to gain certainty that they will have 
a supply of suitable wood for the long term. Southeast Alaska's 
commercial and recreational fishermen are working tirelessly to make 
sure that the Tongass remains a salmon factory. Subsistence users want 
to see to it that their backyard grocery store remains open for 
business. Sealaska wants finally to resolve its entitlements and 
provide a benefit to its native shareholders.
    History cautions against another single-stakeholder answer to the 
questions facing the management of America's largest national forest. 
The long-term timber contracts that dominated the landscape of the 
Tongass for nearly half a century ending in 1997 serve as an important 
lesson in the future management of the forest. The long-term timber 
contracts represented a single-stakeholder arrangement that served to 
leave many on the outside of the Tongass management process looking in. 
There was no aspect of the forest that the timber contracts didn't 
touch in a significant way. The implications of those contracts: 
environmental, cultural, and economic, are still being dealt with 
today.
    With S. 881, the stakeholder has changed, but the legislation will 
inevitably repeat the same mistakes, creating new conflict and further 
narrowing the solution space for resolving that conflict. Simply put, 
equity for all the forest users cannot be created in a vacuum.
    S. 881 resolves one set of issues, only to plant the saplings of 
new problems in fertile soil. This nearly intractable tug of war over 
areas of common concern requires not another round of ill-suited 
legislation, but rather what is instead needed is a robust public 
process that builds ground-up momentum and serves as a legitimate forum 
for all stakeholders to share in the development of a common solution, 
suitable to as many as possible. This process is already underway, and 
it is in this established forum that a workable concept, with broad 
based regional buy-in may be in the offing.
    In this web of bottom lines, consensus may be impossible; but that 
is not to say a healthy balance is out of reach. No single party will 
likely ever be entirely satisfied; this is the reality of modern public 
lands management; but any legislation that moves forward must be 
crafted in the best interests of, not at great cost to, the collective 
community of the Tongass.
                                 ______
                                 
 Statement of John M. Fowler, Executive Director, Advisory Council on 
                         Historic Preservation

                                 S. 881
                           SUMMARY STATEMENT

    S.881 includes amendments that would add lands held by an 
incorporated Alaska Native group, a Regional Corporation, or a Village 
Corporation established under the Alaska Native Claims Settlement Act 
(ANCSA) to the National Historic Preservation Act (NHPA) definition of 
``tribal lands,'' and therefore have a direct bearing on the review 
process under Section 106 of the NHPA regarding undertakings in Alaska. 
These effects may include changes to the review and consultation 
process on any federal undertaking in Alaska and the role of all ANCSA 
entities in the broader preservation program.
    The ACHP recommends that the committee give further consideration 
to these effects and solicit an analysis from affected agencies within 
the Administration regarding the anticipated impacts of these 
amendments on the role of ANCSA entities, the State of Alaska, federal 
agencies, and the public in the NHPA; and the role of ``Native 
villages'' in the Section 106 process.

                               BACKGROUND

    Title II of the NHPA established the Advisory Council on Historic 
Preservation as an independent federal agency. The NHPA charges the 
ACHP with advising the President and the Congress on historic 
preservation matters and entrusts the ACHP with the unique mission of 
advancing historic preservation within the Federal Government and the 
national historic preservation program. The ACHP's authority and 
responsibilities are derived from the NHPA. General duties of the ACHP 
are detailed in Section 202 of the NHPA (16 U.S.C. 470j) and include:

  <bullet> Advising the President and Congress on matters relating to 
        historic preservation;
  <bullet> Encouraging public interest and participation in historic 
        preservation;
  <bullet> Recommending policy and tax studies as they affect historic 
        preservation;
  <bullet> Advising State and local governments on historic 
        preservation legislation;
  <bullet> Encouraging training and education in historic preservation;
  <bullet> Reviewing federal policies and programs and recommending 
        improvements; and
  <bullet> Informing and educating others about the ACHP's activities.

    Under Section 106 of NHPA (16 U.S.C. 470f), federal agencies are 
required to consider the effects of undertakings, carried out by them 
or subject to their assistance or approval, on historic properties and 
provide the ACHP an opportunity to comment on them. Pursuant to 
rulemaking authority under Section 211 of the NHPA (16 U.S.C. 470s), 
the ACHP has issued the regulations that implement Section 106 (36 
C.F.R. part 800). The ACHP plays an oversight role in the Section 106 
process, ensuring that historic preservation needs are considered in 
light of project requirements. The Section 106 process guarantees that 
State and local governments, Indian tribes, Native Hawaiian 
organizations, businesses and organizations, and private citizens will 
have an effective opportunity to participate in project planning 
affecting historic properties. Through its administration of Section 
106, the ACHP works with these parties to ensure that their historic 
preservation interests are considered in the process. It helps parties 
reach agreement on measures to avoid or resolve conflicts that may 
arise between development needs and preservation objectives, including 
mitigation of harmful impacts.

                S.881 AND THE SECTION 106 REVIEW PROCESS

    The ACHP's comments are focused specifically on Section 5(e)(2) of 
the S. 881 bill that would expand the definition of ``tribal lands'' 
under the NHPA. Amendments to the NHPA in 1992 specified that federal 
agencies must consult with ``Indian tribes'' in the Section 106 process 
when the undertaking may affect historic properties of cultural and 
religious significance to them. 16 U.S.C. 470a(d)(6)(B). The term 
``Indian tribe'' in the NHPA includes Native villages, Regional 
Corporations and Village Corporations under the Alaska Native Claims 
Settlement Act (ANCSA). 16 U.S.C. 470w(4).
    The regulations implementing Section 106, 36 C.F.R. Part 800, were 
amended to incorporate the requirement of consultation with ``Indian 
tribes.'' Some of these regulatory amendments are directly related to 
whether an undertaking takes place on ``tribal lands'' as currently 
defined in the NHPA. Those regulatory amendments, among other things, 
set forth that a Section 106 agreement involving an undertaking that 
takes place in ``tribal lands'' is invalid unless signed by the 
relevant ``Indian tribe.'' They also require federal agencies to 
consult with ``Indian tribes'' on the same basis, or in lieu of, the 
State Historic Preservation Officer, when the undertaking takes place 
on ``tribal lands.'' The basis behind providing such consultative 
rights is the federal government-to-government relationship with, and 
respect for the sovereignty of, Federally recognized tribes, the only 
entities that have lands under the scope of the current definition of 
``tribal lands'' (i.e., all lands within the exterior boundaries of any 
Indian reservation, and all dependent Indian communities). Our 
understanding is that, presently, the only the lands within Alaska that 
qualify as such ``tribal lands'' are those within the Annette Island 
Reserve. It is also our understanding that, while the federal 
government has a government-to-government relationship with Alaska 
Native Villages, it does not have such a relationship with ANCSA 
corporate entities.
    The S. 881 amendment to the definition of ``tribal lands'' would 
increase such lands in Alaska by millions of acres and add consultative 
rights to corporate ANCSA entities in the Section 106 process.
    In this regard, we note that there is an apparent discrepancy 
between the NHPA definition of ``Indian tribes'' and the proposed 
amendment to ``tribal lands'' in S. 881. While the NHPA definition of 
``Indian tribes'' includes ``Native villages'' under ANCSA, the amended 
``tribal land'' definition under S. 881 removes any mention of Native 
villages, and replaces them with incorporated Alaska Native groups. We 
believe further consideration should be given to how this could affect 
the role of Native villages in the Section 106 process, in comparison 
with that of the corporate ANCSA entities, were these amendments to 
take effect.

                            RECOMMENDATIONS

    The ACHP encourages the active participation of Indian tribes, 
including Native Villages, Regional Corporations, and Village 
Corporations under ANCSA in the federal preservation program in general 
and the Section 106 process in particular. S.881 has the potential to 
expand the effective participation of Indian tribes even further in 
Alaska.
    We recognize, however, that under the S. 881 amendments, a key 
entity--Native villages--would effectively lack certain Section 106 
consultation rights that would now be given to ANCSA corporate 
entities. The ACHP recommends that the Committee clarify its intent in 
removing these Native villages from the definition of ``tribal lands,'' 
but including incorporated Alaska Native groups, so that their 
respective roles in the Section 106 process may be accurately defined 
if S. 881 becomes law.
    More importantly, the ACHP asks that the Committee allow federal 
agencies to further study the effects of the mentioned S. 881 
amendments to the NHPA and consult with other stakeholders, so that we 
can more properly advise the Committee on these issues.
                                 ______
                                 
 Statement of Alan Stein, Former Director of the Salmon Bay Protective 
  Association and President of the Point Baker Association, on S. 881

    Thank you Mr. Chairman and Members of the Committee for placing 
this statement into the record for this hearing on S 881.
    Many important legal events surround the area that is the subject 
of this bill and with your indulgence, I am going to provide you with 
that context, the better to inform your deliberations, so you can see 
what protections this bill could remove and what injustices would 
occur.
    For it is this area on northern Prince of Wales Island that has 
spawned two major forest lawsuit battles and the National Forest 
Management Act of 1976.
    In 1793,the British explorer George Vancouver, on board the Royal 
Navy's Discovery, named the islands you see before you after the first 
son of King George who was the Prince of Wales. The early explorers 
called it the Prince of Wales Archipelago and it was for a time the 
intention of Spain to develop a large harbor on its west coast more 
expansive than San Francisco Bay.
    The island is huge. It takes more than an hour to fly from its 
southern border at 54 degrees 40 minutes North latitude to Point Baker 
on its north end at 56 degrees and 20 minutes. It's about a 120-mile 
trip across our nation's third largest island.
    When I first flew over it in 1971, I saw huge tracks of denuded 
mountain slopes, some over a thousand acres in size. There was no NEPA 
or any other environmental law to protect these trees save one: the 
Multiple Use Sustained Yield Act. The emphasis was on Use and not 
Sustainability however.
    When the tiny plane carrying my bride and me to our new homestead 
flew over the mountains near Salmon Bay Lake we saw a remarkable sight, 
for our eyes were used to seeing Chicago skyscrapers, not a wilderness 
forest stretching away to Point Baker across fifteen miles of mountain 
ranges-about the size of the lakefront of Chicago at the time.
    Shortly after I built a cabin, with my own two hands, a decision by 
the US Forest Service was made to log much of this wilderness. The 
Point Baker Association formed to oppose the logging. I was sent to 
Juneau to do something to stop it. I organized a lawsuit and became one 
of three plaintiffs. Our suit in 1975, Zieske v Butz-a landmark 
environmental case-resulted in an Alaska Federal Judge issuing an 
injunction against clear-cutting anywhere on the roughly 400,000 acres 
of the north end of the island from Red Bay to Calder Bay, roughly the 
northern area that Sealaska now wants to grab from the public trust, 
excluding mountain tops and other areas that do not grow trees.
    Within that 400,000 acres, the 80,000 acres Sealaska wants now is 
most of the accessible land, excluding the areas Congress has already 
designated LUD II in the Tongass Timber Reform Act of 1990-Salmon Bay 
on the East (20,000 acres) and Mount Calder on the West. These two 
borders should be expanded to include all the area Sealaska now wants 
to ravish.
    Because they thought Zieske threatened to halt clear-cutting 
throughout the United States, the timber industry created a hysteria 
that this would happen, Congress met three months after the injunction 
was issued, and overturned a statute that had been in effect since 1898 
and upon which the injunction was based.
    In place of the Organic Act, Congress passed the National Forest 
Management Act. This despite considerable support from Governor Hammond 
in his statements to Congress to protect Point Baker and its 
surroundings from industrial logging. I testified before this committee 
then for the creation of buffer strips to protect salmon streams from 
logging. Congress chose not to create them, despite considerable 
scientific support. Congress also lifted the injunction and allowed the 
US Forest Service to cut about half of the marketable timber on the 
north end.
    Thirteen years passed. Industrial clear-cut logging removed about 
half of the marketable timber, placing clear-cuts so large and numerous 
that passing satellites recorded this image* in the late 1980s:
---------------------------------------------------------------------------
    * Image has been retained in subcommittee files.
---------------------------------------------------------------------------
              TAXPAYER SUBSIDIES FOR BUILT INFRASTRUCTURE

    Meanwhile taxpayers subsidized the building of what I would 
estimate at 150 miles of roads in the area that is subject to this 
bill. The cost of these roads per mile was between $500,000 to 
$1,000,000 in 1980s dollars. Expensive bridges were constructed, again 
subsidized by taxpayers. A logging camp the size of a small town was 
constructed. All of these taxpayer-paid-for items were made under the 
assumption that taxpayers would reap the benefits of future development 
in the form of revenue of future timber sales. In today's dollars, the 
value of this infrastructure is probably 200 to 300 million dollars. 
This does not include the millions of dollars in the US Forest Service 
budget that planned for the infrastructure.

               EXISTING CLEAR-CUTS NOW THREATEN WILDLIFE

    The effect that 25 years of commercial clear-cuttinghad upon 
wildlife populations in this area was a 50% reduction of prime deer 
habitat. Half the trees were cut. This was an unsustainable practice.
    In short, because of 25 years of past logging, existing clear-cuts 
already pose a severe threat to wildlife in the area Sealaska wants to 
log.
    This bill would do nothing but seal their doom. The deer are the 
soul of this place, the American eagle its spirit, and the raven its 
voice. Passing this bill will silence the raven, down the eagle, and 
bring the demise of the deer.

                 SECOND LAWSUIT OVER LOGGING THIS AREA

    In March 1989, the Exxon Valdez went on the rocks. It affected me 
and almost all Alaskan fishermen like me very deeply. I read an EIS 
about further clear-cutting in this area and became so angry that I 
vowed to again take action. I organized the Salmon Bay Protection 
Association to stop the abuses of clear-cutting near salmon streams and 
to save the beautiful watershed of Salmon Bay.
    The SBPA was the largest organization of commercial fishermen and 
canneries ever to unite on one environmental endeavor in Alaska. I was 
voted its director and hired the lawyer who is sitting before you 
today, Buck Lindekugel, fresh out of law school and ready for his first 
big case. He got it.
    I found new scientific evidence that clear-cutting next to salmon 
streams causes irreparable harm next to the streams. Irreparable harm 
is of course the legal standard for an injunction.
    Sworn statements of fish scientists were entered into the record of 
the court case and presented to Congress.
    Later in 1989, the Federal District Court in Alaska issued an 
injunction against logging within 100 feet of salmon streams on the 
north end of Prince of Wales Island or logging within Salmon Bay. The 
Forest Service extended the protective injunction to all 2000-plus 
salmon streams in the Tongass National Forest.
    We had proved irreparable harm to salmon streams. We had saved part 
of a major watershed important to our commercial fleet and to 
recreational steelhead fishermen.
    This second landmark decision, Stein v Barton, became the 
justification for Congress passing a buffer strip provision in the 
Tongass Timber Reform Act in 1990, the first federalFederal recognition 
of the scientific benefits of not cutting timber next to fish streams. 
Our case had proved the argument. The 100-foot buffer, applied to 
either side of creek, protects fish from cold and heat, prevents 
erosion of banks, catches sediment, and most importantly creates the 
infrastructure of downed trunks that form pools, riffles, and insect 
density vital for fish survival. Big 150-200 high trees are the 
architecture of the stream. They are as valuable to the stream when 
they fall as they are when they provide shade and insects standing.
    Sealaska was not happy about the precedent Stein v Barton 
established, because a State Forest Practices Act being considered by 
the State of Alaska legislature, which would regulate their logging on 
their private lands, could have contained the same 100-foot protection. 
Under the State Forest Practices Act which would govern if this bill is 
passed, the limited protections of the NFMA would be watered down even 
more.

SEALASKA LANDS NOT REGULATED BY FEDERAL FISH AND WILDLIFE PROTECTIONS--
               WEAKER ALASKA LAWS APPLY TO SEALASKA LANDS

    The same year that Congress created buffer strips, the Alaska 
legislature, heavily lobbied by the Sealaska Corporation, enacted a 
buffer strip provision considerably smaller than the 100-foot minimum 
that scientists had stated, under oath, were necessary, a conclusion 
which the Federal Court in Alaska accepted when issuing its 100-foot 
minimum order.
    Many in Alaska, including my nonprofit corporation of commercial 
fishermen, wanted the federal Federal buffer strip size applied to 
private lands. Sealaska opposed. Sealaska is by far the largest private 
timber land operator in Alaska.
    Sealaska's promotion of less-than-minimum buffer strips under State 
law is emblematic of how they maltreated their land.
    The results of Sealaska's promotion of less-than-necessary stream 
protections left fish and habitat more vulnerable, in my opinion, to 
damage.
    As a result of Stein v Barton, generations of salmon and trout have 
had a better chance of survival throughout the Tongass National 
Forest's more than 2,000 fish streams.
    Conversely, generations of fish in creeks flowing on land that Sea 
Alaska cut ruthlessly have had, again in my opinion, less chance of 
survival.

              REASONS S 881 SHOULD BE KILLED IN COMMITTEE

    Compensation to Alaska Natives in ANCSA in 1971 was fair. Natives 
never occupied all of Prince of Wales Island. They had fish camps in 
the summer on some streams and hunted. They occupied small villages. 
ANCSA recognized this by allocating land around the villages. Moreover 
Natives got one billion dollars in 1971. Sealaska should log these 
lands they agreed to accept in 1971 and stop coming back to Congress to 
break a 38 year old deal.
S 881 is a land grab
    What is fair is often determined between parties negotiating. The 
head of the Alaska Federation recently wrote that ANCSA was not fair 
and indeed Natives considered it their Holocaust. Really.See Juneau 
Empire 2009.
    In 1970, Alaska's Native leaders struck a deal.
    It was a fair and just deal then and it is a fair and just deal 
now.
    S. 811 is nothing but a land grab wrapped in an imaginary 
injustice.
    The wealth of lands claimed by Alaskan Natives in 1970 was 
estimated in the tens of billions of dollars by the Memorandum 
submitted to Congress on behalf of the Alaska Federation of Natives by 
Paul Weiss Goldberg Rifkin Warton and Garrison. (See http://
www.sealaskaheritage.org/collection/Curry_W/afn_letter.htm).
    In 1969, Alaskan Natives were willing to settle for $500,000,000 
and 2% royalties on all federalFederal lands. See the 1967 position 
paper of the AFN on http://www.sealaskaheritage.org/collection/Curry_W/
curry_website/17_8_2/002.pdf
    Yet ultimately Alaska's Natives settled for one billion dollars and 
over one hundred million acres of land. It appears the changes in 
amounts of cash and land bargained for from the late 1960s to 1971 
reflect a meeting of the minds through negotiations.
    Let us not forget that prior to ANCSA 1971 a federal court 
extinguished natives claims to aboriginal rights to the land in the 
Tongass National Forest and damages limited to compensation in money. 
Seven million dollars in compensation was suggested. Given the one 
billion ANCSA allocated the examination of the historical record prior 
to ANCSA shows SE Alaska Native Corporations got a rich deal indeed.
    Regardless, it is clear that the Tlingit and the Haida obtained the 
benefits of the bargain struck in ANCSA and should not now be allowed 
to alter its terms.
    ANCSA specifically set forth the area in which Sea Alaska was to 
select its land on central portions of Prince of Wales Island. I do not 
know why Tlingits and Haida wanted to cut the heart out of this one 
island and this island primarily. But concentrate the cutting they did.
    The Tlingit and Haida who had been living in these areas for at 
least two hundred years (the Kaigani Haida arrived on Dall Island from 
Canada after the America Revolution partly to trade with sea otter 
traders and within 30 years just about exterminated all the sea otter 
in southeast Alaska) well knew how much timber was on that land and 
accepted the selection areas specified in ANCSA. Byron Mallot himself 
was an aide to Senator Stevens around that era. So there was no 
fraudulent concealment which could serve as a grounds for breaking this 
deal.
    The need to extinguish the protective covenant established in 
section (h)(1) of ANCSA sought in Section 18 of S 881 is specious and 
bad precedent for the rest of Alaska. The resources are already 
protected under Federal law and indeed the Natives were able to 
cooperative with the excavation of the 9,200-year old human being found 
in a cave on the northern end of Prince of Wales Island near Pt Baker, 
even though the connection to living Tlingits has not been established 
scientifically. Far from being motivated by a desire to protect their 
cultural heritage, Sealaska is using this grounds as ploy at best to 
obtain the best fishing and anchorage sites in Alaska perhaps to 
further efforts to establish tourist lodges or stopovers for the many 
cruise ships that ply the waters of Alaska. An alternative use would be 
large land sales for recreational usage now prohibited on national 
forest lands. The loss of public benefits will at any rate far outstrip 
any gains in protection of Native cultural sites which are already 
protected. The balance tips in leaving the lands in public ownership.
    ANCSA was embraced and endorsed by almost all of Alaska's Natives. 
It is not fair 36 years later to claim this deal was not fair, because 
over those years Congress has made numerous corrections to adjust small 
problems. But this bill is not just a small adjustment. It is breaking 
the deal reached in ANCSA and can be seen as nothing but a bald-faced 
land grab.

                FIRST WAVE OF CLEAR-CUTTING BY SEALASKA

    Under the leadership of Bryon Mallot, Sealaska and/or eleven Native 
village corporations clear-cut vast swaths of mountains to generate the 
revenue for the ``renewal'' of Alaskan Natives. The great majority of 
cuts, even for those villages like Angoon and Kluckwan which are over a 
hundred miles away, were on the Prince of Wales Archipelago.
    Under ANCSA each tiny village gained titled to 23,040 acres, more 
than a quarter of a million acres. Most of this has been clear-cut. 
Sealaska, which represented the people in the same tiny villages, got 
an amount which I am sure others at this hearing will represent 
accurately-a very large amount.
    The cost of this renewal was steep for the environment.
    About 12 years ago, I flew over the gargantuan clear-cut made by 
the Gold Belt Village Corporation, on Admiralty Island.
    I was aghast. Because although I had logged myself for a short time 
and flown extensively over the Tongass and spent decades plying the 
waters, nothing came close to this clear-cut I saw.
    It runs from near the top of a glacial carved valley on one 
mountain down to the creek and high up the side of another mountain.
    I wondered at the time if greed knows no shame. This cut is far 
worse than anything I had seen done and many times larger than 1,000 
acres. It would not have been tolerated even before the NFMA passed.
    As far as I know, that was the only clear-cut done by Natives on 
Admiralty.
    On Prince of Wales Island, the same sort of mega-clear-cutting 
occurred many times over, I ran my boat past the huge clear-cuts of the 
Kassan Village Corporation off east central Prince of Wales. With major 
disgust, I saw from the air, water, or road the steep sloped cuts of 
the Village Corporations of Craig, Klawock, Angoon, and Kluckwan, all 
on the Prince of Wales Archipelago.
    I have yet to see and do not look forward to seeing the massive 
cutting in Chomley Sound on the east side of Prince of Wales.
    Even though the majority of Native villages and Sealaska all 
concentrated their cuts on Prince of Wales Island, this was the deal 
made in ANCSA.
    Sealaska was to make all its cuts in the middle section of Prince 
of Wales Island and nowhere else on the island-certainly not on the 
north end.
    Now the line created by the 36-year-old law that kept Sealaska from 
expanding past its allocation area has been crossed by this appeal to 
Congress to grant one more special interest a turn at the barrel of 
pork.
    Whatever judgment I make of how deplorable it was to cut almost all 
the trees on the 24,000-acre allotments of the eleven Native villages, 
many times from the tops of mountains almost down to the shore of the 
sea-I must acknowledge that Byron had the heavy weight and fiduciary 
duty of a corporate executive to generate revenue during the first 
decade of his corporation's existence. Byron Mallot created success 
financially.
    He generated lots of revenue during the first wave of cutting 
between the 1970s and 1990s. Sealaska then also diversified into other 
ventures outside of the state, including casinos in Southern California 
and one planned North of San Francisco. It was becoming a mature 
corporation.
    Even if Sealaska were to falter, let us not forget what the Alaska 
Native Federation wanted out of this lands claim was to get away from 
dependency on the government. That goal was clearly articulated by its 
lawyers who testified before Congress and is reflected in the statement 
by their lawyers to Congress long ago.
    They wanted a ``bold and imaginative approach which fully and 
finally resolves all claims.'' See Page 4 of the Paul Weiss memo to 
Congress. See the document at: http://www.sealaskaheritage.org/
collection/Curry_W/afn_letter.htm and attached.
Finality
    If only if Sealaska would now honor the pledges its leaders made in 
1971 to make a final settlement, this bill would not be before 
Congress.

      SECOND WAVE OF CLEAR-CUTTING MORE DEPLORABLE THAN THE FIRST
     SEALASKA WANTS TO BREAK THE DEAL IN ANCSA 36 YEARS AFTERWARDS

    To come back to Congress crying that the deal Sealaska made 36 
years ago was not fair is absurd.
    It's like saying the Strip in Las Vegas and all the casinos on it 
should move to New York, because Bugsy Segal didn't know what he was 
doing in the 1940s.
    Breaking the deal 36 years later is not only absurd, it is also 
unfair.
    Prior to ANCSA, the Federal Government paid Sealaska for all the 
timber taken by the creation of the Tongass National Forest. See 
Tlingit and Haida Indians of Alaska v US 177 F Supp 452 (1959).
    Then after ANCSA in 1971, Sealaska and/or its constituent villages 
cut the same timber .
    That's double-dipping. First they got paid for the taking of timber 
in the entire Tongass National Forest and next they got some land to 
cut timber that had not been cut.
    ANCSA requires Sealaska to select their land from the area marked 
out on central Prince of Wales Island, and only in that area. ANCSA is 
clear on this issue. Only Congress can change this scheme and Congress 
should not change it.
    Sealaska has two choices. If they do not want to further soil the 
nest of the villages of Kassan and Craig and Hydaburg and Klawock, all 
on central Prince of Wales, they could turn their uncut land into a 
recreational area or a subsistence hunting area. Alternatively, they 
could cut all their remaining land within their designated area.
    In neither case should they be allowed to select any land at all on 
the northern end of Prince of Wales Island. I believe the attached 
pictures from Google Earth will make abundantly clear how much land has 
been cut on northern Prince of Wales-about 50% of marketable timber.
    By the way, Sealaska ships almost all its timber to Asia without 
hiring American workers to process it further. Federal law does not 
allow the same to occur in the Tongass National Forest. This is another 
reason American taxpayers are going to be shortchanged by this bill.
       northern prince of wales island should not be transferred
    Long ago as a young man, I sat on the banks of the great Chilkoot 
River listening to Chief Donowack, Austin Hammond. Austin was telling 
me how his people were buried in the caves above us, which was the 
traditional place for catching and preparing sockeye salmon for the 
winter.
    We sat on a great rock. It was here, he told me, that long ago, one 
of his successors made two disputing heads of clan houses sit on this 
rock until they could resolve the conflict.
    If the dispute could not be resolved, one of the clans could mock 
the other party by carving a totem for, say, not honoring a bargain.
    Austin then told me that his people came north from what is today 
Sumner Strait, the northern border of Prince of Wales Island, because 
of a dispute with a tribe from the south of Prince of Wales. It would 
be great if Congress could sit on a rock now and then, but I am afraid 
that it is time to create a virtual totem, one that shows that 
Sealaska's leadership abandoned the teachings of the elders who always 
told them to honor the land and its creatures.
    I am afraid Byron and his fellow leaders, in their sincere quest to 
follow the ways of the five chiefs of Yakutat, and renew the people, 
have allowed greed to harm the wildlife that inhabited the forests and 
for millennia sustained the people.
    About a decade ago, Byron gave two huge trees from Sealaska's 
holdings to a group of Hawaiians who carved them into a catamaran, 
which they used to renew the hopes of many Native peoples from San 
Diego to the shores of the Chilkoot and all the way over to Japan.
    Byron was sitting in the catamaran when, it was reported, he cried 
out in a loud voice, ``These trees are alive.'' Quite an epiphany.
    If Byron also acknowledged that the Eagle, Raven, Wolf, and Bear-
the names of the clans and moieties of the Tlingit and Haida-actually 
need to survive on the north end of Prince of Wales Island in large 
tracts of old-growth forest, he would not be asking to log the small 
remaining stands of oldgrowth forest left that are necessary to sustain 
these creatures.
    I hope Byron and the other elders of Sealaska, for alas now we are 
elders too, will leave the land on northern Prince of Wales Island 
alone for all the generations yet to be born. Let them experience, as I 
have over the decades, their wonders. Let us fish there for steelhead 
together.
    When Vancouver first passed Salmon Bay on the east side of northern 
Prince of Wales, Natives came out in canoes throwing white feathers of 
peace into the air. When he entered Port Protection on the western 
side, more canoes came out and welcomed him.
    Congress voted in 1990 to protect both parts of Salmon Bay on the 
east and the western slope of Mount Calder on the west. These two 
areas, the parts of them not logged at least, are like the guardian 
totems at the mouth of the long house that welcome both the clan and 
visitors alike. What an irony it would be to maintain the entrance but 
soil the interior of northern Prince of Wales Island.
    On the Board of Directors of the Salmon Bay Protective Association 
with me was Edward Churchill, a chief of the Stikine clan of Tlingits, 
the clan which by tradition had rights to the northeast of Prince of 
Wales Island.
    During a year and a half on the board with him, I got to know why 
Ed wanted to save Salmon Bay. He wanted to hunt at Salmon Bay for the 
rest of his days. This place held a spiritual significance to him. The 
act of hunting was walking in the footsteps of his ancestors who had 
also hunted and fished there. It was equally important for him to be 
there as it is for me to worship in a temple. In both places, we 
experience much more than we are. This bill would authorize Sealaska to 
desecrate the sacred forests Ed loved.
    Unfortunately, Congress, when it drew its map of Salmon Bay, let 
the logging companies into the upper reaches where the big timber was. 
Only two thirds of the watershed was preserved by Congress, mostly the 
muskeg parts that did not have commercial trees.
    And so Ed left this earth disappointed that the land his people 
wanted to hunt in, the land he wanted undisturbed for his great-
grandchildren, was taken for commercial logging. This was despite my 
best efforts to keep his subsistence hopes alive.
    I know the sadness Ed must have felt when the logging companies 
succeeded in entering into Salmon Bay. I too have hunted there, climbed 
its mountains, and gazed down, with dismay, at the land I first saw as 
wilderness from a sea plane, now clear-cuts stretching all the way to 
the west to Mount Calder.
    But now there is an opportunity to change.
    Byron Mallot has the power to make that change.
    Can Byron Mallot at the Sealaska headquarters, whose offices have 
the relics of his people, totem poles and masks, displayed prominently-
can Byron tell Congress that the Stikine clan and all the other non-
Natives in southeast Alaska should not have what Ed wanted?
    Can Byron tell Congress-in good conscience-that between the 
majestic Salmon Bay on the east and Mount Calder on the west, he wants 
the descendants of Ed to walk on the northern shores of Prince of Wales 
where the deer do not have enough food to eat and the wolf is near 
extinction and the bear hard to find and the eagle not in the sky and 
the goshawks extinguised?
    These animals are carved on the totems of the Tlingit and Haida. 
The elders' creation of the great totems now in the Museum of Natural 
History and the Peabody was undertaken with a deep regard for the 
living creatures who dwelled in the forest. And that value for the life 
of those creatures was part of a great legacy they transmitted in their 
wall murals, masks, and totem poles.
    Sealaska's logging of this area will throw mud on their great 
totems.
    If Byron can answer that he still wants this area, then the five 
chiefs of Yakutat, I believe, will abandon him-and Austin and Ed and I, 
in my turn, will turn our backs to him too.
    It is time for Byron to sit on the rock near the Chilkoot and talk.
    It is time once and for all to allow northern Prince of Wales to 
recover from the rapacious over-logging that devoured it between 1975 
and 1995.
    Leaving the ancestral home of the Stikine and Kuiu Tlingit alone 
would be a final step in the spiritual restoration of the Tlingit to 
the proud tradition their ancestors left for them, a comeback to which 
Byron Mallot has dedicated his life.
                                 ______
                                 
  Statement of the Alaska Professional Hunters Association, on S. 881

    Mr. Chairman: The Alaska Professional Hunters Association (APHA) 
submits the following statement regarding S. 881, the ``Southeast 
Alaska Native Land Entitlement Finalization Act.'' APHA supports 
amending the legislation to ensure that access for hunting and current 
hunting guiding permits are not encumbered.
    The bill would enable Sealaska Corporation to select and take title 
to substantial additional acreage in Southeast Alaska, now held as 
public lands as part of the Tongass National Forest, for private 
economic development and cultural site preservation. It would also 
authorize the Corporation to acquire these now public lands outside of 
the 10 village withdrawal land selection areas established nearly three 
decades ago pursuant to the Alaska Native Claims Settlement Act. The 
measure does not prescribe precisely which lands may be transferred 
from public to private ownership nor does it make clear the aggregate 
amount of acreage to be transferred.
    Throughout Tongass many APHA members hold special use permits to 
provide guided hunting and other recreational services to the public on 
these public lands. If guides are forced off of lands converted to 
private ownership, there are insufficient alternative lands available 
to accommodate these long established operations. Many existing guides 
operate in areas providing high quality hunting, and substitute areas 
of comparable quality simply do not exist to handle displaced guides. 
APHA is strongly opposed to any legislation which would force guides 
out of their permitted areas.
    APHA is persuaded, however, that the bill can be amended to treat 
special use permits as valid existing rights that must be honored by 
Sealaska Corporation or its successors or assigns. We appreciate that 
the language in section 5(d) is a good faith effort to address this 
concern. Unfortunately, the language does not provide sufficient 
protection for existing permittees. It would protect existing permits 
for only the remaining term of that permit and provides no assurance 
that such permits can, or will be, renewed or extended. Since most of 
these permits carry only five or 10 year terms, the absence of any 
guarantees regarding extension or renewal ensures that any impacted 
guides will be out of business in a relatively short period of time. 
That is unacceptable.
    Additionally, APHA seeks language that Sealaska could not authorize 
new or additional guide operations on lands already subject to an 
existing operation. The effects of additional pressure in an area could 
destroy the efficacy of the present guide service. Consequently, the 
bill needs to include language ensuring that lands transferred to 
Sealaska's private ownership include limitations on the ability of the 
Corporation to impose fees, restrict access or otherwise regulate the 
operator/permittee. Such language would genuinely ensure the protection 
of existing valid existing rights for more than a short time period.
    APHA is prepared to work with the bill's sponsors and the Committee 
to craft appropriate protective provisions for existing guide 
operations that might be impacted by the land transfers authorized by 
this bill. Absent such provisions, APHA would be compelled to oppose 
the measure. Thank you.
                                 ______
                                 
                                            Audubon Alaska,
                                    Anchorage, AK, October 8, 2009.
Hon. Ron Wyden,
Chairman, Subcommittee on Public Lands and Forests, Committee on Energy 
        and Natural Resources, U.S. Senate, 223 Dirksen Senate Office 
        Building, Washington, DC.
    Dear Senator Wyden: The purpose of this letter is to comment on the 
``Southeast Alaska Native Land Entitlement Finalization Act'' (S. 881) 
proposed on behalf of Sealaska Corporation. Audubon Alaska urges that 
action by the Subcommittee on Public Lands and Forests on this measure 
be deferred.
    Audubon Alaska fully supports Sealaska Corporation's right to 
select its remaining land entitlement consistent with the Alaska Native 
Claims Settlement Act (ANCSA). Provisions in S. 881 would, however, 
greatly expand the boundaries of the areas from which Sealaska could 
select land and would result in significant conflicts with other 
important Tongass National Forest values and uses. Before enactment of 
S. 881, or another measure that would modify the ANCSA selection area 
boundaries, these conflicts should be reconciled.
    Some of the lands that Sealaska proposes to select in S. 881, which 
are outside of its current withdrawal area, are located within 
watersheds that have extremely important fishery and wildlife habitat 
values that could be substantially compromised by the intensive logging 
practices permitted on privately owned lands. In addition, the proposed 
legislation includes the transfer of dozens of small parcels scattered 
throughout the region with little or no restriction on how they could 
be used or developed. These additional land transfers could potentially 
compromise the ecological integrity of many areas of the forest, as 
well as result in a variety of user conflicts.
    It should be noted that an alternative legislative proposal pending 
before Congress (S. 1738/H.R. 3692 ``The National Forest Roadless Area 
Conservation Act of 2009'') would provide permanent conservation 
protection for some of the same lands that Sealaska proposes to select 
for logging and/or other development.
    Audubon Alaska again recognizes and respects the importance of 
addressing Sealaska's unsatisfied land entitlement. Changes to the 
ANCSA selection boundaries as proposed by Sealaska, however, should be 
deferred until such time as the modified selection process can be 
reconciled with other important public interests including fish and 
wildlife conservation and recreational uses of the Tongass National 
Forest.
            Sincerely,
                                            John W. Schoen,
                   Interim Executive Director and Senior Scientist.
                                             Eric F. Myers,
                                      Senior Policy Representative.
                                 ______
                                 
Statement of Tim Towarak, President, Bering Straits Native Corporation, 
                               on S. 522

    Chairman Wyden and Members of the Subcommittee on Public Lands and 
Forests, for the record I am Tim Towarak, President of the Bering 
Straits Native Corporation (BSNC), a regional Alaska Native corporation 
authorized by the Alaska Native Claims Settlement Act (ANCSA). Thank 
you for taking up S. 522 and considering it today. This bill would 
resolve several outstanding land issues involving our Native 
corporation's land entitlement under ANCSA, as well as several 
involving the State of Alaska (State) by ratifying an agreement between 
the United States, the State, and BSNC.
    As a regional Native Corporation, BSNC received entitlement to 
145,728 acres of land under Section 14(h)(8) under ANCSA. The bill S. 
522 will fulfill a critical component of that entitlement by conveying 
1,009 acres in the Salmon Lake area, 6,132 acres of land at Windy Cove 
and 7,504 acres of land at Imuruk Basin to BSNC. The bill would also 
convey 3,084 acres in the Salmon Lake area to the State of Alaska. BSNC 
will relinquish 3,084 acres of land from its original Salmon Lake 
selection. Passage of the bill would avoid further costly and 
counterproductive administrative appeals or litigation and is a 
sensible, fair and amicable resolution to some difficult land issues 
that have faced the parties for many years caused in part by the 
competing land selections of the State and BSNC.
    Two important purposes would be served by Congressional approval, 
through S. 522, of the Salmon Lake Land Ownership Consolidation 
Agreement. The first is that it will allow BLM to finalize the 
conveyance of Native lands within the Bering Straits region using the 
mechanism of direct negotiation afforded by the Alaska Lands Transfer 
Acceleration Act. Should Congress approve S. 522, such action will be 
consistent with ANCSA and it will also highlight the importance of 
cooperatively resolving potentially litigious disputes over competing 
land selections by the State of Alaska, the Native Corporations and the 
United States. The second purpose served is the transfer of lands to 
those whose history and culture are deeply rooted there and whose 
dependence on those lands for subsistence and identity continue to this 
day.
    By way of background, our Native region encompasses a large 
geographic region around Nome, Alaska, Norton Sound, and the Bering 
Straits, which is located between the United States and Russia. Maps 
and other detailed information relevant to the legislation is contained 
in a Briefing Booklet, entitled, ``Salmon Lake Area Land Ownership and 
Consolidation Agreement,'' provided to the Subcommittee previously.
    Our region historically is icebound for seven months of the year. 
What few local roads that have been built over time are not connected 
to the state highway system whose closest point is approximately 400 
miles away. In the summer, rivers and the ocean are prime means of 
transport for the people of our villages. In the winter, once these 
water bodies are frozen, they become transportation links for people to 
travel to various villages in the region by snowmachine or dogsled. 
Travel to the larger cities in the state requires travel by air.
    The BSNC region is an area typified by rolling tundra, alpine 
tundra, and mountain ranges, as well as small spruce forests at its 
eastern limit. Reaching toward eastern Eurasia, the Seward Peninsula is 
the westernmost extension of the North American continent. Residents of 
the region have lived off the land for millennia, and while the modern 
era has brought significant change to this way of life, the lands are 
still the basis for BSNC's shareholders identity as they continue to 
use the lands for subsistence purposes as well as for recreation. It is 
the importance of these lands, both in the past and for the future, 
that guided BSNC in its original ANCSA land selections during the 
1970's.
    BSNC, established as the regional Native Corporation for the 
communities of the Seward Peninsula, Bering Strait, and Norton Sound, 
is seeking to finalize all land entitlements granted through ANCSA. The 
process of land selection, prioritization, adjudication by BLM, and 
finally, the transfer of land to the Alaska Native Corporations has 
taken over 30 years. This process is still ongoing, though the 2004 
Alaska Lands Transfer Acceleration Act (P.L. 108-452) reported to the 
Senate by your Committee provided the impetus and tools for resolving 
regulatory bottlenecks in ANCSA and expediting transfers to the State 
of Alaska and Alaska Native Corporations.
    The history of BSNC's ANCSA 14(h)(8) selection of Salmon Lake began 
in 1977 when BSNC filed selection number F-33819. In 1997, BLM 
determined that the application would be rejected because the lands 
were not withdrawn under Section 11(a)(1) of ANCSA. BSNC appealed this 
decision to the Interior Board of Land Appeals, and the decision was 
remanded back to BLM. By this point in time, BSNC had already spent 
well over $100,000 in legal fees related to the Salmon Lake appeal. 
Additional 14(h)(8) selections at Windy Cove (F-33833) and Imuruk Basin 
(F-33834) were to be similarly adjudicated and further appeals could 
need to be pursued resulting in additional legal and litigation costs. 
In short, there was an acute need for a resolution to be negotiated 
that would deal with the respective interests of all parties equitably.
    With the passage by Congress of The Alaska Land Transfer 
Acceleration Act (P.L. 108-452) in 2004, the mechanisms for negotiating 
land selection conflicts were streamlined. The Act also provided the 
opportunity for Native corporations to negotiate directly with the BLM 
for final settlement. As a result of a pending decision on these land 
issues by the BLM, BSNC requested that BLM withhold the final decision 
for F-33819 until such time as BSNC could meet with BLM and the State 
to discuss the possibility of resolving the conflict.
    In 2004, representatives from BSNC, BLM, and the State met to 
discuss the possibility of resolving the issues through a negotiated 
settlement. Over the course of the next three years the parties met on 
an annual or semi-annual basis and were eventually able to reach an 
agreement that served all of their interests. Through the agreement, 
titled the ``Salmon Lake Area Land Ownership Consolidation Agreement,'' 
the State and BSNC each receive a portion of Salmon Lake. The lands 
BSNC would receive are contiguous with and adjacent to lands previously 
conveyed to the Native corporation. Likewise, the lands the State would 
receive are immediately adjacent to other State-selected lands. Access 
to State waters and other public lands has been assured through the 
reservation of public easements over the lands to be conveyed. All 
lands granted to the parties through the Agreement will be counted 
against their remaining entitlements. Regarding the lands BSNC would 
receive, the total acreage subsumed under the Agreement would be 
subtracted from BSNC's remaining ANCSA 14(h)(8) entitlement. For the 
State of Alaska the lands would be counted against the State's 
entitlement under 6(a) of the Alaska Statehood Act.
    BSNC and its member villages are positioned to be the first region 
in the State to receive all of the land entitlements allocated by 
ANCSA. However, without the Salmon Lake Land Selection Resolution Act, 
the achievement would be delayed further. BSNC seeks to avoid further 
delays caused by litigation and/or the need for reselection of 14(h)(8) 
lands. This Agreement forged between the parties is not a land exchange 
nor does it modify or waive any section or regulatory mandate of the 
ANCSA.
    Salmon Lake is one of the westernmost red (sockeye) salmon spawning 
lakes in North America. The lake is surrounded by a landscape of 
glacial moraines which contain evidence of use that spans countless 
generations. At the east of the lake is a small, ancient settlement of 
two or three house pits while along the shore near the center of the 
lake is an old village site of perhaps twenty semi-subterranean houses 
remains. Old burial sites are located between the Nome-Taylor road and 
the lakeshore, and stretched along Fox Creek, which empties into the 
lake on its north shore, is a caribou drive line and stone tents rings 
and shooting blinds left by hunters over two centuries ago.
    Today, residents of the region and BSNC shareholders visit the lake 
for the same reasons our ancestors did. The rich salmon resource is 
harvested along the Pilgrim River, just below the eastern outlet to the 
lake.\1\ Caribou returned to the Seward Peninsula in 1996 after a 
hiatus of well over 100 years,\2\ and the people have camps near the 
lake that they use to access the herd when it crosses or is near the 
Nome-Taylor road. Clearly this area has been and remains important to 
our shareholders as a place for securing subsistence resources and will 
continue to be an important place in the history and lives of the 
people of the region.
---------------------------------------------------------------------------
    \1\ BSNC has worked cooperatively for years with Alaska Department 
of Fish and Game and Norton Sound Economic Development Corporation to 
allow access across BSNC lands to the east of the lake for the purposes 
of salmon studies and enhancement programs in the Pilgrim River/Salmon 
Lake drainage.
    \2\ The Seward Peninsula caribou herd disappeared between 1850 and 
1970, causing a significant shift in land use and settlement for the 
Native residents of region.
---------------------------------------------------------------------------
    The other lands subject to this Agreement lie on the north and 
south shores of Imuruk Basin. Windy Cove lies at the base of the north 
flank of the Kigluaik Mountains. It is in this mountain range where an 
ancestor to our shareholders encountered a giant eagle that taught him 
the songs, dances, and ceremonies that have come to be known throughout 
the region as the Eagle-Wolf messenger feast. In the past this ceremony 
brought villages together to trade, feast, and perform the necessary 
rituals that ensured the return of the spirits of the animals they 
hunted to insure a balance was maintained between the human and animal 
worlds.
    The lands called the Imuruk Basin lands in the Agreement encompass 
the delta of the Agiapuk River on the north shore of Imuruk Basin. This 
area contains old camps and village sites, some dating back 2000 years. 
One village on the Agiapuk River was virtually wiped out by the 1918 
influenza epidemic, a tragedy that nearly halved the Native population 
of the region stretching from Unalakleet to Shishmaref because 
indigenous people living there did not have immune systems that could 
deal with such diseases from outside of their world.
    The Imuruk Basin lands are essential resource procurement/
subsistence use areas to this day. Salmon are harvested as they return 
to the Agiapuk River, moose are taken for winter supplies on the lands, 
and the area swarms with waterfowl in the spring and fall of every 
year. Situated between the lands of the villages of Mary's Igloo, 
Teller, and Brevig Mission, this land is of central importance for the 
continuation of our peoples' culture, history, and ongoing subsistence 
lifestyle.
    The people of the Bering Straits region will be deeply grateful to 
this Subcommittee and to the Congress for ratifying the Salmon Lake 
Area Land Ownership and Consolidation agreement thereby sensibly 
resolving some of the critical remaining lands issues in our region. 
Thank you for this opportunity to provide the Subcommittee with our 
views on this important piece of legislation.
                                 ______
                                 
Statement of the Confederated Tribes of Coos, Lower Umpqua and Siuslaw 
                          Indians, on S. 1272

    The Confederated Tribes of Coos, Lower Umpqua and Siuslaw Indians 
(referred to here as ``the Tribe'') provides this testimony for the 
October 8, 2009 legislative hearing of the Subcommittee on Public Lands 
and Forests Hearing on S.1272 (Wyden and Merkley).
    The Tribe is pleased that it is able to offer testimony in its 
capacity as a federally recognized Indian tribe. Exactly 25 years ago, 
almost to the day, on October 17, 1984, through the enactment of Public 
Law 98-482, the United States Congress took definitive action to 
restore the Tribe to its rightful place as a sovereign government. By 
doing so, Congress repudiated the ``termination era'' that reached its 
peak in the 1950's and that resulted in the severing of the federal 
government's political relationship with our Tribe and dozens of other 
Indian tribal governments. Public Law 98-482 (1984) restored the 
Tribe's government-to-government relationship with the United States.
    In 1984 there was also an effort to secure a federal wilderness 
protection for this area. Despite tireless efforts, this proposal was 
not included final version of the Oregon Wilderness Act of 1984, Public 
Law 98-328 (1984). The case for such protection has grown only more 
compelling since then. Accordingly, the Tribe supports the efforts of 
Oregon's Congressional delegation to provide statutory wilderness 
designation through S. 1272 and its companion bill in the House, H.R. 
2888. This legislation will accord these forest lands with the highest 
level of protection available under federal law. But we also take this 
opportunity to ask for consideration and fairness in addressing an 
injustice of error or omission that has deprived our Tribe of any 
portion of our ancestral forest for more than 150 years.
    The Tribe certainly shares the widely-held sentiment that the 
Wasson Creek and Franklin Creek watershed area satisfies the applicable 
Wilderness Act requirements and standards. Most notably, these lands 
provide outstanding opportunities for solitude and primitive and 
unconfined forms of recreation. The Tribe has an innate connection to 
these lands because this is the forest that substantiated the Tribe's 
ancestors for thousands of years before European colonists arrived. The 
proposed Devils Staircase Wilderness Area is in the Ancestral Territory 
of the Confederated Tribes of Coos, Lower Umpqua and Siuslaw Indians, 
in particular the Lower Umpqua Tribe. Lower Umpqua Tribal Elders 
recall, as children, hearing from their Elders of hunting parties and 
camps in the mountains between the Umpqua and Siuslaw Rivers. Both 
Golden Ridge--which is in the proposed wilderness area--and the ridge 
to the southeast included hunting, resource gathering, and spiritual 
sites associated with the Lower Umpqua village of Ts'alila located 
along the river near Scottsburg.
    For these reasons, the Tribe's greatest aspiration today is to 
secure a forest land base that reflects our unique inter-Tribal union 
of three distinct, but now confederated tribes. It would be a 
disservice to our Tribal ancestors if we falter in our effort to 
reclaim a small fraction of our Tribal heritage and patrimony. We have 
worked exhaustively to develop our forest restoration proposals within 
the complex and sometimes acrimonious northwest forest policy arena.
    Our message is as simple as is our goal. We ask only that the 
various interests--private, public, governmental, and non-governmental 
participants in this process--commit to work with the Tribe in good 
faith to help us achieve our goal of regaining a meaningful and 
manageable Tribal forest land base. We trust that each of the entities 
that are working to establish the Devil's Staircase Wilderness will 
recognize that the righteousness our forest restoration cause is 
incontestable. And all we ask from the other participants in this 
process is fairness. For our part, the Tribe commits to continue to 
work--as we have for the past decade and more--as diligently as 
possible with the various interests and stakeholders to address any 
questions and resolve any issues that may arise in crafting a Tribal 
forest restoration proposal. It is quite possible that our Tribal 
forest restoration objective can be accomplished on a land base that is 
smaller than the amount of land covered by this legislation, possibly 
even an amount of land that is equal to half amount of the amount of 
land covered by the proposed wilderness designation--and obviously 
involving different acreage entirely.
    Since re-gaining recognition in 1984, the Tribe has worked 
persistently to secure legislation to restore a small fraction of our 
ancestral lands. For the Congress to designate some of our ancestral 
lands as wilderness, as in S. 1272 and its companion bill in the House, 
H.R. 2888, is not inherently inconsistent with the Tribal vision for 
this area as described in the various iterations of our Tribal forest 
restoration proposal. Indeed, some of our Tribal forest restoration 
proposals would have imposed wilderness-like restrictions on some of 
the very same lands that are covered by this legislation. For example, 
in these proposals the Tribe proposed to thin stunted stands to 
accelerate the development of late-successional forests, then leave 
these stands to nature's management in perpetuity with the exception of 
the gathering of traditional plant materials for cultural uses. One 
recent iteration of the Tribe's proposal from June 2006 included 
approximately 6,000 acres of the proposed wilderness area (centered 
around Otter Creek) now managed by the U.S. Forest Service.
    The Tribe has no interest in impeding the effort to secure 
wilderness status for some of our ancestral homelands as proposed by S. 
1272 and its companion bill in the House, H.R. 2888. While once 
seemingly endless, however, federal forest land is increasingly 
becoming a finite and scarce resource. Designation of any federal land 
as wilderness in the Ancestral Territory of the Confederated Tribes of 
Coos, Lower Umpqua and Siuslaw Indians effectively removes that acreage 
from the dwindling amount of federal lands that are available for 
restoration to our Tribe. The
    Tribe is mindful that wilderness designation via the proposed 
legislation could heighten the competition over sometimes-conflicting 
resource priorities on the remaining lands retained by the federal 
government, thereby making our future task even more difficult after 
this bill's enactment.
    In the recent past, the Congress has ensured that land restoration 
efforts of other tribes are not placed at such a disadvantage by 
legislation establishing national parks or monuments or similar 
designations. For example, the Timbisha Shoshone Tribe faced this 
concern when Congress enacted the California Desert Protection Act, 
Public law 100-433. Congress address this by including a provision in 
that law, Section 705, that directed the Secretary of Interior to 
identify an area within this relatively small tribe's aboriginal 
homeland that would be suitable for a reservation. Congress 
subsequently transferred approximately 8,000 acres of federal land to 
the Timbisha Shoshone Tribe and provided for the additional acquisition 
of more than 2,000 acres of fee (privately owned) lands to this newly-
established reservation. Timbisha Shoshone Homeland Act, Public Law 
106-423. Timbisha Shoshone was recognized at about the same time that 
our Tribe was re-recognized. As the legislative history for the 
Homeland Act notes: ``Authorities available [to federal land management 
agencies] . . . under existing law, such as to grant special use 
permits or enter into a memorandum of understanding, cannot provide the 
permanence, security, and economic opportunity that a trust land base 
affords a Tribe.'' This is exactly why our Tribal forest restoration 
effort has included two components. First, as described above, a 
suitable forest land base that reflects our inter-Tribal union. And 
secondly, trust status protection for the relatively small but 
culturally significant sites located on federal lands, most notably 
these are the following Bureau of Land Management tracts: Takimiya 
(Umpqua Eden) (128 acres) and the Coos Head tract (60 acres).
    In closing, the Tribe greatly appreciates the opportunity to 
participate in this discussion of how to protect the Devil's Staircase 
in our government-to-government capacity. The injustice of error or 
omission that has deprived our Tribe of any portion of our forest for 
more than 150 years must be remedied. We simply want to ensure that the 
next seven generations of our membership will have the opportunity to 
achieve the permanence, security, and opportunity afforded by creation 
of a Tribal forest and the protection of our special sites. The 
Confederated Tribes of Coos, Lower Umpqua and Siuslaw Indians is 
committed to achieving this vision in a way that does not impede the 
efforts of others to assure that the next seven generations of 
Americans, of both Native and non-Native ancestry, will be able to 
appreciate the proposed Devil's Staircase Wilderness, as we and our 
Ancestors have for thousands of years.
    Thank you.
                                 ______
                                 
  Statement of the Alaska Professional Hunters Association, on S. 881

    Mr. Chairman: The Alaska Professional Hunters Association (APHA) 
submits the following statement regarding S. 881, the ``Southeast 
Alaska Native Land Entitlement Finalization Act.'' APHA supports 
amending the legislation to ensure that access for hunting and current 
hunting guiding permits are not encumbered.
    The bill would enable Sealaska Corporation to select and take title 
to substantial additional acreage in Southeast Alaska, now held as 
public lands as part of the Tongass National Forest, for private 
economic development and cultural site preservation. It would also 
authorize the Corporation to acquire these now public lands outside of 
the 10 village withdrawal land selection areas established nearly three 
decades ago pursuant to the Alaska Native Claims Settlement Act. The 
measure does not prescribe precisely which lands may be transferred 
from public to private ownership nor does it make clear the aggregate 
amount of acreage to be transferred.
    Throughout Tongass many APHA members hold special use permits to 
provide guided hunting and other recreational services to the public on 
these public lands. If guides are forced off of lands converted to 
private ownership, there are insufficient alternative lands available 
to accommodate these long established operations. Many existing guides 
operate in areas providing high quality hunting, and substitute areas 
of comparable quality simply do not exist to handle displaced guides. 
APHA is strongly opposed to any legislation which would force guides 
out of their permitted areas.
    APHA is persuaded, however, that the bill can be amended to treat 
special use permits as valid existing rights that must be honored by 
Sealaska Corporation or its successors or assigns. We appreciate that 
the language in section 5(d) is a good faith effort to address this 
concern. Unfortunately, the language does not provide sufficient 
protection for existing permittees. It would protect existing permits 
for only the remaining term of that permit and provides no assurance 
that such permits can, or will be, renewed or extended. Since most of 
these permits carry only five or 10 year terms, the absence of any 
guarantees regarding extension or renewal ensures that any impacted 
guides will be out of business in a relatively short period of time. 
That is unacceptable.
    Additionally, APHA seeks language that Sealaska could not authorize 
new or additional guide operations on lands already subject to an 
existing operation. The effects of additional pressure in an area could 
destroy the efficacy of the present guide service. Consequently, the 
bill needs to include language ensuring that lands transferred to 
Sealaska's private ownership include limitations on the ability of the 
Corporation to impose fees, restrict access or otherwise regulate the 
operator/permittee. Such language would genuinely ensure the protection 
of existing valid existing rights for more than a short time period.
    APHA is prepared to work with the bill's sponsors and the Committee 
to craft appropriate protective provisions for existing guide 
operations that might be impacted by the land transfers authorized by 
this bill. Absent such provisions, APHA would be compelled to oppose 
the measure. Thank you.
                                 ______
                                 
Statement of the Coalition of National Park Service Retirees, on S. 881

    The Coalition of National Park Service Retirees (CNPSR) is a non-
profit National Park advocacy organization comprised of nearly 750 
former National Park Service employees who, collectively, have served 
almost 20,000 years within the agency in every capacity and at all 
grades, including former Directors and Deputy Directors, former 
regional Directors or Deputy Regional Directors, former Associate or 
Assistant Directors at the national or regional office level, former 
Division Chiefs at the national or regional office level, and former 
Superintendents or Assistant Superintendents. In our personal lives, we 
come from the broad spectrum of political affiliations. As park 
managers, rangers and employees in the National Park Service's many 
disciplines, however, we devoted our professional lives to a common 
goal--maintaining and protecting our national parks for the benefit of 
all Americans, both living and those yet to be born. We remain 
committed to that goal.
    Our organization is pleased to provide testimony for the written 
record on S.881, Southeast Alaska Native Land Entitlement Finalization 
Act to be heard before the Subcommittee on Public Lands & Forests of 
the United States Senate. Our primary interest lies in one narrow 
segment of the bill that speaks to Glacier Bay National Park and 
Preserve. In general CNPSR supports the language found in Section 
3(b)(2)(B)(ii) and Section 4(c)(1) which clearly articulates that 
Sealaska shall not select or receive any conveyance of land located 
within any conservation system unit under this Act.
    We do not support the language or intent in Section 2(a)(17)(E) & 
Section 3(a)(2)(c) giving specific direction for the development of a 
special cooperative agreement between Sealaska and the National Park 
Service. We do not agree that more direction is required than what 
already exists in law and existing agreements and do not see any 
enhancement to the existing protection provided by the National Park 
Service in their mission to protect sacred, cultural, and traditional 
and historic sites within the park. We remain opposed to all language 
in this bill that directs the National Park Service to enter into a 
cooperative agreement with Sealaska Corporation because of its obvious 
redundancy and potential for conflict with the existing Memorandum of 
Understanding with the Hoonah Indian Association, the locally federally 
recognized tribe, their traditional territory encompassing the vast 
majority of lands within Glacier Bay. The relationship with the Hoonah 
Indian Association, predicated on an existing agreement has been very 
successful and does not need to be complemented by a second agreement. 
We would note the plethora of already existing federal legislation 
which requires consultation and cooperation to facilitate traditional 
cultural activities of federally recognized tribal governments. We 
would suggest that another agreement might even work at cross purposes 
to existing law and agreements creating potential conflict and 
confusion.
    The areas of concern articulated in the bill that a cooperative 
agreement with Sealaska would supposedly solve have long been 
appropriately and successfully managed with the Hoonah elders and 
tribal members including cooperative research partnerships, 
presentation of interpretive themes, and integration of traditional 
Tlingit knowledge into park planning and management focus since at 
least 1995. The success with the Hoonah Indian Association has led to 
other similar successful endeavors with other Hoonah entities, 
including Hoonah City Schools and the Hoonah Heritage Foundation. 
Planning is currently underway for the development of a ``tribal 
house'' at Bartlett Cove in Glacier Bay involving all these entities 
including the Sealaska Heritage Institute who has also been invited. In 
short, it is unnecessary to compel any further cooperative agreement to 
encourage partnership between the entities than what already 
successfully exists.
    Proposed language in the bill (section 3(c)(2)(B)(ii)) regards to 
this agreement seems to go further than just cooperating on cultural 
aspects giving a broader authority to Sealaska to oversee all ``the 
resources within the Park'' and certainly represents an overly 
aggressive extension of authority of Sealaska within Glacier Bay. 
Indeed, in section 3(c)(2)(B) there is the clear authority for the 
``establishment of culturally relevant sites'' implying that 
development on these cultural, sacred, traditional and historic sites 
would be allowed in obvious contradiction to existing law and the 
purposes for which the park was established. CNPSR cannot support these 
proposals in any manner.
    In addition, we are very concerned about the ``technical 
correction'' found in Section 5(e)(2) that exempts Sealaska from 
oversight under the National Historic Preservation Act and amends the 
Act to say that all native corporation land is now tribal land with 
regard to NHPA. This proposal is far from a ``technical correction'' 
and it is not limited to just lands of interest to Sealaska. This 
proposal for all ANCSA corporate lands across Alaska would take away 
the protections provided for by the state of Alaska and its State 
Historic Preservation Officer (SHPO). Establishing the opportunity for 
a for-profit corporation to assume responsibility for protecting 
historic and cultural sites when that very same corporation may wish to 
develop a site for profit motives creates creating an inherent conflict 
of interest and the potential loss of historic or cultural sites in 
favor of the profit motive by the very same corporation. CNPSR is 
concerned that this significant change could impact millions of acres 
of corporate held lands within or adjacent to the boundaries of 
existing national park units in Alaska where continued involvement and 
oversight of the SHPO is essential to protecting park resources.
    As author of this written testimony on behalf of the Coalition of 
National Park Retirees it should be noted that I served as the National 
Park Service Regional Director for Alaska from 2000 to 2003. Further, 
there are at least four previous superintendents of Glacier Bay 
National Park and Preserve that are members of this organization whom 
are obviously very familiar with the implications this Senate Bill 
might have on Glacier Bay and share our concerns.
    We appreciate the opportunity to comment on S. 881 and hope our 
concerns will be noted.
                                 ______
                                 
  Statement of Jim Stratton, Alaska Regional Director--National Parks 
                  Conservation Association, on S. 881

    The National Parks Conservation Association (NPCA) works to 
protect, preserve, and enhance America's national parks for present and 
future generations. On behalf of NPCA's 325,000 members, and especially 
the national parks in Alaska, we appreciate the opportunity to submit 
these comments for the record.
    As an organization focused solely on national park lands, NPCA 
takes no position on the vast majority of the proposed language found 
in S.881. Our interest is that small slice of the bill that speaks to 
Glacier Bay--principally Section 2 (a)(17)(E), Section 3 (a)(2) and 
(b)(2)(B)(ii) and (c), Section 4(c)(1) and Section 5(e)(2).
    NPCA supports the language found in Section 3(b)(2)(B)(ii) and 
Section 4(c)(1) which makes it very clear that ``Sealaska shall not 
select or receive under this Act any conveyance of land .located within 
any conservation system unit.'' This bill is very clear that conveyance 
of lands within Glacier Bay National Park & Preserve to Sealaska is not 
considered or anticipated and we find this language both satisfactory 
and comforting.
    It is the intent for a cooperative agreement found in Section 2 
(a)(17)(E) and the specific direction for such an agreement between 
Sealaska and the National Park Service found in Section 3 (a)(2) and 
(c) that causes us heartache. In addition, we are very concerned about 
the ``technical correction'' found in Section 5(e)(2) that exempts 
Sealaska from oversight under the National Historic Preservation Act.
    The Organic Act of 1916 charges the National Park Service with 
protecting in perpetuity America's natural and cultural treasures. 
There is no higher level of protection available for natural or 
cultural resources found in the United States than designation as a 
unit of the national park system. Our national treasures are held in 
trust by the Park Service for all Americans and are both preserved and 
interpreted for present and future generations. In reading the proposed 
legislation, we fail to see how protection of Glacier Bay's identified 
sacred, cultural, traditional and historic sites are enhanced by the 
directed Cooperative Agreement found in Section 3(a)(2).
    We have expressed our concern about the cooperative agreement 
language on numerous occasions to Sealaska and to both Senators 
Murkowski and Begich and appreciate the opportunity to share our 
concerns with other members of the U. S. Senate at this hearing. NPCA 
is opposed to all language in this bill that directs the National Park 
Service to enter into a cooperative agreement with Sealaska 
Corporation, or any other Village or Urban Corporation. This proposed 
directive is redundant because the Park Service already has an existing 
cooperative agreement which establishes a solid working partnership for 
the park's traditional and cultural resources with the Hoonah Indian 
Association, the local federally recognized tribe, whose traditional 
territory includes the vast majority of the lands now part of Glacier 
Bay National Park.
    Furthermore, the Park Service is charged to cooperate with and 
facilitate the traditional cultural activities of federally recognized 
tribal governments under the provisions of the Native American Graves 
Protection and Repatriation Act of 1990, the Alaska National Interest 
Lands Conservation Act of 1980, the Archaeological Resource Protection 
Act of 1980, the American Indian Religious Freedom Act of 1978, the 
Alaska Native Claims Settlement Act of 1971, the President's Federal 
Indian Policy signed on January 24, 1983, Executive Order 13007 (Indian 
Sacred Sites) and Executive Order 13175 (Consultation and Coordination 
with Native American Tribal Governments).
    In addition to being redundant, any additional agreements directed 
by Congress between the Park Service and Regional or Village 
Corporations organized under the Alaska Native Claims Settlement Act, 
we fear, would lead to conflict and confusion. The Park Service already 
has a solid working relationship, formalized in a Government to 
Government relation, with the Hoonah Indian Association in a Memorandum 
of Understanding initially signed in 1995 and renewed in both 2000 and 
2005.
    Specifically, the National Park Service agrees to recognize the 
contributions of Hoonah elders and tribal members to the history, 
culture and ecology of Glacier Bay and sets forth the relationship for 
cooperative activities and partnerships for research, education, 
interpretation and integration of traditional Tlingit knowledge into 
the park's planning, management and interpretive regimes. These are the 
very same areas of concern used to justify the need for an additional 
cooperative management agreement with Sealaska. In reality, they are 
already being addressed and have formally been so since 1995.
    Building on the partnership with the Hoonah Indian Association, the 
Park Service has broadened its relationships with other entities in 
Hoonah to include the Huna Heritage Foundation (HTC) and Hoonah City 
Schools (HCS). Together they have created multiple opportunities to 
annually bring tribal youth and elders together at cultural sites in 
the park for deep lessons in clan and tribal history. Currently, this 
partnership is developing plans to construct a traditional tribal house 
at Bartlett Cove that will be the centerpiece of a cultural 
preservation program. In addition to being the cornerstone of the 
park's cultural interpretation program, the tribal house will also be a 
facility where workshops will be held to teach a variety of Tlingit 
cultural traditions, such as carving, basket weaving, language, song, 
dance and more. The partnership has extended an invitation to Sealaska 
Heritage Institute to become a partner in development of this facility 
and program. We don't understand how adding additional entities to this 
already existing formally recognized relationship improves the current 
situation and we remain concerned that it could create conflict between 
competing interests.
    We are also concerned that the language of the bill could be 
interpreted to elevate Sealaska into a full cooperative management 
partnership with NPS on ALL park management issues. Language in Section 
3 (c)(2)(B)(ii) says that the agreement shall ``ensure that the 
resources within the Park are protected and enhanced by cooperative 
activities and partnerships among federally recognized Indian Tribes, 
Village Corporations and Urban Corporations, Sealaska, and the National 
Park Service.'' Our interpretation is that it is NOT limited to just 
the cultural sites suggested in the bill's findings in Section 2 
(a)(17)(E). The language says ``the resources within the Park,'' which 
is a broader authority than merely the resources associated with 
indentified cultural sites. This is a significant shift in the role of 
any cooperating partner with the National Park Service and one that 
NPCA is opposed to.
    Furthermore, we are concerned that the specific directive for a 
cooperative agreement found in Section 3(c)(2)(B) that provides for the 
``establishment of culturally relevant visitor sites'' could be 
interpreted as allowing development at these cultural, sacred, 
traditional and historic sites--an activity we feel is contrary to the 
purpose for which the park was established.
    Our final park-related concern with this bill is that the National 
Historic Preservation Act (NHPA) is amended to say that all native 
corporation land is now tribal land with regard to NHPA. That is NOT a 
technical correction and it is not limited to just lands of interest to 
Sealaska. This is a change for all ANCSA corporate lands across Alaska 
and it takes away the protections provided for by the state of Alaska 
and its State Historic Preservation Officer (SHPO). The scenario we 
fear is that a for-profit corporation would assume responsibility for 
protecting historic and cultural sites when that very same site is 
impeding a development opportunity of the very same corporation. With 
this change to the NHPA, Native corporations operating logging and 
mining operations on their land, for example, would now make their own 
determinations about how best to protect cultural sites where logging 
and mining is occurring. This is classic fox guarding the henhouse and 
we don't find that very comforting. NPCA is concerned about this 
significant change because there are millions of acres of corporate 
held lands within the boundaries of existing national park units in 
Alaska and the continued involvement of the SHPO in all proposed 
developments on those lands is necessary to protect the values of 
adjacent park resources.
    In summary, we feel the existing MOU between the Park Service and 
the Hoonah Indian Association already addresses the needs and concerns 
set out in the Sealaska Bill for ``Sacred, Cultural, Traditional and 
Historic Sites'' that may be found in Glacier Bay National Park & 
Preserve. An additional cooperative agreement would be redundant and 
could confuse the situation should the Park Service find itself pulled 
between contradictory approaches of two different Native Alaska 
entities.
    Should this bill move forward, we would request that those sections 
of S.881 that speak to Glacier Bay National Park & Preserve and the 
technical correction relating to the SHPO be dropped from the bill's 
language.
                                 ______
                                 
   Statement of Hon. Harry Reid, U.S. Senator From Nevada, on S. 940

    Mr. Chairman, thank you for allowing a hearing on this important 
legislation.
    This bill would direct the Bureau of Land Management to convey 
approximately 2,400 acres of land that they currently manage to the 
Nevada System of Higher Education. This transfer will allow for 
development of three new higher education campuses: one for the College 
of Southern Nevada; one for the University of Nevada, Las Vegas; and 
one for Great Basin College.
    Currently, the Nevada System of Higher Education campuses in 
southern Nevada comprise just 1,200 acres. This is one of the smallest 
footprints of any major higher education system in the western United 
States. In fact, the University of Nevada, Las Vegas has less than half 
the land base of comparably enrolled western universities such as the 
University of Utah, the University of Colorado, or the University of 
California at San Diego. The College of Southern Nevada is similarly 
short on space, having been already near capacity at each of its three 
campuses before a 15 percent spike in enrollment over the last 3 years. 
Further, the small branch campus of Great Basin College in Pahrump, 
which currently holds its classes in high school classrooms at night, 
has seen a phenomenal 160 percent increase in full-time enrollment this 
fall. Each of these institutions of higher education has a pressing 
need for space in order to continue to provide the high quality of 
education that Nevadans and all Americans expect and deserve.
    My legislation provides for conveyance of approximately 40 acres 
for the College of Southern Nevada and 285 acres for Great Basin 
College. 2,085 acres would also be conveyed for the University of 
Nevada, Las Vegas after remediation of a World War II small arms range 
on portions of the land. This future north campus for the University of 
Nevada, Las Vegas abuts Nellis Air Force Base, and the legislation 
contains a provision that requires a binding interlocal agreement 
between the Nevada System of Higher Education and the base prior to 
conveyance. This agreement will ensure that both the mission of the 
base and our national security interests are protected.
    This legislation has the support of the entire Nevada congressional 
delegation and has been welcomed by area leaders. The Nevada System of 
Higher Education has worked closely with city and county officials to 
plan the development of world-class facilities in their communities, 
and with the Air Force to address the needs of Nellis Air Force Base. 
It is important to note that each of the three parcels designated for 
transfer has been designated by the Bureau of Land Management for 
disposal because they are surrounded by development and are difficult 
to manage. Additionally, the key language in this legislation regarding 
the activities allowed on these school lands was unanimously approved 
by this committee in 2002.
    One of our great responsibilities as a Congress and as a people is 
to provide our citizens with the opportunity to take part in the 
American dream. And we all know that education is the key to that 
dream. By working together to make these new campuses a reality we will 
turn these lands into the literal foundation of opportunity for 
generations to come.
    I greatly appreciate the distinguished Chairman and Ranking Member 
making time for this hearing and I look forward to working with the 
Committee to advance this bill.
                                 ______
                                 
     Statement of the Nevada System of Higher Education, on S. 940

    The Nevada System of Higher Education (NSHE) would like to thank 
Senator Harry Reid and the Nevada delegation and their staffs for their 
work on this legislation. We also appreciate the subcommittee for 
scheduling this hearing and for the opportunity to introduce a 
statement into the record.
    The Southern Nevada Higher Education Land Act of 2009 is of great 
importance to the Nevada System of Higher Education. Our university and 
college campuses in southern Nevada currently serve 70,000 students, 
and that number is expected to grow by 21% over the next ten years. 
When compared to other western colleges and universities, campuses in 
Southern Nevada have less land to meet the needs of our students. We 
need additional space to meet our current needs, as well as the demand 
future growth will place on our institutions.
    The campuses affected by this legislation, the University of Nevada 
Las Vegas (UNLV), the College of Southern Nevada (CSN) and Great Basin 
College (GBC), under the direction of the Nevada Board of Regents, have 
worked diligently with the respective local governments to identify 
areas that will be of most benefit to the institutions and the 
communities they serve. The local governments of North Las Vegas, Las 
Vegas, and Pahrump and Nye County have enthusiastically supported this 
legislation and the opportunity to partner with the Nevada System of 
Higher Education. These partnerships and the legislation before you 
today will allow for smart growth in mainly urban areas that will 
enhance the educational experience for students and improve the quality 
of life for residents of the local communities.
    As UNLV compares its current land holdings with institutions of 
similar size, there are huge discrepancies, most of which are related 
to the age of those other institutions and their ability, many decades 
ago, to secure land in order to support the developing needs of higher 
education in their communities. The ability of these research 
institutions to have access to such land has helped them, in many areas 
in the United States, to become vibrant centers of economic development 
activities, helping their communities, the state and even the region.
    The value of this land conveyance will benefit all of higher 
education in Southern Nevada, and will allow the state's largest 
university, UNLV, to further support graduate education and research 
needs. It is also important to note that the use of this land has been 
closely planned with two other main partners: the City of North Las 
Vegas (CNLV) and Nellis Air Force Base (NAFB). We currently have Board 
of Regents approved interlocal agreements in place with both these 
partners that define our cooperation and use of this land, should the 
final transfer become law.
    As unemployment in Las Vegas has reached more than 13 percent and 
the Las Vegas valley has continued to lead the nation in foreclosures, 
enrollment at the College of Southern Nevada (CSN) has soared and 
expanded by more than 15 percent over the past three years. CSN is the 
largest and most ethnically diverse institution of higher education in 
Nevada and charges the most affordable tuition in Southern Nevada. CSN 
serves approximately 43,000 students this fall semester. However, at 
about 40 square-feet per student, CSN has some of the most cramped 
college campuses in the United States.
    Furthermore, the area surrounding the property has experienced 
explosive growth. Over the past two decades, this area has seen the 
addition of 70,000 homes and hundreds of thousands of residents. 
Currently, these families have no access to a Nevada higher education 
facility within a half-hour commute.
    The college specializes in providing job training and general 
education credits that accommodate the scheduling needs of a diverse 
community, operating on a 24-hour day. CSN plans to move forward with 
the NW campus as a traditional community college campus focusing on the 
provision of educational learning space supplemented by the necessary 
day-to-day services required by the students while they are on campus.
    CSN and the City of Las Vegas have entered into an agreement to 
establish innovative design standards for the development of the CSN 
campus, roads, and infrastructure improvements on the Property. 
Expanding services to this area of Southern Nevada is a natural fit for 
CSN's mission as an open-access institution that is responsive to the 
community's ever-changing needs.
    Likewise, the opportunity for Great Basin College (GBC) to expand 
in Pahrump and Nye County will provide a much needed service to 
residents of this area. The population of Nye County is approximately 
40,000 and growing. It is the only community of that size in Nevada 
that is not served by a community college with a permanent, dedicated 
campus. Economic and workforce development in Pahrump and Nye County is 
essential to local residents and those residing in southern Nevada. 
With a campus located on this site, the college's strategic master plan 
for Pahrump and Nye County can move forward. Education and training 
programs in green technology, renewable energy, health, education, and 
business are already in college offerings or being planned for the near 
future.
    This legislation provides the means for Great Basin College to 
provide an opportunity for all Nevadans to participate and succeed in 
higher education; to provide academic and technical programs that 
address the unique education needs of a highly diverse and non-
traditional population; and build on the quality of life of all 
Nevadans by advancing and enriching lives in Nye County.
    The transfer of the three parcels of land as provided by this 
legislation will benefit the long term needs of public higher education 
in southern Nevada and represents a once in a life-time opportunity. In 
many ways this is a modern day version of the land grant act that will 
greatly help support public higher education institutions in Southern 
Nevada. The Nevada System of Education asks that you support this 
legislation and give us the opportunity to provide the highest quality 
of education for our students now and long into the future.
                                 ______
                                 
   Statement of Hon. John Ensign, U.S. Senator From Nevada, on S. 940

    I want to thank Senator Reid for his work on this important 
legislation that will launch a new chapter in higher education 
expansion in southern Nevada.
    With more than 85% of our great state's land under federal control, 
we have long relied on federal legislation to allow for growth, 
including the beginning of our system of higher education. It was the 
federal Morrill Land-Grant Legislation that brought a new era in our 
system of higher education with the much lauded Desert Research 
Institute and medical school.
    Today, we again turn to federal legislation to convey land from the 
Bureau of Land Management to our growing universities. The Southern 
Nevada Higher Education Lands Act allows for federal land to be 
transferred to the University of Nevada, Las Vegas (UNLV); the College 
of Southern Nevada (CSN); and Great Basin College.
    These are all worthy institutes of learning that, with this 
additional la`nd, will be able to meet the needs of Nevada students for 
many years to come.
    UNLV, also a land-grant university, is looking to expand its campus 
near Nellis Air Force Base. While there are always concerns about 
encroaching on the space and mission of Nellis, I am confident that all 
sides will cooperate and work together to ensure the safety and success 
of all neighbors.
    CSN is the fourth largest two-year college of its kind in the 
United States and Nevada's largest institution of higher learning. With 
three main campuses and eleven academic centers, the school continues 
to grow in facilities and reach, and we are fortunate that with this 
legislation, even more southern Nevadans will benefit.
    Great Basin College in Elko, Nevada, wants to expand to Pahrump to 
impact the lives of even more students-a goal that promotes education 
for all of southern Nevada, including in more rural areas.
    I am pleased to cosponsor this legislation and voice my support for 
the expansion of southern Nevada higher education. The investment we 
make in education will provide great dividends in the future.
                                 ______
                                 
   Statement of Mike Casabonne, President, New Mexico Federal Lands 
  Council; Jim Cooper, President, New Mexico Wool Growers, Inc.; and 
 Alisa Ogden, President, New Mexico Cattle Growers' Association, on S. 
                                  1689

    My name is Mike Casabonne and I'm President of the New Mexico 
Federal Lands Council. The New Mexico Federal Lands Council represents 
thousands of federal and state trust lands grazing operations.
    I will confine my comments today to livestock grazing in 
wilderness, grazing language in S. 1689 with respect to National 
Conservation Areas, the need for a wilderness ``light'' designation and 
a request for local field hearings.

                    LIVESTOCK GRAZING IN WILDERNESS

    The problems with livestock grazing in wilderness areas have been 
well documented, leading to Congress issuing the Grazing Guidelines 
(House report No. 101-405). Our concern is that these guidelines were 
written when most wilderness areas existed in the high country. The 
lands affected by this legislation occur in a desert ecosystem where 
the resource and ranching needs are far different. For instance, the 
``occasional use'' of motorized vehicles may be sufficient for high 
country, seasonally grazed allotments. It is not sufficient for desert, 
year around grazed allotments where pipelines and other water 
facilities must be checked on a regular basis. We suggest that Congress 
or an independent entity conduct a thorough review of the guidelines 
applicability to desert allotments and make recommendations for any 
warranted changes. We further request Congress refrain from designating 
any desert ecosystems where livestock grazing occurs as wilderness 
until such time as the review is completed and revisions considered.

            LIVESTOCK GRAZING IN NATIONAL CONSERVATION AREAS

    The grazing language in Section 4 of S.1689 places the grazing 
allotment owner at a distinct disadvantage. The consistency language 
puts in jeopardy existing grazing practices and will place severe 
limitations on any future range improvements or other rangeland 
management practices. We strongly recommend the consistency language be 
dropped and that livestock grazing be managed according to FLPMA and 
other applicable laws. We have reviewed the proposed language submitted 
by People For Preserving Our Western Heritage as part of their 
testimony and endorse its contents.
    In addition we have some questions on the ``where established'' 
language in Section 4. Is this applied on an allotment by allotment 
basis, on an acreage basis or some other criteria? What impact does the 
``where established'' language have on permitted numbers of livestock? 
Can permitted numbers be increased in a National Conservation Area 
under this language? In other words, we are seeking a clear enunciation 
of Congressional intent with respect to the ``where established'' 
language and we hope the Committee will provide that.

                  A DESIGNATION OTHER THAN WILDERNESS

    The land use pattern in Dona Ana County, a valley floor of private 
lands surrounded by various types of Federal land, is not unique to the 
west. Population growth combined with public pressure to retain 
privately held farmland and other open spaces and the public desire for 
additional recreational opportunities will continue to impact Federal 
land. Clearly a new land use designation is needed which will protect 
certain lands from development, but still allow for public access and 
enjoyment. Some have called this wilderness ``light'', others 
wilderness ``without the big `W' ``. The Rangeland Preservation Area as 
proposed by People For Preserving Our Western Heritage meets this 
criteria and we believe is appropriate for the lands in Dona Ana County 
under consideration. This or some other similar designation should be 
considered by the Committee for S. 1689 and for other legislation which 
may impact such land use patterns in our western communities. The time 
has come for Congress to step forward with a new land use designation 
that responds to both national concerns for protecting Federal lands 
and local concerns for development, recreation and traditional uses.

                             FIELD HEARING

    The issues we've raised, combined with such other issues as 
boundary adjustments, range improvements, homeland security, energy 
corridors and other right of ways, flood control projects, Renew New 
Mexico projects, and so on necessitate a field hearing to fully air and 
adequately address the complex issues involved. Allowing two witnesses 
five minutes each to testify two thousand miles away from the land and 
the people involved is simply not a reasonable or appropriate 
legislative approach. We strongly recommend a field hearing be held in 
Dona Ana County on S. 1689
    Thank you for the opportunity to present this written testimony.
                                 ______
                                 
 Statement of Ken Miyagishima, Mayor of Las Cruces, Leticia Benavidez, 
   Chairwoman, Dona Ana County Commission, Michael Cadena, Mayor of 
                          Mesilla, on S. 1689

    There are few times in a person's life were one is able to be a 
part of something truly historic. Today we have such a moment for our 
communities in Dona Ana County. On September 17th, Senators Bingaman 
and Udall introduced legislation called the Organ Mountains-Desert 
Peaks Wilderness Act in Congress to forever protect some of the most 
important natural areas in our county--including our iconic Organ 
Mountains--as new wilderness areas. The time has come to take the next 
step in securing this natural legacy for our region's future 
generations.
    For years, Las Crucens and residents of Dona Ana County have sought 
balance between rapid growth and protecting some of the beautiful open 
space and mountains that give us our identity. Citizens have wondered 
if the quality of life that brought them here or kept them here was 
going to stay that way or if instead, we would we go the way of some 
other high growth communities and lose these important natural 
resources to sprawl and development.
    Thanks to the visionary leadership of Senators Bingaman and Udall, 
we are closer to an answer. The Organ Mountains-Desert Peaks Wilderness 
Act will protect many of Dona Ana County's most beloved natural 
treasures, including much of the Organ Mountains, the Robledos, the 
Sierra Las Uvas Mountains, the West and East Potrillos, Broad Canyon, 
and Mount Riley as new federal Wilderness Areas. Some of these lands 
were given interim protection almost 30 years ago, but lacking 
wilderness designation, remain at risk until Congress gives them this 
``gold standard'' of protection.
    This important conservation legislation will also protect nearly 
100,000 acres buffering the front of the Organ Mountains as a National 
Conservation Area, and would include part of the Dona Ana Mountains. 
The legislation will allow a full range of recreational and traditional 
activities to continue, including hunting, hiking and ranching, while 
preventing further development in this area.
    Protecting these vital natural areas will boost our economies, as 
visitors come to enjoy the beauty of the landscapes and employers can 
attract workers looking for the high quality of life our open spaces 
contribute to. A 2006 study of the economies of many western United 
States cities by the non-profit Sonoran Institute found that 
communities with nearby protected lands had faster than average 
personal income growth. When good employers and high-tech entrepreneurs 
can locate anywhere they want, areas with high quality protected public 
lands are an added incentive.Wilderness designation of our area's 
natural gems will help our communities enjoy this competitive advantage 
and long lasting economic benefits.
    Wilderness and National Conservation Areas are considered the 
``crown jewels'' of America's protected public lands, and designation 
here could help attract federal dollars to showcase them. Simply put, 
Wilderness will provide a huge long term economic benefit to Dona Ana 
County and its communities.
    Today we have the chance to choose a direction that will have 
significant impacts for our region and our way of life. At a time when 
we continue to lose 6,000 acres of open space each day in America--2 
million acres a year, we believe Senators Bingaman and Udall have taken 
a laudable step toward ensuring that more of what makes New Mexico the 
land of enchantment will be here for us and our grandchildren. We 
encourage Congress to take up the legislation and pass it quickly. It 
will continue to give back for generations to come.
                                 ______
                                 
Statement of Sanford Schemnitz, Chairman of the Southwest Consolidated 
 Sportsmen; John Moen, President of the Southwest NM Chapter of Quail 
     Unlimited; Noel Cooley, Past President of the Dona Ana County 
 Associated Sportsmen; and John Cornell, New Mexico Wildlife Federation

    Our canyons, grasslands, and mountains are tough, rugged, and 
spectacular. It takes time to get to know them-hours spent afield 
watching quail, deer, or just a beautiful landscape view. As sportsmen, 
we've spent many years appreciating and utilizing both the beauty and 
the bounty of local lands like the Organ Mountains, Broad Canyon, and 
the West Potrillo Mountains.
    Yet while these mountains and grasslands surrounding our ever-
enlarging city are rugged, they are also very fragile. Those of us that 
have spent years--indeed, decades--exploring the vast expanses of our 
open spaces surrounding the sister cities of Las Cruces and El Paso, 
are very much aware of that fragility. Many different users, including 
sportsmen, have appreciated the bounty that exists here. We have also 
realized that the well-being of these same areas is not guaranteed.
    As recently as the 1980s, there were no houses, other than a couple 
of ranches, between A-Mountain and the Organs. So much has changed in 
the last three decades. The same fate has occurred in the valley 
between Las Cruces and Hatch and between Las Cruces and El Paso. Human 
civilization, and the stresses that it brings to other life that share 
this landscape, slowly creeps toward and encroaches upon them.
    So four years ago, when we heard that a group of folks -including 
conservationists--wanted to designate wilderness in these local areas 
to ensure they would stay as they were, we were interested, but also 
skeptical. Similar efforts in the 1980s and 1990s had not met with 
success. Some sportsmen were concerned about how the plans would be 
crafted and what their effects would be.
    But our years afield convinced us of the urgent need to protect 
good quality habitat and preserve our natural lands for current and 
future generations.
    We believed that in the fight to preserve these special places, 
this time would be different--largely because Senator Jeff Bingaman and 
his staff stepped up to the plate. They came to our community and 
listened. They started out with open minds, eager to hear local ideas 
and opinions. With an eye for balance, many local groups collectively 
went to work with the Senator's staff to look for real and lasting 
solutions to protect our natural public lands. Land conservation is 
complex, and requires leadership at all levels. Senator Bingaman, 
through time consuming and thoughtful work found real compromise and 
balance. Several years of give and take and field trips out on the land 
produced an important milestone: a proposal to protect many of our most 
important lands in Dona Ana County. We are proud to have been a part of 
this process.
    The Organ Mountains-Desert Peaks Wilderness Act, introduced by New 
Mexico Senators Jeff Bingaman and Tom Udall, will protect these areas 
and their natural habitats and resources in perpetuity-essentially 
``locking in'' such activities as hunting, hiking, horseback riding, 
camping, and basic family recreation, for all time. That protection 
will serve the greater good of those of us that wish to enjoy these 
places and pass them down to our children's children. That is the key 
to the puzzle--finding a balance between providing opportunity for us, 
as citizens, to seek recreation within these areas but, at the same 
time, conserving them as reservoirs of clean water and air and as 
habitat for wildlife.
    While the new bill does not include all of our suggestions, nor one 
hundred percent of any other group's requests, we believe it is 
balanced. Senator Bingaman, Senator Udall and their staffs did 
tremendous work in reaching out to the many varied interests and 
stakeholders. We feel fortunate to have had their leadership at the 
helm steering this historic legislation and making this long sought 
after goal of protection possible.
    As sportsmen, we join with many other members of the larger 
community to encourage the New Mexico delegation to get behind this 
important conservation bill. Move the Organ Mountains-Desert Peaks 
Wilderness Act through Congress and to the President's desk with good 
speed.
                                 ______
                                 
 Joint Statement of Richard E. Hays and Stephen L. Wilmeth, on S. 1689

    For hundreds of years the desert of what is now Arizona has been 
the route of goods coming north from Mexico. The flow of merchandise 
was created by demand from citizens and settlers of del Norte, the 
expanse of territory generally north of the 54th Parallel. Over time, 
the goods became as often illegal as they were legal. Today, the goods 
passing through the rural, isolated expanse of sand, rock, and heat are 
more often than not, illegal. The circumstances and conditions 
surrounding the flow are dangerous, and the consequences of stemming 
the tide must be a national priority.
    Since 911, the emphasis of border security has become a national 
debate. In fact, recent polls in Arizona indicate that 51% of residents 
believe that border security is more important than the national health 
care debate. In a margin of 65% to 20%, those same residents believe 
enforcing border security is more important than dealing with the 
legalization of aliens already in the United States. As distance from 
the border increases, these same questions don't stimulate the same 
responses. The phenomenon of changing priorities as the distance from 
ground zero increases is clearly in play on the Mexican border.
    Through time, the economics and the conditions of illegal entry 
have resulted in the evolution of dominant entry points along the 
border. Due to the ease of entry within or adjacent to urban centers 
during the late 80s and 90s, those areas became focal points for entry. 
Pressed by American citizenry who were tired of being overrun with 
illegals, the Border Patrol responded with organized enforcement 
tactics that concentrated activities at those points. Examples of this 
were El Paso, Nogales, and in the expanded urban area at Tijuana. When 
the El Paso operation was instituted the data was very clear. The 
incidence of illegal entry was reduced.
    In 1994, Operation Gate Keeper was undertaken along the California 
urban border areas. In a curiously delayed response, the entry of 
illegals was reduced at the point of asset concentration, but a far 
different result occurred elsewhere. The success of halting entry in 
the urban areas was mirrored by the expansion of entry in the desert 
areas to the east. It was what the Border Patrol expected and wanted. 
Illegals would be easier to catch in open rural areas than they had 
been in the congestion of the urban centers in southern California.
    Several conditions existed to support this reaction to Gate Keeper. 
First, the economic conditions north and south of the border only 
expanded the flow of illegal entry. Jobs were available north of the 
border. Second, Mexican Highway 2 ran adjacent to the border for miles 
into vast and isolated expanses. Third, the American invention of 
designated wilderness areas stretched for miles east/ west and north/ 
south along that boundary in national wildlife refuges and monuments 
managed by the Department of Interior (DOI). The soft underbelly of the 
American border was discovered.

                THE WILDERNESS BECOMES A DANGEROUS PLACE

    By 1998, visitors entering Organ Pipe National Monument with back 
country permits were estimated to be outnumbered by illegal aliens 
trekking north by a two to one ratio. By the following year, the 
permits issued to park visitors had dropped in half and the number of 
illegal nightly visitors had nearly tripled. The monument had become a 
place to be avoided by American citizens.
    The increased illegal entry also meant there was no longer a safe 
place for the illegals. The Border Patrol recorded five deaths in what 
they describe as the ``West Desert Corridor'' in 1998. By 2002, there 
were more than 130 deaths in the same corridor. This count is 
particularly alarming in that the deaths were occurring in the face of 
declining apprehensions after 2000 in the Border Patrol sector as a 
whole. Deaths were running at the rate of about 40 per 100,000 
apprehensions whereas five years earlier there had only been four 
deaths per 100,000 apprehensions  . . . a tenfold increase!
    Other statistics tied to crime were no different. Organ Pipe 
statistics indicated that finding abandoned vehicles in the monument in 
1994 was unusual. By 2001, they had reached nearly 150 per year. Number 
of high speed pursuits, tons of marijuana captured, and illegal 
apprehensions in the park all reflected similarly alarming trends. In 
2003, National Geographic declared that Organ Pipe Monument was the 
most dangerous park in the United States. It got so bad that signs were 
posted in the park not to stop for dead bodies. It could be a trap set 
to lure unsuspecting park visitors!

          ORGAN PIPE STAFF QUANTIFIES DAMAGE LEFT BY ILLEGALS

    In the midst of the chaos the National Park Service, the managing 
agency of the Organ Pipe National Monument, embarked on an effort to 
quantify the damage being done to the monument. Their approach and 
their findings were interesting. They mapped transects across the 
monument on predominately east/west directions rather than north/ 
south. Their logic was simple. They would be able to observe the north/ 
south illegal traffic more dynamically.
    What they found was more impact on the monument in the designated 
wilderness areas than in the nonwilderness, fully accessible areas. Why 
. . . because Border Patrol and Park Service officials were limited in 
their ability to access the wilderness areas on a continuous basis. 
They didn't have full and unrestricted access. Motorized access in 
wilderness areas is not allowed. The illegals were taking full 
advantage of easy access through areas preserved for posterity.
    In an internal report done by the ``Resource Management Staff'' at 
Organ Pipe, very alarming results were presented. The most glaring 
example pertained to a representative one square kilometer parcel of 
designated wilderness in the Valley of the Ajo. The following was 
quoted. ``Results of a GIS model, based on transect data, of what a 
``typical'' square km of valley floor habitat might look like to a 
monument visitor taking a hike.'' The one square kilometer, slightly 
more than one quarter section of land, had data extrapolated and mapped 
presenting the following illegal impact on the monument:

          1. Seven rest sites
          2. 15 incidences of vehicle tracks
          3. 40 sites of trash disposal
          4. 48 discarded water bottles
          5. one set of bicycle tracks
          6. one set of horse tracks
          7. three abandoned camp fire sites
          8. 254 foot trails!

    The report went on to quantify the establishment of ``wild cat'' 
roads which serve as access for drug runners. On a map in the 
presentation, 35 such illegal roads can be counted. That compares to 13 
legal, established roads in the monument.

                    THE RECIPROCAL OR MIRROR EFFECT

    As the data was analyzed something very interesting began to 
emerge. The damage was not confined to designated wilderness areas 
managed by United States agencies on the north side of the border. What 
was occurring was that similar damage was occurring in desert areas 
adjacent to the international border to the south and southwest.
    El Pinacate, the ``sister park'' to Organ Pipe had become a staging 
area for illegal entry into the United States. In a aerial survey done 
for the purposes of mapping air strips used by drug runners, not only 
illegal airstrips were found, but roads and trenching done by the 
Mexican military to dissuade the establishment of the airstrips were 
being created in the fragile cinder landscape of the Pinacate Biosphere 
Reserve.
    Twenty two airstrips were found that had been trenched by the 
Mexican military. Twelve other trenching sites were found that were 
intended to prevent the establishment of airstrips. Five illegal, 
``wildcat'' roads were mapped, and six fully operational illegal strips 
were being used for loading and flying drugs north.
    In addition, ``colonias'' continue to sprawl out along Highway 2 as 
the infrastructure is built in response to the business of moving goods 
and services north. Mountains of trash, extensive wood cutting, and 
vandalism to border fencing and facilities lead the Organ Pipe staff to 
write that the activity will ``impact natural and cultural resources 
along the border''. Pictures of such activity lead any observer to 
surmise that the statement was understated at best.

                          THE GREATER PICTURE

    Land agencies of the United States are charged with managing 
massive stretches of lands that lie near and adjacent to the Mexican 
border. The DOI, through its various agencies, manages about 47% of 
those lands in Arizona and 48% of the lands adjacent to the border in 
New Mexico. Every stretch of that land today is under assault from 
illegal entry with many areas that reflect conditions similar to those 
in Organ Pipe. If Department of Agriculture lands (Forest Service) are 
added, the list is expanded.
    Two additional examples include the Tohono O'odham Indian 
Reservation and the Coronado National Memorial. The Tohono O'odham, 
administered by DOI's Bureau of Indian Affairs (BIA) is a reservation 
with a native Indian population that has an historical homeland 
extension into Mexico. In that expanse of land, Tohono O'odham people 
do not have allegiance to powers north or south of the border. The 
native Indian population, originally known as Papagos, move back and 
forth across the border. Drug cartels have made permanent inroads into 
the area with cash and the promise of greater wealth. The BIA, has 
little ability to deal substantively with the issues.
    Further east, the Coronado National Memorial magnifies the risk 
that roadless border areas pose to the entire nation. In a 3 by 3.5 
mile corridor, the Yolanda Molina de Hernandez Organization runs drugs 
like greyhounds on a racetrack. Once inside the monument, runners 
either go north or northeast into USFS lands and the Huachuca Mountains 
where there are over 70 miles of trails. Citizens who enjoy the 
adventures of an outdoor excursion know what this area has become. It 
is not for the faint of heart and it gives a new meaning to the Wild 
West.
    In both of these cases, the mirrored effect of infrastructure 
expansion seen at Organ Pipe has occurred. Where roads are absent and 
railroads are present, the drug cartels have established facilities and 
or terminals for staging and running drugs and humans north. The build 
up of infrastructure is continuing. Airstrips are established, colonias 
are expanding, more roads into DOI and USDA managed lands have been 
made, and degradation of fauna and flora continues.

                         THE EL PASO EXPERIENCE

    In the first major effort aimed at reducing illegal entry in urban 
areas, Operation Hold the Line, was started in El Paso in1993. Data 
from that operation indicates that apprehensions fell quickly from 
about 22,000 per annum to about 7,000 and stabilized near 9,000. What 
was not seen was the wholesale displacement to entry elsewhere as seen 
in the desert corridor of Arizona. What was occurring?
    One prevailing expert theory is that at the time the illegals 
didn't have the soft entry points through federal wilderness areas to 
fall back to. All New Mexico areas allowed fully motorized access by 
the Border Patrol and had ``engaged resident ranchers'' that lived and 
were constantly present on the expanse of border running west from El 
Paso. East from El Paso was even less accessible. Those lands are 
dominated by private land holdings with residents who constantly patrol 
and communicate with the Border Patrol and local law enforcement. 
Illegals were being monitored and constantly ran the risk of being in 
the path of American citizens who would and will report their presence.
    Further evidence of this phenomenon was found in radar records of 
drug flights from Mexico's interior to the border. In Texas, the 
concentration of such flights and corresponding apprehensions of drugs 
adjacent to the border is relatively sparse considering the expansive 
landscape across south Texas. New Mexico shows similar and even less 
concentrated results. On the other hand, the Arizona situation is 
staggering. The situation there is akin to a full scale invasion by a 
foreign power. There, isolated federal lands made worse by wilderness 
designation are an outright threat to American security and well being.

                           THE THEORY TESTED

    In the Boot Heel of New Mexico, the Border Patrol installed a 
communication device on Big Hatchet Mountain. The facility handled 
sensor signals from the entire eastern half of the Boot Heel area. The 
device was placed without the consent of Bureau of Land Management 
(BLM). When word spread of the device's presence, environmental groups 
demanded that the device be removed claiming that it would interfere 
with desert bighorn and the lesser and Mexican long nosed bats' 
breeding and life cycles. The BLM, under pressure because the area is a 
wilderness study area, pressed the issue and the Border Patrol 
capitulated and removed the device.
    For several years, the eastern half of the Boot Heel adjacent to a 
very dangerous Mexican border was without this device! When the Border 
Patrol finally got approval to put the device back into service some 
astounding data was found. From 2006 records, it was found that 
mechanical traffic had increased by 671% and foot traffic had increased 
by 348% from the same period the year before. Soft entry points are 
sought and found by illegal operatives along the border. When they are 
found the cartels take full advantage of them! In the case of Big 
Hatchet, the Border Patrol was denied full access and was operating 
with diminished ability because of environmental demands. American 
security and American people were put at risk.

                   THE OPPORTUNITY FOR NEW TERRITORY

    Today, there is a continuing effort to designate wilderness on 
federal lands along the Mexican border. The Wilderness Society through 
its affiliated groups, the Sky Island Alliance and the New Mexico 
Wilderness Alliance, has proposed huge areas on and or near the border 
for wilderness legislation. Two of these areas, the Tumacacori 
Highlands of southern Arizona and the Potrillos Mountain complex in 
Dona Ana County, New Mexico are large isolated areas that pose the same 
risks to the United States as the Arizona lands already under siege.
    The question becomes what will happen if wilderness designation is 
successfully legislated. In Arizona, an expansion of what is going on 
all around the Tumacacori Highlands will expand. In New Mexico, the 
outright risk of duplicating the Arizona is fully in play. The American 
people must remember that the Wilderness Act of 1964 prohibits 
motorized access and man made facilities. Notwithstanding the promises 
of bastardizing that wilderness standard with ``cherry stem'' roads 
providing limited access, locals fear what will happen when the 
legislation reaches the committee hearings and horse trading in 
Congress. Any agreements made conditionally with local needs in mind 
will likely be altered, more roads will be closed, the Border Patrol 
will fight for access, and the drug cartels will find a new soft 
underbelly of access into the United States. The protection in play 
with the combination of resident ranchers, state and local law 
enforcement, and the Border Patrol will become constrained and 
conditional. What is arguably the sole reason the Arizona experience 
hasn't been duplicated in New Mexico will be forever altered.
    The New Mexico component even has some of the characteristics of 
the Arizona model. In addition to the vast areas of federal lands, 
Highway 9 runs parallel to the border. Experience with trucks being 
loaded at staging areas in Mexico and crossed to be unloaded at points 
along that road becomes the same kind of opportunity. What makes 
matters even more dangerous is that a portion of the northern boundary 
of the proposed Potrillo Mountain Wilderness area is formed by an 
ultramodern east west transcontinental rail line just 24 miles from the 
border. The specter of accessing that major east west transportation 
line with a weapon of mass destruction provides a heightened security 
risk.

                         THE LESSONS UNLEARNED

    When legislation designating more wildernesses on the U.S. border 
is heralded by environmental groups and Mexican drug cartels alike, 
American leaders need to reassess their thinking. It isn't the casual 
visitor to Organ Pipe, Cabeza Prieta, or the segments of the Coronado 
National Forest making new roads, trashing the travel corridors, 
setting fires, poisoning water holes, and carrying AK-47s. The American 
visitors are the only people who will follow the rules and honor the 
spirit of wilderness as it was intended. Those big, blacked out Jeep 
Gladiators that are running across desert wilderness areas at night are 
not occupied by folks who are maintaining a bird identification list 
nor do they care in the least about any fragile cinder cone formation. 
They are just glad that the chances of encountering a Border Patrol 
agent or any other American who has a vested interest in maintaining 
the integrity of the lands are limited because of the restrictions 
placed upon that agent or that citizen.
    What is more insidious is the manifestation of our actions on like 
areas to the south of the border. The El Pinacate phenomenon needs to 
be reviewed. When our lands are being ravaged by an onslaught of 
humanity and our actions have unwittingly created the same devastation 
across our borders because of the infrastructure and policing actions 
that are taking place to combat it, shame on us for our idealism. In 
this case, we run the risk of having met the true enemy, and . . . he 
is in our midst.

          SIDE BAR I--THE BORDER PATROL BECAME THE BOOGIE MAN

    The dust swirled around the Hughes 500 as the Park Superintendent 
leaned in and admonished and berated the Border Patrol pilot. The pilot 
had landed the helicopter on designated wilderness in a rescue 
operation that would save the lives of several illegal aliens that were 
simply not prepared to endure the heat and the conditions of crossing 
Organ Pipe National Monument. Threats were countered back, and, 
ultimately, nothing was done and no charges were filed . . . this time.
    When Operations Hold the Line, Safeguard, and Gatekeeper were 
undertaken, the Border Patrol knowingly pursued a plan that would force 
illegals crossing the Mexican border to avoid the urban areas and 
venture into the remoteness of the border expanses. It was expected 
that the hordes of illegals crossing in the urban areas would be easier 
to apprehend if they were forced out into open country where technology 
and open space would allow observation and interdiction. The plan 
worked.
    It can now be observed, however, that the Border Patrol was 
actually unprepared for the conditions that they had to encounter to 
apprehend the diverted illegals. The federal land designation, 
wilderness, became a most confounding constraint. In Border Patrol 
writings and reports from the 90s there were numbers of references to 
``wilderness.'' Based on retired agent correspondence and interviews, 
however, it becomes apparent that the interpretation of the reference 
was more of a generality of remoteness and isolation than it was a land 
designation. The real culprit was a land designation with restrictions 
that handcuffed enforcement activities. The Border Patrol was ready and 
capable of handling real wilderness. It simply wasn't ready for the 
realities of designated Wilderness!
    In a metaphorical comparison, the conflicts between DOI land 
agencies and the Border Patrol increased proportionally to deaths in 
the Desert Corridor of Arizona's border lands as illegal entry 
accelerated. Tension was apparent on both sides. In a report by Park 
Service staff, the activities of the Border Patrol on the desert 
environment of Organ Pipe contributed to the degradation of the fragile 
environment. The accusation was actually listed in an array of such 
threats alongside the same comparison to drug runners!
    What the Border Patrol interpreted to be Park Service mentality was 
actually the federal land designation that the Park Service had a 
vested interest in administering. As noted in the Wilderness Act of 
1964, wilderness was a land largely untrammeled by man. Motorized 
vehicle access was not allowed. Neither permanent roads nor temporary 
roads were allowed. Even overflight of aircraft in a designated 
wilderness was conditional in the original concepts of the law. When 
legal actions were filed by environmental groups against the Border 
Patrol, the Marine Corps, and the Air Force for overflight of 
designated border wilderness, the hostility level was elevated yet 
more.
    The Border Patrol finally sought Congressional help and Arizona's 
Senator Kyl (R-AZ) stepped into the fray and demanded less conditional 
access and more Border Patrol freedom to respond and patrol. Time and 
unrelenting tides of illegals have forced a pragmatic, albeit tentative 
relationship with the sides as both agencies attempt to maintain their 
mission commitments. Where expansion of designated wilderness has 
occurred, though, the same conflicts time and again arise between the 
agencies and from environmental special interest groups. When this 
reoccurs, the premise of the prevailing Border Patrol interpretation of 
the underlying intent of the land agencies comes back into focus. What 
should be agreed upon, however, is that the Mexican border, with all 
the large expanse of arid, isolated, and soft points of entry, is a 
very dangerous place. It is dangerous to every American and the danger 
isn't just the flow of immigrant laborers. The real danger lies where 
the most radical ideology collides with the most money.

        SIDE BAR II--THE DOI INTERNAL AGENDA MUST BE QUESTIONED

    Although, the data that the Park Service staff collected at Organ 
Pipe was astounding, no underlying report was written. Nothing was 
brought officially to the attention of Congress. There was a 2004 
report of the information presented at a ``Border Lands Manager'' 
group, but why something as important as the facts in the report were 
not widely distributed is a matter of concern. It leaves interpretation 
to such an oversight to criticism, suspicion, and speculation.
    In the report, the Park Service noted that mitigation alternatives 
were as follows:

          1. Educate the public
          2. Monitor resource damage
          3. Demand a political solution

    Each of these alternatives needs clarification and explanation by 
the Park Service. Taken in order, educate whom and what? Is the 
suggestion that education is in order referring to the need to forewarn 
the public of the danger of any and all activities in border wilderness 
areas or is the reference aimed at educating the Drug Cartels of the 
damage they are causing those wilderness areas? If it is the former, a 
more honest and frank assessment to park visitors would have been 
appropriate. ``You are endangering your life and the lives of your 
loved ones by visiting this border wilderness. Contact your Congressman 
and demand immediate and full access to the border so the Border Patrol 
and Homeland Security forces can act and this degradation can be 
stopped!'' If it is the latter, a worldlier Park Service negotiator had 
better be at the table when the Carrillo-Fuentes Cartel leadership 
settles into a seat around the table. It is highly unlikely they would 
readily agree to alter their routes for the benefit of 21 Sonoran 
antelope.
    As for the need to monitor the resource damage, how much damage 
does it take to decide that something is grossly wrong with the system? 
It shouldn't take a genius to figure out that evidence of 254 foot 
trails in a quarter section of designated wilderness is not what the 
original framers of the wilderness act had envisioned. Perhaps the 
superintendent of the monument should try to personally apprehend and 
ticket one of the Jeeps crossing the desert at night. After all, that 
is exactly what he tried to do to United States Border Patrol agents 
when they landed a helicopter on wilderness land in a normal operation.
    As for the demand for a political solution, why not ask Congress to 
pass legislation making it a federal crime for illegal aliens to enter 
the wilderness areas, damage natural resources, leave mountains of 
trash, and poison existing and rare water holes? Certainly such 
legislation would be possible, but that outcome is as ludicrous as 
placing constraints and barriers upon Homeland Security activities. As 
for calling up the Mexican president and demanding that he 
conceptualize and implement an acceptable solution could be done as 
well, but the fallacy of that ``political'' solution is not even worthy 
of debate. This snake's head must be cut off.
    The underlying risk that DOI faces is that, in the internal 
environment of its operations, a different agenda is in play. Unless a 
different attitude is demonstrated, the agency runs the heightened risk 
of being accused of allowing wilderness, the environmental movement, 
and certain segments of their administration to be so interlocked and 
intertwined that each component is indistinguishable. Crafting and 
growing land preservation for rewilding schemes is one thing, but 
jeopardizing American national security is something quite different.
    The whole Arizona border phenomenon should elevate the wilderness 
movement to the status of national debate. The degradation of the 
border environment is so blatant and widespread, that the keen observer 
must question the real intent. If it was truly a debate about 
stewardship of natural resources, the steward would have long ago cried 
for substantive assistance and put aside any philosophical debates. 
Perhaps the truth is that the whole affair is a matter of control and 
power. The environment just happens to be a convenient vehicle to 
camouflage the truth.

      IMPLICATIONS OF THE BIG HATCHET MOUNTAIN WILDERNESS PROSPECT

    The view from Big Hatchet Peak at night is something to behold. At 
least 125 miles of isolation and ``big lonesome'' dominate and reduce 
all civilized things across the vast radius of this vista. To the south 
is Mexico. Pin points of lights from villages and widely scattered 
ranches can be seen. The glow of larger towns and cities like Agua 
Prieta and Janos reflect on distant cloud cover, but mostly, the shear 
immensity of this isolated land in darkness resonates into your senses. 
To the north, lights of New Mexico towns Silver City, Deming, and 
Lordsburg can be seen. To the east, lights from El Paso and Las Cruces 
glow. As daylight advances, the view alters and physical features 
become prominent. Animas Mountain to the west reaches into the same 
rarified air as Big Hatchet. The bluffs and points of Big Hatchet 
disappear vertically away from the summit. If you are inclined to feel 
faint at the prospect of hanging out into space to look over the edge, 
this is not the place for the weak of heart. This is nature at its 
rawest, and the physical demands and dangers are matched only by the 
illicit human activities going on around the clock in this big isolated 
country. This is one of the most active corridors of human and dope 
smuggling along the U.S. and Mexican border. This is the ``Boot Heel'' 
of New Mexico. The international border surrounds you on the south and 
the east.
    In the midst of this isolation is a man made device that could be 
compared to something as out of place as a contraption placed from a 
space vehicle on the surface of Mars or Venus. It is a communications 
device placed by Customs and Border Protection-Office of Border Patrol 
(CBP-BP) under a permit from the Bureau of Land Management (BLM), the 
agency charged with administering the federal lands dominating the 
entire region. It is there to receive and relay electronic signals from 
across the eastern half of the entire Boot Heel area. Such devices are 
a vital tool in monitoring and controlling illegal entry from Mexico in 
this immense area. They meet the technological need to have line of 
sight contact with a receiver that can relay readings to a Border 
Patrol monitoring center. Big Hatchet is the dominating physical 
feature that both creates the need for such a collector and provides 
the location from which the signals are relayed. It would seem to the 
uninformed that the CBP-BP and BLM would be united in the need for 
placement and operation of a device with such importance in the 
National Security effort. The truth is they don't share the same 
missions and are both influenced and administered by federal government 
bureaucracies dominated by very different political agendas.
    For several recent years this relay was not operational. It had 
been placed on the mountain by the BP without official BLM approval. 
Why such an important link in communication was not authorized can be 
explained in part by the nature of the service it provided. The BP is 
not in the business of announcing to the world where and when 
monitoring devices are placed. If such information is made known, it is 
not just the good guys who will be aware of such placement. The bad 
guys are the individuals making their living running dope and human 
delivery services, and their success depends on their ability to avoid 
detection. If an important piece of detection equipment is taken out, 
it makes their job much easier to accomplish.
    Conflict concerning placement of the repeater arose when 
environmental groups demanded its removal from Big Hatchet, which lies 
within a Wilderness Study Area (WSA), and must be managed under the 
provisions of the Wilderness Act of 1964 and the Federal Lands Policy 
and Management Act of 1976. As a man made technical device (there 
without a permit), the sensor repeater was not allowed. The 
environmentalists claimed it would interfere with lambing of the 
resident big horn sheep and existence of lesser and Mexican long nose 
bats found in abundance in a large cave in the area. The BP complied 
with the BLM order, and the repeater was shut down.
    As time passed and illegal activities increased, pressure and 
criticism arose calling for reinstallation of the repeater. The public 
was not aware that the entire east half of the Boot Heel was without a 
repeater. A huge, dangerous, black hole existed on the American border. 
Retired Border Patrol Sector Chief Gene Wood has repeatedly called 
attention to how corridors of entry into the United States develop. He 
describes active entry points as ``soft points'', and they become more 
active based on the inability of the BP to monitor, patrol, and 
interdict traffic. A growing number of folks are now aware that the 
intensity of activity in this isolated area is the culmination of 
conditions that have contributed to this ``soft point'' of entry. The 
absence of the repeater on Big Hatchet Mountain was a primary, 
contributing factor.
    How big did the problem become? In the BLM's Environmental 
Assessment completed in 2006 and allowing the reinstallation of the 
repeater, it was noted that illegal mechanical traffic increased by 
671% and foot traffic increased by 348% during the first six months of 
fiscal year 2006 compared to the same period the previous year. The 
report stated that ``the danger posed to the families of the people who 
are perceived to assist the Border Patrol by calling in illegal traffic 
is potentially devastating.'' In the absence of the repeater, local 
input was limited to that form of communication. The U.S., through 
political jousting, put local residents and BP agents alike in a 
difficult and dangerous position.
    In 2008, the repeater was reinstalled. It is there by the authority 
of a Memorandum of Understanding between the BLM and the CBP-BP, but it 
is a conditional allowance. The condition is that if the U.S. Congress 
changes the current land designation from WSA to Wilderness, ``the CBP-
BP must remove all communication site equipment from the Big Hatchet 
Wilderness as soon as possible.'' It is obvious how that will impact 
illegal activity and national security. The question of how such a 
demand impacts other areas and issues must be asked.
    To the east of Hidalgo County where Big Hatchet lies, there is an 
active proposal to designate 358,000 acres of Luna and Dona Ana 
Counties as wilderness. Over 150,000 acres of that proposal lie in the 
Potrillo Mountains just north of the border between Columbus and Santa 
Teresa, NM. The same condition of WSA designation exists in that 
proposed area. If wilderness designation is passed by Congress, 
residents are worried that environmentalists' demands for the removal 
of all technical monitoring gear along with elimination of mechanical 
access will be imposed on the operation of the CBP-BP, which stands 
between residents and the drug lords and coyotes of the smuggling rings 
in Mexico. ``All we know and see on a piece of paper is the demand for 
the Border Patrol to remove their monitoring gear from Big Hatchet 
Mountain if wilderness designation occurs on that WSA. How can we 
possibly believe that the same thing wouldn't be repeated here in Luna 
County,'' stated rancher Bill Smyer. ``Push comes to shove, we will 
bear the burden of any downside. Our government constantly elevates 
environmentalists' demands above the concerns and safety of anyone 
gainfully employed and trying to stay in business! We have no 
champion.''
    It is ironic that the only legal agreements in place on this and 
other WSAs are grazing permits between agencies of the U.S. government 
and local ranchers. The primary burden of performance is placed solely 
on the agency trying to maintain national security, CBP-BP. They can 
have their repeater in place only on a conditional basis, and they 
cannot rely on having helicopter access on an ongoing basis. From 
January through April and from June through October 15 they have to 
make the half day climb up Big Hatchet Mountain on foot to service 
their facility. The BLM, under demand by several environmental groups, 
won't allow helicopter disturbance that may affect the big horns and 
the bats. If wilderness is declared here or elsewhere on the border, 
the conditions will only get more stringent and limiting. The question 
needs to be asked, ``How can any national leader support a process that 
inhibits or destroys the ability of a U.S. agency and local residents 
to control, protect, and enhance their lives and livelihoods with a 
satisfactory degree of safety and efficiency?'' An observation made by 
a resident who would be affected by wilderness designation in Dona Ana 
County provides significant insight. He said, ``There is a big 
difference between being in the crowd cheering and being in the arena 
fighting for your life. We must find leaders who have at least visited 
the floor of the arena, or we will not prevail. Remember, if we rely on 
the crowd, they will only cheer when we are killed.''
    Editor's note: This article is one in a series written by members 
and friends of People for Preserving Our Western Heritage. 
www.peopleforwesternheritage.com

           CATTLE AND NATIONAL SECURITY BY STEPHEN L. WILMETH

    Cattle free by 93! Cattle free by '03! Remember those battle cries? 
There is little doubt that too many have heard those same words even in 
recent days.
    The assault on the federal lands rancher started longer ago than 
most realize. It was started at least by 1944 when the Forest Service 
in the Gila National Forest sent the first notice to destock the Gila 
Wilderness. It was done under the guise of failure to make adequate 
progress in range improvements and the resulting deterioration of range 
on the Mogollon Front in Grant County, New Mexico. The Forest Service 
followed by evicting cattle from the major allotment in what is now 
known as the Gila Wilderness and leaving the same allotment holder on 
the very range that was purported to be in poor condition!
    The Gila Wilderness was established not by Congress but by Forest 
Service in an administrative directive 20 years prior to that first 
eviction of cattle. It was not until 1964 when the Wilderness Act was 
passed and signed by the president that the wilderness was officially a 
federal land designation. By that time, the seeds were sown to press 
forward administratively to circumvent what the law of 1964 had 
promised. Cattle grazing would be allowed to continue where it existed 
in federal wilderness at the time of the signing of the act.
    At the time of the passage of the Wilderness Act, there were 24 
active allotments within or directly adjacent to the Wilderness core of 
the Gila. By 2000, fully half of those allotments had been fully 
destocked and the other 12 had been destocked 87% from 1960 numbers. 
Values of permits used to secure operating loans plummeted. Few 
comparable sales to establish value were even available as permits were 
simply dropped or reassigned to neighboring ranches with the approval 
to run only the cattle allowed on the neighboring allotment. Other than 
fellow ranchers, few people recognized the travesty of the implicit 
penalties that eliminated half or more of the value of those 
investments. An analogy would be for homeowners in any subdivision 
suddenly finding their home less than half of its value overnight 
because of a zoning ordinance change.
    The trend was not limited to the Gila. In the Colorado Wilderness 
Act of 1980 and again in the 1990 Arizona Desert Wilderness Act, 
Congress demanded that the federal grazing guidelines be rewritten to 
clearly demonstrate that the administration of any wilderness 
legislation wouldn't be used to eliminate grazing. Stakeholder unrest 
existed all across the West, the cries from the environmental camp 
echoed ever more loudly, and cattle numbers continued to decline.
    In southern Arizona, the cry for wilderness was particularly 
active, and it was there that over 1,000,000 acres of border wilderness 
was designated since 1978. What Americans should be aware of is the 
cost of that legislation in terms of moral decay and national security 
interests to this country. Moreover, for the first time, the penalty 
for the pervasive removal of cattle from federal lands may start to be 
quantified.
    More than 50% of the American side of the New Mexico and Arizona 
border with Mexico is made up of Department of Interior (DOI) lands. 
These lands are administered by the Park Service, the Fish and Wildlife 
Service, the BLM, and the BIA. The Department of Agriculture's Forest 
Service administers yet more lands made up of national forests and the 
Department of Defense has yet more of the border at the Barry Goldwater 
Bombing Range.
    In studies uncovered recently, data reveals that the management of 
the border wilderness areas of Cabeza Prieta National Wildlife Refuge 
and the Organ Pipe National Monument contributed to the establishment 
of free flowing corridors of human and drug related smuggling 
activities. From those corridors the expansion of similar activity has 
spread like wild fire into the Tohono O'odam Indian Reservation, the 
Buenos Aires National Wildlife Refuge, the Coronado National Monument, 
and the various parcels of the Coronado National Forest.
    The problems began when the Border Patrol instituted operations to 
stem the tide of illegal entry in urban centers. Their idea was simple. 
If such efforts could reduce the flow of illegal entry into populated 
centers and push it into rural areas, interdiction and apprehensions 
could be done easier. The campaigns worked well in Mexicali, Tijuana, 
and El Paso, but failed miserably in Nogales. What was found was that 
illegals from the Nogales operation found another soft point of entry. 
The designated federal wilderness at Organ Pipe and Cabeza Prieta was 
an immense opportunity for entry. As the Border Patrol and the Park 
Service or Fish and Wildlife Service fought over jurisdiction, the 
illegal flow of drugs and humans moved across the protected wilderness 
in growing numbers.
    Where there were no roads, the cartels and human smugglers made 
roads. Where there were no trails, they made trails. Where there were 
17 legal permanent roads in Organ Pipe there became 35 wildcat roads 
where blacked out Jeeps ran north during the night. The Park Service 
itself estimated that, in a representative one square kilometer out in 
the Valley of the Ajos, an unsuspecting American family on a hike would 
encounter 254 illegal foot trails that didn't exist when wilderness was 
first established in the monument!
    Until recently, the Border Patrol viewed the conflict as a turf 
dispute with the Park Service. It was politics, and the demand by the 
Park Service to stay out of wilderness areas was simply countered by 
Border Patrol demands and threats for unrestricted and unconditional 
access. What wasn't recognized was that the federal designation of 
wilderness was the true culprit. The Park Service and the Border Patrol 
were trying to accomplish their agency mission requirements while the 
illegal hordes going north grew ever more confident and dangerous.
    Word spread quickly. Mexican Highway 2 became the artery bringing 
the armies of illegals to the wilderness border. A whole infrastructure 
of supporting businesses sprung up to support the business of staging 
and sending illegals north into the United States. Buses showed in 
route videos preparing the illegals for desert survival and strategies 
of evading American authorities. Runways for cartel aircraft ferrying 
drugs to the border were established. Illegals at any given time in 
Organ Pipe topped 20,000 individuals. Whole areas of the monument were 
closed. It got so bad that signs were posted warning visitors to not 
stop for dead bodies because they may be booby traps or decoys for 
robbery.
    While the wilderness experience in Arizona was being hailed by drug 
cartels and American conservation groups, a different story was 
occurring in Texas. Although Texans may not agree that they are exempt 
from border violence and drug related activities, there is a difference 
in the intensity of what is going on there as opposed to Arizona. The 
data comes from Aerostat summaries. The Aerostat system provides radar 
assistance for tracking cartel aircraft approaching the border from the 
Mexican interior. The system uses a series of tethered blimps 
strategically positioned to monitor the border.
    Aerostat records in a representative time frame indicate that 
cartel aircraft approach Texas about once every 17 miles of border. In 
New Mexico, the rate is almost twice the Texas rate at once per nine 
miles of border. In Arizona, the records run at least 10 times that of 
Texas or once every mile and a half of border.
    The drug seizure trend is similar. In Texas, the rate runs about 
one incident in every 50 miles of border. In New Mexico, it is about 
once every 3.5 miles of border and in Arizona the rate is once in less 
than two miles of border. The latter represents a density of drug 
seizures 25 times that of Texas and it isn't because the drugs in Texas 
are not being interdicted. It is because the density of activity in 
Arizona is just that much more intense and dangerous.
    A question must be asked. What is happening in Texas that isn't 
happening in Arizona? Three retired Border Patrol officials were posed 
that question (current agents will not comment publicly on this 
question without reciting policy).
    Gene Wood, former sector chief at McAllen (Texas) said, ``You've 
got private ownership of lands with a very aggressive citizenry in 
Texas protecting their private property rights. They interact 
immediately and continuously with the Border Patrol and the Border 
Patrol has full and unencumbered access to everything, at any time, and 
for any reason.''
    When asked why the New Mexico results are intermediate between the 
Texas and Arizona data, former Chief of Border Patrol Flight 
Operations, Richard Hays, said, ``Like Arizona, there is a domination 
of federal lands along the New Mexico border, but New Mexico still has 
a residual population of a resident ranching community. Go on over into 
Arizona and nearly the entire border is federally controlled land. The 
ranchers have been eliminated or so decimated that they no longer can 
maintain a dominant posture. They are gone in the monuments and the 
wildlife refuges and the infrastructure that they built and maintained 
is gone as well. The forest allotments are so gutted and reduced that 
those folks are in a very precarious position. And, at the Tohono 
O'odham (Reservation), the BIA has no idea how to control that deal. 
You come to you own conclusions of what has happened in Arizona.''
    When asked, retired Yuma Sector Chief and new Chairman of the 
National Association of Former Border Patrol Officers, Jim Switzer, 
said, ``New Mexico and Texas still have a vested, engaged, and resident 
population of citizens who will protect their private property rights. 
The Arizona counterparts have been largely eliminated.'' Asked to 
clarify his remarks, he continued, ``Look at the data. Where there are 
resident Americans who have private property rights at risk there 
remains a working relationship with the Border Patrol. If there is 
activity, the Border Patrol will be contacted and welcomed. That is not 
the case where federal land agencies are present.''
    The cost to America of removing cattle and ranchers from border 
wilderness can start to be quantified by reviewing relative costs. 
Without considering the Border Patrol budget or budget increases, what 
are security expenses in a representative border wilderness? In fiscal 
year 2009, the budget for the Organ Pipe's law enforcement component 
for a park that shares 30 miles of Mexican border was $1.922 million. 
In 2000, there was no such component of that budget.
    With such a budget and 28 approved officers how is Organ Pipe 
handling the illegal traffic? In another report, Organ Pipe management 
commented on the fact that in the last six months, the mechanized drug 
traffic had ``increased dramatically.'' With dramatic increases in drug 
trafficking in a six month period in 2009 (when illegal human smuggling 
was down dramatically) it would follow that the Park Service will ask 
for and receive additional funding for 2010 and beyond.
    Meanwhile, over in Texas the buffer created by ranchers who 
actively defend their property rights provides a version of national 
security that costs American tax payers nothing. What is now being 
revealed is that if the same buffer had always been allowed to continue 
uninterrupted in Arizona, the problem of illegal entry into the United 
States would not be the problem it is today.
    So, cattle free by '93, eh? The environmental movement succeeded in 
reaching that goal on most of the Arizona border. This understanding of 
border events should lead objective thinkers to want to investigate 
what the expanded cost to America has been for such an idealistic and 
reckless attack on American private property rights. On the American 
border, the cost has been accumulated in terms of moral decay, loss of 
American jobs, and national security breaches. The next big question is 
what and how has it affected the American heartland?
                                 ______
                                 
   Statement of Butch Borasky, Nye County Commissioner, District 4, 
                         Pahrump, NV, on S. 940

    Please support S 940 to direct the Secretary of the Interior to 
convey to the Nevada System of Higher Education, certain Federal land 
located in Clark and Nye Counties, Nevada.
    Great Basin College in Pahrump would like to place a campus on said 
land. Local developers here in Pahrump have pledged to help by way of 
infrastructure to the property.
    It would be really beneficial for Nye County to have a campus 
locally. This would allow young people to stay in the community to 
atend college and not have to commute or move out of the County to get 
an higher education.
    This will also greatly benefit the Bureau of Land Management's 
(BLM) fire station adjacent to this property. We have been patiently 
waiting for the past 4 years to see this happen.
    Your help on this will be greatly appreciated.
                                 ______
                                 
 Statement of Nicole Shupp, Pahrump Town Chairman, Pahrump, NV, on S. 
                                  940
    This letter serves as strong support for the passage of s. 940. 
This land upon conveyance will allow Great Basin College to expand and 
create a college campus in our town, which will bring jobs to Pahrump 
and give students another option for obtaining a higher education. If I 
can be of any further assistance, please do not hesitate to contact me.
                                 ______
                                 
                               State of New Mexico,
                                    Office of the Governor,
                                     Santa Fe, NM, October 6, 2009.
Hon. Jeff Bingaman,
U.S., Senate, 703 Hart Senate Office Building,Washington, DC.
    Dear Senator Bingaman: I am honored to support a historic land 
conservation measure that has been many years in the making: the Organ 
Mountains-Desert Peaks Wilderness Act. I appreciate the leadership that 
you and Senator Udall demonstrated by introducing this important 
legislation to protect many of the most important public lands in 
Southern New Mexico. From the jagged spires of the Organ Mountains to 
the petroglyphs in Broad Canyon, the Act will protect approximately 
259,000 acres of wilderness, and an additional 100,000 acres as two new 
National Conservation Areas. When enacted, these protected lands will 
showcase some of the finest ecosystems and vistas that New Mexico's 
Chihuahuan Desert has to offer, while making an important contribution 
to our country's wilderness and National Landscape Conservation 
System.This legislation has also brought together an impressive and 
diverse group of citizens to help develop this proposal, with 
organizations such as the Hispano Chamber of Commerce de Las Cruces, 
Southwest Consolidated Sportsmen, and the League of Woman Voters 
working hand in hand to push for its development. Through a multi-year 
process, important agreements and compromises have been made to 
facilitate border security, flood control, and access for all citizens. 
The end result, the Organ Mountains-Desert Peaks Wilderness Act, truly 
represents the best of community cooperation and legislative 
leadership. As Governor of New Mexico, I am honored to lend my strong 
support for the Organ Mountains-Desert Peaks Wilderness Act, and 
encourage Congress to support its passage into law.
            Sincerely,
                                           Bill Richardson,
                                                          Governor.
                                 ______
                                 
      National Association of Former Border Patrol Offices,
                                   Brunswick, GA, October 22, 2009.
Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources, Committee, 304 Dirksen Office 
        Bldg., Washington, DC.
Re:S. 1689

    Dear Senator Bingaman: The issue of the designation of Wilderness 
Areas as addressed by the subject bill is of great concern to the 
National Association of Former Border Patrol Officers (NAFBPO). As the 
name indicates, we represent a group which has several thousand years 
of cumulative experience protecting our borders spread over more than 
50 years. We know from that experience that designating a particular 
area as a Wilderness has no impact at all on those who intend to 
violate of border's security. Prohibiting the use of motorized vehicles 
within such border areas without permitting the necessary law 
enforcement agencies, including the Border Patrol, to carry out their 
sworn duties, is tantamount to permitting a corridor for illegal 
aliens, drug smugglers, and potential terrorists to exploit. We foresee 
this same situation may be duplicated in the areas being proposed for 
wilderness in S. 1689, Organ Mountains-Desert Peak Wilderness Act.
    Information that we have points to the fact that there has not been 
a public hearing scheduled to get input on this issue, nor has there 
been an explanation of the anticipated impacts that wilderness 
designations will have on border security. We feel the importance of 
border security should be fully discussed with local communities so 
that they are aware of the implications of wilderness designation. Our 
organizations strongly suggests that a field hearing be held in Dona 
Ana County, New Mexico, to fully develop final recommendations relative 
to border security on lands proposed for wilderness protection.
            Respectfully,
                                          James S. Switzer,
                                                          Chairman.
                                 ______
                                 
                 Statement of Bob Reich, CEO, Lasen Air

    I am speaking from the ranks of the nearly 800 member coalition 
that opposes your legislation intending to designate wilderness on over 
a quarter of a million acres of Dona Ana County lands. Please be 
cognizant of the fact that this coalition of citizens, local businesses 
and organizations, and is not a group of fringe radicals or overfunded 
``environmental'' organizations. If you will observe the membership, 
this group is arguably the very core of businesses and organizational 
leadership that makes Las Cruces, Deming and this region of the state 
work. In my opinion, this coalition has been minimized, and any 
assumption that you have that it isn't observing what is going on is 
strictly in error.
    These cities and this region of the state cannot be hamstrung by an 
environmental movement that has an agenda that is not being honestly 
portrayed. At a minimum, your legislation eliminates the majority of 
community access to the remaining points of higher elevation in the 
county. Already, the various branches of the DOD, Fish and Wildlife, 
and NMSU have a lock on the remainder of the Organs, the San Andres, 
and points east. As the legislation stands your actions will place 
unnecessary pressures on lands outside the withdrawn areas that will 
receive the diverted traffic. As a concerned leader, please recognize 
the hypocrisy of land stewardship that creates enforcement free 
corridors for drug runners and illegals.
    Throughout this debate, the press and others have continued to 
refer to the objection to this plan as the ``ranchers' stand'' or the 
``ranchers' plan''. That will lose its validity as this process 
concludes. This is a Dona Ana County citizen's coalition and the number 
of ranchers is a small percentage of the opposition. Your actions, 
however, will ultimately contribute to the reduction of the already 
small number of ranchers and the loss of a major portion of our New 
Mexico heritage.
    Instead of total withdrawal and locking most of the citizens of 
Dona Ana county (and state and federal law enforcement officials) out, 
we have continually proposed responsible joint use that will preserve 
the cultural, historic, and natural features of the area and allow use 
of the area by the majority of the people. I stand perplexed as to your 
insistence to appeal to a network of organizations and people who have 
ties to such radical ideology and one sided agendas. This will 
ultimately be an issue that will be exposed and understood. Our group 
may not stand with signs in front of your office in opposition, but our 
group will eventually be heard in more basic forms of due process.
    In the past you have consistently stood up for the people of New 
Mexico and the United States of America, we are hoping that you will 
reconsider your position on this vital issue and create a 11win-win'' 
situation for all of us. You still have an opportunity to make positive 
political strides by recognizing and coming forth with modifications 
that allow for responsible joint use of the areas rather than 
wilderness that effectively shuts the American people out, and creates 
clear corridors for illegals and drug runners.
    Thank you for Your time and consideration,
                                 ______
                                 
                                   State of Alaska,
                           Department of Natural Resources,
                                    Anchorage, AK, October 6, 2009.
Hon. Ron Wyden,
Chairman, U.S. Senate, Subcommittee on Public Lands and Forests, 
        Washington, DC.
Hon. John Barrasso,
Ranking Member, U.S. Senate, Subcommittee on Public Lands and Forests, 
        Washington, DC.
    Dear Senators Wyden and Barrasso: The State of Alaska provides the 
following comments on S 522, the Salmon Lake Land Selection Resolution 
Act and S 881, the Southeast Alaska Native Land Entitlement 
Finalization Act. Both bills are scheduled for a hearing before the 
Subcommittee on Public Lands and Forests on October 8, 2009.
    S 522--Salmon Lake Land Selection Resolution Act.--The state 
supports passage of this important legislation that will equitably 
resolve competing land selections surrounding Salmon Lake on the Seward 
Peninsula in Alaska. The legislation ratifies an agreement between the 
Bering Straits Native Corporation (BSNC), the US Bureau of Land 
Management (BLM), and the State of Alaska to resolve land selected 
under the Alaska Native Claims Settlement Act (ANCSA) and the Alaska 
Statehood Act. The three parties signed the agreement on July 18, 2007 
after several years of negotiation. Under the agreement, the state and 
BSNC will acquire land adjacent to Salmon Lake and the BLM will retain 
land important for public access and a campground. The agreement 
recognizes both the lake's importance to the public for recreation and 
its importance to BSNC shareholders for subsistence, cultural and 
recreational values. We are not aware of any opposition to this 
legislation.
    S 881--The Southeast Alaska Native Land Entitlement Finalization 
Act.--The state continues to support Congressional action to resolve 
the outstanding land entitlement of the Sealaska Native Corporation. 
Sealaska has waited too long to receive a fair entitlement under ANCSA. 
The state agrees that the land currently available to Sealaska under 
provisions of ANCSA does not provide Sealaska with an adequate and 
equitable land base. The pool of economic development land that would 
be made available under S 881 provides Sealaska with land that is more 
suitable for timber harvest than the lands it would acquire absent this 
legislation. In addition, the land currently available to Sealaska 
contains areas with high public values for watersheds and recreation. 
These lands will remain in public ownership under S 881.
    In reviewing S 881 as currently drafted, we have identified some 
concerns regarding the need to protect public access across parcels to 
be conveyed to Sealaska, impacts to management of adjacent federal 
lands, and community concerns regarding certain specific parcels. 
Regarding public access, the Economic Development Lands need to provide 
sites for public access to and from the road system to the shoreline, 
as provided for in easements reserved under ANCSA Section 17(b). The 
Traditional and Customary Trade and Migration Routes to be conveyed 
under Section 3(b)(2)(A)(11) need to be subject to ANCSA Section 17(b) 
or similar provision to ensure public access across these long, narrow 
conveyances. These Routes also need to exclude tidelands, submerged 
lands and navigable waters.
    We also would like to see the legislation crafted to minimize 
disruption to the existing, successful federal land transfer program in 
Alaska that is focused on largely completing land entitlements owed to 
all ANCSA corporations as well as the state.
    The state is also concerned that S 881 (Section 5(e)(2)) takes an 
unnecessary and problematic step in defining all ANCSA lands in Alaska 
as being ``tribal lands.'' The suggested change is directly contrary to 
section 4 of ANCSA which eliminated claims to tribal lands. Directly or 
indirectly modifying ANCSA is far more than a ``technical correction,'' 
and raises fundamental land ownership and land management questions for 
the State of Alaska. The savings clause does nothing to address the 
immediate shift in land management authority, and merely confuses an 
already complicated land status question. See Alaska v. Native Village 
of Venetie Tribal Gov't, 522 U.S. 520 (1998).
    We are willing to work with Sealaska and the Committee to address 
these concerns. We commend the subcommittee for bringing these bills 
forward for consideration and we respectfully request that this letter 
be included in the hearing record. Thank you for the opportunity to 
comment on these important bills that will benefit Alaskans.
            Sincerely,
                                            Thomas E Irwin,
                                                      Commissioner.
                                 ______
                                 
                        Alaska Federation of Natives, Inc.,
                                   Anchorage, AK, November 2, 2007.
Hon. Nick Rahall,
 Chairman, House Committee on Natural Resources, U.S. House of 
        Representatives, Washington, DC.
RE: HR 3560, to provide for the completion of Sealaska Corporation's 
Land Selection under the Alaska Native Claims Settlenient Act.

    We are writing oa behalf of the Alaska Federation of Natives (AFN) 
to express AFN's support for H.R. 3560, Sealaska Corporation's 
legislative proposal to finalize its land entitlement conveyances. AFN 
is the largest statewide Native organization in Alaska. Its membership 
includes over 200 villages (both federally-recognized tribes and 
village corporations), the 13 regional Native corporations established 
under the Alaska Native Claims Settlement Act (ANCSA), and 12 regional 
nonprofit and tribal consortiums that contract and run federal and 
state programs.
    In 1971, Congress enacted ANCSA to recognize and settle the 
aboriginal clainig of Alaska Natives to their traditional homelands by 
authorizing the establishment of Alaska Native Corporations to receive 
and manage lands and funds awarded in settlement of the claims of 
Alaska Natives. The purposes of ANCSA were to settle the land claims of 
Alaska-Natives and to provide them with a means to pursue economic 
development, and create sustainable economies for the benefit of 
Alaska's Native people. However, more than 35 years post-ANCSA, the 
land conveyances have yet to be completed.
    Since 1971, many of the Alaska Native Corporations have become 
successful and powerful economic engines within their regions and 
throughout the State of Alaska. Sealaska Corporation is the single 
largest private employer in Southeast Alaska, providing from 200 to 400 
part-time and full-time jobs, annually, and contributing as much as $40 
million, annually, to the Southeast Alaskan economy through its logging 
contracts, road building activities, and other timber-related 
activities. Sealaska also provides a significant benefit to Alaska 
Natives. throughout the State of Alaska through its annual 7(i) revenue 
sharing contributions, totaling over $300 million since Sealaska began 
operating. Some Alaska Native Corporations outside of Southeast Alaska 
have expressed extreme gratitude to Sealaska because the 7(i) payments 
that they have received have, in many instances, kept the Corperations 
out of bankruptcy.
    Sealaska would now like to engage in comprehensive land entitlement 
and conservation initiative, which would allow it to complete its land 
entitlement by making cultural and economic land selections outside of 
the original withdrawal areas, and in return would allow removal of the 
encumbrance created by the withdrawal of lands for Alaska Native 
selection in Southeast Alaska. If Sealaska does not receive conveyance 
of all of the lands to which it is entitled in the near term, the 
primary economic activity of Sealaska--logging--will cease in the near 
term. That will impact Southeast Alaska's Native people, the Southeast 
Alaska economy, and the Alaska Native Corporations throughout the State 
that have come to rely upon Sealaska's 7(i) contributions.
    Therefore, we strongly support the enactment by the United States, 
Congress of a bill that would allow Sealaska to complete its ANCSA 
land, entitlements, thereby enabling it to continue to help meet the 
economic needs of the Native people of Southeast Alaska and Alaska 
Native Corporations throughout the State of Alaska.
    Please do not hesitate to contact us if you have any questions 
regarding our position on this important legislation.
            Sincerely,
                                            Albert Kookesh,
                                             Co-Chair of the Board.
                                               Tim Towarak,
                                             Co-Chair of the Board.
                                 ______
                                 
                           Alaska Forest Association, Inc.,
                                    Ketchikan, AK, October 9, 2009.
Hon. Lisa Murkowski,
U.S. Senate, 322 Hart Building, Washington, DC.
    Dear Senator Murkowski,  The Alaska Forest Association (AFA) 
strongly supports the Sealaska Land Entitlement Legislation S-881. The 
AFA has represented the timber industry across Alaska for over 50-
years. During the 1960s, 70s, 80s, and early 1990s the industry 
provided several thousand direct jobs and thousands more indirect jobs, 
but over the last fifteen years the employment in our industry has 
declined primarily as a result of an inadequate supply of timber.
    Our industry, which is comprised entirely of small businesses, 
includes landowners, logging and road building companies and 
manufacturing companies. These businesses work together in a symbiotic 
relationship along with our supporting industries--tug and barge 
operations, equipment and fuel suppliers, log and lumber scaling 
services, etc. Many of our supporting industries will be unable to 
survive the loss of Sealaska's operations. The domino effect that would 
follow the industry collapse would be felt across Southeast Alaska and 
would be most harsh in the small communities.
    The AFA Board of Directors has consistently supported Sealaska's 
efforts to resolve their land entitlements and we continue to do so. 
Thank you for introducing this vital legislation.
            Sincerely,
                                               Brian Brown,
                                                         President.
                                             Bert Burkhart,
                                                    Vice-President.
                                               Wade Zammit,
                                                         Treasurer.
                                            Kirk Dahlstrom,
                                       Director and past President.
                                 ______
                                 
 Statement of Steven C. Borell, P.E., Executive Director, on H.R. 3560
    The Alaska Miners Association is writing in support of H.R. 3560, 
the ``Southeast Alaska Native Land Entitlement Finalization Act''. This 
legislation will allow Sealaska Corporation to finalize its land 
entitlement granted user the Alaska Native Claims Settlement Act 
(ANCSA).
    When ANCSA passed in 1971, Sealaska and the other Native 
Corporations were given the right to select lands near their villages 
and other areas where their respective peoples had lived. However, 
before the Corporations could complete their selections, various 
federal withdrawals occurred that greatly restricted their selections. 
Then in 1980 much of their historic land areas became part of various 
federal conservation system units and were thereby placed totally off 
limits for selection. The result was that there was not enough land 
available that would qualify for the Sealaska entitlement.
    H.R. 3560 addresses this situation by exchanging some lands now 
held by Sealaska for other lands now owned by the federal government. 
This would provide closure regarding Sealaska's ANCSA land entitlement. 
It would correct some of the inequitable limitations on Sealaska's land 
selections by allowing it to select its remaining land entitlement from 
federal lands outside the designated withdrawal areas, including sites 
with sacred, cultural, and historical significance. The changes will 
also provide an opportunity for Sealaska to maintain a sustainable 
economy and to further economic and employment opportunities for 
Sealaska shareholders.
    Thank you for the opportunity to comment on this important 
legislation.
                                 ______
                                 
                                ANCSA Regional Association,
                                      Anchorage, AK, June 30, 2008.
Hon. Lisa Murkowski,
U.S. Senate, 709 Hart Senate Office Building, Washington, DC.
RE: Sealaska Land Entitlement Legislation

    Dear Senator Murkowski: I am writing to you on behalf of the Alaska 
Native Regional Corporation CEOs to express support for Sealaska 
Corporation's legislative proposal to finalize its land entitlement 
conveyances. As you are aware, Sealaska has yet to complete its Alaska 
Native Claims Settlement Act (ANCSA) land conveyances, 36+ years post-
ANCSA, because of poorly contemplated land withdrawals in Southeast 
Alaska. Our organization strongly supports the fulfillment of the 
promises of ANCSA to create economically sustainable corporations for 
the benefit of Alaska Native shareholders.
    Representatives from Sealaska have briefed the Regional CEOs on the 
land entitlement legislation. The legislation clearly provides 
opportunities for economic development and cultural preservation. Not 
only would there be economic and cultural benefits to the Native people 
of Southeast Alaska through this proposal, but there would also be 
economic benefits to the Native people throughout the State of Alaska 
because of the revenue sharing requirements of ANCSA. Moreover, many of 
our regions throughout the State are seeing a loss of residents from 
the rural communities. The Sealaska proposal would be a positive step 
towards slowing this trend in Southeast, Alaska. We, therefore, express 
support for any legislation on this matter.
    We urge you to pursue this important legislation. If you have any 
questions regarding our position, or need our assistance to secure 
enactment in the future, please do not hesitate to contact us.
            Sincerely,
                                                Vicki Otte,
                                                Executive Director.
                                 ______
                                 
 Statement of Heather Richter, President, Edna Bay Community, on S. 881
    The community of Edna Bay, located on the northwest side of Prince 
of Wales Island in Southeast Alaska. would like to present testimony in 
opposition to the transfer of 32,000 acres of public land on Kosciusko 
Island into the private ownership of Scalaska Corporation.
    Edna Bay is a remote subsistence based community established by a 
State of Alaska land sale in 1982. Since it is not connected to any 
other road system. residents depend entirely on the access they have 
historically had to the public lands on this island for their daily 
needs, which include subsistence harvesting, personal use timber and 
building materials. as well as economic opportunities.
    Everyone understands the importance of completing ANCSA, and the 
state and federal government commitment to the support of economic 
prosperity for the native peoples of Alaska. The problem with the 
current legislation in it's pursuit of these goals is the lop sided 
representation that is happening in the process. Our community has been 
left without representation on all levels. Our district representative. 
Senator Albert Kookesh is chairman of the board for Scalaska. 
Representative Thomas is also a member of the board of directors. 
Senators Murkowski and Begich are co-sponsors for this bill on behalf 
of Sealaska. and Congressman Young has expressed his singular support 
of Senlaska through his introduction of HR 2099.
    Our representatives should he striving to create a more balanced 
approach to resolving Senlaska's land entitlements. A solution should 
represent equitable treatment for all people living in Southeast 
Alaska. The current path will lead to the certain demise of several 
subsistence dependent communities on Prince of Wales Island. If 
Sealaska chooses to pursue their land transfers outside of the 
withdrawal areas set aside for them by Congress, they should have to do 
so in cooperation and working coexistence with other residents of 
Southeast Alaska. Corporate take over should never be allowed to become 
the established way of doing business in the Tongass National Forest.
    As we have no representation in regards to this bill, we are asking 
the members of this committee to give careful consideration to 
Sealaska's request. In the interest of the continued prosperity for all 
who live in Southeast Alaska. we are asking you to vote no on S.881.
    Thank you for your time.
                                 ______
                                 
            Community of Elfin Cove Non-Profit Corporation,
                                 Elfin Cove, AK, December 31, 2008.

Hon. Ed Schafer,
Secretary, Department of Agriculture, 1400 Independence Avenue S.W., 
        Washington, DC.
    The Community of Elfin Cove Non-Profit Corporation membership has 
reviewed and discussed the proposed land selections as part of Senate 
Bill 53651 that you introduced. We have serious concerns about the 
lands proposed for selection in the area near Elfin Cove.
    While we support your efforts to remedy the longstanding problems 
with the Alaska Native Claims Settlement Act in regard to land claims 
for Sealaska, we do not support the inclusion of Lacy Cove, Point 
Lavinia and Inian Peninsula East. These areas have a long history of 
stewardship by the residents of Elfin Cove, Inian Islands, Idaho Inlet 
and Port Althorn. The adjacent waters are historically important 
commercial fishing waters.
    The residents of Elfin Cove have developed an effective working 
relationship with the Hoonah Ranger District of the US Forest Service. 
The current Forest Service administrative policies have been effective 
in preserving the forest supporting subsistence access and the 
development of tourism.
    We are concerned that dividing this contiguous area of wilderness 
will significantly disrupt the current subsistence access in the area. 
These lands are important sources of local subsistence activity.
    The Community of Elfin Cove respectfully requests that as this 
important land settlement process moves forward that Lacy Cove, Point 
Lavinia, and Inian Peninsula East be excluded from the selection.
    We have attached the resolution* passed at our most recent 
community meeting. We would be available to provide additional comment 
regarding S3651.
---------------------------------------------------------------------------
    * All attachments have been retained in subcommittee files.
---------------------------------------------------------------------------
            Sincerely,
                                              Gordy Wrobel,
                                                          Chairman.
                                 ______
                                 
  Statement of Gregory and Carin Richter, Fisherman's Cove Fish Camp, 
                              Naukati, AK
    Once again, my family find ourselves writing a letter for a 
different number bill, stating that we say NO to Kosciusko Island being 
part of Sea Alaska owned landed. This is my children's inheritance It 
is our privately owed property already. Lot TEN (10), U.S Survey 2615, 
situated on the East side of Fisherman's Harbor in Lot (5) and (6), 
Section 22, Township 68 South, Range 75 East, Copper River Meridian, 
Kosciusko Island, Alaska, Cape Pole. We depend upon the subsistence 
from hunting and fishing every year to feed ourselves and for our lodge 
business and for our business guests. With this proposed bills we would 
lose these rights. It would take away the from the value of the 
property due to the fact that Sea Alaska would own the property between 
Edna Bay and Cape Pole cutting off our supply roots. We own a hunting 
fishing lodge in Cape Pole. Considering the statement Sea Alaska made 
about a right to cross their property, would not be convened should we 
sell. In this economy crisis, the only econoirtical and real help in my 
children's life's is this land that belongs to us. When we die, to help 
them carry out their lives and families to come is this land in the 
last frontier Alaska, where they can live off of and work hard to 
survive. Why is this a threat again to my children and I again.
    I realize how busy the government must be at this economical crisis 
and state of depression but our family would ask you for a letter of 
response. That would touch base with us and realize that you are 
listening to private land owners and would make us feel valid and 
secure. Attached are the previous letters with all of our concerns.
                                 ______
                                 
  Statement of David Love, Glacier Grotto President; Timothy Heaton, 
Paleontologist and NSS Fellow; Kevin Allred and Carlene Allred, Glacier 
Grotto and NSS members; Steve Lewis, Conservation chair-Glacier Grotto, 
        NSS member; Rachel Myron, Glacier Grotto and NSS member

    I am writing this letter on behalf of the membership of the Glacier 
Grotto listed below. The Glacier Grotto is a statewide chapter of the 
National Speleological Society (NSS) dedicated to the discovery, 
mapping and conservation of the karst and cave resources of the state 
of Alaska. The Glacier Grotto membership is very concerned about the 
new land selections that Sealaska Corporation has requested under the 
Alaska Native Claims Settlement Act as introduced initially as House 
Bill 3560 by Representative Don Young and reintroduced in Senate Bill 
(SB) 3651 by Alaskan senator Lisa Murkowski.
    First, definition of the type of landscape the Glacier Grotto and 
NSS are particularly concerned about:
    Karst topography is a landscape shaped by the dissolution of a 
layer or layers of soluble bedrock, usually carbonate rock such as 
limestone or dolomite. Due to subterranean drainage, there may be very 
limited surface water, even to the absence of rivers and lakes. Many 
karst regions display distinctive surface features, with sinkholes or 
dolines being the most common. However, distinctive karst surface 
features may be completely absent where the soluble rock is mantled, 
such as by glacial debris, or confined by superimposed non-soluble rock 
strata. Some karst regions include thousands of caves, even though--
evidence of caves that are big enough for human exploration is not a 
required characteristic of karst.\1\
---------------------------------------------------------------------------
    \1\ Ford, D. and Williams, P. 2007 Karst Hydrology and 
Geomorphology John Wiley and Sones Ltd. 562 pp.
---------------------------------------------------------------------------
    It should be noted that current land management practices on 
federal lands underlain by carbonate rock in Alaska, especially on the 
Tongass National Forest, manage these karst landscapes for the unique 
hydrological, speleological, archeological and paleontological 
resources underlying the surface of these landscapes as well as the 
biological community that covers and protects their surface. These 
areas contain unique biological microhabitats, for example, freshwater 
streams sourced or passing through karst bedrock produce significantly 
more invertebrates which feed a larger number of salmon than do non-
karst systems, thus providing greater opportunity for subsistence, 
commercial and sport fishing harvest.\2\ Karst regions in Southeast 
Alaska contain irreplaceable archeological and paleontological 
deposits, internationally significant cave and karst geologic features, 
surprising hydrological interconnectedness and remote recreational 
opportunities like few other places on the planet.\3\ Archeological and 
paleontological research in Southeast Alaska has not only redefined how 
indigenous people arrived and colonized the Americas, but has also 
provided a picture of the plant and animal communities present in this 
region for the past 40,000 + years. The potential for additional 
paleontological and archeological discovery in this region is extensive 
and many of the cave-containing karst lands within the Sealaska 
selections have not been thoroughly inventoried. Each year, this region 
attracts researchers and cave explorers from around the country and 
worldwide. To date, the US Forest Service (USFS) land management 
practices associated with karst lands in Southeast Alaska have been a 
model for other agencies in other parts of the world.\4\
---------------------------------------------------------------------------
    \2\ Bryant, M.D.; D.N. Swanston; R.C. Wissmar; and B. E. Wright. 
1998. Coho Salmon Populations in the Karst Landscape of Northern Prince 
of Wales Island, Southeast Alaska. Transactions of the American 
Fisheries Society 127:425-433, 1998
    \3\ Griffiths, P.; Aley, T.; Worthington, S.; Jones, W. 2002. Karst 
Management Standards and Implementation Review, Final Report of the 
Karst Review Panel, Prepared for USDA Forest Service, Tongass National 
Forest, Submitted to MWH (Montgomery Watson Harza) under the terms of 
USDA Contract 53-0116-255901, 27 pp. and appendices.
    \4\ Baichtal, J.F. 1997. Application of a Karst Management 
Strategy; Two Cases Studies from theTongass National Forest, 
Southeastern Alaska; The Challenges of Implementation. In: Proceedings 
of the 1997 Karst and Cave Management Symposium 13th National Cave 
Management Symposium Bellingham, Washington and Chilliwack and 
Vancouver Island, BC, Canada, October 7-10, 1997, Bellingham, 
Washington. Edited by Robert R. Stitt, pp. 4-11.
---------------------------------------------------------------------------
    Three of the areas suggested for conveyance to Sealaska occur in 
some of the most highly developed karst landscapes in Alaska 
(containing features that are unique internationally). These areas are: 
Northern Prince of Wales Island, Tuxekan Island and Kosciusko Island. 
Below is some Geographic Information System (GIS) analysis provided by 
James Baichtal, Forest Geologist of the Tongass National Forest, 
relating to HB 3560:

          `` . . . Kosciusko Island: Total area of Sealaska selection 
        equals 25,882 acres of which 23,839 acres (92%) are underlain 
        by karst. We (USFS, entered by D. Love for clarification) have 
        inventoried some 1090 karst features we consider significant 
        within the proposed land selection, of which there are 145 
        caves that have been designated significant\5\ or most likely 
        would be found to be significant when nominated. The 2008 TLMP 
        included a 7678 acre Geologic Special Area encompassing Mount 
        Francis and karst areas to the south with a boundary change to 
        include the results of tracer dye studies. The Sealaska 
        Corporation proposal includes 5,708 acres of the 7,678 acres or 
        74% of the Geologic Special Area. We have not inventoried this 
        area but karst features may exceed a density of thousands per 
        square mile.
---------------------------------------------------------------------------
    \5\ ``Significant'' caves are defined by the FCRPA as possessing 
one or more of the following: unique biota, cultural, historical or 
archeological resources, geologic, mineralogic or paleontologic 
resources, hydrologic systems or water important to humans, biota or 
cave development, recreational value, educational or scientific values 
or are located within special management areas. See Federal Register 
[16 U.S.C. 4301-4309]

    NPOW: Total area of Sealaska selection equals 32,482 acres of which 
16,435 acres (51%) are underlain by karst. We have inventoried some 161 
karst features we consider significant within the proposed land 
selection, of which there are 23 caves that have been designated 
significant or most likely would be found to be significant when 
nominated. The Sealaska proposal includes 1,651 acres of the Geologic 
Special Areas found in the 2008 TLMP. The Sealaska proposed land 
selection also includes the Port Protection Watershed identified by 
through a Village Safe Water Grant and tracer dye studies.
    Tuxekan Island: Total area of Sealaska selection equals 15,758 
acres of which 11,936 acres (76%) are underlain by karst. We have 
inventoried some 339 karst features we consider significant within the 
proposed land selection, of which there are 30 caves that have been 
designated significant or most likely would be found to be significant 
when nominated. There are no Geologic Special Areas on Tuxekan Island.
    In summary, the Sealaska selection on the Thorne Bay Ranger 
District where there are karst landscape concerns equals 74,112 acres, 
52,210 acres underlain by karst (71%). We have a total of 1,590 karst 
features inventoried of which there are 198 caves that have been 
designated significant or most likely would be found to be significant 
when nominated. Many of these areas have such a high density of 
features that we have just never inventoried them so the actual number 
of caves from areas like Mount Francis, Flicker Ridge and the Calder 
Area would he much higher. The Sealaska proposal includes 7,359 acres 
of Geologic Special Areas . . . ''\6\
---------------------------------------------------------------------------
    \6\ Baichtal, James F., Forest Geologist, Tongass National Forest, 
Memo to Scott Fitzwilliams, RLMH Staff Officer, dated March 13, 2003 
Review of the Proposed Sealaska-Tongass National Forest Land Exchange 
Concerning Karst and Cave Resources
---------------------------------------------------------------------------
    Although the Glacier Grotto agrees that the tribes of Southeast 
Alaska (i.e-now represented by the Sealaska Corporation) have the right 
to lands promised under ANCSA, the Glacier Grotto does NOT believe that 
House Bill 3560 or Senate Bill 3651 should be passed unless changes are 
made to the bills. This letter is in opposition to this bill asking for 
additional withdrawals of public US National Forest lands outside of 
the original ANCSA withdrawal areas if these new withdrawal areas 
overlie karst terrain and/or caves. Refer to Sec 3 (b) (1), page 19 of 
the Senate Bill 3651 authorizing Sealaska to select lands categorized 
as ``Economic Development Lands'' (see the map entitled ``Sealaska 
ANCSA Land Entitlement Rationalization Pool, dated March 6, 2008 and 
labeled Attachment A). Karst landscapes and caves underlying lands 
selected by Sealaska currently receive protection from damage under 
federal laws. These selected areas include and/or overlie karst 
landscapes and/or cave systems, and the Glacier Grotto and members of 
the NSS believe that these lands should not be developed but should be 
protected as they currently are under the FCRPA. Since no State cave 
resource protection law exists for State or privately owned lands, 
these areas should not be allowed to be managed under (non-existant) 
State law, but should continue to be managed under the FCRPA. In 
addition, if any of the 'Traditional and Customary Trade and Migration 
Routes'', ``Native Futures Sites'' and ``Sacred, Cultural, Traditional 
and Historic Sites'' overlie karst terrain or cave containing bedrock 
then these areas should also be removed from the selections and 
continue to be managed under USFS and the FCRPA.
    While the membership of the Glacier Grotto signed below would like 
to believe that Sealaska Corporation would protect the karst landscapes 
and cave systems underlying the land selections in these bills, this 
may be an unrealistic expectation given Sealaska's past poor forest 
management (ex.-clear-cut logging on steep hillsides) on other lands it 
currently owns. Forests overlying karst in some of the new selections 
(``economic development area'') are oldgrowth stands that were not 
harvested in USFS timber sales because of concerns about impacting the 
interconnected ``high vulnerability'' karst bedrock below. As outlined 
by James Baichtal's work above, these areas contain a large number of 
fragile cave systems, undelineated hydrologic systems and fragile soils 
supporting unique plants and animals. Transfer of these areas to 
Sealaska would endanger these unique cave resources and karst 
landscapes.
    Further clarification of karst management on federal and state 
lands provided by James Baichtal, Forest Geologist, Tongass national 
Forest, is provided below:

          `` . . . The authority for management of the karst lands and 
        the associated caves on public lands comes from the Federal 
        Cave Resources Protection Act (FCRPA) of 1988, The Antiquities 
        Act of 1906, the Federal Land Policy Management Act of 1976 
        (FLPMA), and in Forest Service Management (FSM) directions 
        2356, 2361, and 2880, and 36 CFR 261 and 290. Subsequently, in 
        the 2008 Tongass Land Management Plan, standards and guidelines 
        were developed to protect the karst and cave resources found on 
        the Tongass National Forest. For State of Alaska lands 
        currently there is no ``Cave Protection Act'' in the State of 
        Alaska (http://www.caves.org/committee/conservation/ 
        )(Conservation Laws and Policy, Cave laws and Policies) nor 
        does the Forest Practices Code contain any provisions for 
        protection of those resources from timber harvest, road 
        construction and/or quarry development as stated by the Alaska 
        State Division of Forestry (DOF) website at http://
        foresnyalaska.gov/forestpractices.htm . Neither the Alaska 
        Forest Resources and Practices Act as published in 2000 nor the 
        Alaska Forest Resources and Practices Regulations as published 
        in 2000 contained language addressing karst or cave resources. 
        In a Memorandum from the Department of Natural Resources dated 
        March 6, 2003 which outlines the Coastal Region's Southern 
        Southeast Area Five-year Schedule of Timber Sales for the 
        period of January 1, 2003 through December 31, 2007, the DOF 
        clearly states its position. In the description of the 2005 
        proposed El Cap Timber Sale, the DOF states, ``The ADNR does 
        not recognize karst topography as a significant resource to be 
        managed on the State's limited land base in southeast. The DOF 
        will protect karst formations that effect water quality as per 
        the Alaska Forest Resources and Practices Act and Regulations. 
        If significant recreational activity is found to be dependent 
        on a karst resource, it will be taken into account during the 
        design and FLUP (Forest Land Use Plan) process for a proposed 
        timber sale.'' This memorandum can be accessed at the following 
        website: http://www.dnr.state.ak.us/forestry/pdfs/
        fysts2003prelirndoc.pdf

    Therefore, it can be assumed that if the ownership of these karst 
lands were transferred to Sealaska, no measures are in place to ensure 
their protection. ``Section 2(b)(1).'' of the FCRPA, Findings, Purpose, 
and Policy states that, ``The purposes of this Act are ``to secure, 
protect, and preserve significant caves on Federal lands for the 
perpetual use. enjoyment, and benefit of all people''. It would be 
difficult to make a case that disposing of land containing significant 
caves (or those that may meet the criteria) meets this purpose.
    There is also a planning and public participation section of the 
Act (Sec. 4. (b) (C)(1)(2) The Secretary shall-- ``(1) ensure that 
significant caves are considered in the preparation or implementation 
of any land management plan if the preparation or revision of the plan 
began after the enactment of this Act; and (2) foster communication, 
cooperation, and exchange of information between land managers, those 
who utilize caves, and the public.'' These sections require 
consideration of cave resources and assure a public process is 
followed.
    Further more, the FCRPA Sec 4(a)(11) states ``-- . . . including 
management measures to assure that caves under consideration for the 
list [of significant cave designation] are protected during the period 
of consideration.'' Therefore, I believe that if a cave is known or is 
nominated under the provisions of the Act, we have the responsibility 
to follow up and either designated it as a significant cave or make the 
decision that it does not meet the provisions of the law, and therefore 
not significant. Until this decision is made, known caves and nominated 
caves should receive the same protection as significant caves and we as 
an agency should not knowingly support an action that could jeopardize 
that resource.
    The karst lands of the Tongass National Forest and the caves and 
all the resources within them belong to ``all people''. These karst 
lands are national treasures containing caves and karst features of 
international significance. Federal land managers ( . . . and all 
reasonable people, the Glacier Grotto would argue...) have been charged 
with the ``perpetual'' protection of these resources. Knowingly 
transferring the ownership of these caves to a private entity with no 
provisions for protection in place, in our opinion, does not meet the 
purpose of the FCRPA. Based on the past liberal management strategies 
and practices on Sealaska lands, these resources would be irrevocably 
damaged and the resources within them and what we may learn from them 
threatened or lost . . . ''\6\
---------------------------------------------------------------------------
    \6\ Baichtal, James F., Forest Geologist, Tongass National Forest, 
Memo to Scott Fitzwilliams, RLMH Staff Officer, dated March 13, 2003 
Review of the Proposed Sealaska-Tongass National Forest Land Exchange 
Concerning Karst and Cave Resources
---------------------------------------------------------------------------
    Glacier Grotto membership believes that there should be no transfer 
of karst lands without restrictions on development activities above and 
around these karst areas and with provisions allowing unlimited access 
for additional exploration and mapping, scientific study, and complete 
protection as if these areas were administered public lands protected 
by the Federal Cave Resources Protection Act . We simply do not believe 
that the selected ``economic development lands'' will be managed in any 
other way than clearcut logging, no matter what Sealaska states is 
their new land management strategy. As to management of the 2004+ 
CulturanacrecVnistoric Sites selected, Sealaska currently does not have 
an archeologist on staff, or a workable management plan for these sites 
that would protect the sites even for their own Native membership. 
Also, SB 3651, Section 18 (A-C) removes the ``protective covenant'' 
that was in the original ANCSA legislation from past and future 
14(h)(1) ANCSA sites that would have required that the sites be managed 
to federal standards. What are Sealaska's intentions? Sadly, we do not 
believe that Sealaska would protect the karst landscape, unique cave 
ecosystems and associated biota, hydrological systems (some assocated 
with community water supplies), cultural and archeological sites, 
paleontological sites, and recreational opportunties in the same manner 
that these resources are currently being protected under federal 
management. We ask that the sponsoring members of the House and Senate 
consider our concerns regarding this bill. We will gladly provide more 
information and testimony, if necessary, to help in modifying or 
rewriting this bill such that it would protect the nationally and 
internationally unique karst resources in Southeast Alaska. Thank you 
for your time.
            Sincerely,
                                 ______
                                 
                                         Haida Corporation,
                                                      Hydaburg, AK.
Hon. Lisa Murkowski,
U.S. Senate, 709 Hart Senate Office Building, Washington, DC.
RE: Supporting Sealaska Corporation's Land Entitlement Legislation, 
H.R. 3560, Haa Aani

    Dear Senator Murkowski: Haida Corporation, the Alaska Native claims 
Settlement Act (ANCSA) village corporation for the community of 
Hydaburg, supports H.R. 3560, Sealaska Corporation's legislative 
proposal to finalize its land entitlement conveyances. These 
conveyances were originally contemplated under ANCSA, but more than 35 
years post-ANCSA, they have yet to be completed.
    Sealaska representatives met with our community on September 14, 
and fully briefed us on the land entitlement legislation. Haida 
Corporation sees the economic and cultural benefits of this legislation 
and understands the importance of finalizing the ANCSA land entitlement 
conveyances, and therefore, is pleased to expresses its support for 
this legislation.
    If you have any questions regarding our position ont his important 
legislation, please do not hesitate to contact us.
            Sincerely,
                                                 Lisa Lang,
                                                         President.
                                           Vincent Jameson,
                                                          Chairman.
                                 ______
                                 
                                    Huna Totem Corporation,
                                     Juneau, AK, November 16, 2007.
Hon. Lisa Murkowski,
U.S. Senate, 709 Hart Senate Office Building, Washington, DC.
RE: Supporting Sealaska Corporation's Land Entitlement Legislation, HR 
3560, Haa Aani

    Dear Senator Murkowski: Huna Totem Corporation, the Alaska Native 
Claims Settlement Act (ANCSA) village corporation for the community of 
Hoonah, supports H.R. 3560, Sealaska Corporation's legislative proposal 
to finalize its land entitlement conveyances. These conveyances were 
originally contemplated under ANCSA, but more than 35 years post-ANCSA, 
they have yet to be completed.
    Sealaska representatives met with our Board of Directors on 
September 22, and fully briefed us on the land entitlement legislation. 
Huna Totem sees the economic and cultural benefits of this legislation 
and understands the importance of finalizing the ANCSA land entitlement 
conveyances, and, therefore, is pleased to expresses its support for 
this legislation.
    If you have any questions regarding our position on this important 
legislation, please do not hesitate to contact us.
            Sincerely,
                                            Robert Wysocki,
                                           Chief Executive Officer.
                                            Albert W. Dick,
                                             Chairman of the Board.
                                 ______
                                 
           Statement of Hayden and Bonnie Kaden, Gustavus, AK

    My wife and I are writing to express our opposition to the Sealaska 
bill, S 881/HR 2099, as it is currently drafted. We firmly believe that 
such a bill must be part of a comprehensive approach to resolving long-
standing Tongass National Forest issues. The Tongass is a complex eco-
system where decisions made on one issue often have significant impacts 
throughout the forest and on the communities, residents and industries 
which depend on the general health of the forest.
    First, let me say that we are 42 year residents of the Tongass. I 
am a retired attorney and worked with Senator Begich's father, Nick, 
when I was on the legal staff of the Alaska Legislative Affairs Agency. 
I also later served as legal counsel to both the House and Senate 
Judiciary Committees in the Alaska Legislature: My wife, Bonnie, was an 
assistant to the Alaska Commissioner of Education in the late 60's and 
early 70's and later taught school in Gustavus, ending her career as 
principal of the Gustavus School from 1988--1993. During this same 
period we started and ran an eco-tourism business in Southeast Alaska 
using many areas of the Tongass that are the subject of this proposed 
legislation. In fact, we were early pioneers of the concept of eco-
tourism on the Tongass National Forest demonstrating the principles of 
minimum impact camping and wilderness recreation and working with the 
Forest Service to plan and develop recreational opportunities 
throughout the forest. Thus, I believe that we speak with a wealth of 
on-the-ground knowledge.
    We are concerned that by giving away high value public lands, lands 
that belong to all Americans, to private, for-profit corporations, we 
are locking up those lands and pretty much forever locking out the 
public, both Native and non-Native alike. Especially, we have seen 
firsthand the rape and pillage effects of clearcut logging on other 
Sealaska lands, more or less permanently ruining those lands for 
multiple uses.
    Some potential consequences of this legislation include problems 
with public access to traditional community hunting, fishing, and 
recreational areas, decreased fish and wildlife populations, and loss 
of world class karst and cave resources. Witness the community 
resolutions which oppose Sealaska's proposed legislation. We are 
concerned that this legislation allows Sealaska to control access to 
areas that local residents and visitors rely on for hunting, guiding, 
fishing, recreation and other traditional uses.
    We are concerned that this legislation does not prevent the cherry 
picking of some of the most productive fish and wildlife habitat in the 
Tongass National Forest. The targeting of some of the most valuable 
lands in the Tongass, which is proposed in this legislation, gives 
Sealaska miles and miles of roads and other infrastructure built and 
paid for by the U.S. taxpayers.
    We are especially concerned that ``Native Future'' and ``Cultural'' 
sites contain no limits on the scope or size of commercial development 
or the amount of commercial visitation that could be allowed. The 
selection of 46 popular bays, coves, and anchorages throughout the 
Tongass raises red flags as to bow local and community use of those 
locations might be impacted.
    We believe that Sealaska is attempting to change the rules under 
the 1971 ANCSA legislation for selecting from the public lands for 
their entitlements. You must remember that Sealaska is a for-profit 
corporation and in its desire to make a profit, it does not always look 
to the totality of the interests of the members of that corporation. 
Traditional native values relying on subsistence resources and the 
preservation of an ancient way of life often take short.slarift in a 
profit driven world.
    Thank you for your attention to our concerns.
                                 ______
                                 
                                   Kake Tribal Corporation,
                                      Juneau, AK, December 5, 2007.
Hon. Lisa Murkowski,
U.S. Senate, 709 Hart Senate Office Building, Washington, DC.
RE: Supporting Sealaska Corporation's Land Entitlement Legislation, HR 
3560, Haa Aani

    Dear Senator Murkowski: Kake Tribal Corporation, the Alaska Native 
Claims Settlement Act (ANCSA) village corporation for the community of 
Kake, is writing to express its support for H.R. 3560, Sealaska 
Corporation's legislative proposal to finalize its land entitlement 
conveyances. In 1971, Congress enacted the Alaska Native Claims 
Settlement Act to recognize and settle the aboriginal claims of Alaska 
Natives to their traditional homelands by authorizing the establishment 
of Alaska Native Corporations to receive and manage lands and funds 
awarded in settlement of the claims of Alaska Natives. The purposes of 
ANCSA were to settle the land claims of Alaska Natives and to provide 
them with a means to pursue economic development, and create 
sustainable economies for the benefit of Alaska's Native people. 
However, more than 35 years post-ANCSA, the land conveyances have yet 
to be completed.
    Since 1971, many of the Alaska Native Corporations have become 
successful and powerful economic engines within their regions and 
throughout the State of Alaska. Sealaska Corporation is the single 
largest private employer in Southeast Alaska, providing from 600 to 800 
part-time and full-time jobs, annually, and contributing as much as $90 
million, annually, to the Southeast Alaskan economy through its logging 
contracts, road building activities, other timber-related activities, 
and total Sealaska economic output. Sealaska also provides a 
significant benefit to Alaska Natives throughout the State of Alaska 
through its annual 7(i) revenue sharing contributions, totaling over 
$300 million since Sealaska began operating.
    Sealaska would now like to engage in a comprehensive land 
entitlement and conservation initiative, allowing it to complete its 
land entitlement by making cultural and economic land selections 
outside of the original withdrawal areas, and in return it would allow 
removal of the encumbrance created by the withdrawal of lands for 
Alaska Native selection in Southeast Alaska. If Sealaska does not 
receive conveyance of all of the lands to which it is entitled in the 
near term, the primary economic activity of Seaiaska--logging--will 
cease in the near term, which will impact Southeast Alaska's Native 
people, the Southeast Alaska economy, and the Alaska Native 
Corporations throughout the State that have come to rely upon 
Sealaska's 7(1) contributions.
    Therefore, Kake Tribal supports the enactment by the United States 
Congress of a bill to complete Sealaska's ANCSA land entitlement to 
allow Sealaska to continue to help meet the economic needs of the 
Native people of Southeast Alaska and Alaska Native Corporations 
throughout the State of Alaska.
    Please do not hesitate to contact us if you have any questions 
regarding our position on this important legislation.
            Sincerely,
                                             Harold Martin,
                                                         President.
                                 ______
                                 
        Southeast Alaska Native Economic Futures Coalition,
                                      Juneau, AK, December 7, 2007.
Hon. Lisa Murkowski,
U.S. Senate, 709 Hart Senate Office Building, Washington, DC.
RE: Supporting Sealaska Corporation's Land Entitlement Legislation, 
H.R. 3560, Haa Aani

    Dear Senator Murkowski: The Southeast Alaska Native Economic 
Futures Coalition is writing to express its support for H.R. 3560, 
Sealaska Corporation's legislative proposal to finalize its land 
entitlement conveyances. These conveyances were originally contemplated 
under the Alaska Native Claims Settlement Act (ANCSA), but more than 35 
years post-ANCSA, they have yet to be completed.
    Sealaska representatives met with us today and fully briefed us on 
this land entitlement legislation. The Southeast Alaska Native Economic 
Futures Coalition sees the economic benefits of this legislation and 
understands the importance of finalizing the ANCSA land entitlement 
conveyances. Therefore, we are pleased to express our support for this 
legislation.
    If you have any questions regarding our position on this important 
legislation, please do not hesitate to contact us.
            Sincerely,
                                                Dewey Skan,
                                                             Chair.
                                 ______
                                 
    Statement of Andy Richter, President, Naukati West, Naukati, AK

    In June 2004 communities on Prince of Wales (POW) Island were made 
aware of the fact that Sea Alaska Corporation was seeking to acquire 
Forest Service lands on P O.W, Tuxekan, Hecata, and Kosciusko Islands. 
The communities on these Islands have historically relied on 
subsistence in the surrounding forest and streams, it is extremely 
important to these communities. Sea Alaska has a policy of no use of 
their lands and that would mean No firewood gathering, berry picking. 
hunting or fishing and actually would isolate the communities of Edna 
Bay, Port Protection and Point Baker. We asked Sea Alaska to have some 
informational meetings with the communities and this request has been 
denied and ignored for four years. We now are informed meetings with 
each community will happen in April 2008. What in the world happened to 
change the informational meeting issue?
    Sea Alaska has offered user permits to locals that are supposed to 
be the same as we now have with the Forest Service. In fact they are 
very different. Permits would expire if you sold your property. If a 
family had a child after the permit was issued that child would not be 
allowed a permit. These are only a couple of points among several of 
the conditions of the permit. Sea Alaska is asking us to accept much 
less than what we now have. The Forest Service is a good neighbor and 
Sea Alaska is not going to be.
    We have two other issues which are also very important to the 
communities.

          (1) Sea Alaska has a history of whole log export of their 
        timber so no supply for local mills is their policy. Since 
        export timber is a significantly better return the bottom line 
        is obviously more important than a healthy economy in Southeast 
        communities.
          (2) The fifteen mile radius non competition areas also known 
        as enterprise sites are not acceptable. Sea Alaska has not 
        provided any suitable answers to these issues and has in fact 
        rel-bsed to meet with the public up to now.

    Sea Alaska not surprisingly claims they have the support of the 
Native communities. It should be noted not all the natives agree with 
this land exchange and have stated so in public meetings.
    Sea Alaska has only one interest and that is the bottom line. Sea 
Alaska has not been able to provide and acceptable answer to the 
question why legislation is necessary for any party other than Sea 
Alaska. It' this legislation passes the door will be open to other 
native corporations to come back to the Federal Government for more 
land because they think their piece of the pie wasn't sweet enough 
either.
    The community of Naukati Bay supports Sea Alaska's remaining land 
selection established in the Alaska Native Claims Settlement Act. Only 
within the core ivnship boundaries established by the original Alaska 
Native Claims Settlement Act.
                                 ______
                                 
  Statement of the Southeast Alaska Conservation Council, on H.R. 3560

    The Southeast Alaska Conservation Council (SEACC) submits the 
following statement regarding H.R. 3560, the Southeast Alaska Native 
Land Entitlement Finalization Act. SEACC respectfully requests that 
this written statement and accompanying material be entered into the 
official record of this Committee hearing.
    Founded in 1970, SEACC is a grassroots coalition of 15 volunteer, 
non-profit conservation groups made up of local citizens in 13 
Southeast Alaska communities that stretch from Craig on Prince of Wales 
Island north to Yakutat. Our individual members include commercial and 
sport fishermen, Alaska Natives, tourism and recreation business 
owners, small-scale high value-added wood product manufacturers, 
hunters and guides, and Southeast Alaskans from all walks of life. 
SEACC is dedicated to preserving the integrity of Southeast Alaska's 
unsurpassed natural environment while providing for balanced, 
sustainable uses of our region's resources.
    Congressman Don Young, along with several distinguished colleagues, 
introduced H.R. 3560 on September 18, 2007. We respect the efforts of 
Congressman Young to stand up for the interests of Alaska Natives 
throughout his tenure in the U.S. House of Representatives. Like 
Congressman Young and H.R. 3560's other cosponsors, SEACC supports 
completing the conveyance of Sealaska Corporation's land entitlement 
under the Alaska Native Claims Settlement Act (ANCSA). Nonetheless, we 
have serious reservations about the changes in federal law proposed in 
H.R. 3560 and oppose the bill as introduced. We remain committed, 
however, to maintaining open lines of communication with Sealaska 
Corporation and the bill's sponsors to finalize the conveyance of 
Sealaska Corporation's outstanding statutory land entitlement. 
Consequently, we offer the Committee these preliminary comments for 
your consideration as you begin your review of this legislative 
proposal.

    [Due to the large amount of materials submitted, additional 
documents and statements have been retained in subcommittee 
files.]


</pre></body></html>
